                       U.S. Department of Agriculture
                          Office of Inspector General
                          Financial Audit Operations




         AUDIT REPORT
    Department of Agriculture’s
Consolidated Financial Statements for
    Fiscal Years 2010 and 2009




                                   Audit Report 50401-70-FM
                                   November 2010
                           United States Department of Agriculture
                                  Office of Inspector General
                                     Washington, D.C. 20250




DATE:          November 15, 2010

AUDIT
NUMBER:        50401-70-FM

TO:            Jon M. Holladay
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
               Office of the Chief Financial Officer

FROM:          Phyllis K. Fong /s/
               Inspector General

SUBJECT:       Department of Agriculture’s Consolidated Financial Statements for
               Fiscal Years 2010 and 2009


This report represents the results of our audits of the Department of Agriculture’s consolidated
financial statements for the fiscal years ending September 30, 2010 and 2009. The report
contains an unqualified opinion on the financial statements as well as the results of our
assessment of the Department’s internal control over financial reporting and compliance with
laws and regulations. Your response is included in its entirety as exhibit D.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Table of Contents


Executive Summary .................................................................................................1
   Key Recommendations...........................................................................................1
Opinion on the Consolidated Financial Statements .............................................3
Internal Control Over Financial Reporting ..........................................................4
Compliance and Other Matters ..............................................................................5
Responsibilities .........................................................................................................5
Findings and Recommendations.............................................................................7
Section 1: Material Weaknesses in Internal Control Over Financial Reporting
....................................................................................................................................7
   Finding 1: Improvements are Needed in Overall Financial Management .............7
          Recommendation 1 ..........................................................................................8
   Finding 2: Improvements are Needed in Information Technology Security and
   Controls...................................................................................................................9
Section 2: Noncompliance with Laws and Regulations ......................................10
   Finding 3: Lack of Substantial Compliance with FFMIA Requirements ............10
   Finding 4: Anti-Deficiency Act Violations ..........................................................11
Abbreviations .........................................................................................................12
Exhibit A: Audit Reports Related to the Fiscal Year 2010
Financial Statements ..............................................................................................13
Exhibit B: Summary of Prior Year Recommendations .....................................14
Exhibit C: Status of Prior Year Noncompliance Findings ................................16
Exhibit D: Agency Response .................................................................................17
Exhibit E: Performance and Accountability Report ..........................................18
Department of Agriculture’s Consolidated Financial Statements for
Fiscal Years 2010 and 2009 (Audit Report 50401-70-FM)

Executive Summary

Purpose
Our audit objectives were to determine whether (1) the consolidated financial statements present
fairly, in all material respects, in accordance with accounting principles generally accepted in the
United States of America, the assets, liabilities, and net position, net costs, changes in net
position, and budgetary resources; (2) the internal control objectives over financial reporting
were met; (3) the Department complied with laws and regulations for those transactions and
events that could have a direct and material effect on the consolidated financial statements; and
(4) the information in the Performance and Accountability Report was materially consistent with
the information in the consolidated financial statements.

We conducted our audits at the financial offices of various Department of Agriculture (USDA)
agencies and the Office of the Chief Financial Officer located in Washington, D.C., and its
National Finance Center located in New Orleans, Louisiana. We also performed site visits to
selected agencies’ field offices.

Results in Brief
In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2010 and 2009, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

Our consideration of internal controls over financial reporting identified two significant
deficiencies. Specifically, we identified weaknesses in USDA’s:

   ·   overall financial management, and
   ·   information technology (IT) security and controls.

We believe that these two significant deficiencies are material weaknesses.

Our consideration of compliance with laws and regulations discusses two instances of
noncompliance relating to the Federal Financial Management Improvement Act of 1996, and the
Anti-Deficiency Act.

Key Recommendations
As discussed in its Federal Managers’ Financial Integrity Act Report on Management Control,
the Department has plans to address the majority of the weaknesses discussed in the report. The
recommendation in this report is limited to additional improvements needed in financial
management with respect to abnormal balances.
AUDIT REPORT 50401-70-FM                                                                           1
Agency Response
The Department concurs with the two material weaknesses and findings related to compliance
with laws and regulations in the report. It generally agrees with the recommendation and will
develop corrective action plans with milestones by January 15, 2011.

OIG Position
Management decision should be achievable upon review of the plans for corrective action.




AUDIT REPORT 50401-70-FM                                                                        2
Independent Auditor’s Report
Jon M. Holladay
Acting Chief Financial Officer
Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the Department of
Agriculture (USDA), as of September 30, 2010 and 2009, and the related consolidated
statements of net costs; changes in net position; and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”) for the fiscal years
then ended. The objective of our audits was to express an opinion on the fair presentation of
these consolidated financial statements. In connection with our fiscal year 2010 audit, we also
considered USDA’s internal control over financial reporting and tested USDA’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could
have a direct and material effect on these consolidated financial statements.

The following sections discuss our opinion on USDA’s consolidated financial statements; our
consideration of USDA’s internal control over financial reporting; our tests of USDA’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements; and management’s, as well as our, responsibilities.

The Findings and Recommendations section presents the material weaknesses in internal control
and instances of noncompliance with laws and regulations, as of and for the year ended
September 30, 2010. Exhibit A of this report presents the audit reports related to the fiscal year
2010 statements. Exhibit B summarizes the current year status of prior year audit
recommendations. Exhibit C provides an update to previously reported instances of
noncompliance with laws and regulations. USDA’s response is presented in its entirety in
exhibit D.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USDA, as of September 30, 2010 and 2009, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

As discussed in Notes 1 and 19 to the consolidated financial statements, in fiscal year 2010,
USDA made certain reclassifications to prior year amounts to conform to the current year
presentation on the Statement of Net Cost. As discussed in Note 24, in fiscal year 2010 USDA
also changed its treatment of unobligated balances for an indefinite appropriation for one of its
reporting components, the Federal Crop Insurance Corporation, due to a change in accounting
principle. In addition, as discussed in Note 32, in fiscal year 2010 the Department disclosed a
subsequent legal settlement that occurred on October 19, 2010. Furthermore, as discussed in
Notes 1 and 10, in fiscal year 2009 the Department completed the implementation of Statement
of Federal Financial Accounting Standards (SFFAS) 29, Heritage Assets and Stewardship Land,
by reclassifying appropriate heritage assets and stewardship land information. Lastly, as
discussed in Notes 1 and 30, in fiscal year 2009 the Department implemented SFFAS 31,
Accounting for Fiduciary Activity, and no longer recognizes fiduciary assets on the balance
sheet.
AUDIT REPORT 50401-70-FM                                                                          3
USDA’s Management’s Discussion and Analysis (MD&A), and required supplementary
information (including stewardship information) contains a wide range of information, some of
which is not directly related to the financial statements. This information is not a required part of
the consolidated financial statements, but is supplementary information required by accounting
principles generally accepted in the United States of America and the Office of Management and
Budget (OMB) Circular A-136. We have applied certain limited procedures, consisting
principally of comparing this information for consistency with the financial statements and
making inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no
opinion on it. As a result of such limited procedures, we believe that the controls over required
supplementary information related to deferred maintenance are not sufficient to ensure the
accuracy and completeness of the reported information.

The information in the Other Accompanying Information section is presented for purposes of
additional analysis, as required by OMB Circular A-136, and is not required as part of the
financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

Our consideration of the internal control over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

Significant deficiencies are deficiencies, or a combination of deficiencies, in internal control that
are less severe than a material weakness, yet important enough to merit attention by those
charged with governance. Material weaknesses are deficiencies or a combination of deficiencies
in internal control, such that there is a reasonable possibility that a material misstatement of the
consolidated financial statements being audited will not be prevented, or detected and corrected
on a timely basis. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected.

In our fiscal year 2010 audit, we noted certain matters described in this report’s findings and
recommendations, involving the internal control over financial reporting and its operation that
we consider to be significant deficiencies. Specifically, we identified weaknesses in USDA’s:

   ·   overall financial management, and
   ·   information technology (IT) security and controls.


We believe these two deficiencies are also material weaknesses. These weaknesses are discussed
in this report in Findings and Recommendations, Section 1, Material Weaknesses in Internal
Control Over Financial Reporting.

We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act (FMFIA) Report on Management Control.


AUDIT REPORT 50401-70-FM                                                                               4
Compliance and Other Matters

We performed tests of USDA’s compliance, as described in the Responsibilities section of this
report. Our tests disclosed two instances of noncompliance with laws and regulations that are
required to be reported under Government Auditing Standards and OMB Bulletin 07-04, as
amended. Specifically, the results of our tests of the Federal Financial Management
Improvement Act of 1996 (FFMIA) disclosed instances, described in more detail in Finding 3 in
the Findings and Recommendations section of this report, where USDA’s financial management
systems did not substantially comply with Federal financial management system requirements,
applicable Federal Accounting Standards, and the U. S. Standard General Ledger (SGL) at the
transaction level. Additionally, we reported noncompliance with the Anti-Deficiency Act
(ADA), as described in more detail in Finding 4 of the Findings and Recommendations section
of this report.

Responsibilities
Management’s Responsibilities

USDA’s management is responsible for (1) preparing the consolidated financial statements in
conformity with accounting principles generally accepted in the United States of America;
(2) establishing, maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the FMFIA are met; (3) ensuring that USDA’s financial
management systems substantially comply with FFMIA requirements; and (4) complying with
applicable laws and regulations.

Auditor’s Responsibilities

Our responsibility is to express an opinion on the fiscal years 2010 and 2009 consolidated
financial statements of the USDA based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards and OMB 07-04, as amended,
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of USDA’s internal control over financial reporting. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by
management, and evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.




AUDIT REPORT 50401-70-FM                                                                         5
In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and Government Auditing Standards. We did not test all internal controls as defined by
the FMFIA. The objective of our audit was not to provide an opinion on USDA’s internal
control. Consequently, we do not provide an opinion on internal control over financial reporting,
nor on USDA’s assertion on internal control included in its MD&A.

As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests of USDA’s compliance with certain
provisions of laws and regulations, contracts and agreements, and Governmentwide policy
requirements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts. We also obtained reasonable
assurance that USDA complied with certain provisions of other laws and regulations specified in
OMB Bulletin 07-04, as amended, including requirements referred to in the FFMIA, except for
those that, in our judgment, were clearly inconsequential. We limited our tests of compliance to
the provisions described in the preceding sentences and did not test compliance with all laws and
regulations applicable to USDA. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an
opinion.

USDA’s response to the findings in our audit is included in its entirety in exhibit D. We did not
audit the response and, accordingly, express no opinion on it.

This report is intended solely for the information of the management of USDA, OMB, the
U.S. Government Accountability Office and the U.S. Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties.



Phyllis K. Fong /s/
Inspector General

November 12, 2010




AUDIT REPORT 50401-70-FM                                                                            6
Findings and Recommendations

Section 1: Material Weaknesses in Internal Control Over Financial
Reporting

Finding 1: Improvements are Needed in Overall Financial Management
During fiscal year 2010, USDA continued to make improvements in its financial management.
For example, exhibit B describes actions taken by the Department relating to obligations.
Additionally, the Department initiated implementation of its Financial Management
Modernization Initiative to improve financial performance through a modern financial system
that provides maximum support to the Department and its agencies. However, we noted areas
where further improvements are needed.

· We again noted that obligations1 were not always valid because agencies did not effectively
monitor and review unliquidated obligations (ULO). We selected a nonstatistical sample of 66
ULOs from 10 agencies for which no activity had occurred for over 2 years.2 We determined
that 27 (41 percent) ULOs were invalid because no future expenditures were expected. We also
found that 17 (26 percent) ULO balances were valid obligations but should have been paid off in
prior fiscal years if they had been properly monitored. These obligations inappropriately
remained open, in part because USDA agencies failed to submit final payments to other USDA
agencies. Additionally, agencies did not always timely research or respond to requests for
additional information to close obligations from other USDA agencies.

The U.S. Department of Treasury’s (Treasury) annual closing guidance (Treasury Bulletin 2010-
07, Yearend Closing, dated June 16, 2010) requires an annual review of ULOs. Departmental
Regulation 2230-1, Reviews of Unliquidated Obligations, dated April 21, 2009, further requires
quarterly reviews and certifications as to the validity of ULO balances from agency Chief
Financial Officers (CFO).

Ineffective monitoring and reviewing of obligation balances resulted in invalid obligations
remaining open. Invalid obligations improperly restrict the availability of funding authority.
This also increases the risk of misstating obligations as of yearend.

In its FMFIA Report on Management Control for 2010, USDA continued to report a material
weakness relating to the lack of consistent review and follow-up on ULOs. The Department
indicated that several corrective actions have already been taken, such as developing an
Executive scorecard for inactive obligations, and initiating fast-track action to deobligate
balances with no activity in 2 years through the ULO workgroup. The Department plans
additional corrective actions, such as revising policies, procedures, and processes to improve the
management, review, and closeout of ULOs, as well as conducting training on these new
processes. The Department estimates that all corrective actions will be completed in fiscal year
2011.

1
  An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources
must be available before obligations can be incurred legally.
2
  Nonstatistical sample selected from activity as of June 30, 2010.
AUDIT REPORT 50401-70-FM                                                                                            7
· We continued to identify abnormal balances3 in the USDA fiscal yearend trial balance that
were not fully researched and corrected. For fiscal year 2010, we noted 30 abnormal account
balances, totaling about $760 million (absolute) at yearend. According to the Department, the
existence of an abnormal balance indicates that transactions or adjustments may have been
posted in error. In addition, abnormal balances increase the risk of material misstatement on the
financial statements.

· In fiscal year 2010, we again attempted to perform an audit of the Natural Resources
Conservation Service’s (NRCS) Financial Statements (Audit Report 10401-4-FM, NRCS’
Financial Statements for Fiscal Year 2010, dated November 8, 2010). NRCS was once more
unable to provide sufficient evidential matter in support of certain transactions and account
balances, as presented in the NRCS consolidated financial statements, as of and for the year
ended September 30, 2010, particularly with respect to beginning net position balances and
current year activity; recoveries of prior year obligations; obligations incurred, including accrued
expenses and undelivered orders; leases; accounts receivable, unfilled customer orders;
stewardship land; and the allocation of costs in the Statement of Net Cost. NRCS was unable to
complete corrective actions and make adjustments as necessary to financial statement amounts,
prior to the completion of its audit.

· In fiscal year 2010, we identified improper payments4 made by the Farm Service Agency
(FSA) through its various farm assistance programs. A separate report will be issued with
further detail and recommendations regarding these improper payments.

Because of actions planned by the Department for ULOs and recommendations in other audit
reports, the only recommendation made herein relates to abnormal balances.

Recommendation 1
Provide additional oversight to ensure that agencies are properly reviewing, researching, and
timely implementing action to correct abnormal balances.




3
 A balance that deviates from the standard balance as defined by Treasury’s SGL.
4
 An improper payment is any payment that should not have been made or that was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements. Incorrect amounts are
overpayments and underpayments.
AUDIT REPORT 50401-70-FM                                                                                        8
Finding 2: Improvements are Needed in Information Technology Security and
Controls

We performed an independent evaluation of the Department’s IT security program and practices,
as required by the Federal Information Security Management Act of 2002 (FISMA). We also
performed reviews of the control structure of the Office of the Chief Information
Officer/National Information Technology Center (OCIO/NITC) and the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC), located in Kansas City, Missouri, and
New Orleans, Louisiana, respectively.5

In fiscal year 2010, both OCIO/NITC and OCFO/NFC sustained unqualified opinions on their
control environments. Additionally, in fiscal year 2010, the Department began implementing
some very significant security projects, that, once completed, will provide real-time, continuous
visibility and control over workstations and servers on the network, as well as provide a
foundation for enterprisewide security monitoring detection and protection.

Although improvements continue to be made in the Department’s IT security, our FISMA report
notes that many long-standing weaknesses remain. Since 2001, the Office of Inspector General
has reported material weaknesses in the design and effectiveness of the Department’s overall IT
security program. Our fiscal year 2010 FISMA report provides details on the weaknesses we
continued to note in the design and effectiveness of the Department’s overall IT security
program.6

In its FMFIA Report on Management Control for 2010, USDA continued to report an overall IT
material weakness relating to deficiencies in the internal control design and operating
effectiveness for logical access controls, configuration management, physical access and
environmental protection, and disaster recovery. As noted in its FMFIA report, the Department
indicated that corrective actions have been taken, such as final deployment of a Departmentwide
end-point management tool and standardization of the configuration management and change
control processes. The Department has additional corrective actions planned in fiscal year 2011.

Because of actions planned by the Department and recommendations made in other audits, we
are making no further recommendations in this report.




5
 See exhibit A for information regarding the cited reports.
6
 Audit Report 50501-2-IT, Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2010
Federal Information Security Management Act, issued November 2010.
AUDIT REPORT 50401-70-FM                                                                                         9
Section 2: Noncompliance with Laws and Regulations

Finding 3: Lack of Substantial Compliance with FFMIA Requirements
FFMIA requires agencies to annually assess whether their financial management systems comply
substantially with (1) Federal Financial Management Systems Requirements (FFMSR),
(2) applicable Federal accounting standards, and (3) the SGL at the transaction level. In
addition, FISMA requires each agency to report significant information security deficiencies,
relating to financial management systems, as a lack of substantial compliance under FFMIA.
FFMIA also requires auditors to report in their CFO Act financial statement audit reports
whether financial management systems substantially comply with FFMIA’s system
requirements.

During fiscal year 2010, USDA evaluated its financial management systems to assess
compliance with FFMIA. The Department reported that it was not substantially compliant with
FFMSR, applicable accounting standards, SGL at the transaction level, and FISMA
requirements.

As noted in its MD&A, USDA plans to continue efforts to achieve compliance with the FFMIA
and FISMA objectives. Improving Federal financial management systems is critical to
increasing the accountability of financial program managers, providing better information for
decision making, and increasing the efficiency and effectiveness of services provided by the
Federal Government.

In its FFMIA report, the Department reported noncompliance with FFMSR and FISMA for
multiple agencies relating to logical access controls, configuration management, physical access
and environmental protection, and disaster recovery.

Additionally, in its FFMIA report, the Department noted noncompliances for two of its
component agencies, described below.

   1. The Commodity Credit Corporation’s (CCC) funds control management system is not
      integrated with its financial management system. Thus, CCC is not able to comply with
      FFMSR. CCC is working towards integration and is modernizing its financial systems.
      Corrective action is scheduled for completion by December 30, 2012.

   2. NRCS did not comply with FFMSR, Federal accounting standards, and the SGL at the
      transaction level. Corrective actions are scheduled for completion by April 15, 2011.

Because of actions planned by the Department, we are making no further recommendations in
this report.




AUDIT REPORT 50401-70-FM                                                                      10
Finding 4: Anti-Deficiency Act Violations

In fiscal year 2010, the Department reported ADA violations in its fiscal year 2010 Statement of
Assurance, included in the Performance and Accountability Report, relating to Rural
Development, CCC, and FSA. Details follow:

· During fiscal year 2010, Rural Development identified ADA violations regarding its Rural
Utility Services’ Broadband Program. According to Rural Development officials, the violations
involved eight broadband loans from fiscal year 2004, with an aggregate loan amount of
$170 million. The appropriation for this program in fiscal year 2004 was available for 1 year.
Loan subsidies obligated for fiscal year 2004 broadband loans ceased to be available for
disbursement on October 1, 2009. Using the fiscal year 2010 subsidy rate, the budget authority
associated with the undisbursed balance of these loans was approximately $7 million, as of
October 1, 2009.

· During fiscal year 2010, CCC and FSA became aware that some contracts under the Biomass
Crop Assistance Program (BCAP) were in violation of the ADA. The basis for the ADA
violations was that the performance of the contracts either explicitly or implicitly continued past
the March 31, 2010 period of performance deadline imposed by OMB under the terms of the
apportionment for the BCAP.

The letters reporting these violations are pending clearance by Department officials.




AUDIT REPORT 50401-70-FM                                                                        11
Abbreviations
ADA        Anti-Deficiency Act
BCAP       Biomass Crop Assistance Program
CCC        Commodity Credit Corporation
CDRP       Contingency and Disaster Recovery Plans
CFO        Chief Financial Officer
CSAM       Cyber Security Assessment and Management
FFMIA      Federal Financial Management Improvement Act of 1996
FFMSR      Federal Financial Management Systems Requirements
FISMA      Federal Information Security Management Act of 2002
FMFIA      Federal Managers’ Financial Integrity Act of 2002
FSA        Farm Service Agency
ISA        Interconnection Security Agreements
IT         information technology
MD&A       Management’s Discussion and Analysis
NFC        National Finance Center
NITC       National Information Technology Center
NRCS       Natural Resources Conservation Service
OCFO       Office of the Chief Financial Officer
OCIO       Office of the Chief Information Officer
OIG        Office of Inspector General
OMB        Office of Management and Budget
POA&M      plan of action & milestones
SFFAS      Statement of Federal Financial Accounting Standards
SGL        U.S. Government Standard General Ledger
SSP        System Security Plans
Treasury   U.S. Department of Treasury
ULO        Unliquidated Obligations
USDA       Department of Agriculture




AUDIT REPORT 50401-70-FM                                          12
Exhibit A: Audit Reports Related to the Fiscal Year 2010
Financial Statements
The following is a list of reports which are related to the Office of Inspector General’s audit of
the Department of Agriculture’s fiscal year 2010 financial statements.


 AUDIT NUMBER                        AUDIT TITLE                           RELEASE DATE
                        Federal Crop Insurance
                        Corporation/Risk Management
   05401-19-FM                                                              November 2010
                        Agency’s Financial Statements for
                        Fiscal Years 2010 and 2009
                        Commodity Credit Corporation’s
   06401-25-FM          Financial Statements for Fiscal Years               November 2010
                        2010 and 2009
                        Forest Service’s Financial Statements
   08401-11-FM                                                              November 2010
                        for Fiscal Years 2010 and 2009

                        Natural Resources and Conservation
    10401-4-FM                                                              November 2010
                        Service’s Financial Statements for 2010
                        Statement on Auditing Standards No.
   11401-33-FM          70, Report on the National Finance                  September 2010
                        Center General Controls Review
                        Food and Nutrition Service Financial
   27401-35-HY          Statements for Fiscal Years                         November 2010
                        2010 and 2009
                        Fiscal Year 2010 Federal Information
     50501-2-IT                                                             November 2010
                        Security Management Act Report

                        Rural Development’s Financial
   85401-18-FM          Statements for                                      November 2010
                        Fiscal Years 2010 and 2009
                        Statement on Auditing Standards No.
                        70, Report on the National Information
   88501-14-FM                                                              September 2010
                        Technology Center General Controls
                        Review




AUDIT REPORT 50401-70-FM                                                                             13
Exhibit B: Summary of Prior Year Recommendations

Audit Report 50401-67-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2009 and 2008, dated November 16, 2009.

Finding 1

Recommendation 1
Provide additional oversight to ensure agencies (1) properly monitor and review obligation
balances, (2) provide valid certifications based on complete and accurate reviews as required by
Departmental Regulation 2230-001, and (3) understand the importance of responding to requests
for bills or additional information in a timely manner.

Departmental Status
During fiscal year 2010, the Department continued to monitor obligations via ULO working
group meetings as well as through monthly corrective action status reports and quarterly Chief
Financial Officer certifications. In addition, balances over 2 years old were fast tracked for
deobligation.

OIG Results
The Material Weakness continues to exist, as discussed in Finding 1.

Finding 2

Recommendation 2
Create a plan of actions & milestones (POA&M) to correct deficiencies noted in both System
Security Plans (SSP) and Contingency and Disaster Recovery Plans (CDRP), (2) revise Cyber
Security Assessment and Management (CSAM) and/or system documentation to reflect
consistent and accurate information, and (3) institute policy and procedures to ensure review and
signature of all parties bound by Interconnection Security Agreements (ISA).

Departmental Status
During fiscal year 2010, the Department created POA&Ms for the deficiencies noted in the SSPs
and CDRPs. System documentation was revised and loaded to CSAM to reflect consistent and
accurate information. In addition, re-signed ISAs were included in the appropriate system
documentation.

OIG Results
Our audit disclosed that the Department has completed actions to the extent that this is no longer
a reportable condition.

AUDIT REPORT 50401-70-FM                                                                         14
Exhibit B: Summary of Prior Year Recommendations

Audit Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2008 and 2007, dated November 14, 2008.

Finding 1

Recommendation 1
Provide additional oversight to ensure that general ledgers reflect valid obligations and that
agencies perform the required reviews timely and effectively.

Departmental Status
See Departmental status for Recommendation 1 of Audit Report 50401-67-FM, U.S. Department
of Agriculture’s Consolidated Financial Statements for Fiscal Years 2009 and 2008, dated
November 16, 2009.

OIG Results
The Material Weakness continues to exist, as discussed in Finding 1.




AUDIT REPORT 50401-70-FM                                                                         15
Exhibit C: Status of Prior Year Noncompliance Findings

Audit Report 50401-67-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2009 and 2008, dated November 16, 2009.

Finding 3

Reported Noncompliance
The Department reported a lack of substantial compliance with the Federal Financial
Management Improvement Act of 1996 requirements. The Department reported that it was not
substantially compliant with the Federal Financial Management Systems Requirements
(FFMSR), applicable accounting standards, the U.S. Government Standard General Ledger
(SGL) at the transactions level, and the Federal Information Security Management Act (FISMA)
of 2002 requirements.

Status
In fiscal year 2010, the Department continued to report substantial noncompliance with FFMSR,
applicable standards, SGL at the transactions level, and FISMA requirements, as discussed in
Finding 3.

Finding 4

Reported Noncompliance
The Natural Resources Conservation Service (NRCS) did not always obligate transactions in
accordance with appropriations law. NRCS did not obligate leases, training, and various other
transactions prior to payment.

Status
In fiscal year 2010, the NRCS audit disclosed that corrective actions were completed and this
was no longer a reportable condition.




AUDIT REPORT 50401-70-FM                                                                        16
Exhibit D: Agency Response




AUDIT REPORT 50401-70-FM     17
Exhibit E: Performance and Accountability Report




                           USDA
  PERFORMANCE AND ACCOUNTABILITY
             REPORT
            FISCAL YEARS 2010 and 2009




                 (PREPARED BY USDA)




    SECTIONS 1, 2, AND 4 ARE UNAUDITED




AUDIT REPORT 50401-70-FM                           18
This Performance and Accountability Report (PAR) can be downloaded at www.usda.gov. From
there, click on “About USDA.” The U.S. Department of Agriculture (USDA) can be contacted
through the same Web site by clicking “Contact Us.”
USDA prohibits discrimination in all its programs and activities on the basis of race, color,
national origin, age, disability, and where applicable, sex, marital status, familial status, parental
status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or
a part of an individual’s income is derived from any public assistance program. (Not all prohibited
bases apply to all programs.) Persons with disabilities who require alternative means for
communication of program information (Braille, large print, audiotape, etc.) should contact
USDA’s TARGET Center at (202) 720-2600 (voice and TDD). To file a complaint of
discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue,
S.W., Washington, D.C. 20250-9410 or call (800) 795-3272 (voice) or (202) 720-6382 (TDD).
USDA is an equal opportunity provider and employer.
Only Federal employees participated in the preparation of the performance and financial
information contained in this report.
                                                                Table of Contents
Message from the Secretary ...................................................................................................................... ii
About this Report ...................................................................................................................................iv
1.    Management’s Discussion and Analysis ..............................................................................................1
      Resources ............................................................................................................................................................................ 5
      Performance Goals, Objectives, and Results ...................................................................................................................... 6
      Future Demands, Risks, Uncertainties, Events, Conditions, and Trends .......................................................................... 8
      Financial Statement Highlights .......................................................................................................................................... 9
      Systems, Controls, and Legal Compliance ....................................................................................................................... 13
      Federal Managers’ Financial Integrity Act Report on Management Control .................................................................. 14
2.    Annual Performance Report ............................................................................................................ 23
      Strategic Goal 1: Assist Rural Communities to Create Prosperity So They Are Self-Sustaining, Repopulating and
      Economically Thriving ..................................................................................................................................................... 23
      Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made
      More Resilient to Climate Change, While Enhancing Our Water Resources ................................................................ 40
      Strategic Goal 3: Help America Promote Agricultural Production and Biotechnology Exports as America Works to
      Increase Food Security ...................................................................................................................................................... 55
      Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals ........ 60
      Selected Results in Research, Extension, and Statistics .................................................................................................... 73
      Selected 2010 Program Evaluations ................................................................................................................................. 79
3.    Financial Statements, Notes, Supplemental and Other Accompanying Information ............................ 83
      Message from the Chief Financial Officer ....................................................................................................................... 83
      Consolidated Financial Statements .................................................................................................................................. 85
      Required Supplementary Stewardship Information ....................................................................................................... 156
      Required Supplementary Information ............................................................................................................................ 165



4.    Other Accompanying Information ................................................................................................. 175
      Appendix A —Response to Management Challenges ................................................................................................... 175
      Appendix B — Improper Payment and Recovery Auditing Details .............................................................................. 186
      Appendix C—Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up ................ 208
      Appendix D—Acronyms ................................................................................................................................................ 214




                                               FY 2010 Performance and Accountability Report
                                                                    i
                              Message from the Secretary
In fulfillment of its duty to the people, the President, and Congress, the U.S.
Department of Agriculture (USDA) respectfully submits this Fiscal Year (FY) 2010
Performance and Accountability Report.
As the Obama Administration worked to stabilize and grow the economy, USDA
worked to implement the American Recovery and Reinvestment Act of 2009 (ARRA)
and other measures to create and save tens of thousands of jobs. At the same time, the
Department supported families hard hit by the recession. It provided food assistance to
one in four Americans, and credit and disaster assistance to help struggling farmers and
ranchers maintain their operations. USDA also worked to build a foundation for long-
term economic growth. The Department helped 138,000 rural families become homeowners by building and
renovating critical infrastructure like broadband, hospitals and police stations across the Nation, and expanding
production of renewable energy.
The Department’s wide range of programs and responsibilities touched the lives of every American, every day.
USDA worked to support the American agricultural economy, to strengthen rural communities, to protect and
conserve our natural resources, and to provide a safe, sufficient and nutritious food supply for the American
people.
Together with President Obama, we outlined a plan to build a revitalized rural economy that creates real
opportunity for growth and prosperity. To make this vision a reality, USDA is ensuring access to innovative
technologies, opening new markets for crops, and better utilizing our natural resources and promoting production
of renewable fuel and energy. The Department accomplishes these tasks by:
• Providing financing to help rural businesses expand and innovate, creating or saving 128,000 jobs;
• Using ARRA funding to help nearly 7 million rural Americans gain access to broadband, which is expected to
     save or create more than 25,000 jobs while expanding access to state-of-the-art health care, educational, and
     cultural resources. This funding also allowed local businesses to compete in the global economy;
• Supporting the expansion of U.S. agricultural exports, expected to exceed $105 billion in FY 2010, with
     grants and loan guarantees to support international market development. These exports support more than
     800,000 American jobs; and
• Funding thousands of renewable energy and energy efficiency projects, providing more than $240 million in
     funding under the Biomass Crop Assistance Program, and establishing 5 regional research centers to focus,
     accelerate, and coordinate the science and technology needed to develop a national biofuels industry powered
     by feedstocks produced in every corner of the country.
USDA also looked at new efforts – and at streamlining and targeting existing work – to preserve the Nation’s
forests and clean waterways, while mitigating global climate change. The Department:
• Used $40 million through the Migratory Bird Habitat Initiative to improve habitat on more than 471,000
    acres for migratory birds that could be impacted by the Deepwater Horizon oil spill;
• Improved water and soil quality, enhanced wildlife habitat, and addressed the effects of climate change,
    through the Conservation Stewardship Program. USDA awarded almost 21,000 contracts to improve and
    sustain conservation efforts on nearly 25.2 million acres, a land area equivalent in size to the State of Virginia;
• Protected 53,000 acres of the most critical and important farmland from conversion to nonagricultural uses by
    conservation easements;




                              FY 2010 Performance and Accountability Report
                                                   ii
•   Supported jobs and rural economies through the sale of more than 2.56 billion board feet of timber. Many of
    these projects were designed with restoration as an emphasis on these public lands; and
•   Accepted 4.3 million acres into the Conservation Reserve Program to give farmers the tools they need to
    continue filtering our air and water, and preventing soil erosion long into the future.
The Department worked to improve the health of America’s children with partnerships to encourage nutritious
eating and more physical activity. In FY 2010, USDA:
• Made it easier for low-income working families to get the Supplemental Nutrition Assistance Program by
    encouraging States to adopt broad-based categorical eligibility and other policy options. Today, 39 States use
    broad-based categorical eligibility;
• Enabled low-income children to receive free school meals without an application by promoting direct
    certification. This effort allowed 1.6 million more children to be directly certified in School Year 2009-10
    than the previous year;
• Supported and recognized healthier nutrition environments for school children through HealthierUS School
    Challenge awards – reaching a cumulative total of more than 800 by the end of FY 2010;
• Spurred innovation to make healthy food choices and physical activity fun for children through the Let’s
    Move! Apps for Healthy Kids competition – resulting in nearly 100 entries from students, software designers,
    game developers, and independent entrepreneurs; and
• Helped researchers, policy makers, and the public find information on a range of factors that affect access to
    healthy, affordable food, with the launch of Your Food Environment Atlas, an online mapping tool that
    compares the food environment of U.S. counties.
USDA is ensuring that America is the world leader in sustainable crop production. It conducts cutting-edge
agricultural research and provides farmers and ranchers across America with direct support, disaster assistance,
technical assistance, and access to credit. This work included:
• Making approximately $5 billion in direct and counter-cyclical payments, and $6.7 billion in marketing
    assistance loans to farmers and ranchers;
• The Department completing its first year of competitive grant funding through National Institute of Food
    and Agriculture. It awarded more than $176 million to research universities and colleges across the U.S. for
    projects focused on critical issues for America, including sustainable production of food and biomass for
    biofuels;
• Revealed the genetic blueprints of a host of plants and animals including the genomes of apples, pigs, turkeys,
    and a grass with great potential as a biofuel crop. This work allows us to bypass generations of selective
    breeding to bring more abundant, nutritious food to the American table, and increase domestic energy
    supplies; and
• Protected the U.S. citrus industry against the further spread of the devastating citrus greening disease—saving
    thousands of jobs and preventing $2.88 billion in lost production annually. FY 2010 also marked the
    eradication of Plum Pox Virus from Pennsylvania, protecting the $1.4 billion U.S. stone fruit industry.
And as we fulfill our responsibility to serve the American people, we are working to live up to President Obama’s
call to deliver the most transparent, accountable, and responsive government in history. USDA worked hard to
make the best use of the taxpayers’ dollars. By putting farmers and taxpayers first, the Department saved $6 billion
by negotiating a new Standard Reinsurance Agreement for crop insurance. Of that total, $4 billion will go to pay
down the Federal deficit while the balance will expand critical programs for America’s producers. Other USDA
agencies have identified millions of dollars in savings by finding efficiencies in travel, facilities, processes, and
other operating expenses.
Federal oversight of food safety was identified by the Government Accountability Office’s high risk report in
2009, the only USDA area on the list. The Department is committed to ensuring Americans have access to safe,


                              FY 2010 Performance and Accountability Report
                                                   iii
nutritious, and balanced meals. Prevention is the foundation principle for USDA’s approach to food safety. Thus,
it takes a farm-to-table approach to reducing and preventing foodborne illness. USDA also works closely with its
Federal partners to improve the organization of Federal food safety responsibilities. From our front line inspectors
to our labs and management, USDA is working to ensure it has the tools to build the best food safety system
possible. While the Department works to improve the system, until it makes it perfect, we consider it our
responsibility to communicate with consumers about appropriate food handling and preparation. USDA invests in
its inspection workforce and data infrastructure to prevent harm to consumers. The Department strives to reduce
the prevalence of food contaminants, and quickly identify and prevent foodborne illness outbreaks. While the
Food Safety Inspection Service did not meet its FY 2010 performance standards, it will build upon its ongoing
initiatives, including the following specific actions taken to further protect and improve public health:
• Continuing to participate in President Obama’s Food Safety Working Group to build an inter-agency food
     safety system that will meet the challenges posed by the global food supply of the 21st century;
• Issuing draft performance standards for the pathogen Salmonella in raw poultry products and proposing the
     first standards for the pathogen Campylobacter in poultry, both of which can cause severe illness;
• Beginning a new verification testing program for beef manufactured trimmings derived from cattle not
     slaughtered on site at an establishment, and issuing draft guidelines on methods for controlling pathogen E.
     coli O157:H7 on the farm, before cattle come to slaughter; and
• Continuing to develop and test its dramatically improved surveillance and data collection and analysis system
     – known as the Public Health Information System – which will help USDA respond more rapidly to current
     and potential threats in the food safety system, and thus better prevent contamination, recalls, and, ultimately,
     foodborne illnesses.
The Department’s management team continues to oversee USDA’s assessment of internal control over its
programs, operations, financial systems, and financial reporting. The Department’s work is consistent with the
provisions of the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial Management
Improvement Act (FFMIA). USDA’s continuous monitoring and remediation efforts allow us to provide the
taxpayers reasonable assurance that the content of this report is based on sound, accurate data.
Nevertheless, continued improvement is needed to remediate existing material weaknesses and financial system
non-compliance. To accomplish this goal, management continues to implement corrective action plan activities.
Therefore, I provide qualified assurance that, except for the areas in need of improvement as described in the
Management Assurances section of this report, USDA’s internal control over operations, financial systems, and
financial reporting meet the objectives of FMFIA and FFMIA. The financial and performance information
presented herein is complete and accurate, and in accordance with law and Office of Management and Budget
guidance.
I salute USDA employees for their outstanding work. I thank you for your interest in the Department. I am
proud to share this information with our stakeholders. We will continue to serve the needs of the people every day
and in every way.




Thomas J. Vilsack
Secretary of Agriculture
November 15, 2010




                              FY 2010 Performance and Accountability Report
                                                   iv
                                        About this Report
This Fiscal Year 2010 Performance and Accountability Report (PAR) is the year-end progress report of the United
States Department of Agriculture (USDA). The Department reviews its strategic goals, objectives, and
performance measures it set for itself at the beginning of the fiscal year. USDA then compares these targets to the
year’s performance. The data used by the Department to measure performance are collected using a standardized
methodology. This methodology has been vetted by Federally employed scientists and policymakers, and,
ultimately, the undersecretaries of the respective mission areas. All attest to the completeness, reliability, and
quality of the data.
The Government Performance and Results Act of 1993 (GPRA) is the basis of Federal agency planning and
reporting. GPRA and later laws and executive branch guidance drive the planning and reporting process in this
fashion: the 5-year Strategic Plan is used to craft the Annual Performance Plan, and progress on the Annual
Performance Plan is reported in the PAR. All plans and reports are available at usda.gov.
The PAR is divided into four sections:
1. Management’s Discussion and Analysis
   • Summarizes the information contained in Sections 2, 3, and 4 of the PAR
   • Includes the Secretary’s Statement of Assurance
2. Annual Performance Report
   • Reports results of actions taken toward meeting the performance measures put forth in the Annual
      Performance Plan. Note that this FY2010 PAR has a different performance measure numbering scheme
      than the FY2009 PAR, based on differences in the FY2010 Annual Performance Plan.
3. Financial Statements, Notes, Supplemental, and Accompanying Documents
   • Highlights USDA’s progress in financial management during FY 2010
4. Other Accompanying Documents
   • Includes appendices and additional information USDA deems relevant, but that may not be required to
      be reported
The American Recovery and Reinvestment Act of 2009 (ARRA) augmented the delivery of USDA programs to
the American people. This report highlights some of the diverse benefits that ARRA funds had on numerous
USDA programs. Additional information on USDA’s role in recovery can be found at USDA.gov/recovery.
The programs once rated by the Performance Assessment Rating Tool (PART) are represented by performance
measures or program discussion presented in the Annual Performance Plan and subsequently reported in the
PAR.




                             FY 2010 Performance and Accountability Report
                                                  v
FY 2010 Performance and Accountability Report
                     vi
                                              Section 1.
                                              Management’s Discussion and Analysis




T
1.   Management’s Discussion and Analysis
    he U.S. Department of Agriculture (USDA) was founded by President Abraham Lincoln in 1862, when more
    than half of the Nation’s population lived and worked on farms. The population has increased approximately
    tenfold, and is estimated at 307 million people, the vast majority of whom do not live on farms or in rural
areas. The magnitude of America’s evolved needs for food, fiber, forest products, and public services has required
USDA to grow and deliver expanded public services.
Today, USDA improves the Nation’s economy and quality of life by touching the lives of almost every American
every day. More than 100,000 employees deliver more than $188.7 billion to provide public services through
USDA’s more than 300 programs worldwide.
Because America’s food and fiber producers operate in a global, technologically advanced, rapidly diversifying, and
highly competitive business environments, USDA is constantly helping producers meet the needs of the Nation.
USDA’s strategic goals, as outlined in the Strategic Plan for FY 2010-2015 (usda.gov, see “About USDA”), are:
• Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
  Economically Thriving;
• Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More Resilient
  to Climate Change, While Enhancing Our Water Resources;
• Help America Promote Agricultural Production and Biotechnology Exports as America Works to Increase
  Food Security; and
• Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals.
These goals mirror USDA’s commitment to provide first-class service, state-of-the-art science, and consistent
management excellence across the Department. USDA assesses and seeks to improve program performance so
that the Department can maximize its impact. Program assessments identify how well and efficiently a program is
working and what specific actions can be taken to improve its performance. Summary program evaluations
conducted during fiscal year (FY) 2010 are included in this document at the end of Section 2, “Annual
Performance Report.”
USDA’s management structure can be found in Exhibit 1, Headquarters Organization.
USDA’s FY 2010 accomplishments include:
• Helped more than 38 million Americans who need food assistance by administering an average increase in
  benefits of $80 per month to low-income households of 4. This funding is a fast-acting economic stimulus as
  every $1 in food benefits generates up to $1.84 in total economic activity;
• Unveiled the “Know Your Farmer, Know Your Food” Initiative, which promotes local and regional food
  systems by stimulating community economic development and ensuring equitable access to affordable fresh
  and local food;



                                            Management’s Discussion and Analysis
                                                             1
•    Provided 2,636 loans to farmers and ranchers help them purchase the farm equipment, feed, seed, and fuel
     they needed to keep their farms operating and support jobs in the rural economy (approximately half of these
     loans went to beginning farmers and 25 percent to socially disadvantaged farmers);
•    Aided 85,420 rural Americans in purchasing or repairing their homes with affordable loans while
     simultaneously stimulating the economy, and creating jobs in the construction and real estate sectors;
•    Helped create private sector jobs protecting rural communities from large wildfires, while improving the
     health of our forests, water, and air resources;
•    Created green jobs at plants that use wood from forest restoration activities to generate renewable energy –
     grants worth $50 million went to projects that will power 223,000 homes;
•    Assisted more than 5,000 schools to purchase equipment to ensure that safe and healthy meals are served to
     children;
•    Donated 11,000 tons of rice, vegetable oil, yellow peas, and lentils to help feed 390,000 children in Haiti and
     Afghanistan under the McGovern-Dole International Food for Education and Child Nutrition Program;
•    Announced annual funding to help all States and trust territories sustain the Nation's urban and rural forests,
     and to protect communities and the environment from wildfires, insects, diseases and invasive species;
•    Debuted the first-ever joint public workshop with the U.S. Department of Justice on competition and
     regulatory issues in the agriculture industry. The workshop, led by U.S. Agriculture Secretary Tom Vilsack
     and U.S. Attorney General Eric Holder, featured panel discussions on a variety of topics important to
     America's farmers and ranchers, including competitive dynamics in the seed industry, trends in contracting,
     transparency, and buyer power, and concluded with public testimony; and
•    Announced that soil erosion on cropland declined by more than 40 percent during the past 25 years, with
     help from USDA conservation programs.
Exhibit 1:    Headquarters Organization (FY 2010)

                                                                                 SECRETARY

                                                                                Deputy Secretary




                  Director of               Inspector                 General                 Assistant Secretary for        Assistant Secretary for           Assistant Secretary for
                Communications               General                  Counsel                Congressional Relations            Administration                      Civil Rights




                                                                                                        Chief Information         Chief Financial              Executive
                                                                                                             Officer                  Officer                  Operations




      Under Secretary for   Under Secretary for          Under Secretary        Under Secretary for         Under Secretary for       Under Secretary for        Under Secretary for
      Natural Resources      Farm and Foreign               for Rural           Food, Nutrition and            Food Safety            Research, Education          Marketing and
       and Environment      Agricultural Services         Development           Consumer Services                                       and Economics           Regulatory Programs
       Forest Service        Farm Service                Rural Utilities         Food and Nutrition            Food Safety and         Agricultural Research      Agricultural Marketing
       Natural Resources     Agency                      Service                 Service                       Inspection              Service                    Service
       Conservation          Foreign Agricultural        Rural Housing           Center for Nutrition          Service                 National Institute of      Animal and Plant
       Service               Service                     Service                 Policy and Promotion                                  Food and Agriculture       Health Inspection
                             Risk Management             Rural Business-                                                               Economic Research          Service
                             Agency                      Cooperative Service                                                           Service                    Grain Inspection,
                                                                                                                                       National Agricultural      Packers and
                                                                                                                                       Library                    Stockyards
                                                                                                                                       National Agricultural      Administration
                                                                                                                                       Statistics Service




                                                        Management’s Discussion and Analysis
                                                                         2
MISSION AREAS
                                                         The Department’s work is organized by mission areas, which
                 Mission Statement                       are a collection of agencies that work together to achieve
                                                         USDA’s strategic goals. Descriptions of USDA’s seven
  USDA provides leadership on food, agriculture,
                                                         mission are as follows.
  natural resources, and related issues based on
  sound public policy, the best available science, and   Natural Resources and Environment
  efficient management.                              The Natural Resources and Environment (NRE) mission
                                                     area ensures the health of the land through sustainable
management. Its agencies work to prevent damage to natural resources and the environment, restore the resource
base, and promote good land management. NRE consists of the Forest Service (FS) and the Natural Resources
Conservation Service (NRCS). FS manages public lands in national forests and grasslands, which encompass 193
million acres. NRCS provides leadership in a partnership effort to help America's private land owners and
managers conserve their soil, water, and other natural resources. Both agencies work in partnership with tribal,
Federal State, and local Governments; and community-related groups to protect soils, watersheds, and
ecosystems.
Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area helps keep America's farmers and ranchers in
business as they face the uncertainties of weather and markets. FFAS delivers commodity, credit, conservation,
disaster, and emergency assistance programs that help improve the stability and strength of the agricultural
economic sector. This mission area is comprised of the Farm Service Agency (FSA), the Foreign Agricultural
Service (FAS), and the Risk Management Agency (RMA). FSA administers and manages farm commodity,
credit, conservation, disaster, and loan programs as laid out by Congress through a network of Federal, State, and
county offices. FAS works to improve international market access for U.S. products, build new markets, improve
the competitive position of domestic agriculture in the global marketplace, and provide food aid and technical
assistance to other countries. RMA helps producers manage their business risks through effective, market-based
risk management solutions.
This mission area also includes two Government-owned corporations. The Commodity Credit Corporation
(CCC) works to stabilize farm income to help ensure an adequate, affordable supply of food and fiber. This
corporation is a financial mechanism by which agricultural commodity, credit, export, conservation, disaster, and
emergency assistance is provided. The Federal Crop Insurance Corporation (FCIC) improves the economic
stability of agriculture through a sound system of crop insurance.
Rural Development
The Rural Development (RD) mission area focuses on helping improve the economy and quality of life in all of
rural America. RD provides financial programs to support such essential public facilities and services as water and
sewer systems, housing, health clinics, emergency service facilities, and electric and telephone services. RD
promotes economic development by providing loans to businesses through banks and community-managed
lending pools, while also helping communities participate in community empowerment programs. RD provides
grants, loans, and loan guarantees to farmers, ranchers, and rural small businesses to develop renewable energy
systems and make energy efficient improvements.
Food, Nutrition, and Consumer Services
The Food, Nutrition, and Consumer Services (FNCS) mission area works to harness the Nation's agricultural
abundance to reduce hunger and improve health in the U.S. FNCS’s agencies administer Federal domestic
nutrition assistance programs. FNCS is comprised of the Food and Nutrition Service (FNS) and the Center for
Nutrition Policy and Promotion (CNPP). FNS administers USDA’s 15 Federal nutrition assistance programs.


                                     Management’s Discussion and Analysis
                                                      3
CNPP works to improve the health and well-being of Americans by developing and promoting dietary guidance
that links scientific research to the nutrition needs of consumers.
Food Safety
The Food Safety and Inspection Service (FSIS) is the public health agency responsible for ensuring that the
Nation’s commercial supply of meat, poultry, and egg products is safe, wholesome, labeled, and packaged
correctly.
Research, Education, and Economics
The Research, Education, and Economics (REE) mission area is dedicated to the creation of a safe, sustainable,
competitive U.S. food and fiber system, as well as the development of strong communities, families, and youth
through integrated research, analysis, and education. REE is comprised of the Agricultural Research Service
(ARS), the National Institute of Food and Agriculture (NIFA), the Economic Research Service (ERS), the
National Agricultural Statistics Service (NASS), and the National Agricultural Library (NAL).
MARKETING AND REGULATORY PROGRAMS
The Marketing and Regulatory Programs (MRP) mission area facilitates the domestic and international
marketing of U.S. agricultural products and ensures the health and care of animals and plants. MRP is made up of
the Agricultural Marketing Service (AMS), the Animal and Plant Health Inspection Service (APHIS), and the
Grain Inspection, Packers, and Stockyards Administration (GIPSA). AMS administers programs that facilitate
the efficient, fair marketing of U.S. agricultural products, including food, fiber, and specialty crops. APHIS
provides leadership in ensuring the health and care of animals and plants. GIPSA facilitates the marketing of
livestock, poultry, meat, cereals, oilseeds, and related agricultural products.
DEPARTMENTAL MANAGEMENT
Department-level offices provide centralized leadership, coordination, and support for USDA’s policy and
administrative functions. Their efforts maximize the energy and resources agencies devote to the delivery of
services to USDA customers and stakeholders.




                                     Management’s Discussion and Analysis
                                                      4
Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2010 program obligations
totaled $188.7 billion, an increase of $18.2 billion compared to FY 2009. These are current year obligations from
unexpired funds.
Exhibit 2 shows USDA’s net cost of program operations for FY 2010, organized by strategic goal and compared
to FY 2009. Total net costs for FY 2010 were $132.4 billion compared to $119 billion for FY 2009.

Exhibit 2:   FY 2010 USDA Net Cost of Program Operations by Strategic Goals (in millions)




Goal 1:      Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
             Economically Thriving;
Goal 2:      Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More
             Resilient to Climate Change, While Enhancing Our Water Resources;
Goal 3:      Help America Promote Agricultural Production and Biotechnology Exports as America Works to
             Increase Food Security; and
Goal 4:      Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals.




                                        Management’s Discussion and Analysis
                                                         5
Performance Goals, Objectives, and Results
Of the 41 performance measures contained in USDA’s FY 2010 Annual Performance Plan, 31 were met or
exceeded, 8 were unmet, and 2 were deferred. The following Performance Scorecard table, organized by USDA’s
strategic goals and objectives, provides a summary of the Department’s performance results. Additional analysis of
these results can be found in the Annual Performance Report section of this report.

                                                 PERFORMANCE SCORECARD FOR FY 2010
                   Objectives                                                Annual Performance Goals                                      Result
       Strategic Goal 1: Assist Rural Communities to Create Prosperity So they are self sustaining, repopulating and Economically Thriving
 1.1     Enhance Rural Prosperity               1.1.1 Number of jobs created or saved through USDA financing of businesses         Exceeded
                                                1.1.2 Number of borrowers/subscribers receiving new or improved                      Met
                                                        telecommunication services (millions)
 1.2     Create Thriving Communities              1.2.1   Number of borrowers/subscribers receiving new or improved service from          Exceeded
                                                          agency funded water facility
                                                  1.2.2   Homeownership Opportunities Provided
                                                          • Guaranteed Loans                                                              Exceeded
                                                          • Direct Loans                                                                  Exceeded
                                                          • Total
                                                  1.2.3   Percentage of customers who are provided access to new and/or improved
                                                          essential community facilities
                                                          • Health Facilities                                                             Exceeded
                                                          • Safety Facilities                                                             Exceeded
                                                  1.2.4   Number of borrowers/subscribers receiving new and/or improved electric          Exceeded
 1.3     Support a Sustainable and Competitive    1.3.1   Percentage of beginning farmers, racial and ethnic minority farmers, and        Exceeded
         Agricultural System                              women farmers financed by USDA
                                                  1.3.2   Dollar value of agriculture trade preserved through trade agreement             Exceeded
                                                          negotiation, monitoring, and enforcement ($ billions) Non-
                                                          Sanitary/Phytosanitary (SPS) Activities
                                                  1.3.3   Value of trade preserved annually through USDA staff interventions leading      Exceeded
                                                          to resolution of barriers created by SPS or Technical Barrier to Trade (TBT)
                                                          actions
                                                  1.3.4   Value of Federal Crop Insurance Corporation (FCIC) risk protection                Met
                                                          coverage provided through FCIC sponsored insurance ($ billions)
                                                  1.3.5   Normalized value of FCIC risk protection coverage provided through FCIC           Met
                                                          sponsored insurance ($ billions)
                                                  1.3.6   The number of farmers and ranchers that gained an economic,                       Met
                                                          environmental or quality-of-life benefit from a change in practice learned by
                                                          participating in a Sustainable Agricultural Research and Education (SARE)
                                                          project.
                                                  1.3.7   Percent of industry compliance with the Packers Stockyards Act                   Unmet
                                                  1.3.8   Maintain or increase percentage of program benefits delivered through a         Deferred
                                                          Web environment
    Strategic Goal 2: Ensure Our National Forests and Private Working Lands are Conserved, Restored, and Made More Resilient to Climate
                                               Change, While Enhancing Our Water Resources
 2.1 Restore and Conserve the Nation’s         2.1.1 Conservation Reserve Program (CRP): Restored wetland acreage (millions   Exceeded
        Forests, Farms, Ranches and                   of acres)
        Grasslands                             2.1.2 Conservation Technical Assistance (CTA): Cropland with conservation         Met
                                                      applied to improve soil quality (millions of acres)
                                                  2.1.3   Envirionmental Quality Incentive Program (EQIP): Cropland with                    Met
                                                          conservation applied to improve soil quality (millions of acres)
                                                  2.1.4   CTA: Grazingland and forest land with conservation applied to protect and       Exceeded
                                                          improve the resource base (millions of acres)
                                                  2.1.5   EQIP: Grazinglands and forest lands with conservation applied to protect        Exceeded
                                                          and improve the resource base (millions of acres)



                                             Management’s Discussion and Analysis
                                                              6
                                                  PERFORMANCE SCORECARD FOR FY 2010
                 Objectives                                                    Annual Performance Goals                                     Result
                                                   2.1.6   Farmland Ranchland Protection Program (FRPP): Prime, unique or                  Exceeded
                                                           important farmland protected from conversion to non-ag uses buy
                                                           conservation easements (acres)
                                                   2.1.7   Wildlife Habitat Incentive Program (WHIP): Non-Federal land with                 Unmet
                                                           conservation applied to improve fish and wildlife habitat quality (acres)
2.2   Protect and Enhance America’s Water          2.2.1   CTA: Comprehensive nutrient management plans applied. (number of                  Met
      Resources                                            plans)
                                                   2.2.2   EQIP: Comprehensive nutrient management plans applied (number of                 Unmet
                                                           plans)
                                                   2.2.3   Wetlands Restoration Program (WRP): Wetlands created, restored or                 Met
                                                           enhanced (acres)
2.3   Reduce risk from catastrophic wildfire       2.3.1   Percentage of total National Forest System land base for which fire risk is      Unmet
      and restore fire to its appropriate place            reduced through movement ot a better condition class
      on the landscape.                            2.3.2   Acres of Wildland Urban Interface (WUI) fuels treated to reduce the risk of     Exceeded
                                                           catastrophic fire
                                                   2.3.3   Percenatge of acres treated in the WUI that have been indentified in              Met
                                                           Community Wildfire Protection Plans

 Strategic Goal 3: Help America promote Agriculutral Production and Biotechnology Exports as America Works to Increase Food Security
3.1   Ensure US Agricultural Resources             3.1.1   Food Aid Targeting Effectiveness Ratio (percent)                                  Met
      Contribute to Enhanced Global
      Security
3.2   Enhance Americas Ability to Develop          3.2.1   Cumulative number of genetically engineered plant lines reviewed by              Unmet
      and Trade Agricultural Products                      USDA and found safe for use in the environment.
      Derived From New Technologies
                Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious and Balanced Meals
4.1   Increase Access to Nutritious Foods     4.1.1 Participation levels for major Federal nutrition assistance programs                     Met
                                                      Supplemental Nutrition Assistance Program (SNAP) (millions per month)
                                              4.1.2 Improve SNAP payment accuracy rate                                                     Deferred
                                              4.1.3 Pariticipation levels for the major Federal nutrition assistance programs
                                                      Special Supplemental Nutrition Program for Women, Infants, and Children
                                                      (WIC) (millions per month)
                                                      • National School Lunch Program                                                        Met
                                                      • School Breakfast Program                                                             Met
                                              4.1.4 Pariticipation levels for the major Federal nutrition assistance programs.
                                                      (millions per month)                                                                   Met
4.2   Promote healthy diet and physical            4.2.1   Application and usage level of nutritional guidance tools (billions of pieces    Unmet
      activity behavior                                    of information)
4.3   Protect Public Health by Ensuring Food       4.3.1   Overall public exposure to Salmonella from broiler carcasses.                    Unmet
      is Safe                                      4.3.2   Total illnesses from all Food Safety and Inspection Service (FSIS)               Unmet
                                                           regulated products
                                                   4.3.3   Percent of establishments with a functional food defense plan                   Exceeded
4.4   Protect Agricultural Health by               4.4.1   Value of damage prevented and mitigated annually as a result of selected          Met
      Minimizing Major Diseases and Pests                  plant and animal health monitoring and survelliance efforts ($ billions)
      Ensuring Access to Safe, Plentiful, and
      Nutritious Food




                                              Management’s Discussion and Analysis
                                                               7
ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives. Sometimes
circumstances arise that result in the Department falling short of its goals. At other times, the Department
consciously alters its approach in ways that enhance its service to the public, but that make a specific performance
goal a less effective indicator of real progress.
The “Annual Performance Report” section of this report offers further discussion of the Department’s actions on
its goals, objectives, and performance measures.

Future Demands, Risks, Uncertainties, Events, Conditions, and Trends
Farmers and food companies operate in highly competitive markets both domestically and internationally. Rapid
shifts in consumer demands associated with quality, convenience, taste, and nutrition dictates that farming and
marketing infrastructures become more fluid and responsive.
National security is a significant, ongoing priority for the Department. USDA is working with the U.S.
Department of Homeland Security to help protect agriculture from intentional and accidental acts that might
impact America’s food supply or natural resources.
External factors that will challenge USDA’s ability to achieve its goals include:
• Weather-related hardships and other uncontrollable events domestically and abroad;
• Domestic and foreign macroeconomic factors, including consumer purchasing power, the strength of the U.S.
   dollar, and political changes abroad that can impact domestic and global markets greatly at any time;
• Sharp fluctuations in farm prices, interest rates, and unemployment that could impact the ability of farmers,
   other rural residents, communities, and businesses to qualify for credit and manage their debts;
• The impact of future economic conditions and actions by a variety of Federal, State, and local Governments
   that will influence the sustainability of rural infrastructure;
• The increased movement of people and goods, which provides the opportunity for crop and animal pests and
   diseases, such as avian influenza and bovine spongiform encephalopathy, to move quickly across national and
   foreign boundaries;
• Potential exposure to hazardous substances, which may threaten human health and the environment, and the
   ability of the public and private sectors to collaborate effectively on food safety, security, and related
   emergency preparedness efforts;
• The risk of catastrophic fire, depending on weather, drought conditions, and the expanding number of
   communities in the wildland-urban interface; and
• Efforts to reduce hunger and improve dietary behaviors depend on strong coordination between USDA and a
   wide array of Federal, State, and local partners.




                                   Management’s Discussion and Analysis
                                                    8
Financial Statement Highlights
BUDGETARY RESOURCES
USDA receives most of its funding from appropriations authorized by Congress and administered by the U.S.
Department of the Treasury. Total budgetary resources consist of the balance at the beginning of the year,
appropriations received during the year, spending authority from offsetting collections and other budgetary
resources. Total budgetary resources was $225.3 billion for FY 2010 compared to $208.7 billion in FY 2009, an
increase of $16.6 billion.
The unobligated balance brought forward including recoveries of prior year unpaid obligations increased $4.5
billion, budget authority net of transfers and resources temporarily not available increased $30.1 billion and
budgetary resources permanently not available increased $18 billion.
                                                            %     Obligations Incurred And Net Outlays
                               2010           2009       Change
 Total Budgetary             $225,385       $208,761       8%     Obligations Incurred increased $18.1 billion in FY 2010.
 Resources                                                        This increase is primarily due to a $16.3 billion increase at
 Obligations Incurred        $188,668       $170,508      11%     FNS for the Supplemental Nutrition Assistance (SNAP)
 Net Outlays                 $135,634       $121,759      11%     program; a $6.3 billion increase at RD for ARRA; a $2.2
 Data in millions                                                 billion increase at FSA for disaster programs; offset by a $5
billion decrease at RMA for indemnities paid.
Net Outlays increased $13.8 billion in FY 2010, primarily in relation to the increase in obligations described
above.
BALANCE SHEET
CONDENSED BALANCE SHEET DATA
                                                                             FY 2010      FY 2009     % CHANGE
                    Fund Balance with Treasury                             $75,805      $72,334      5%
                    Accounts Receivable, Net                               7,608        8,866        -14%
                    Direct Loan and Loan Guarantees, Net                   89,405       85,657       4%
                    General Property, Plant and Equipment, Net             2,964        2,972        0%
                    Other                                                  626          810          -23%
                    Total Assets                                           176,408      170,639      3%
                    Debt                                                   87,915       84,119       5%
                    Loan Guarantee Liability                               2,857        1,844        55%
                    Benefits Due and Payable                               3,356        3,119        8%
                    Other                                                  34,796       36,642       -5%
                    Total Liabilities                                      128,924      125,724      3%
                    Unexpended Appropriations                              36,261       38,302       -5%
                    Cumulative Results of Operations                       11,223       6,613        70%
                    Total Net Position                                     47,484       44,915       6%
                    Total Liabilities and Net Position                     $176,408     $170,639     3%




                                               Management’s Discussion and Analysis
                                                                9
As of September 30, 2010 and 2009
(in millions)
Total Assets
Total assets increased $5.7 billion in FY 2010. This increase is primarily due to an increase in Fund Balance with
Treasury of $3.4 billion; an increase in Direct Loan and Loan Guarantees, Net of $3.7 billion; offset by a decrease
in accounts receivable for the Tobacco Transition Payment Program at CCC of $807 million and premiums from
Approved Insurance Providers at RMA of $395 million.
Direct Loan and Loan Guarantees, Net is the single largest asset on the USDA Balance Sheet. RD offers both
direct and guaranteed loan products for rural housing and rural business infrastructure. These represent 86 percent
of the total USDA loan programs. Loan programs administered by the FSA represent 8 percent of the total. FSA
provides support to farmers who are temporarily unable to obtain private, commercial credit. The remaining 6
percent represents commodity loans and credit programs administered by CCC. CCC’s loans are used to improve
economic stability and provide an adequate supply of agricultural commodities. CCC credit programs provide
foreign food assistance, expand foreign markets and provide domestic low-cost financing to protect farm income
and prices.
Total Liabilities
Total liabilities increased $3.2 billion in FY 2010. This increase is primarily due to a $3.7 billion increase in Debt,
a $1 billion increase in Loan Guarantee Liability, offset by a $1.8 billion decrease in other liabilities.
Debt represents amounts owed primarily to Treasury by CCC and RD. For CCC, the debt primarily represents
financing to support Direct and Counter Cyclical, Crop Disaster and Loan Deficiency programs. For RD, the
debt primarily represents financing to support Electric and Housing loan programs.
Total Net Position
Total net position increased $2.5 billion in FY 2010. This increase is due to an increase in cumulative results of
operations of $4.6 billion less $2 billion in unexpended appropriations.




                                    Management’s Discussion and Analysis
                                                     10
NET COST OF OPERATIONS
CONDENSED STATEMENT OF NET COST
For the Years Ended September 30, 2010 and 2009
(in millions)
                                                                                                                %
                                                                                       FY 2010     FY 2009    CHANGE
                   Goal 1: Assist Rural Communities to Create Prosperity so They
                   Are Self-Sustaining, Repopulating, and Economically Thriving:      $20,611     $26,193      -21%
                   Goal 2: Ensure Our National Forests and Private Working Lands
                   Are Conserved, Restored, and Made More Resilient to Climate
                   Change, While Enhancing Our Water Resources:                        11,134       9,864       13%
                   Goal 3: Help America Promote Agricultural Production and
                   Biotechnology Exports as America Works to Increase Food
                   Security:                                                            2,856       1,510       89%
                   Goal 4: Ensure that All of America’s Children Have Access to
                   Safe, Nutritious, and Balanced Meals:                               97,837      81,501       20%
                   Net Cost of Operations                                            $132,438    $119,068       11%


Net Cost of Operations

                             2010           2009          % Change            Net cost of operations increased $13.3 billion in
Non-Federal Physical          $77            $87            -11%              FY 2010. This increase is primarily due to increased
Property                                                                      participation in the SNAP program at FNS of $16.1
Human Capital                $652          $595              10%              billion; an increase in disaster program payments at
Research and                $2,307        $2,202              5%              FSA of $2 billion; offset by decreased price support
Development                                                                   and indemnity payments at CCC and RMA of $3
Data in millions                                                              billion and $3.6 billion, respectively.
Stewardship Investments
Stewardship investments are substantial investments made by the Federal Government for the benefit of the
nation but are not physical assets owned by the Federal Government. When incurred, they are treated as expenses
in determining the net cost of operations. However, these items merit special treatment so that users of Federal
financial reports know the extent of investments that are made for long-term benefit. Such investments are
measured in terms of expenses incurred for non-Federal physical property, human capital, and research and
development.
Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of
the entity, pursuant to the requirements of 31 U.S.C. 3515(b).
While the statements have been prepared from the books and records of the entity in accordance with GAAP for
Federal entities and the formats prescribed by OMB, the statements are in addition to the financial reports used
to monitor and control budgetary resources, which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                             Management’s Discussion and Analysis
                                                              11
Financial Management Systems
The Financial Management Modernization Initiative (FMMI) Project was initiated to modernize USDA’s
outdated financial system technology. FMMI will replace the Corporate Financial Management System (CFMS),
including the mainframe-based Foundation Financial Information System (FFIS) financial system, with Systems,
Applications and Products (SAP) Enterprise Resource Planning (ERP) 6.0, migrating the current distributed,
multi-instance mainframe system to a Federally compliant, consolidated, single-instance Web-based system.
FMMI is operational and 74 percent complete:
• All corporate interfaces, including Payroll, Procurement, Travel and Property, are completed and deployed;
• Operational in 13 Departmental Staff Offices and 6 agencies. By the end of calendar year 2010, FMMI will
    be implemented in 4 more agencies;
• Processing 20 percent of total accounting transaction volume in the FMMI system, which will increase to
    approximately 40 percent during the next 6 months;
• More than 1,500 users conducting business in system daily and another 1,750 will be added by early 2011;
• Data warehouse for financial statement, and standard and ad hoc reporting is in production; and
• On track for schedule, cost, and performance.

FMMI has the following key attributes:
• Integration with eGovernment Travel Services, ePayroll, Grants.gov, and eLoans; corporate solutions for
  which results must be reflected in the budgetary and general ledger accounts of the Department (e.g., asset
  management and procurement); and program-specific systems that support the general ledger;
• Integration with performance management and budgeting, allowing USDA to meet management’s objects
  and Government and Performance Results Act requirements; and
• Compliance with FFMIA, including Federal financial management system requirements, applicable Federal
  accounting standards, and U.S. Government Standard General Ledger at the transaction level.
The FMMI project addresses the need for improved financial performance through a modern financial system
that provides maximum support to mission and USDA’s financial objectives including:
• Ensuring that financial management systems support data integrity, reliability, and consistency across the
    Department and for the community of direct users;
• Providing online, on-demand querying capabilities and access to reports for financial managers and,
    ultimately, program managers (new users);
• Ensuring that information and reports are clearly communicated and organized in a format that promotes
    understanding, and is directly relevant to the needs of end users;
• Providing technology that supports future growth and changes in requirements;
• Promoting USDA’s credibility and trust with Congress, the Executive Office of the President, and the public
    by demonstrating full compliance with financial laws, regulations, and Federal financial standards, including
    maintaining an unqualified audit opinion;
• Ensuring that the investment advances the Department’s strategic plan, including its responsiveness to the
    fulfillment of mandates such as Federal core financial management system requirements;
• Demonstrating the strategic use of USDA’s human capital by supporting the realignment from internally
    focused positions to decision support or citizen-facing roles, and enhancing workplace desirability for current
    and future financial employees;
• Demonstrating the strategic use of the Department’s information technology (IT) by leveraging IT within
    USDA and across the Government to facilitate streamlining and unification of services; and
• Demonstrating good stewardship of public funds by securing the best performance and highest measure of
    accountability in the use of taxpayer dollars.




                                   Management’s Discussion and Analysis
                                                    12
Systems, Controls, and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE
The United States Department of Agriculture’s (USDA) management is providing a
qualified statement of assurance that its management has established and maintained
effective internal controls over financial reporting and financial management systems that
meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA), with the
exception of two material weaknesses in internal controls over financial reporting and one
financial system non-conformance. Management is providing reasonable assurance that the
internal controls over operations are effective. The details of the exceptions are provided in
the FMFIA and the Federal Financial Management Improvement Act (FFMIA) sections of this report.
USDA conducted an assessment of its financial management systems and internal control over the effectiveness
and efficiency of operations and compliance with applicable laws and regulations as of September 30, 2010,
and financial reporting as of June 30, 2010, which includes safeguarding of assets and compliance with applicable
laws and regulations, in accordance with the requirements of Office of Management and Budget (OMB) Circular
A-123, “Management’s Responsibility for Internal Control.”
Other than the exceptions noted, USDA financial management systems conform substantially with the objectives
of FMFIA and the internal controls were operating effectively and no other material weaknesses were found in
the design or operation of the internal control over 1) the effectiveness and efficiency of operations and
compliance with applicable laws and regulations as of September 30, 2010, and 2) financial reporting as of June
30, 2010. The Department identified violations of the Antideficiency Act that were not considered chronic or
significant. Rural Development loan disbursements were made beyond their statutory time limitations for the
Rural Utilities Service Broadband Program. Commodity Credit Corporation entered into contracts administered
by Farm Service Agency for matching agreements that extended beyond the period of performance authorized by
Office of Management and Budget’s apportionment for the Biomass Crop Assistance Program. The letters
reporting these violations are pending clearance by Department officials.




Thomas J. Vilsack
Secretary of Agriculture
November 15, 2010




                                  Management’s Discussion and Analysis
                                                   13
Federal Managers’ Financial Integrity Act Report on Management Control
BACKGROUND
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal control and
financial management systems. These evaluations lead to an annual statement of assurance that:
• Obligations and costs comply with applicable laws and regulations;
• Federal assets are safeguarded against fraud, waste, and mismanagement;
• Transactions are accounted for and properly recorded; and
• Financial management systems conform to standards, principles, and other requirements to ensure that
    Federal managers have timely, relevant, and consistent financial information for decision-making purposes.
USDA annually evaluates its internal controls over financial reporting in accordance with Office of Management
and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal
Control Over Financial Reporting” (A-123, Appendix A).
The Department operates a comprehensive internal control program. This program ensures compliance with the
requirements of FMFIA and other laws and OMB Circulars A–123, Appendix A, and A–127, “Financial
Management Systems.” All USDA managers must ensure that their programs operate efficiently and effectively,
and comply with relevant laws. They must also ensure that financial management systems conform to applicable
laws, standards, principles, and related requirements. In conjunction with the Office of Inspector General
(OIG) and the Government Accountability Office (GAO), the Department’s management works
aggressively to determine the root causes of its material weaknesses so that it can direct resources to focus on
their remediation.
USDA remains committed to reducing and eliminating the risks associated with its deficiencies. It also strives to
efficiently and effectively operate its programs in compliance with FMFIA.
FY 2010 Results
USDA has two existing material weaknesses: Information Technology and Financial Reporting – Unliquidated
Obligations. There is one system non-conformance: Funds Control Management. Thus, the “Secretary’s
Statement of Assurance” provides qualified assurance that USDA’s system of internal control complies with
FMFIA objectives. The following exhibit summarizes the results reported in USDA’s Consolidated Financial
Statements Audit Report.
Exhibit 3: Summary of Financial Statement Audit

                   Audit Opinion                                           Unqualified
                   Restatement                                                 No
                                                  Beginning                                                Ending
                Material Weakness                  Balance    New   Resolved   Consolidated   Reassessed   Balance
 Improvement Needed in Overall Financial             1                                                        1
 Management
 Improvements Needed in Information Technology       1                                                        1
 Security and Controls
 T OT AL MAT E R IAL W E AK NE S S E S               2                                                        2


The following exhibit lists USDA’s material weaknesses and the financial system non-conformance as related to
management’s assurance for FMFIA and the certification for FFMIA.




                                          Management’s Discussion and Analysis
                                                           14
Exhibit 4: Summary of Management Assurances

                                      Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
              Statement of Assurance                                                            Qualified
                                                       Beginning                                                              Ending
                 Material Weakness                      Balance          New        Resolved      Consolidated   Reassessed   Balance
 Information Technology                                     1                                                                    1
 Financial Reporting – Unliquidated Obligations             1                                                                    1
 Financial Reporting – Credit Reform                        1                                                        1           0
 TOTAL MATERIAL WEAKNESSES                                  3                                                                    2
                                           Effectiveness of Internal Control Over Operations (FMFIA § 2)
              Statement of Assurance                                                           Unqualified
                                                       Beginning                                                              Ending
                 Material Weakness                      Balance          New        Resolved      Consolidated   Reassessed   Balance
 TOTAL MATERIAL WEAKNESSES                                  0                                                                    0
                                   Conformance with Financial Management System Requirements (FMFIA § 4)
              Statement of Assurance                                                            Qualified
                                                       Beginning                                                              Ending
                 Material Weakness                      Balance          New        Resolved      Consolidated   Reassessed   Balance
 Funds Control Management                                   1                                                                    1
 TOTAL NON-CONFORMANCE                                      1                                                                    1
                                    Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                      Agency                                     Auditor
          Overall Substantial Compliance                                 No                                        No
 1. System Requirements                                                  No                                          No
 2. Accounting Standards                                                 No                                          No
 3. United States Standard General Ledger at                             No                                          No
    Transaction Level
 4. Information security policies, procedures, and                       No                                          No
    practices

Material Weakness Reassessed and Downgraded
Financial Reporting – Credit Reform — This weakness was reassessed and downgraded to a significant deficiency.
During FY 2010 RD completed the following actions:
• Ensured that second party review procedures are performed and documented by personnel independent of
   those preparing the assumption curves;
• Established process improvements for version control related to the curves;
• Evaluated automation support to determine feasibility of performing curve calculations systematically; and
• Determined the reasonableness of the curves for re-estimation purposes that focused on the accuracy of the
   calculations and portfolio trends.




                                              Management’s Discussion and Analysis
                                                               15
Summary of Outstanding Material Weaknesses
 Material Weakness          1. USDA Information Technology                        Overall Estimated Completion Date               FY 2011
 Existing
                            Internal control design and operating effectiveness deficiencies in four areas: logical access controls, configuration
                            management, physical access and environmental protection, and disaster recovery. These deficiencies represent an overall
                            Information Technology (IT) material weakness.
 FY 2010 Accomplishments:                                                        FY 2011 Planned Actions:
 • Expanded encryption to include mobile media such as thumb drives by           • Implement the "Getting to Federal Information Security
     the end of the fiscal year;                                                     Management Act (FISMA) Green" and the Office of Inspector
 •   Finalized deployment of the Department-wide end-point management                General “Get Healthy” Plans;
     tool;                                                                       •   Continue leveraging cyber security assessment and management
 •   Expanded the Department-wide Security Operations Center                         system (CSAM) and the monthly FISMA scorecard to manage
     incorporating 24/7 border protection and monitoring, end point                  information technology security program compliance and oversight;
     compliance, and improved incident response processes;                       •   Continue using CSAM to implement Continuous Monitoring and
 •   Established improved and sustainable processes and procedures for               automate the Concurrency Review process;
     identity and access management;                                             •   Continue using Security Metrics and agency program reviews to
 •   Standardized the configuration management and change control                    measure agency Security Program compliance and maturity;
     processes through improved processes and procedures;                        •   Monitor compliance with the Department’s IT security regulations;
 •   Improved the A-123, Appendix A and FISMA monitoring and reporting           •   Develop the Department-wide Privilege Management Plan;
     process to ensure weaknesses are timely identified and corrected; and       •   Implement Digital Signature and Encryption Plans;
 •   Established functional disaster recovery site for mainframe and critical    •   Complete Identity Credential Access Management (ICAM)
     mid-range systems.                                                              technical infrastructure;
                                                                                 •   Continue Departmental initiatives to establish and fund alternate
                                                                                     "hot sites" for Service Center Agencies; and
                                                                                 •   Continue Departmental training and oversight activities to ensure
                                                                                     effective Continuity of Operations for all systems.


 Material Weakness          2. Financial Reporting – Unliquidated               Overall Estimated Completion Date                 FY 2011
 Existing                   Obligations

                            Lack of consistent review and follow-up on unliquidated obligations (ULO). (Department and NRCS)
 FY 2010 Accomplishments:                                                       FY 2011 Planned Actions:
 • Developed and shared Executive scorecard with the Chief Financial            • Department will:
   Officer Council to present obligations inactive for 12 months by major       • Revise policies, procedures, and processes to improve the
   category;                                                                      management, review, and closeout of ULOs;
 • Initiated fast-track action to deobligate balances with no activity in 2     • Conduct training on new processes to manage, review, and closeout
   years through the ULO workgroup;                                               ULOs;
 • Assembled a team of subject matter experts for contracts and grants to       • Monitor implementation of agencies’ corrective action plans; and
   analyze deobligation/closeout processes to determine the root causes         • Work with USDA agencies to complete cleanup of obligations
   of invalid unliquidated contract and grant obligations;                        recorded in FFIS and FMMI.
 • Analyzed risk and controls objectives for the closeout process and           • NRCS will:
   established minimum control activities to lead to timely deobligation        • Create a risk-based statistical sample that segments the obligation
   and closeout of grants;                                                        population, then select samples for testing and perform testing on a
 • Established procedures to process final Greenbook billings in Financial        quarterly basis;
   Management Modernization Initiative annually by September 30 and             • Increase accountability by including an unliquidated obligation
   automatically deobligate any remaining balances; and                           performance objective in the performance plans of State
 • Developed weekly reports to track overdue unsubmitted travel                   Conservationists;
   vouchers and began monitoring agencies performance to improve                • Provide training for open obligation reviews that address audit
   timeliness of voucher submissions.                                             findings; and
                                                                                • Publish procedures for fund certification, upward and downward
                                                                                  adjustments, monitoring of unliquidated obligations, and
                                                                                  obligation/close-outs.




                                              Management’s Discussion and Analysis
                                                               16
SUMMARY OF OUTSTANDING SYSTEM NON-CONFORMANCE

 System Non-               1. Funds Control Management                           Overall Estimated Completion Date              FY 2012
 Conformance
 Existing                  System improvements needed in recording obligations at the transactions level. (CCC)
                           Non-compliance with Federal Financial Management Improvement Act of 1996. (NRCS)
 FY 2010 Accomplishments:                                                        FY 2011 Planned Actions:
 • CCC:                                                                          • CCC:
 • Enhanced the use of the Electronic Funds Management System (eFMS)             • Incorporate transaction level obligations for the Conservation
     by incorporating transaction level obligations for the Tobacco Transition       Reserve Program (CRP) Annual Rental program as well as
     Payment Program, and Direct Payments, that check funds availability at          additional Farm Programs as they are implemented;
     the time of obligation;                                                     •   Continue to incorporate WBSCM programs into eFMS as those
 •   Implemented Web-based Supply Chain Management (WBSCM) to                        programs are moved from the Processed Commodities Inventory
     integrate obligation transactions for the Commodity Credit Corporation          Management System (PCIMS) to WBSCM; and
     (CCC) Commodity Operations programs into eFMS for the programs              •   Continue to develop the MIDAS program, and to make sure
     currently “live” or deployed in WBSCM; and                                      financial requirements are clearly captured in the design of this
 •   Completed planning phase and began software and acquisition phase of            system.
     the Modernize and Innovate the Delivery of Agriculture Systems (MIDAS)      •   NRCS:
     project.                                                                    •   Obtain United States Standard General Ledger posting models to
 •   NRCS:                                                                           appropriately record transactions without reclassification;
 •   Issued final policy on reimbursable agreements, open obligations,               includes easements and advances;
     accruals, capital leases, internal use software, and unfilled customer      •   Revise process and procedures to capture and properly report in
     orders.                                                                         the Statement of Net Costs in accordance with U.S. generally
                                                                                     accepted accounting principles (GAAP); and
                                                                                 •   Revise process and procedures to record and report on
                                                                                     stewardship, property, plant and equipment as required by
                                                                                     Statement of Federal Financial Accounting Board (SFFAS) 29.


Federal Financial Management Improvement Act Report on Financial Management Systems
BACKGROUND
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making, and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable, consistent
disclosure of financial data in accordance with generally accepted accounting principles and standards. These
systems must also comply substantially with: 1) Federal Financial Management System requirements;
2) applicable Federal accounting standards; and 3) the United States Standard General Ledger (USSGL) at the
transaction level. Additionally, the Federal Information Security Management Act (FISMA) requires that there
be no significant weaknesses in information security policies, procedures or practices to be substantially compliant
with FFMIA. The following exhibit contains the outstanding initiatives to achieve compliance.
Exhibit 5:   Initiatives To Be Completed

                                               Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                 Section of                                       Target Completion
                            Initiative                                        Non-compliance                      Agency                 Date
Information Technology¹                                              Federal Financial Management                 Multiple             9/30/2011
                                                                     System requirements, and Information
                                                                     security policies, procedures, and/or
                                                                     practices.
Funds Control Management                                             Federal Financial Management                  CCC                12/30/2012
                                                                     System requirements.




                                             Management’s Discussion and Analysis
                                                              17
                                                    Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                      Section of                                                 Target Completion
                               Initiative                                          Non-compliance                               Agency                  Date
                                                                             Federal Financial Management                        NRCS                  4/15/2011
                                                                             System requirements, Federal
                                                                             Accounting Standards, and U.S.
                                                                             Standard General Ledger at the
                                                                             transaction level.
¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on Management Control, is comprised of four
issues: logical access controls, configuration management, physical access and environmental protection, and disaster recovery.


FY 2010 RESULTS
During FY 2010, USDA evaluated its financial management systems to assess substantial compliance with the
act. In assessing FFMIA compliance, the Department considered auditors opinions on component agencies’
financial statements, and progress made in addressing the material weaknesses identified in the FY 2009
Performance and Accountability Report. The Department is not compliant with Federal Financial Management
System requirements, Federal accounting standards, and the standard general ledger at the transaction level.
Additionally, as reported in the FMFIA section of this report, USDA continues to have weaknesses in
information technology controls that result in non-compliance with the FISMA requirement. As part of USDA’s
financial systems strategy, USDA agencies continue working to meet FFMIA and FISMA objectives.
Forest Service mitigated deficiencies related to its systems and methodologies to comply with USSGL at the
transaction level.
Federal Financial Management System Requirements
CCC continues to develop a fully integrated funds control system, the electronic Funds Management System
(eFMS), within the FSA/CCC Core financial management system. This work includes integration with CCC’s
general ledger system at the transaction level. The eFMS system will also provide management with timely
information to monitor and control the status of budgetary resources recorded in the general ledger.
FY 2010 accomplishments include:
• Enhanced use of eFMS by incorporating transaction level obligations for the Tobacco Transition Payment
   Program, and Direct Payments, that check funds availability at the time of obligation;
• Implemented Web-based Supply Chain Management (WBSCM) system to integrate obligation transactions
   for CCC Commodity Operations programs into eFMS for the programs currently “live” or deployed in
   WBSCM; and
• Completed planning phase and began software and acquisition phase of MIDAS.
In FY 2011, CCC will:
• Incorporate transaction level obligations for the Conservation Reserve Program (CRP) Annual Rental
    Program as well as additional Farm Programs as they are implemented;
• Continue to incorporate WBCSM programs into eFMS as those program are moved from the Processed
    Commodities Inventory Management System (PCIMS) to WBSCM; and
• Continue to develop the MIDAS Program, and to make sure financial requirements are clearly captured in
    the design of this system.
In FY 2012, CCC will:
• Complete software modifications to Web-based program applications to send obligation transactions for
    CCC Farm Programs;
• Implement Financial Management Modernization Initiative (FMMI) for FSA/CCC program activity; and

                                                  Management’s Discussion and Analysis
                                                                   18
•   Complete Initial Operating Capability for FSA's Modernize and Innovate the Delivery of Agricultural
    Systems (MIDAS).
NRCS continues working to mitigate auditor-identified deficiencies. Financial management systems do not
substantially comply with Federal Financial Management System Requirements, the USSGL at the transaction
level, and applicable Federal Accounting Standards for obligations; accruals; capital leases and internal use of
software as part of property, plant, and equipment; and unfilled customer orders. Deficiencies were also noted
regarding proper use of USSGL.
FY 2010 accomplishments included:
• Issued final policy on internal controls, reimbursable agreements, obligations, accruals, real and personal
   property, capital leases, internal use software, and unfilled customer orders.
In FY 2011, NRCS will:
• Review and enhance A-123, Appendix A program for open obligations, unrecorded obligations, and non-
    referencing transactions, including feedback to reporting entities;
• Provide training for open obligations review based on quarterly certifications process, audit exceptions and A-
    123 findings; and
• Develop procedures on funds certification.
ELIMINATING IMPROPER PAYMENTS
The Improper Payments Information Act (IPIA) of 2002 is designed to identify programs susceptible to
significant improper payments and reduce the amount and number of erroneous payments. IPIA’s goal is to
improve the integrity of the government's payments and the efficiency of its programs and activities.
USDA first reported on improper payments in the 2004 Performance and Accountability Report (PAR) by
disclosing error rates and amounts for the Supplemental Nutrition Assistance Program and the Federal Crop
Insurance Corporation Program. The Department now has 16 programs considered at risk for significant
improper payments. Measuring and reporting improper payments is mandatory for five of the programs under
OMB Circular A-11, Preparation, Submission, and Execution of the Budget. USDA identified the additional 11
programs at risk of significant improper payments through the Departmental risk assessment process.
IPIA requires that agencies measure their improper payments annually, establish reduction targets and corrective
action plans and track the results annually to ensure that the corrective actions are effective. USDA’s Office of the
Chief Financial Officer (OCFO) issued specific policy guidance including templates and timelines for
implementing IPIA. USDA continues to make progress in accurately measuring and reporting improper
payments, developing and implementing corrective actions, and recovering improper payments.
USDA’s improper payment error rate of 5.37 percent for FY 2010, declined from 5.92 percent in FY 2009.
However, due to a $21.5 billion increase (30 percent) in high risk program outlays from FY 2009 to FY 2010,
USDA’s estimated improper payments amount were $5.0 billion for FY 2010, an increase from $4.3 billion in FY
2009. The increase in outlays was largely attributable to the increase in demand for food and nutrition assistance
due to the economic downturn. The FY 2010 results demonstrate that improper payment error rates are being
reduced and progress is being made:
• Seven USDA high risk programs reported improper payment error rates below their FY 2009 error rate;
• Six USDA high risk programs, representing 61 percent of USDA’s total high risk program outlays, reported
    error rates below their reduction targets in FY 2009. This exceeded USDA’s goal of achieving reduction
    targets for 50 percent or more of the Department’s total high risk program outlays;
• Forest Service’s (FS) Wildland Fire Suppression Management Program error rate of 0.00 percent was below
    its reduction target of 0.02 percent and equal to its FY 2009 error rate of 0.00 percent;


                                   Management’s Discussion and Analysis
                                                    19
•   Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP) error rate of 4.36
    percent was below its reduction target of 5.00 percent, and below its FY 2009 error rate of 5.01 percent. The
    SNAP error rate is a historic low for the program. This is the sixth year in a row the program’s error rate has
    been less than 6 percent;
•   FNS’ Child and Adult Care Food Program error rate of 0.99 percent was below its reduction target of 1.46
    percent, and below its FY 2009 error rate of 2.07 percent;
•   FNS’ National School Lunch Program (NSLP) error rate of 16.28 percent was below its FY 2009 error rate
    of 16.44 percent; however, this was above its reduction target of 15.60 percent;
•   FNS’ Women, Infants and Children Program error rate of 1.17 percent was below its FY 2009 error rate of
    1.27 percent; however, this was above its reduction target of 0.80 percent;
•   Rural Development’s (RD) Rental Assistance Program error rate of 1.39 percent was below its reduction
    target of 2.00 percent, and below its FY 2009 error rate of 2.06 percent;
•   Farm Service Agency’s (FSA) Market Assistance Loan Program error rate of 0.81 percent was below its
    reduction target of 1.50 percent, and below its FY 2009 error rate of 2.56 percent;
•   FSA’s Loan Deficiency Payments Program error rate of 0.44 percent was below its reduction target of 0.60
    percent; and
•   FSA’s Noninsured Assistance Program error rate of 11.65 percent was below its FY 2009 error rate of 14.18
    percent; however, this was above its reduction target of 9.22 percent.
The root causes of improper payments are summarized into the error categories of verification, authentication and
administrative. Verification errors relate to verifying recipient information such as earnings, income, assets, work
status, etc. Authentication errors relate to authenticating the accuracy of qualifying for program specific
requirements, criteria or conditions. Administrative errors relate to the accuracy of the entry, classification, or
processing of information associated with applications, supporting documents, or payments.
For FY 2010, the root causes of USDA improper payments were categorized as:
• 49 percent attributable to verification error; and
• 51 percent attributable to administrative error.
USDA establishes improper payment recovery targets for high risk programs, where appropriate, and actively
collects recoveries. Actions taken by USDA during FY 2010 include:
• Implemented Departmental High-Dollar Quarterly Report of improper payments identified in high-risk
    programs and actions taken by agencies to recover overpayments;
• Developed and provided additional error measurements with semi-annual reporting, designated a Senate-
    confirmed appointee as the Accountable Official, and provided an Annual Accountable Official Report to the
    USDA Inspector General for the USDA high-priority programs (SNAP and NSLP);
• Provided Departmental improper payments information for the Government-wide PaymentAccuracy.gov
    Website that includes key indicators and statistics by program;
• Completed 32 risk assessments for 32 programs in FY 2010 as scheduled on a three year cycle. No new programs
    were declared high risk as a result of the risk assessments;
• Recovered $310 million in improper payments, exceeding the Departmental recovery target of $54 million;
• Analyzed requirements and impacts of S. 1508, Improper Payments Elimination and Recovery Act of 2010,
    and provided comments to OMB;
• Participated in OMB workgroups established under Executive Order (EO) 13520 “Reducing Improper
    Payments” to research specific topics identified in the EO and made recommendations to OMB on actions to
    aid Federal agencies in reducing improper payments; and




                                   Management’s Discussion and Analysis
                                                    20
•   Led the Executive Order (EO) 13520, “Reducing Improper Payments,” Forensic Accounting and Auditing
    Workgroup. The workgroup submitted recommendations to OMB for utilizing forensic accounting and
    auditing techniques to prevent improper payments.
USDA’s goal is to continue to achieve error reduction and recovery targets established for FY 2011. In addition to
meeting the requirements of the IPIA, USDA is preparing to implement the new requirements of EO 13520, the
Presidential Memorandum “Enhancing Payment Accuracy Through a ‘Do Not Pay List,’” the Presidential
Memorandum “Finding and Recapturing Improper Payments,” and the Improper Payments Elimination and
Recovery Act (IPERA) of 2010.
USDA’s actions planned for FY 2011 include:
• Develop a Departmental action plan outlining the requirements and actions necessary to implement IPERA;
  EO 13520, “Reducing Improper Payments”; and the other new Government-wide requirement to reduce,
  eliminate, and recover improper payments;
• Develop and implementing policies, controls, procedures, and checklists at appropriate levels to reduce the
  number of improper payments;
• Create aggressive correction plans that target the verification and administrative root causes of errors and
  address internal control issues for each program;
• Provide training to field personnel and cooperative partners that address specific issues found in internal
  controls, control procedures, and the potential risks of noncompliance;
•   Sustain accountability at all levels by incorporating the employee’s individual results into their annual
    performance evaluations;
•   Provide grants and technical assistance to State agencies aimed at simplifying the application and eligibility
    determination systems of SNAP;
•   Provide Departmental criteria for statutory, technical, and other functionality of the Government-wide “Do
    Not Pay List” Web site being developed to allow agencies to verify eligibility against multiple databases before
    grants, contract, benefit award, and/or payments are issued;
•   Issue a Departmental payment recapture/recovery auditing contract available to all programs to address
    IPERA requirements for identifying and recovering overpayments; and
•   Participate in interagency workgroups to assist OMB in developing Government-wide guidance for
    implementing IPERA, EO 13521, and other initiatives to reduce improper payments and recover
    overpayments.




                                   Management’s Discussion and Analysis
                                                    21
Management’s Discussion and Analysis
                 22
                                        Section 2.
                                        Annual Performance Report




T
2.   Annual Performance Report
     he mission of the United States Department of Agriculture (USDA) is to provide leadership on food,
     agriculture, natural resources, and related issues based on sound public policy, the best available science, and
     efficient management.
The Department has established strategic goals to fulfill this vital mission. The goals were introduced in USDA’s
Strategic Plan Fiscal Year 2010-2015 (usda.gov, see “About USDA”). The goals are:
1. To Assist Rural Communities to Create Prosperity So They are Self-Sustaining, Repopulating, and
    Economically Thriving;
2. To Ensure Our National Forests and Private Working Lands are Conserved, Restored and Made More
    Resilient to Climate Change, While Enhancing Our Water Resources;
3. To Promote Agricultural Production and Biotechnology Exports as America Works to Increase Food
    Security; and
4. To Ensure That All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals.
This Annual Performance Report section of the Performance and Accountability Report (PAR) is organized by
the Department’s strategic goals. The goals are then divided by objectives, which are supported by performance
measures. These measures track activities and determine if a program met targets for the fiscal year (FY) just
ended that were established at the beginning of the year and published in USDA’s Annual Performance Plan.
When performance targets are unmet, an explanation is provided.

Strategic Goal 1:          Assist Rural Communities to Create Prosperity So They Are Self-Sustaining,
                           Repopulating and Economically Thriving
USDA is the leading advocate for rural America. The Department supports rural communities and enhances
quality of life for rural residents by improving their economic opportunities, community infrastructure,
environmental health, and the sustainability of agricultural production. The common goal is to help create
thriving rural communities where people want to live and raise families, and where the children have economic
opportunities and a bright future.
USDA revitalizes rural communities by expanding economic opportunities and creating jobs for rural residents.
The Department, in cooperation with its public and private partners, is connecting rural residents to the global
economy. USDA is expanding access to broadband to unserved and underserved communities; promoting rural
leadership in sustainable renewable energy development; creating new opportunities for small agricultural
producers to market their products by developing local and regional food systems; ensuring that rural residents
capitalize on potential opportunities presented by the Nation’s efforts to develop markets for ecosystem services
and mitigate climate change; and generating jobs through recreation and natural resource conservation,
restoration, and management in rural areas. USDA operates job training and business development programs that
give rural residents the tools and capacity to access markets and enter the green economy.

                                           Annual Performance Report
                                                       23
The Department is working to enhance the livability of rural communities. USDA uses 21st century technology
to rebuild infrastructure, ensure that rural residents have decent housing, and homeownership opportunities, clean
water, adequate systems for handling waste, reliable electricity and renewable energy systems, and critical
community facilities including healthcare centers, schools, and public safety departments. USDA also helps
communities invest in strategic green-infrastructure planning and protection of critical natural resources.
OBJECTIVE 1.1 ENHANCE RURAL PROSPERITY
1.1.1 Number of jobs created or saved through USDA financing of business
Overview
USDA’s programs help finance rural businesses and promote opportunities for economic growth as measured by
jobs created and saved.
The Department provides capital to enable rural businesses to participate in the global economy. A primary
program furthering this goal is the Business and Industry Guaranteed Loan Program (B&I). B&I provides capital
in the form of loan guarantees designed to improve, develop, or finance business, industry, and employment, and
to improve the economic and environmental climate in rural communities. This is achieved by bolstering the
existing private credit structure through the guarantee of quality loans, which provide lasting community benefits.
During FY 2010, B&I obligated approximately $1.4 billion in guaranteed loans, and assisted in the creation of
approximately 21,000 jobs in a struggling economy. B&I also obligated $1.6 billion in American Recovery and
Reinvestment Act of 2009 (ARRA) stimulus funds that created or saved more than 33,000 jobs for rural
Americans.
USDA’s grants to under-resourced rural communities help improve local infrastructure or expertise to attract new
businesses, and maintain appeal to local residents. For instance, while rural improvements are usually funded by
special local business tax assessments, these assessments may not be affordable in marginally viable areas. When
companies looking to relocation need special skill sets, USDA grants can fund small targeted job-training
programs. In addition to B&I, Rural Business and Cooperative Programs offer a full menu of economic
development loan and grant options. These options are delivered through cooperatives, non-profit organizations,
institutions of higher learning, local and tribal governments, and other rural business and economic development
stakeholders. These programs increase access to capital and business based services for rural communities and
finance infrastructure to assist with business development.
The Rural Energy for America Program provides grants and loan guarantees to rural residents, agricultural
producers, and rural businesses. These guarantees can be used for energy efficiency and renewable energy systems,
energy audits, and technical assistance. The program funds projects ranging from biofuels to wind, solar,
geothermal, methane gas recovery, advanced hydro, and biomass.
Renewable energy projects funded by USDA loans and grants improve the local economy by creating new jobs at
energy plants, enhancing the tax base, and increasing local business profits. Recent funds allowed many
agricultural producers and rural small business owners to decrease their energy consumption and increase their
profit margins.
Analysis of Results
USDA exceeded the target for this performance measure. The number of jobs created or saved is linked directly to
the amount of total available funding, amounts obligated and disbursed to awardees, and local economic
conditions. ARRA funds helped USDA exceed the target. Annual job targets are based on historic program
operations, subsidy rates, and annual appropriations. The target job numbers assume a level funding horizon and
timely allocations of funds without regard to the potential impact of major natural disasters. Budget authorities,
subsidy rates, and program levels vary annually. Recently, these factors resulted in a general decline in annual job



                                          Annual Performance Report
                                                      24
numbers. The targets, results, and usage of funds for USDA programs fulfilled expectations. Remaining program
funds will be carried over into FY 2011, and will continue to provide benefits to rural communities.


         Annual Performance Goals, Indicators,                                                                                          Fiscal Year 2010
                                                                  2006          2007          2008             2009
                      and Trends
                                                                                                                              Target       Actual          Result
 1.1.1    Number of jobs created or saved through                71,715        72,710        72,907           68,969          74,0051      128,808       Exceeded
          USDA financing of businesses.
 1The target in the Annual Performance Plan, 72,369, was revised upward to 74,005 to reflect actual performance in FY 2009, as final numbers were unavailable when the
 Annual Performance Plan was drafted. The performance data for FY2008 and FY2009 were revised to reflect updated performance figures.
 Rationale for Met Range: Job projected data are gathered when projects are obligated in the Guaranteed Loan System (GLS) data warehouse based on a formula
 driven by historic results. Final job counts are verified on closing the loan and grant.
 Data Assessment of Performance Measure 1.1.1
 Business program data are collected in various systems and ways. The program’s finance office records and reports total loan and grant obligations as
 of the date they are executed. These data are collected as part of the obligation process. The GLS, collects additional information to satisfy reporting
 requirements, and for management and evaluation purposes. This information includes the number of jobs projected at obligation and verified jobs
 created or saved at the transaction’s closing. Data used to determine the Business and Industry Guaranteed Loan Program’s delinquency status are
 generally reported directly by lenders into GLS. For other programs, USDA staff reports delinquency information.
 • Completeness of Data — Business program data are considered final and complete as of September 30 at the close of fiscal year, unless there are
     any year-end closing adjustments.
 • Reliability of Data — Business and Industry guaranteed loan borrower financial performance is reported by many, but not all, lenders semi-annually
     to USDA. Grantees generally report quarterly or semi-annually. There is inconsistency in the time periods represented by lender reports. In lieu of a
     reliable, consistent, and complete data set from lenders, the program’s finance office’s financial data have been found acceptable to the Office of
     Inspector General, as are state office-verified data on the financial performance of loans. Data for jobs created or saved are obtained by state office
     staff from borrowers and lenders. They are entered into GLS at the same time obligations are recorded. These data are reliable when they have
     been updated and verified by state staff. USDA reports the computed jobs saved or created based on underlying market and financial feasibility
     projections that support loan applications. The jobs are counted only in the fiscal year in which the loan is obligated. The delinquency rate, which
     excludes loans in bankruptcy, is based on reports supplied by lenders on the performance of each loan. While the percentage of States verifying
     third-party financial and jobs data have improved each year, further improvements are needed. The Department is testing an economic model to
     more accurately and completely show the impact of business programs in rural areas.
 • Quality of Data — While the percentage of States verifying third-party financial and jobs data has improved each year, further improvements are
     needed. The economic model described above should lead to these improvements.



Challenges for the Future
Rural economies face many challenges, including:
• Land development pressure and regulatory influences;
• Low profit margins on commodity sales, yet strong competition from commodities produced overseas;
• Large-scale changes in technology; and
• A lagging national economy.
Rural areas typically have underdeveloped public services that make it difficult to attract or retain businesses. The
lack of public funding for amenities which are common in urban areas, such as dedicated business parks or
expanded transportation links, creates additional challenges. Furthermore, a persistent lack of well paying job
opportunities (and the related local tax base ramifications) places many rural county and municipal governments
under great stress as they attempt to meet the community development and human services needs of their
constituents.




                                                            Annual Performance Report
                                                                        25
1.1.2  Number of borrowers/subscribers receiving new or improved telecommunication services (broadband)
       (millions)
Overview
USDA’s telecommunications program provides loans and grants specifically targeted for the deployment of
broadband service in small towns and communities. Utilizing advanced telecommunications services, the program
is a powerful tool in building strong rural economies, and increasing educational and healthcare services in rural
communities across the country. The telecommunications program finances broadband services that support the
economic growth of rural communities, including the creation or retention of rural businesses and jobs. All
facilities financed must be capable of providing high-speed Internet services.
The telecommunications program provides direct support to prospective loan and grant applicants through the
general field representatives who live and work in the rural communities that they serve. In cooperation with
USDA state offices, field and headquarters staff conduct outreach. This work increases awareness of and
participation in the program’s broadband loan and grant program and the broadband initiatives program of the
ARRA. It provides funding to ensure that farmers continue to contribute to local economies, take steps to build
and preserve critical infrastructure in communities across America, and implement new resource conservation
measures.
Analysis of Results
The telecommunications program met the FY 2010 performance target for number of borrowers/subscribers
receiving new and/or improved telecommunication services (broadband).

         Annual Performance Goals, Indicators,                                                                                         Fiscal Year 2010
                                                                  2006         2007           2008             2009
                      and Trends
                                                                                                                             Target       Actual          Result
 1.1.2    Number of borrowers/subscribers receiving               0.30         0.36           0.78             0.19           0.711         0.66            Met
          new and/or improved telecommunication
          services (broadband)(millions)
 1The 2009 figure includes ARRA funds. The FY 2010 Annual Performance Plan figure was calculated without ARRA funds. The amount reported in the FY 2009 PAR was
 recalculated for FY 2010.
 Rationale for Met Range: Annual targets for this measure are based on historic activity and adjusted according to program level received each fiscal year. Met range
 represents a possible 7 percent deviation from target.
 Data Assessment of Performance Measure 1.1.2
 • Completeness of Data — The county data are collected from each approved loan application. Applicants are required to detail their proposed
   service territories. This includes the number of subscribers to be served in the location by county. Loan funds are advanced only for approved
   purposes. Measuring the extent to which broadband service is deployed in rural America on a county-by-county basis will enable USDA to assess
   improved economic conditions because of the availability of high-speed telecommunications network access for residents and business. The data
   on the number of counties to be served for each loan are derived from applicants’ loan applications. Data must be complete before loans can be
   approved.
 • Reliability of Data — While applicants are required to perform market surveys of their proposed service areas, the actual counties served may vary
   from the plan if all funds are not used, or the borrower later requests a change of purpose from the original loan application. Overall, the data on
   counties served are reliable.
 • Quality of Data — All applications undergo an extensive review to determine eligibility. Additionally, all approved applications must show feasibility
   from a financial and technical standpoint. Applicants also are required to perform market surveys of their proposed service areas. Therefore, the
   data are reliable. As previously noted, the data on the number of counties to be served for each loan approved come from the applicant’s loan
   application. The data depend on the borrower drawing down loan funds and constructing the system as portrayed in the applicant’s loan design.
   Loan funds only may be used for the approved purposes for which the loan was made. Variance may result if a borrower does not draw down all
   loan funds or request approval for a change of purpose from the original loan. This could result in a different number of counties served from the
   number specified in the plan.


Challenges for the Future
ARRA provided an additional $3.5 billion in funding for broadband projects. The hundreds of new ARRA
broadband projects must be monitored to ensure completion of the projects within the required timeframe.

                                                           Annual Performance Report
                                                                       26
The Department will continue to coordinate with the U.S. Federal Communications Commission as it prepares
for the implementation of the National Broadband Plan. The plan is designed to ensure that all Americans have
access to broadband.
OBJECTIVE 1.2 CREATE THRIVING COMMUNITIES
1.2.1  Number of borrowers/subscribers receiving new or improved service from agency funded water facility
       (millions)
Overview
The water and environmental programs play a leading role in providing rural communities with modern,
affordable water and waste disposal services. These programs direct technical and financial program resources to
rural communities with the greatest need. These communities may be poverty-stricken because of out-migration,
natural disasters, or economic stress.
Analysis of Results
The water program exceeded the performance target for number of borrowers/subscribers receiving new and/or
improved service from USDA-funded water facilities. The target for the water program was calculated without
ARRA funds, but the program received ARRA funding in addition to regular funding. Thus, the target was
exceeded by 1.5 million borrows/subscribers.

          Annual Performance Goals, Indicators,                                                                                           Fiscal Year 2010
                                                                   2006          2007           2008             2009
                       and Trends
                                                                                                                                Target        Actual          Result
 1.2.1     Number of borrowers/subscribers receiving                1.7           1.3            4.4              4.21            3.42          4.9         Exceeded
           new or improved service from agency funded
           water facility (millions).
 1,2The 2009 figure includes ARRA funds; the FY 2010 Annual Performance Plan figure was calculated without ARRA funds. The amount reported in the FY 2009 PAR
 was recalculated for FY 2010.
 Rationale for Met Range: Annual targets for this measure are based on historic activity and adjusted according to program level received each fiscal year. Also, ARRA
 performance goals were set, based on the amount of funding provided for the program level according to historical activity. Met range represents a 5 percent deviation
 from target.
 Data assessment metrics to meet the target allow for an actual number in the range of 3,122,010 to 3,524,850.
 Data Assessment of Performance Measure 1.2.1
 • Completeness of Data — The Water and Environmental Programs (WEP) collects data initially through the Community Programs Application
   Processing (CPAP) system. CPAP is a non-financial system in which the agency field staff input data about applicants, borrowers, funding and
   services provided. The data obligations flow through the Rural Utilities Loan Servicing System, to the Program Loan Accounting System, and
   through a data server to a data warehouse.
 • Reliability of Data — USDA’s data warehouse stores historical information on Department programs and such non-agency data as census
   information. Program data are downloaded to the warehouse every evening from several accounting databases. Data generally are current through
   the previous day. The warehouse provides data about obligations and can be used to measure the number of loans, loan amounts, number of
   borrowers and funds advanced. The warehouse is an easy, accessible online method of extracting information and data for reports and analyses.
 • Quality of Data — Based on information in CPAP, the number of subscribers receiving new or improved water or wastewater service can be
   extrapolated from the data warehouse. The WEP National Office and USDA field offices use data from CPAP, the data warehouse, and Department
   accounting systems to review or evaluate the financial, operational, and managerial programs of the utilities serving rural customers.


Challenges for the Future
Rural communities must invest in modern water and wastewater facilities to attract families and businesses vital to
thriving communities. The communities must decide how to balance investing in new facilities to serve new or
proposed customers, with investing in upgrades to facilities that serve existing customers. They must weigh
growing their customer base, controlling costs, and modernizing aging facilities. Gaining access to credit markets
and leveraging funds from Federal, State, and private sources will continue to challenge rural communities.




                                                             Annual Performance Report
                                                                         27
1.2.2 Homeownership opportunities provided
Overview
USDA provides homeownership opportunities through the Single Family Housing Direct and Guaranteed
Programs. These programs provide homeownership opportunities to low- and moderate-income rural Americans
through several loan, grant, and loan guarantee programs. The programs also make funding available to
individuals to finance vital improvements necessary to make their homes decent, safe, and sanitary.
Revitalization of rural communities through the recovery of the ailing housing market is essential to a healthy
national economy. USDA’s Direct and Guaranteed Loan programs have helped to fill the void as private
mortgage lenders pulled back from financing homes for very low, low- and moderate-income families. The
Department provided record numbers of homeownership opportunities to rural families with direct loans or
Government guarantees during FY 2010.
Analysis of Results
The housing programs exceeded targets for the number of homeownership opportunities provided. As a result of
current mortgage credit markets, demand for guaranteed loans has increased. ARRA provided the Single Family
Housing direct and guaranteed Programs with more than $11.6 billion (Guaranteed and Direct).

         Annual Performance Goals, Indicators,                                                                                             Fiscal Year 2010
                                                                   2006          2007           2008              2009
                      and Trends
                                                                                                                                Target        Actual          Result
 1.2.2    Homeownership opportunities provided
          • Guaranteed Loans                                      31,131        35,322         62,933           133,045          97,000      121,537        Exceeded
          • Direct Loans                                          12,326        11,448         10,179            12,150           9,030       16,200        Exceeded
          • Total                                                 43,457        46,770         73,112           145,195         106,030      137,737
 Variance in totals between the Annual Performance Plan and the PAR is due to infusion of ARRA funds.
 Rationale for Met Range: The range of 10 percent is based on the historical variance from the target during the past several years in the number of houses sold in the
 Guaranteed and Direct Single Family Housing Loan Programs.
 Data Assessment of Performance Measure 1.2.2
 • Completeness of Data — Homeownership data are complete and final. Homeowenrship data are entered in the Web-based DLOS system. This
   centralized server application ensures viable data collection. It tracks performance and can be used to forecast needs. Information is entered into
   UniFi and uploaded nightly to the MortgageServe System. This system obligates funds, establishes closed loans, administers escrow accounts, and
   performs other administrative functions. Hyperion, a query and reporting tool, serves as the interface between the data warehouse and USDA staff.
 • Reliability of Data — Homeownership data originate in systems used to obligate funding and are reliable. Data for initial placement of households
   into their own homes are reliable. They are linked directly to homeownership loans maintained in USDA's financial accounting systems. No
   adjustments are made for later defaults and the resulting loss of homeownership.
 • Quality of Data — Homeownership data are based on loan obligations collected in the Dedicated Loan Origination and Servicing System, and
   stored in USDA's Data Warehouse. Thus, the data on the number of households are auditable. Data represent the popultion served based on the
   available U.S. Census Data.


Challenges for the Future
The demand for guaranteed loans is at an all time high and USDA is providing unprecedented support for the
loan program.
To meet the demands of this challenging market environment, USDA is developing the necessary tools of
automation and training. A comprehensive loan system designed to streamline the application and loan approval
process for a number of Department loan and grant programs is under development. Improvements to USDA’s
automation products will increase capacity and allow lenders, partners, and remotely located employees to
interface with other data systems. These changes will increase the speed and efficiency of operations.




                                                             Annual Performance Report
                                                                         28
While economic growth is needed to help America’s housing market recover, USDA’s housing programs will
continue to play a central role in providing funding and support to the many rural Americans still in need of
adequate, safe, and affordable housing.
1.2.3 Percentage of customers who are provided access to new and/or improved essential community facilities
Overview
USDA’s Community Facilities (CF) programs provide loans, grants, and loan guarantees for water and
environmental projects, as well as community facilities projects. CF demand exceeded that for previous years. The
Department attributes the increased demand to the lack of credit available for the capital needs of rural
communities.
Analysis of Results
The programs exceeded goals in each category. Across all areas of the program, USDA touched roughly one-
quarter of all rural Americans. Some of the community facilities projects received ARRA funds.

         Annual Performance Goals, Indicators,                                                                                                 Fiscal Year 2010
                                                                      2006          2007           2008              2009
                      and Trends
                                                                                                                                    Target         Actual          Result
 1.2.3    Percentage of customers who are provided
          access to new and/or improved essential
          community facilities
          • Health Facilities                                          3.8           7.2            4.8               5.4              5.0           5.5         Exceeded
          • Safety Facilities                                          3.8           6.2            5.7               5.0              5.4           6.0         Exceeded
 Rationale for Met Range: It is a challenge to measure the range of residents served because grants may vary widely, even within a category. One grant for a fire engine,
 for example, may serve 1,000 people, whereas another grant for a similar amount for a healthcare project might serve 10,000. Therefore, USDA would consider its 2010
 goal unmet if CF serves fewer than 4.7 percent of the rural population with new healthcare facilities and provides new fire, rescue and public safety facilities for less than
 5.1 percent of the rural population. The ranges include all CF program funding, including ARRA funds.
 Data Assessment of Performance Measure 1.2.3
 • Completeness of Data — Program data are complete and final. The Finance Office records and reports total loan and grant obligations as of the
   date of obligations. Additionally, the Department collects information for management and evaluation purposes. Data on delinquencies are reported
   by the Finance Office for CF direct loans, and by lenders for CF guaranteed loans.
 • Reliability of Data — CF data are entered into GLS by field staff as the program funds are obligated. These data are final, complete, and reliable.
   These data include the population served based on available U.S. census information. The service area for each facility is based on estimates. The
   Department screens the data regularly for irregularities. Given the variety of areas served by different types of community facilities, estimating the
   service area is not a precise science. Population estimates are based on engineering studies used for the design of new or expanded facilities.
   USDA is developing mapping technologies to improve this process.
 • Quality of Data — Data are projected based on historical performance. The target information uses data dependent upon the baseline projections
   from numerous Department agencies.


Challenges for the Future
Management will need to carefully consider the best ways to meet the demand for the program. Increasing
emphasis on partnering with other entities, requiring applicant contributions, and a maximum loan ceiling may be
considered. As long as the economic crisis continues, CF remains the major source for credit – in many cases,
virtually the only source – in rural communities.
1.2.4 Number of borrowers/subscribers receiving new and/or improved electric facilities (millions)
Overview
Providing reliable, affordable electricity is essential to the economic well-being and quality of life for the Nation's
rural residents. USDA’s electric loan program provides leadership and capital to upgrade, expand, maintain, and
replace America's vast rural electric infrastructure. The electric program makes direct loans and loan guarantees to
electric utilities and other entities that serve customers in rural areas. The loans and loan guarantees help finance
electric distribution, transmission, and generation facilities, including system improvements and replacement,

                                                               Annual Performance Report
                                                                           29
demand-side management, energy efficiency and conservation programs, and on-grid and off-grid renewable
energy systems. Loans are made to corporations, States, territories and subdivisions, and local agencies, such as
municipalities, utility districts, and cooperatives that provide retail electric service needs to rural areas, or supply
the power needs of distribution borrowers in rural areas.
Analysis of Results
The electric program exceeded its goal for providing new and improved electric facilities. The $7.1 billion of
approved new loan funding provides a major boost in modernizing electric infrastructure in rural America. More
than $500 million in loans approved will support grid modernization with more than 35,000 miles of new and/or
improved transmission and distribution improvements, and $133 million in new advanced meter systems. With
the assistance of USDA electric loans, borrowers will provide improved electric service to more than 9.4 million
retail consumers, including more than 300,000 new rural customers. The program has continued its priority for
renewable energy projects. More than $150 million in new loan guarantees for renewable electric generation
facilities were approved in FY 2010.

         Annual Performance Goals, Indicators,                                                                                          Fiscal Year 2010
                                                                  2006          2007          2008              2009
                      and Trends
                                                                                                                              Target        Actual         Result
 1.2.4    Number of borrowers’ consumers receiving                 8.2           5.8           8.1               9.8            6.1           9.4         Exceeded
          new or improved electric facilities (millions)
 Rationale for Met Range: Targets for this measure are based on historical results and adjusted according to program funding. Met range represents a 5 percent
 deviation from target.
 Data assessment metrics to meet the target allow for an actual number in the range 5.8 – 6.4 (millions).
 Data Assessment of Performance Measure 1.2.4
 • Completeness of Data — The Rural Utilities Service (RUS) Electric Programs performance data are collected from various agency documents,
   including RUS Form 740c, Borrower’s Statistical Profile, Information Publication 201-1, and borrower loan applications. The data are complete and
   accurate. They also are collected at the time of loan approval and/or reported annually.
 • Reliability of Data — First-time loan applicants must submit extensive financial and electric system data in support of their loan. Existing borrowers
   are required to report financial and operating data annually to the RUS. The data are used to administer Department loan funds and ensure the
   security of the loans. Borrower information and loan and grant approvals and advances are tracked in the Rural Utilities Loan Servicing System
   (RULSS). Borrower financial and system reports and information are collected and maintained through the data collection system in the Rural
   Development data warehouse.
 • Quality of Data — Performance goal data on the number of borrower consumers receiving new or upgraded electric service are derived from
   information in loan applications and annual reports. All applications are reviewed for compliance with all eligibility requirements for the various
   electric programs loans, guarantees, and grants. All approved applications must demonstrate financial feasibility and adequate loan security. Loan
   funds may be used only for the approved purposes for which the loan was made. Borrower loan applications and annual submissions are reviewed
   by field representatives and Headquarters staff for completeness and accuracy.


Challenges for the Future
Rural electric providers face many challenges and uncertainties because of economic conditions and new
environmental and energy policy initiatives. Electricity demand has continued to grow in rural communities at a
higher rate than in urban areas. This disparity reflects demographic conditions and economic development.
Expansion of renewable energy production in rural areas has been an additional source of increased electricity
demand in many rural areas. Interest in developing new renewable electricity projects and the expansion of energy
efficiency and conservation programs is also increasing. The program is working on regulations and policies that
will fully implement the new authorities of the Food Conservation and Energy Act of 2008 in these areas.




                                                            Annual Performance Report
                                                                        30
OBJECTIVE 1.3 SUPPORT A SUSTAINABLE AND COMPETITIVE AGRICULTURAL SYSTEM
1.3.1 Percentage of beginning farmers, racial and ethnic minority farms, and women farmers financed by USDA
Overview
USDA provides direct and guaranteed farm ownership and operating loans that aid family farmers and ranchers
in starting and maintaining profitable operations. The financial assistance provided through the loan programs is
a vital component of the Department’s farm safety net. Loan funds are used to pay normal operating or family
living expenses. They also help make capital improvements, refinance certain debts, and purchase farmland,
livestock, equipment, feed, and other materials essential to farm and ranch operations.
The loan programs are particularly important to beginning, minority, and women farmers. Because these farming
groups typically have fewer resources, they tend to be less likely to qualify for credit from a commercial source.
Therefore, USDA specifically targets a portion of its lending to these groups each year. The credit provided by
the Department helps reduce such barriers to entry as initial capital investment, high land values, and increasing
input costs.
The long-term success of American agriculture is dependent upon new farmers and ranchers entering the
economy. Unfortunately, the agricultural census indicates that the number of new entrants into farming has fallen
over time. The USDA Farm Loan Programs (FLP) helps offset this trend. FLPs enable beginning, minority, and
women farmers to enter the agricultural economy.
Analysis of Results
USDA exceeded its FY 2010 performance target for lending to beginning, minority, and women farmers. The
Department has made significant progress in expanding credit access to beginning, minority, and women farmers.
Lending to these groups has increased by more than 80 percent during the past decade, from $995 million in FY
2000 to nearly $1.8 billion in FY 2010. In FY 2010, USDA made more than 17,000 loans to beginning, minority,
and women farmers. As of September 30, 2010, the Department has nearly 53,000 beginning, minority, and
women farmers in its portfolio of direct and guaranteed loans.
Strong demand for USDA direct and guaranteed operating and farm ownership loans continues. Price weakness
in the livestock sector and the unusually long harvest season, caused by adverse weather conditions, combined
with heightened risk sensitivity in the commercial lending sector, resulted in increased application and loan
activity. Loan obligations totaled nearly $5 billion, the highest amount since 1985.
Overall FLP portfolio performance remains strong despite the continued weaknesses in specific sectors of the
agricultural economy during the past few years. Delinquency and loss rates for both direct and guaranteed loan
programs remain well below historic averages. In the direct loan program, the loss rate was 0.8 percent and the
delinquency rate was 6.2 percent. The guaranteed loan program registered a loss rate of 0.41 percent and a
delinquency rate of 1.88 percent.

         Annual Performance Goals, Indicators,                                                                                            Fiscal Year 2010
                                                                   2006          2007           2008             2009
                      and Trends
                                                                                                                                Target        Actual          Result
 1.3.1    Percentage of beginning farmers, racial and             15.5%         15.9%          16.2%            17.4%           17.5%         19.7%         Exceeded
          ethnic minority farmers, and women farmers
          financed by USDA
 The FY 2010 result is estimated based on three quarters of actual data and a fourth quarter projection.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 17.0-18.0 percent, since the threshold is +/-.5 percent.
 Data Assessment of Performance Measure 1.3.1
 Farm Loan Programs (FLP) data reside in the Program Loan Accounting System, Guaranteed Loan System, Direct Loan System, and FLP Databases.
 Information obtained from the 2002 Census of Agriculture is also used for this performance measure. The measure is calculated by taking the total
 number of minority, women, and beginning farmers in the loan portfolio, and dividing it by the number of members of those three groups listed in the



                                                             Annual Performance Report
                                                                         31
        Annual Performance Goals, Indicators,                                                                                Fiscal Year 2010
                                                             2006        2007          2008           2009
                     and Trends
                                                                                                                    Target      Actual          Result
 2002 Census of Agriculture with at least $10,000 in sales. (This sales figure excludes hobby farms, which are not the intended market for FLPs).
 • Completeness of Data — Data reported will be considered final as of September 30, 2010.
 • Reliability of Data — Data are considered reliable. System enhancements and built-in edits coupled with comprehensive internal control review
    programs help ensure data reliability and quality. While Census of Agriculture data are considered reliable, the resulting percentage reported likely
    understates the importance of USDA's service to these targeted groups. Despite this limitation, these data are the best available for estimating
    USDA's performance in reaching the targeted groups.
 • Quality of Data — FLP data are of high quality. Most FLP data originate from accounting systems, which are subject to OIG audit. FLP data are
    collected for multiple purposes and gathered throughout the normal lending process. Data derived from the 2002 Census of Agriculture were
    developed in FY 2006. They will be used until new performance targets are developed as part of a strategic planning process to be completed in FY
    2011. At that time, the 2002 Census data will be replaced with data from the 2007 Census.


Challenges for the Future
In recent years, USDA has improved FLP operational effectiveness and efficiency through program streamlining
and information technology initiatives. Building on these efforts in the future will be necessary to continue
providing high levels of customer service and program oversight and monitoring.
Additionally, as the U.S. agricultural sector continues to change, with farms becoming larger and increasingly
dependent on technology, entry into farming is more capital intensive than ever before. The costs associated with
operating a farm also continue to increase because of higher prices for feed, seed, fuel, and other input expenses.
These factors result in significant barriers and challenges for the groups that the USDA FLPs are intended to
assist.
1.3.2  Dollar value of agriculture trade preserved through trade agreement negotiation, monitoring, and
       enforcement ($ billions) Non-Sanitary Phyto/Sanitary (non-SPS) Activities
Overview
USDA continues to play a leadership role in negotiation of the Doha Development Agenda (DDA) which is
designed to lower trade barriers around the world to allow countries to increase trade globally. DDA negotiations
center around such issues as agriculture, tariffs, and trade remedies. An ambitious and balanced conclusion of the
Doha Round will substantially expand global trading opportunities, increase U.S. agricultural exports, and
contribute to the President’s goals for the National Export Initiative, which is designed to help farmers and small
businesses increase their exports and expand their markets. Substantial progress has been made in addressing
issues in all three “pillars” of the DDA agriculture negotiations – domestic support, market access, and export
competition.
USDA is participating in Trans-Pacific Partnership (TPP) negotiations with Australia, Brunei, Chile, New
Zealand, Peru, Singapore, and Vietnam. TPP is an Asian-Pacific trade agreement designed to increase American
exports in the region and create jobs domestically.
The Department also negotiated bilateral accession agreements with countries seeking World Trade Organization
(WTO) membership. The WTO is an international body that oversees the rules of trade between nations. In
2010, USDA played a critical role in supporting negotiations with Russia, Kazakhstan, Serbia, and several other
countries.
The Department works closely with the Office of the U.S. Trade Representative (USTR) to negotiate agreements
to maintain access to global markets for U.S. agriculture. USTR develops and recommends U.S. trade policy,
conducts trade negotiations, and coordinates trade policy within the Government. In June 2010, USDA played a
critical role in negotiating a framework with Brazil regarding the WTO cotton dispute. In the dispute, a WTO
panel found that the U.S. provided prohibited and actionable subsidies to domestic producers, users, and/or


                                                       Annual Performance Report
                                                                   32
exporters of upland cotton. The framework with Brazil helped avert the imposition of countermeasures of more
than $800 million in 2010.
Analysis of Results
The performance measure was exceeded. USDA employs a performance measure that estimates the value of trade
preserved through WTO agreement, enforcement, creation, and maintenance of free trade agreements, and
addresses trade barriers. Extensively monitoring and enforcing existing trade agreements helped the Department
to reach its target.

         Annual Performance Goals, Indicators,                                                                                             Fiscal Year 2010
                                                                    2006          2007           2008             2009
                      and Trends
                                                                                                                                 Target        Actual          Result
 1.3.2    Dollar value of agricultural trade preserved               $14          $670           $484             $368            $500          $520          Exceeded
          through trade agreement negotiation,
          monitoring, and enforcement ($ millions)
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Rationale for Met Range: The target for this measure is influenced by foreign parties. It reflects U.S. efforts to negotiate new agreements, addressing compliance with
 existing trade agreements, and resolving trade access issues that arise so that domestic exports can continue.
 Data Assessment of Performance Measure 1.3.2
 Data for the World Trade Organization and tariff rates are projected estimates based on results posted to the performance tracking system within
 USDA. Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results posted during the
 first three quarters of FY 2010
 • Completeness of Data — Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
     posted during the first three quarters of FY 2010.
 • Reliability of Data — Data are reliable and used by the Department to highlight successes in the trade-policy arena.
 • Quality of Data — USDA maintains a standardized methodology to forecast trade impacts. Calculation of trade benefits from preserving existing
     trade is fairly straightforward and easy using this standard methodology. The primary sources of trade data are Department of Homeland Security’s
     U.S. Customs and Border Protection, the Census Bureau, the USDA publication, Foreign Agricultural Trade of the United States, and other
     databases. Other sources include market reports compiled by USDA and industry estimates. Since measuring expected trade benefits from broad
     new trade agreements is extremely difficult, the Department evaluates its estimates against other outside estimates when available.


Challenges for the Future
The key challenge for increasing access to global markets is progress in the WTO Doha Round negotiations.
USDA will continue to monitor and take action on trade barriers relating to established trade agreements.
Barriers will continue to be addressed through the WTO dispute-settlement process, while others will be
addressed bilaterally. Improving market opportunities under bilateral and regional trade agreements depends on
the approval and implementation of agreements by all partners.
1.3.3  Value of trade preserved annually through USDA staff interventions leading to resolution of barriers created
       by Sanitary/Phytosanitary (SPS) or Technical Barrier to Trade (TBT) measures
Overview
While U.S. farmers and ranchers are among the world’s most productive and efficient, they frequently face
complex Sanitary/Phytosanitary (SPS) and Technical Barrier to Trde (TBT) in the global marketplace. These
barriers limit exports and/or impose additional costs on exporters. These factors reduce farm income and prevent
job growth in the agricultural sector.
Overcoming such barriers requires exceptional coordination across USDA, the rest of the U.S. Government, the
private sector, and with foreign officials. To overcome each barrier, the Department engages in such activities as
exchanging technical information, high-level political dialogue, and formal dispute settlement proceedings.



                                                              Annual Performance Report
                                                                          33
In FY 2010, USDA facilitated the prevention or removal of more than 30 SPS and TBT measures in more than
15 countries. These successes benefitted a wide variety of U.S products and included:
• Reopening the Russian and Chinese markets for U.S. pork and pork products;
• Overcoming Turkey’s ban on the import of all unapproved products containing or derived from agricultural
    biotechnology, including soy, cotton, and corn;
• Persuading China and Indonesia to adopt less restrictive food safety laws that affected a wide variety of U.S.
    agricultural products;
• Persuading the European Union (EU) to align its standards for acceptable levels of aflatoxins in tree nuts to
    international standards;
• Persuading Taiwan to adopt a maximum residue level for the pesticide malathion, thereby facilitating the
    entry of U.S. cherries; and
• Ensuring that EU’s cosmetic standards for grapefruit would not downgrade Florida grapefruit to a lower
    quality category, which would command a lower price.
Analysis of Results
USDA exceeded this performance measure. USDA tracks the value of trade preserved by resolving trade barriers
arising from SPS and TBT measures imposed by foreign governments. Trade issues and their impact on U.S.
exports depend primarily on foreign action. Sometimes, this action is in response to events in the U.S., such as a
livestock disease outbreak. Both the problems and the solutions are unpredictable. Solutions can range from a
quick agreement with officials at the port of entry to a long negotiation process followed by a lengthy regulatory
or legislative process in the country in question. The impact of an action can range from a few thousand to billions
of dollars. While USDA can establish priorities in advance for known constraints, unforeseen events frequently
require realigning priorities. In addition, volatile exchange rates affect the results reported for this measure.
The majority of SPS and TBT measures impacted food rather than bulk agricultural products. Resolution of
barriers to Asian markets showed a relative upswing from FY 2009, with a decrease in those from the Americas.
This reflects the growing importance of Asian markets as U.S. trading partners. Over the past 5 years, the top 10
destinations for U.S. agricultural products took approximately two-thirds of all agricultural exports, but the
makeup of the top 10 shifted over this period. Canada, Mexico, Japan, China, Taiwan, and S. Korea make up the
top six, with Turkey at number nine. By 2009, Hong Kong, Indonesia, and Russia had edged out the United
Kingdom, the Netherlands, and Germany. Largely due to barriers to U.S. pork and poultry, Russia dropped off
the list during the first half of 2010, replaced by the Philippines. China has overtaken Mexico and Japan to
become the second largest importer of U.S. agricultural products, second only to Canada. With its rise in
importance as a U.S. trading partner, China also presents the Nation with a larger number of significant SPS and
technical barriers to trade.
USDA changed the methodology for computing this measure. In prior years, the measure was an estimate of the
annual value of trade preserved or gained as a result of Department intervention in SPS and TBT issues.
Beginning in FY 2010, the measure is computed as actual, cumulative trade from the time a barrier is lifted, or
from the proposed effective date of a restriction prevented by USDA intervention. Because of the change in
methodology, the value of reported results will initially decline significantly from that reported in recent years.
This decline is because of the cumulative nature of the new measure and the frequent lag between barrier
resolution and the full restoration of interventions is not included in results reported under the new method, the
reported value is expected to grow as impact is tracked over time.




                                          Annual Performance Report
                                                      34
         Annual Performance Goals, Indicators,                                                                                              Fiscal Year 2010
                                                                    2006          2007           2008             2009
                      and Trends
                                                                                                                                 Target        Actual          Result
 1.3.3    Value of trade preserved annually through                 $2.6          $2.5           $7.3              $9.5            $3.6          $4.0         Exceeded
          USDA staff interventions leading to resolution
          of barriers created by Sanitary/Phytosanitary
          (SPS) ($ billions)
 Rationale for Met Range: The target for this measure is influenced by foreign parties. It reflects U.S. goals for addressing compliance with existing trade agreements and
 resolving trade access issues that arise so that domestic exports can continue. A met or exceeded target reflects USDA successes in addressing these barriers. An
 unmet target may not reflect that USDA monitoring activities prevented noncompliance.
 Data assessment metrics to meet the target allow for an actual number in the range $3.4-$3.8 ($ billions).

 Data Assessment of Performance Measure 1.3.3
 • Completeness of Data — USDA uses a performance tracking system to collect and analyze actual performance data. The data are collected from
   the Department’s network of overseas offices and headquarters staff. The staff conducts trade compliance and enforcement activities, and provides
   trade negotiation support to the U.S. Trade Representative.
 • Reliability of Data — Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
   posted during the first three quarters of FY 2010.
 • Quality of Data — In addition to audits and internal control review of the performance tracking system, an established procedure is maintained to
   review each reported success for verification and the prevention of double counting.


Challenges for the Future
The prevention and resolution of SPS and technical trade barriers are essential if U.S. agricultural products are to
enjoy the full benefits of market liberalization gained through multilateral trade negotiations. As developing
countries become increasingly active in the global trading system and as U.S. trading partners, their ability to
develop and implement transparent, science-based regulatory systems is increasingly vital to the long-term
viability of U.S. agriculture and our food supply. Besides monitoring and enforcing its rights under the World
Trade Organization SPS and TBT agreements, USDA continues to support the development and adoption of
science-based international standards and SPS regulatory systems.
Meat and poultry exports continued to be hampered by a variety of unjustified SPS barriers including those
related to animal diseases, maximum residue limits (MRLs) for veterinary drugs, zero tolerance pathogen
standards, and slaughter and processing plant approvals, particularly foreign insistence on plant-by-plant
approvals. Many of these problems manifest themselves in foreign export certification requirements that are
neither science-based nor consistent with international guidelines. The largest single technical trade issue of
concern to USDA remains the normalization of beef trade after the market closures caused by the 2003 findings
of Bovine Spongiform Encephalopathy, a progressive neurological disorder of cattle, in the U.S.
Trade barriers related to biotechnology also require increasing attention from USDA. To date, the most broadly
accepted new technology has been genetically engineered (GE) crops (soybeans, corn and cotton) and products
derived from these crops (oils, meal and feed). Together they comprise about one-third of total U.S. agricultural
exports. In addition, it is estimated that some 80 percent of processed foods sold domestically contain ingredients
and oils from GE crops. USDA efforts to overcome barriers to GE products include the advancement of science-
based regulations, efforts to ensure adherence to and enforcement of existing global commitments governing
trade, and coalition building with other countries interested in the safe use of agricultural biotechnology.
Finally, country-by-country variation in MRLs for pesticides poses a significant ongoing risk to U.S. fruit and
vegetable exports to many countries. While the U.S. is a global leader in the development and approval of safer
and more effective pesticides, the approval of pesticides in other countries and by international standards-setting
organizations often lags behind. The variation in approved pesticides that exists between trading partners appears
to be growing, increasing the potential for disrupting U.S. agricultural trade as new pesticides becomes approved



                                                              Annual Performance Report
                                                                          35
for the U.S. market. Specialty crop products have a particularly high risk of incurring MRL violations because
they require extensive pest control measures.
1.3.4  Value of Federal Crop Insurance Corporation (FCIC) risk protection coverage provided through FCIC
       sponsored insurance
1.3.5 Normalized value of FCIC risk protection coverage provided through FCIC sponsored insurance
Overview
USDA provides and supports cost-effective means for managing the risks of agricultural producers. This
assistance is designed to improve the economic stability of agriculture and rural communities. After assessing the
producers’ needs, USDA develops a variety of effective risk-management tools. These tools help farmers and
ranchers protect their livelihood in times of disasters or other uncontrollable conditions.
The USDA Federal Crop Insurance Program overseen by the Federal Crop Insurance Corporation (FCIC)
provides actuarially sound risk management insurance products to reduce agricultural producers’ economic losses
due to natural disasters or low prices. The Department partners with private crop insurance companies who
market and service individual policies and both share the risk. This partnership is governed by the Standard
Reinsurance Agreement (SRA).
In response to an authorization from Congress in the 2008 Farm Bill, negotiations for the 2011 SRA began late
in 2009, and were completed on July 13, 2010, when USDA announced that all approved crop insurance
companies had signed the new SRA. The new SRA calls for insurance companies to deliver risk-management
insurance products to eligible producers under specific terms and conditions. Companies are responsible for all
aspects of customer service and guarantee payment of producer premiums to the FCIC. In return, FCIC reinsures
the policies and provides premium subsidy to producers. It also reimburses the companies for administrative and
operating expenses associated with delivering and servicing the insurance products. The new SRA will have no
impact on farmers’ premium costs. It allows the administrative and operating subsidies paid to the insurance
companies to fluctuate within a range, but removes the potential for unreasonable increases in payments, such as
experienced during the 2007 through 2009 crop price bubble. It also reduces the rates of return insurance
providers are expected to earn from underwriting gains to a reasonable level. The resulting agreement will achieve
$6 billion in savings over the next 10 years against USDA program benchmarks.
USDA has implemented initiatives to increase awareness and service to beginning, small, and limited resource
farmers and ranchers and other under-served groups and areas. Through partnership agreements with public and
private agricultural organizations, land grant colleges and universities, community-based organizations, farmers
and ranchers, Hispanic Serving Institutions, and other stakeholders, the Department provides technical program
assistance and risk management education on strategies associated with economic, legal, production, marketing,
human resources, and labor risks. The new SRA provides additional incentives for insurance companies to provide
service in underserved states.
USDA uses the value of risk protection to measure the effectiveness of risk management. The value of risk
protection denotes the amount of crop insurance in effect protecting and stabilizing individual producers’ incomes
and consequently rural communities and economies.
Analysis of Results
The Department met its targets for the amount of risk protection provided to producers. The performance
measures illustrate the normalized and real dollar values of FCIC coverage in force within the agricultural
economy. The actual value performance measure (1.3.4) also shows the amount of potential collateral provided to
qualify for commercial loans. The normalized value performance measure (1.3.5) is a rolling average of several
years of actual value to account for the volatility of market prices. Since the 1999 crop year, the normalized value
has increased by approximately $26 billion, while the real value has increased by approximately $48 billion. While
there are a number of factors that influence these figures, including market-price increases and inflation, both


                                          Annual Performance Report
                                                      36
represent a major growth in the amount of the agricultural economy insured via the FCIC-sponsored insurance.
During the 2010 crop year, which covered parts of both the 2009 and 2010 fiscal years, the economic risk of
American agricultural producers was reduced by approximately $79 billion through Federal crop insurance
coverage.

         Annual Performance Goals, Indicators,                                                                                              Fiscal Year 2010
                                                                    2006          2007           2008              2009
                      and Trends
                                                                                                                                  Target        Actual          Result
 1.3.4    Value of FCIC risk protection coverage                    $49.9         $67.3          $89.9            $79.91          $81.4         $78.9             Met
          provided through FCIC sponsored insurance
          ($ billions)
 1.3.5    Normalized value of FCIC risk protection                  $48.1         $50.7          $51.5            $53.91          $51.9         $56.2             Met
          coverage provided through FCIC sponsored
          insurance ($ billions)
 These legacy performance goals, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 1The baseline model uses actual inputs (acres covered, prices, & yields) as they become available over time replacing previously projected figures. Therefore the results

 for each year may and usually do change from one computation of the baseline model results to the next. End-of-year results will be different from previously used results
 for earlier budget submissions.
 Rationale for Met Range: Annual targets for these measures allow a variation of plus or minus $4.4 billion in order to be met. The value of risk protection denotes the
 amount of insurance in effect protecting and stabilizing the agricultural economy. USDA’s value projection target is based on projections developed in November 2009,
 forecasted participation, and conditions current at that time. The normalized value of risk protection denotes the amount of insurance, holding prices constant, in effect
 protecting and stabilizing the agricultural economy. USDA’s normalized value projection target is based on projections developed in November 2009, forecasted
 participation, and conditions current at that time. The baseline model uses the latest information from the crop insurance program, and combines it with USDA baseline
 projections for major crops. These crops include corn, wheat, soybeans, sorghum, barley, rice, and cotton. In making the projections, the model holds various factors
 constant, such as premium rates and average coverage level. The model assumes that all non-major crops produce yields consistent with USDA projections for major
 crops. The baseline model is a tool for developing budget projections. The budget and performance projections for the crop insurance program depend on baseline
 projections from numerous USDA agencies.
 Data Assessment of Performance Measure 1.3.4 and 1.3.5
 • Completeness of Data — The data used in conjunction with performance information are based on actual information reported through the end of
   the third quarter. To provide the annual data, USDA projects the results for the fourth quarter of the fiscal year based on prior year performance.
   Analysis has shown that normally 99 percent of the final actual data will be reported to USDA during the first quarter of the next fiscal year. The
   Department receives the actual data from insurance companies. It then maintains data through two integrated processing systems that validate the
   information. The data then are sent through the system to generate all accounting functions. These processing systems ensure that data received
   are accurate, errors are corrected quickly, and timely monthly accounting reports are provided.
 • Reliability of Data —The insurance companies receive data from the producers and transmit them to the Department. Once received, USDA takes
   extensive steps to verify the data’s accuracy and validity. The Standard Reinsurance Agreement also provides reinsured companies with
   disincentives for not following prescribed guidelines and procedures.
 • Quality of Data — Data are projected based on historical performance. The target information uses data dependent upon the baseline projections
   from numerous USDA agencies. To the extent that any of the projections are inaccurate, the projection of value will also be inaccurate.


Challenges for the Future
USDA’s challenge is to maintain the core crop insurance products that provide the farm financial safety net for
the vast majority of producers and rural communities, while expanding and improving insurance coverage and
other risk management solutions, particularly for beginning producers, underserved states, areas, communities,
and commodities. The Department is addressing the management systems and financial information technology
costs associated with operating and maintaining existing program data needs. These systems and technologies also
service new and revised products. USDA continues to research how to deliver more crop and livestock products.
This research includes reviewing and approving private-sector insurance products reinsured by FCIC that are
targeted to the needs of underserved areas and various specialty crops. The new SRA provides additional
incentives for insurance companies to provide service in underserved states.




                                                              Annual Performance Report
                                                                          37
1.3.6  Number of farmers and ranchers that gained an economic, environmental, or quality-of-life benefit from a
       change in practice learned by participating in a Sustainable Agricultural Research and Education (SARE)
       project
Overview
The Sustainable Agricultural Research and Education (SARE) program is a regionally administered program that
funds competitive grants for research, education, outreach, and training of agricultural professionals. SARE
projects are designed to improve agricultural production systems. They bring scientists, educators,
communicators, and producers together to develop new ways for farmers and ranchers to simultaneously improve
profitability, protect the environment, and enhance their quality of life.
Analysis of Results
USDA met this performance measure. SARE’s benefits have been measured through several analyses. These
analyses have determined the number of farmers and ranchers reached by the various types of projects supported
by SARE, the percentage of these who changed practices as a result, and the percentage where these changed
practices persist. Through these analyses, USDA estimates the cumulative number of farmer and ranchers who
have benefitted from SARE as the total number of projects it has funded has increased.
Additional measures of program benefits have included the percent of project participants performing an outreach
activity (75 percent), the percent reporting improved soil quality (79 percent), and the percent reporting increased
sales (64 percent). The program has also measured the number of producers adopting new practices after reading
SARE publications (53 percent).
The high percentage of farmers and ranchers reporting a positive impact from SARE projects and publications
can be attributed to multiple attributes of the program. These attributes include the regional structure of the
program, the diverse composition of the regional administrative councils, a focus on objectives and outcomes, the
active involvement of farmers and ranchers throughout the process, a multidisciplinary approach, a broad portfolio
of project types that addresses multiple nodes on the research, education and implementation continuum, and
consistent consideration for outreach, training, and education.

         Annual Performance Goals, Indicators,                                                                                          Fiscal Year 2010
                                                                  2006          2007          2008              2009
                      and Trends
                                                                                                                              Target         Actual          Result
 1.3.6    The number of farmers and ranchers that                 9,610        10,240        10,849           11,4881         11,800         11,800            Met
          gained an economic, environmental or quality-
          of-life benefit from a change in practice
          learned by participating in a SARE project.
 1The figure for 2009 has been updated since the Annual Performance Plan was released. The number is calculated in July each year for the previous year.

 Rationale for Met Range: This measure assesses the SARE program's progress toward helping farmers and ranchers improve their knowledge of sustainable agriculture
 production and marketing practices that ultimately lead to improved profitability, environmental stewardship, and quality of life. Notes: (a) As part of the program's
 requirements, this measure is calculated from periodic program impact studies.
 • Data assessment metrics to meet the target allow for an actual number in the range 11,550-12,050 (+/- 250)
 Data Assessment of Performance Measure 1.3.6
 The number of farmers and ranchers who gained an economic, environmental or quality-of-life benefit from a change in practice learned by
 participating in a SARE project. This measure assesses SARE's progress toward helping farmers and ranchers improve their knowledge of sustainable
 agriculture production and marketing practices that ultimately leads to improved profitability, environmental stewardship, and quality of life. Notes: (a)
 As part of the program's requirements, this measure is calculated from periodic program impact studies.
 • Completeness of Data — The data are based on actual data reported by SARE.
 • Reliability of Data—This measure is calculated from periodic program impact studies that are part of the program's requirements.
 • Quality of Data — Data are projected based on historical performance. To the extent that any of the Department’s projections are inaccurate, the
    projection of value will also be inaccurate.




                                                            Annual Performance Report
                                                                        38
Challenges for the Future
USDA must extend its outreach and expand collaborative partnerships. These steps are necessary to satisfy the
growing interest in sustainability across much of the Nation’s agricultural enterprise.
SARE has supported a number of systems research projects to characterize and quantify interrelationships
between production, economic, environmental, and social factors over the years. There is now a growing interest
to increase support for such larger scale systems research projects. At the same time, the program leaders want to
be very careful to maintain a diverse portfolio of project types that includes small scale exploratory projects which
have historically been a rich source of innovation.
1.3.7 Percentage of industry compliance with the Packers and Stockyards Act
Overview
USDA’s Packers and Stockyards Program measures its overall performance by annually measuring regulated
entities’ compliance with the Packers and Stockyards (P&S) Act. P&S prohibits unfair, deceptive, unjustly
discriminatory, and fraudulent practices. It also bans regulated businesses from engaging in specific anti-
competitive practices.
The performance measure encompasses activities the Department conducts that directly or indirectly influence
industry compliance. The overall performance rate is a composite index of five program-wide audit and inspection
activities. The index includes:
• Poultry contract compliance reviews;
• Financial audits of a random sample of a firm’s custodial accounts with the sample size set to yield 90 percent
    confidence when inferred to the population of regulated entities;
• Financial audits of the prompt pay records of a random sample of firms with sample size set to yield 90
    percent confidence;
• Inspection of all scales and weighing practices in all packing plants purchasing more than 1,000 head per year;
    and
• Inspection of all carcass evaluation devices and practices for a random sample of packing plants purchasing
    more than 1,000 head per year.
The aggregated industry compliance rate index reflects the statutory and regulatory compliance of the regulated
industry with the P&S.
Analysis of Results
This performance measure was unmet. Industry compliance with P&S remained at 80 percent in 2010, sustaining
2008’s improvement over the 75 percent rate of 2007. Results of the individual component inspections and audits
that comprise the aggregate index show a year-to-year increase in compliance rates in 2009 for four of the five
areas’ reviews (not shown). The fifth component, poultry contract compliance review, replaced insolvency audits
in 2009 and scored a relatively low rate of 60 percent. If insolvency audits had been included in the aggregate
index as in prior years, the aggregate index score would have been 85 percent.

         Annual Performance Goals, Indicators,                                                                                                Fiscal Year 2010
                                                                     2006          2007           2008              2009
                      and Trends
                                                                                                                                   Target        Actual           Result
 1.3.7    Percent of industry compliance with the                     n/a          75%             80%              80%              83%           80%            Unmet
          Packers and Stockyards Act
 These legacy performance goals, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Rationale for Met Range: This lower than expected rate is attributed to two factors not known at the time of the target forecast’s creation. One is the current financial
 turmoil the industry is experiencing and how that influences compliance with custodial account and prompt payment provisions. The second is how that influences
 compliance with prompt payment laws.




                                                              Annual Performance Report
                                                                          39
        Annual Performance Goals, Indicators,                                                                           Fiscal Year 2010
                                                          2006        2007         2008           2009
                     and Trends
                                                                                                               Target      Actual          Result
 Data Assessment of Performance Measure 1.3.7
 The index measure denotes the level of industry compliance with the Packers and Stockyards Act. USDA’s measure of industry compliance is a
 composite measure based on actual data collected through audit and inspection activities. Details about the composite index can be found in the
 narrative above.
 • Completeness of Data—Depending on the activity, the data is based on either entities within a predefined threshold or random samples of entities
    with sample size to yield 90 percent confidence.
 • Reliability of Data—Department employees conduct the audits and inspections and thus collect the data directly.
 • Quality of Data—Data are collected by trained USDA employees. For items using a random sample, the sample size is chosen to yield a 90 percent
    confidence level.



Descriptions of Actions for Unmet Measures
This lower than expected rate is due largely to the poor economy’s impact on the industry and how that influences
compliance with prompt payment laws.
Challenges for the Future
In general, the index measures three business and two financial practices for industry compliance with the P&S
Act. While additional focus on activities to achieve industry compliance has resulted in increased compliance,
general economic conditions within the industry will also affect year-to-year compliance. Weak economic
conditions may increase the incentive for industry non-compliance more quickly in the financial components than
in the business practice areas. The full effect of these external conditions on the compliance rate is unknown. To
the degree that this measure only has a 4-year history, understanding the interaction of these variables on the
overall compliance rate will be a challenge USDA confronts in future years.
1.3.8     Maintain or increase percentage of program benefits delivered through a Web environment
The performance measure “Maintain or increase percentage of program benefits delivered through a Web
environment” is not included in the FY 2010 PAR. Data supporting the measure did not provide information
needed to accurately measure how farmers enter data into a Web-enabled form. It is also clear that development
of two or more measures to track both short and longer term information technology (IT)/Web performance
across the Farm Service Agency is necessary to provide an accurate picture of the effort USDA is putting forth to
modernize its IT systems. The Department and Agency commit to this task and have set a target of including
such measures in the FY 2011 PAR. Our goal will be to have a set of metrics that captures the key phases of
implementing modernized IT applications, especially those which enable producers to transact business with
USDA on the Web. Ultimately, this will make the process of participation in USDA programs by producers more
effective and efficient.

Strategic Goal 2:           Ensure Our National Forests and Private Working Lands are Conserved,
                            Restored, and Made More Resilient to Climate Change, While Enhancing Our
                            Water Resources
America’s prosperity is inextricably linked to the health of its lands and natural resources. Forests, farms, ranches,
and grasslands offer enormous environmental benefits as a source of clean air, clean and abundant water, and
wildlife habitat. These lands generate economic value by supporting the vital agriculture and forestry sectors,
attracting tourism and recreation visitors, sustaining green jobs. They are also of immense social importance,
enhancing rural quality of life, sustaining scenic and culturally important landscapes, and providing opportunities
to engage in outdoor activity and reconnect with the land.




                                                     Annual Performance Report
                                                                 40
Federal, tribal, State, and private lands face increasing threats from climate change, catastrophic wildfires, intense
floods and drought, air and water pollution, aggressive diseases and pests, invasive species, and development
pressures. These threats result in land and water conversion and reduced wildlife habitat. At the same time, there
are immense opportunities to capture and increase the environmental, economic, and social benefits these lands
provide. USDA plays a pivotal role in protecting and restoring America’s forests, farms, ranches, and grasslands
while making them more resilient to threats and enhancing natural resources. The Department partners with
private landowners to help protect the Nation’s 1.3 billion acres of farm, ranch, and private forestlands. As public
land stewards, USDA works to conserve and restore 193 million acres of National Forests and Grasslands in the
National Forest System. The Department also partners with Federal, tribal, and State Governments and non-
governmental organizations to assist land and natural resource managers and connect people to the Nation’s
magnificent lands.
USDA is also a key player in the President’s America’s Great Outdoors Initiative to build a 21st century
conservation agenda, based on the experience and ideas of people from across the country. The goal of the
initiative is to conserve natural resources, both public and private, while reconnecting Americans to the outdoors.
OBJECTIVE 2.1 RESTORE AND CONSERVE THE NATION’S FORESTS, FARMS, RANCHES AND GRASSLANDS
2.1.1 Conservation Reserve Program (CRP): Restored wetland acreage (millions of acres)
Overview
USDA’s Conservation Reserve Program (CRP) allows producers to plant long-term, resource-conserving covers.
CRP is designed to improve the quality of water, control soil erosion, and enhance wildlife habitat on land
enrolled in the program. In return, USDA provides participants with rental payments and cost-share assistance.
Contract duration is between 10 and 15 years. The program is designed to prevent degradation of wetland areas,
increase sediment trapping efficiencies, improve water quality, prevent soil erosion and provide habitat for
waterfowl and other wildlife.
CRP includes several initiatives for wetland restoration and enhancement. One is the Farmable Wetlands
Program (FWP). FWP restores acres of farmable wetlands and associated buffers by improving the lands’
hydrology and vegetation. FWP is designed to prevent degradation of wetland areas, increase sediment trapping
efficiencies, improve water quality, prevent soil erosion, and provide habitat for waterfowl and other wildlife.
Other initiatives include the 250,000 acre Bottomland Hardwood Timber Initiative, the 250,000 acre Non-
floodplain Wetland Restoration Initiative, and the 150,000 acre Prairie Pothole Duck Nesting Habitat Initiative.
Analysis of Results
The target for this performance measure was exceeded. USDA has made substantial progress in protecting
watershed health and enhancing soil quality. Total CRP enrollment stands at more than 31.3 million acres. These
acres annually reduce soil erosion by more than 450 million tons. They also reduce nitrogen, phosphorus, and
sediment leaving the field by more than 85 percent, and sequester more than 44 million metric tons of carbon
dioxide. CRP has reached more than 2 million acres of restored wetlands.
CRP also contributes to increased wildlife populations. It has helped the duck population of the North Prairie
Region expand by 2 million. The program has also recovered sage and sharp-tailed grouse populations in Eastern
Washington and increased ring-necked pheasant and grassland bird populations.

                                                                                                  Fiscal Year 2010
         Annual Performance Goals, Indicators,
                                                      2006   2007    2008      2009
                      and Trends
                                                                                         Target     Actual           Result
 2.1.1    CRP: Restored wetland acreage (million      2.03   2.08    1.98      2.04       1.99        2.05      Exceeded
          acres)




                                                   Annual Performance Report
                                                               41
                                                                                                                                      Fiscal Year 2010
        Annual Performance Goals, Indicators,
                                                                 2006         2007           2008             2009
                     and Trends
                                                                                                                            Target       Actual          Result
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range of 1.94-2.04 million acres.
 Data Assessment of Performance Measure 2.1.1
 The data source for this measure is the National CRP Contract and Offer Data Files.
 • Completeness of Data — The targets and actual data are annual. Data are based on estimated results through September 30, 2010. The measure
    reports national acres under contract with the following wetland practices: Wetland Restoration, Marginal Pastureland Buffers, Bottomland Trees,
    and Shallow Water Areas for Wildlife, and Farmable Wetlands Programs. There are no known data limitations.
 • Reliability of Data — Data is collected locally, cross-checked, and aggregated at HQ. CRP is authorized through FY 2012.
 • Quality of Data — The Department is conducting research to quantify the environmental functions provided by CRP wetland restoration. When
    available, these estimates may also be used to track performance.


Challenges for the Future
In FY 2010, CRP enrollment authority was decreased in the Food, Conservation and Energy Act of 2008 to no
more than 32 million acres. The Act is designed to expand food security programs, protect the Nation’s vital
natural resources, promote healthier foods and local food networks, and reform commodity and biofuel programs
to reflect domestic priorities. During FY 2011, enrollments are expected to be between 31 and 32 million acres.
While creating a challenging situation, USDA remains strongly committed to attaining its conservation and
global change objectives. Special focus will be placed on targeting and monitoring acreage impacts in the
President’s High Priority Performance Goals priority areas. To advance this area, the Department will seek new
wetland contracts for more than 50,000 acres in FY 2011 and FY 2012. USDA will also seek contracts covering
40,000 acres to fulfill riparian buffers and grass filter goals. In addition, USDA will continue several initiatives,
including the 350,000-acre upland bird buffer, the 150,000-acre Duck Nesting Habitat Initiative, and the State
Areas for Wildlife Enhancement Initiative. The latter is a 650,000-acre initiative announced in FY 2007 to
improve habitat for endangered, threatened, or high-priority fish and wildlife species. USDA will also continue
the 250,000 acre initiative to restore longleaf pine. In the early 1700s, more than 90 million acres of longleaf pine
ecosystem existed. Today, fewer than 4 million acres exist.
2.1.2  Conservation Technical Assistance (CTA): Cropland with conservation applied to improve soil quality
       (millions of acres)
2.1.3 Environmental Quality Incentives Program (EQIP): Cropland with conservation applied to improve soil
       quality (millions of acres)
Overview
Agriculture and the quality of America’s soil and water resources are vital to the Nation’s welfare. Approximately
1.5 billion acres (79 percent of the total acres within the contiguous United States) are non-Federal land.
Approximately 90 percent of these acres are cropland, rangeland, pastureland, or private non-industrial forestland.
The care and health of privately owned working farm and ranch lands are dependent upon the individuals who
own and manage them. High-quality soils support the efficient production of crops for food, fiber and energy;
they support sustainability of agricultural operations through good stewardship, and minimize offsite
environmental impacts to surface and groundwater systems.
Restoring and maintaining high-quality soils on working agricultural land is one of the objectives of conservation
planning. USDA helps producers install conservation practices and systems that meet established technical
standards and specifications. The Department also provides financial incentives and assistance to encourage
producers to adopt land treatment practices proven to provide significant public benefits. Conservation planning is
the first step in addressing a resource concern. These plans provide producers with information on the current


                                                           Annual Performance Report
                                                                       42
condition of the land, irrigation management, and wildlife habitat needs. This work gives the owner/operator a
full understanding of the conservation practices needed to address any problems. It also introduces the USDA
programs available to assist in financing conservation practice implementation.
Analysis of Results
USDA met its targets for helping producers apply conservation practices on cropland to improve soil quality. The
Department assisted landowners and operators in developing 14.1 million acres of conservation planning, and
14.6 million acres of applied conservation practices from all USDA programs on privately owned and operated
crop and hay land. Operation changes in crop rotations, equipment, or management practices often necessitate
the need for technical assistance to adjust conservation systems or conservation practice timing, even on land well-
protected under previous systems. Approximately 13.2 million unique acres of cropland were treated for soil
quality across the nation. Sixty-three percent or 8.2 million acres of that land was treated through CTA technical
assistance, and 36 percent or 4.8 million acres treated using EQIP technical and financial assistance1.

         Annual Performance Goals, Indicators,                                                                                       Fiscal Year 2010
                                                                   2006         2007           2008            2009
                      and Trends
                                                                                                                           Target        Actual         Result
 2.1.2    CTA: Cropland with conservation applied to                6.4          7.3            8.3            7.6           7.5           8.2            Met
          improve soil quality (millions of acres)
 2.1.3    EQIP: Cropland with conservation applied to               3.4          5.3            5.6            4.8           5.0           4.8            Met
          improve soil quality (millions of acres)
 These legacy performance goals, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Actual performance October 1, 2009 through September 30, 2010.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range: CTA 6.8 (90 percent) – 8.3 (110 percent);
 EQIP 4.5 (90 percent) – 5.5 (110 percent). The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the
 Program Contracts Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.1.2 and 2.1.3
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices applied
 are accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in the
 Customer Service Toolkit (Toolkit). The same land unit may benefit from the application of more than one conservation practice. Where more than one
 program is used to apply practices on the same land unit, each program is credited under the performance measure.
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY2010.
     Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
     to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated and
     received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Toolkit, and
     warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID, enabling detailed quality-
     assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
     are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
     within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Challenges for the Future
The economy influences producers’ decisions on conservation measures. Even with the availability of financial
assistance, there is hesitation to commit to conservation practices in an uncertain economic climate.




1 Approximately 0.2 million acres of cropland received soil quality improvement through other NRCS programs.




                                                             Annual Performance Report
                                                                         43
2.1.4  CTA: Grazing land and forest land with conservation applied to protect and improve the resource base
       (millions of acres)
2.1.5 EQIP: Grazing land and forest land with conservation applied to protect and improve the resource base
       (millions of acres)
Overview
Grazed forests, range and grasslands comprise nearly 55 percent of the Nation’s total land area of 2.3 billion acres.
Healthy forests, grazing and grasslands contribute to the health and well-being of the Nation’s soil, water, air and
wildlife. USDA’s strategic focus is to reduce fire danger, minimize the threat of invasive species, reduce soil
erosion, maximize groundwater recharge and improve surface water quality. The Department provides technical
assistance to farmers and ranchers on privately held forests, working agricultural lands and grasslands.
Conservation planning is the first step in maintaining a sustainable, highly productive grazing system.
Owners/operators are advised of USDA programs that may help finance conservation practice implementation.
This process is designed to:
• Improve or maintain the natural moisture holding capacity of the soil;
• Maintain or enhance groundwater recharge areas;
• Maintain animal carrying capacity;
• Improve offsite water quality;
• Provide carbon sequestration;
• Reduce competition from invasive species on native plants; and
• Maximize forest productivity, all while minimizing wild fire fuel levels.
Analysis of Results
USDA exceeded both its CTA and EQIP targets for conservation applied to protect and enhance the nation’s
privately owned and operated grazing and forest lands. USDA conservation experts assisted landowners and
operators in writing or updating conservation plans and applying conservation practices on private forest, grazing,
and grasslands. Operation changes in crop rotations, equipment, or management practices often necessitate the
need for technical assistance to adjust conservation systems or conservation practice timing, even on land well-
protected under previous systems.

         Annual Performance Goals, Indicators,                                                                                       Fiscal Year 2010
                                                                 2006         2007          2008             2009
                      and Trends
                                                                                                                           Target       Actual          Result
 2.1.4    CTA: Grazing land and forest land with                  8.0         12.2          16.5             16.0           14.6         17.6         Exceeded
          conservation applied to protect and improve
          the resource base (millions of acres)
 2.1.5    EQIP: Grazing land and forest land with                12.2         16.5          16.9             17.2           15.0         17.5         Exceeded
          conservation applied to protect and improve
          the resource base (millions of acres)
 These legacy performance goals, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Data assessment metrics to meet the CTA target allow for an actual number in the range 13.1 (90 percent) – 16.1 (110 percent).
 Data assessment metrics to meet the EQIP target allow for an actual number in the range 13.5 (90 percent) – 16.5 (110 percent).
 Rationale for Met Range: The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the Program Contracts
 Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.1.4 and 2.1.5
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices applied
 are accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in Toolkit.
 The same land unit may benefit from the application of more than one conservation practice. Where more than one program is used to apply practices
 on the same land unit, each program is credited under the performance measure.



                                                           Annual Performance Report
                                                                       44
        Annual Performance Goals, Indicators,                                                                               Fiscal Year 2010
                                                            2006         2007         2008            2009
                     and Trends
                                                                                                                   Target      Actual          Result
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY2010.
   Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
   to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data — For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated
   and received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Customer Service
   Toolkit (Toolkit), and warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID,
   enabling detailed quality-assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported
   data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
   are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
   within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Challenges for the Future
Several serious threats pose risks to public and private forestland and grassland. They include wild fire, invasive
species, loss of open space and unmanaged outdoor recreation. In many areas, especially in the West, most
watersheds and landscapes include public land managed by several Federal agencies and private, State and tribal
lands. Protecting the natural resources in these areas requires cooperation among a large number of stakeholders.
2.1.6  Farm and Ranchlands Protection Program (FRPP): Prime, unique, or important farmland protected from
       conversion to nonagricultural uses by conservation easements, acres
Overview
The health of the Nation’s working lands and natural resources directly affect the sustainability of food and fiber
production, water quality and quantity, wildlife habitat, aquifer recharge, and clear air. The sustainability of
working farms provides essential economic stability to the rural community.
USDA works with farmers, ranchers, and forest landowners to maintain working lands and preserve open space.
This includes developing markets and purchasing land or conservation easements. The latter is designed to slow,
and in some cases reverse, the conversion and fragmentation of environmentally and economically significant
farms and grasslands. The Farm and Ranch Protection Program (FRPP) allows the Department to purchase
conservation easements to protect topsoil by limiting nonagricultural uses of the land. USDA also partners with
State, local, and tribal governments and non-government organizations to share in the costs of acquiring
conservation easements. For every Federal dollar invested through FRPP, an additional two dollars has been
contributed by the participating State, local, and tribal entities, non-governmental organizations, and landowners.
Analysis of Results
The performance measure was exceeded, at 13,898 acres, or 35 percent, above target. The historical percentage of
prime farmland easement acres to total FRPP easement acres is 65 percent (prime acres/farmland acres). In FY
2010, a combination of above-average closing on total FRPP farmland easements (+16,646 acres) and a prime to
farmland percentage increase to 74 percent explain why the target exceeded estimates.
The combined acreage from all 4 easement programs totaled 173,323 acres. FRPP farmland made up 72,646 of
that total. FRPP easements on prime, unique, and important farmland was 53,898 acres. To achieve this result,
USDA worked with eligible State, tribal, or local governments or non-governmental organizations to acquire
conservation easements from interested landowners. This performance measure emphasizes how vital prime,
unique, and important farmland is to the Nation’s food security through sustained agricultural production.




                                                       Annual Performance Report
                                                                   45
         Annual Performance Goals, Indicators,                                                                                      Fiscal Year 2010
                                                                2006         2007          2008             2009
                      and Trends
                                                                                                                          Target       Actual          Result
 2.1.6    FRPP: Prime, unique, or important farmland           46,909       38,495        27,401           38,260         40,000       53,898        Exceeded
          protected from conversion to nonagricultural
          uses by conservation easements (acres)
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Actual performance October 1, 2009 through September 30, 2010.
 Data assessment metrics to meet the target allow for an actual number in the range 36,000 (90 percent) – 44,000 (110 percent).
 Rationale for Met Range: The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the Program Contracts
 Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.1.6
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices applied
 are accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in Toolkit.
 The same land unit may benefit from the application of more than one conservation practice. Where more than one program is used to apply practices
 on the same land unit, each program is credited under the performance measure.
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY 2010.
     Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
     to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data — For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated
     and received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Customer Service
     Toolkit (Toolkit), and warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID,
     enabling detailed quality-assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported
     data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
     are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
     within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Challenges for the Future
Agricultural land conversions have slowed in recent years, but are expected to rise in the future. The loss of
agricultural operations and their associated lands destabilizes rural economies and places stress on agricultural
businesses. The demand for conservation easements far exceeds available funds, so providing easements to
agricultural operations that provide the most benefits to the local community will remain a major challenge.
2.1.7  Wildlife Habitat Incentives Program (WHIP): Non-Federal land with conservation applied to improve fish
       and wildlife habitat quality, acres
Overview
USDA addresses the needs of wildlife on privately owned working agricultural lands. The Department provides
technical and financial assistance to landowners and managers to restore, improve or maintain suitable habitat.
USDA technical experts provide on-site assistance to assess the quality of wildlife habitat, the actions necessary to
restore or enhance that habitat, and develop management plans to maintain the habitat in a suitable (sustainable)
condition. These technical experts develop management plans with recommendations for wildlife shelter, nesting,
water and food relative to current site conditions. Implementation of the plan results in sustained and enhanced
wildlife habitat.
The Department combines financial and technical assistance through a variety of programs to improve resident or
seasonal habitat for wildlife considered threatened and listed on endangered species lists (Federal or State). These
programs are also designed to help other species experiencing serious declines due to habitat loss. USDA financial
assistance may involve assistance with conservation practice installation, the development of long-term easements
to protect against conversion, or a combination of the two. USDA provided technical and financial assistance to


                                                          Annual Performance Report
                                                                      46
restore or enhance wildlife habitat to 13 million acres and, using the Wetlands Reserve Program (WRP), secured
easements on an additional 74,180 acres. WRP is a voluntary program offering landowners the opportunity to
protect, restore, and enhance wetlands on their property.
USDA also works with other agencies and private organizations to provide producers with technical and financial
assistance, information and other resources to evaluate, and encourage the adoption of conservation measures and
management practices beneficial to wildlife.
Analysis of Results
The Department’s target was not met. The measure identifies where USDA technical experts, using WHIP,
assisted landowners with the installation of conservation practices designed to improve or restore critical wildlife
habitat. Some of the conservation practices installed were on WRP easements.

         Annual Performance Goals, Indicators,                                                                                      Fiscal Year 2010
                                                                2006         2007          2008             2009
                      and Trends
                                                                                                                          Target       Actual          Result
 2.1.7    WHIP: Non-Federal land with conservation            175,543       388,769       316,896         335,402         350,000      295,227         Unmet
          applied to improve fish and wildlife habitat
          quality (acres)
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Actual performance October 1, 2009 through September 30, 2010.
 Data assessment metrics to meet the target allow for an actual number in the range 315,000 (90 percent) – 385,000 (110 percent).
 Rationale for Met Range: The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the Program Contracts
 Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.1.7
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices
 appliedare accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in
 Toolkit. The same land unit may benefit from the application of more than one conservation practice. Where more than one program is used to apply
 practices on the same land unit, each program is credited under the performance measure.
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY 2010.
     Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
     to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data — For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated
     and received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Customer Service
     Toolkit (Toolkit), and warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID,
     enabling detailed quality-assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported
     data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
     are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
     within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Descriptions of Actions for Unmet Measures
Producers are less willing to make long-term commitments regarding the use of their land during times of
economic uncertainty. This affects the creation and restoration of critical upland and wetland habitats.
Challenges for the Future
Many wildlife projects are supported by a combination of Federal, State, local, and private funds. State and local
budget constraints may affect project implementation.




                                                          Annual Performance Report
                                                                      47
OBJECTIVE 2.2 PROTECT AND ENHANCE AMERICAS WATER RESOURCES
2.2.1 CTA: Comprehensive nutrient management plans applied (number of plans)
2.2.2 EQIP: Comprehensive nutrient management plans applied (number of plans)
Overview
The Department provides science-based technical assistance to land users on privately owned lands to help protect
and enhance the Nation’s water resources. The Conservation Technical Assistance Program (CTA) is designed to
provide technical assistance to land users to address opportunities, concerns, and problems related to the use of
natural resources. This assistance helps land users make sound natural resource management decisions on private,
tribal, and other non-Federal lands. A major component of a conservation plan on animal operations is the
Comprehensive Nutrient Management Plan (CNMP). A CNMP addresses the specialized requirements of
animal agriculture. The plan covers such issues as animal feed, animal manure storage, and manure (nutrient)
application on crop and hay lands.
A CNMP is not one practice, but an integrated set of practices which fully address feed, storage, nutrient, and
erosion control on all land associated with the animal operation. USDA conservation experts assist land owners
and operators by developing CNMPs that take into account the crop production (food), manure applications
(nutrient), and potential offsite environmental impacts to surface and groundwater systems, such as soil and
nutrient runoff. As a result, the technical expert and owner/operator agree to an integrated set of conservation
practices consistent with the farm/ranch operation, maximize the use of nutrient resources and protect ground and
surface water quality. In addition, the availability of financial assistance through one or more of the Department’s
programs for practice implementation is discussed. More than 60 percent of USDA’s financial assistance for
surface and groundwater protection is focused on animal operations.
Once a CNMP is developed, the Department provides owners and operators with technical and financial
assistance. This assistance helps them install the conservation practices and systems identified within the CNMP.
All practices designed and installed using USDA technical or financial assistance meet established technical
standards and specifications. As animal agriculture has become more concentrated, public concern about potential
environmental damage has increased. The Department focuses on helping producers comply with State and local
regulations to minimize the potential for damage to water or air resources from livestock operations.
Analysis of Results
USDA met its CTA target, but did not meet the EQIP target.

         Annual Performance Goals, Indicators,                                                                                       Fiscal Year 2010
                                                                 2006         2007          2008             2009
                      and Trends
                                                                                                                           Target       Actual          Result
 2.2.1    CTA: Comprehensive nutrient management                2,269        1,911          1,745           1,485           1,300        1,349           Met
          plans applied (number of plans)
 2.2.2    EQIP: Comprehensive nutrient management               2,774        2,490          2,520           2,019           2,000        1,739          Unmet
          plans applied (number of plans)
 These legacy performance goals, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Actual performance October 1, 2009 through September 30, 2010.
 Data assessment metrics to meet the target allow for an actual number in the range CTA 1,170 (90 percent) – 1,430 (110 percent).
 Data assessment metrics to meet the target allow for an actual number in the range EQIP 1,800 (90 percent) – 2,200 (110 percent).
 Rationale for Met Range: The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the Program Contracts
 Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.2.1 and 2.2.2
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices applied
 are accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in Toolkit.



                                                           Annual Performance Report
                                                                       48
       Annual Performance Goals, Indicators,                                                                                 Fiscal Year 2010
                                                             2006        2007          2008           2009
                    and Trends
                                                                                                                    Target      Actual          Result
 The same land unit may benefit from the application of more than one conservation practice. Where more than one program is used to apply practices
 on the same land unit, each program is credited under the performance measure.
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY 2010.
    Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
    to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data — For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated
    and received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Customer Service
    Toolkit (Toolkit), and warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID,
    enabling detailed quality-assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported
    data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
    are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
    within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Descriptions of Actions for Unmet Measures
USDA fell short of its EQIP target by 261 plans.
Uncertainty within the economic sector continues to influence individual conservation practice installation and
completion of CNMPs. This uncertainty affects the willingness of landowner/operators to invest in conservation
practices that do not provide an immediate financial return. In most cases, low- or no-cost, easily implemented
CNMPs have been completed. Those that remain, both planned and in the design stage, are far more
complicated. They require a higher level of owner/operator financial investment. Since CNMPs are reported only
after all planned practices are installed, postponing or cancelling the installation of even one practice seriously
impacts Department performance with regard to anticipated workload. This was the case in FY 2010, and could
be a factor over the next few years.
Challenges for the Future
The quality of ground and surface waters to support intended uses is a continuing concern, as is the supply of
these waters to meet expanding demand. Challenges to maintaining the quality of ground and surface waters will
include the continuing concentration of livestock operations, increased acreage cropped for ethanol and cellulosic
sources of biomass, the risk of soil erosion from more frequent and intense storm events, and reduced surface
plant cover due to drought. Competition for water will continue to increase, especially in areas with a limited or
variable water supply. In addition, the expansion of cropped acres to produce energy may increase agricultural
demand for water. Climate change may also impact future water quality and quantity. Drought, increasingly
variable precipitation rates, and urban uses in many parts of the Nation, result in water shortages in areas that
have had adequate supplies in the past.
If global market demands encourage increased food and feed production, agricultural producers may use
environmentally sensitive land for production rather than establishing long-term crop rotations suitable for site
conditions, such as conservation covers or buffers.
2.2.3 Wetlands Reserve Program (WRP): Wetlands created, restored or enhanced (acres)
Overview
Approximately 87 percent of the Nation’s surface supply of drinking water originates on forest, farms and range
lands. Protection and restoration of America’s wetland ecosystems is crucial to improving water quality. These
ecosystems provide habitat for fish and wildlife, store floodwaters, and maintain surface water flow during
seasonal dry periods. According to the Council on Environmental Quality, agricultural conservation and technical
assistance accounts for 58 percent of the wetland acreage restored or created by Federal programs.


                                                       Annual Performance Report
                                                                   49
USDA has several programs to provide technical assistance in managing wetland habitats as well as financial
assistance to secure easements and apply conservation practices. The Wetlands Reserve Program (WRP) is the
primary USDA program dedicated to the restoration, creation and enhancement of wetland ecosystems. Often,
USDA partners with individuals, communities, non-governmental organizations, tribes, State and local
governments to provide the assistance necessary in order to secure long-term or permanent easements on wetland
habitat and systems in danger of conversion or loss.
Analysis of Results
The Department met the FY 2010 target for the performance measure. USDA provides technical and/or financial
assistance to install one or more conservation practices designed to create, restore or enhance wetlands on working
farms and ranches. The objective of practice installation is the restoration, creation, or enhancement of a working
wetland system.

         Annual Performance Goals, Indicators,                                                                                      Fiscal Year 2010
                                                                2006         2007          2008             2009
                      and Trends
                                                                                                                          Target       Actual          Result
 2.2.3    WRP: Wetlands created, restored or                  181,979       149,330       128,860         106,379        125,000      129,082           Met
          enhanced. (acres)
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Actual performance October 1, 2009 through September 30, 2010.
 Data assessment metrics to meet the target allow for an actual number in the range 112,500 (90 percent) – 137,500 (110 percent).
 Rationale for Met Range: The chief sources of data for these performance measures are the National Conservation Planning Database (NCP), the Program Contracts
 Database (ProTracts) and the Performance Results System (PRS).
 Data Assessment of Performance Measure 2.2.3
 To ensure program accountability and evaluate program efficiency, data on conservation plans written and conservation practices applied must be
 linked to the program that funded the staff time needed to carry out each activity. Data on the linkage of programs and conservation practices applied
 are accurate because the conservation program responsible for applying each practice is documented in the conservation plan developed in Toolkit.
 The same land unit may benefit from the application of more than one conservation practice. Where more than one program is used to apply practices
 on the same land unit, each program is credited under the performance measure.
 • Completeness of Data — The performance reported for these measures is based on actual data reported through September 30 of FY 2010.
     Numerous data quality mechanisms within PRS ensure the completeness of each performance record entry. Each performance record must adhere
     to a set of quality assurance requirements during the upload process to be credited towards the performance measure.
 • Reliability of Data — For FY 2010, the data reported for these performance measures were calculated within PRS based on information validated
     and received from the NCP and ProTracts. Conservation plans are developed in consultation with the customer, created with the Customer Service
     Toolkit (Toolkit), and warehoused in the NCP. Applied conservation practices are date-stamped, geo-referenced and linked to an employee ID,
     enabling detailed quality-assurance reviews. Periodic reviews are conducted at the field, state and national level to assess the accuracy of reported
     data.
 • Quality of Data — Overall quality of the data is good. The data are reported by field staff located where the conservation is occurring. Field staffs
     are trained and skilled in conservation planning and application suited to the local resource conditions. Error checking enhancements and reports
     within the PRS application maintain data quality and allow users at the local, state and national level to monitor data inputs.


Challenges for the Future
Commodity prices, economic conditions, weather, and developmental pressures influence the ability and
willingness of agricultural producers to restore, improve and protect habitat areas. In hard or uncertain economic
times, producers are less willing to make long-term commitments regarding the use of their land. This hesitation
may affect easement acquisition and wetland restoration of prior converted cropland.




                                                          Annual Performance Report
                                                                      50
OBJECTIVE 2.3 REDUCE RISK FROM CATASTROPHIC WILDFIRE AND RESTORE FIRE TO ITS APPROPRIATE PLACE ON THE LANDSCAPE
2.3.1  Percentage of total National Forest System land base for which fire risk is reduced through movement to a
       better condition class
Overview
USDA measures the relative progress of hazardous fuels treatments against a 2005 baseline measure of Fire
Regime Condition Class (FRCC). FRCC is an expression of the departure of the current condition from the
historical fire regime, resulting in alterations to the ecosystem. A condition class is measured as a 1, 2, or 3, with 3
being the most significant departure from the historical fire regime. Activities that cause the departure include fire
exclusion, timber harvesting, grazing, and the growth of exotic plant species, insects, and disease.
The measure is calculated by determining how many acres were moved to an improved condition class during the
fiscal year. That number is added to the previous year’s cumulative total and divided by the baseline number of
acres that “needed” improvement. The baseline was developed in 2005 based on an estimate of how many acres
were in fire regime condition class 2 or 3.
In 2005, it was estimated that 123 million acres were in FRCC 2 or 3. The acres which move to a better
condition class are added to a cumulative total and divided by the 2005 baseline. Therefore, the annual increment
is only a fraction of a percent.
Analysis of Results
USDA did not reach the performance target.
Hazardous fuel treatments are completed on more than 2 million acres each year. Though many treatments do
not improve condition class, the area treated will likely have a reduced risk of unnaturally severe fire to
communities and resources, while producing integrated benefits for restoring fire-adapted ecosystems, enhancing
wildlife habitat, and increasing forest health and watershed quality. In addition, while some treatments maintain
condition class and others are incremental steps toward an improved condition class, several hundred thousand
acres are moved to a better condition class annually. A variety of factors influence the ability to meet this goal,
including weather, resource availability, and the number of treatments required. It often takes multiple treatments
to move an area toward its desired condition, and it may take repeated entries over time to move an area to the
desired condition.

         Annual Performance Goals, Indicators,                                                                                                Fiscal Year 2010
                                                                     2006          2007           2008              2009
                      and Trends
                                                                                                                                   Target          Actual          Result
 2.3.1    Percentage of total National Forest System                 1.1%          1.9%           2.1%              3.0%            3.0%           2.55%            Unmet
          land base for which fire risk is reduced
          through movement to a better condition class
 The FY 2010 result is estimated based on three quarters of actual data and a fourth quarter projection.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range of 2.85 percent to 3.15 percent. USDA projects that it will
 narrowly miss this target. While USDA has conducted numerous treatments using both prescribed fire and mechanical treatment in FY 2010, it often can take multiple
 treatments in a single area to move an acre to Condition Class 1. Condition Class 1 refers to acres in a condition where fire regimes are within a historical range and the
 risk of losing key ecosystem components is low. Also, while acres affected by wildland fires can contribute to improved condition class, the number of wildfires, and the
 acreage affected on National Forest System lands in FY 2010 was somewhat lower than expected.
 Data Assessment of Performance Measure 2.3.1
 The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA wildfire and other program
 managers collected, compiled, and analyzed the data.
 • Completeness of Data — Values shown are final FY 2010 data.
 • Reliability of Data — All data for hazardous fuels were reported through the National Fire Plan Operations Reporting System. USDA and the U.S.
    Department of Interior (DOI) land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by program
    managers, and certified by the respective line officer.




                                                               Annual Performance Report
                                                                           51
         Annual Performance Goals, Indicators,                                                                                              Fiscal Year 2010
                                                                    2006          2007           2008              2009
                      and Trends
                                                                                                                                  Target         Actual          Result
 • Quality of Data — Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is monitored
   continuously, and being improved with focused training and policy direction on reporting requirements. Data are projected based on historical
   performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately upon completion of the
   project, the quality of the projection will be compromised. USDA uses clear business rules and program direction to ensure the timely entry of
   project completions. In FY 2010, USDA redesigned its data entry system to increase overall product quality.


Descriptions of Actions for Unmet Measures
FRCC is primarily a measure of current ecological condition compared to an historic fire regime. It is not a direct
measure of fire risk or fire danger. The performance measure was not met because the program shifted funds to
treatment of Wildland Urban Interface (WUI) acres. WUI refers to residential areas in locations subject to
wildland fire. This change in funding and emphasis reduced overall accomplishment of acres and thereby reduced
the total number of acres that improved condition class. Treatments in the WUI are more likely to emphasize
objectives related to resource protection over objectives related to ecological conditions.
Challenges for the Future
USDA continues to increase its focus on treating more strategic acres in the more costly WUI. The Department’s
shift in focus to these priority acres means that fewer acres overall will be treated, leading to fewer changes in
condition class. In addition, rising costs, such as fuel and aviation, contributed to increased expenditures, not all of
which could be offset by cost management actions. Other integrated accomplishments will decrease due to
reduced budgets in programs that contribute to the overall unified fuels target. These reductions will affect
progress towards the desired conditions.
2.3.2 Acres of WUI fuels treated to reduce the risk of catastrophic fire
Overview
USDA’s hazardous fuels reduction program conducts fuel-reduction treatments on forest lands. These treatments
are designed to reduce the risk of catastrophic fire and restore and maintain fire-adapted ecosystems.
Implementing fuel treatments near communities in the WUI continues to be a high priority. As part of this
process, communities are allowed to determine the best ways to reduce the risk of wildfire through Community
Wildlife Protection Plans (CWPPs).
Analysis of Results
USDA exceeded the target for this measure.
WUI treatments have become more expensive and increasingly more complex. This is due to the treatment
proximity to communities and infrastructure, and the associated air quality regulations and safety concerns.
USDA provides cost-effective protection to communities and resources by shifting its focus to the highest priority
areas. As a result of a more focused application of resources, including California making significant contributions
to the total acres treated, the 2010 target was exceeded.

         Annual Performance Goals, Indicators,                                                                                              Fiscal Year 2010
                                                                    2006          2007           2008              2009
                      and Trends
                                                                                                                                  Target         Actual          Result
 2.3.2    Acres of WUI fuels treated to reduce the risk             1,590         1,654          1,940            1,740            1,470          1,545         Exceeded
          of catastrophic fire (in thousands)
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range of 1,397 to 1,544. USDA continues to emphasize
 treatments in the WUI. In addition, Recovery Act treatments and a less severe fire season allowing additional fuels work both contributed to meeting this target.




                                                              Annual Performance Report
                                                                          52
         Annual Performance Goals, Indicators,                                                                                             Fiscal Year 2010
                                                                   2006          2007           2008              2009
                      and Trends
                                                                                                                                 Target         Actual          Result
 Data Assessment of Performance Measure 2.3.2
 The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA wildfire and other program
 managers collected, compiled, and analyzed the data.
 • Completeness of Data — Values shown are final FY 2010 data.
 • Reliability of Data — All data for hazardous fuels were reported through the National Fire Plan Operations Reporting System. USDA and the U.S.
    Department of Interior (DOI) land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by program
    managers, and certified by the respective line officer.
 • Quality of Data — Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is monitored
    continuously, and being improved with focused training and policy direction on reporting requirements. Data are projected based on historical
    performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately upon completion of the
    project, the quality of the projection will be compromised. USDA uses clear business rules and program direction to ensure the timely entry of
    project completions. In FY 2010, USDA redesigned its data entry system to increase overall product quality.


Challenges for the Future
In FY 2011, USDA will focus on complex high-priority work in WUIs where Community Wildfire Protection
Plans (CWPP) or equivalent plans have been completed. Only 1,600 CWPPs have been completed out of the
69,696 communities identified as at-risk from wildfire.
2.3.3 Percentage of acres treated in the WUI that have been identified in Community Wildlife Protection Plans
Overview
USDA works with other Federal and state foresters, local communities, and non-governmental organizations in
developing CWPPs. CWPPs are designed to enable communities to determine the best ways to reduce the risk of
wildfire. This collaboration helps establish clear objectives for hazardous fuel reduction and wildfire prevention
efforts. There are other equivalent plans and efforts to help make a community more fire adapted in the WUI
where treatments are effective and important.
Analysis of Results
The Department exceeded the target for acres treated in the WUI that had been identified in a CWPP. USDA is
progressing towards protecting high-priority values at risk, especially human life and property.

         Annual Performance Goals, Indicators,                                                                                             Fiscal Year 2010
                                                                   2006          2007           2008              2009
                      and Trends
                                                                                                                                 Target          Actual          Result
 2.3.3    Percentage of acres treated in the WUI that               17%          25%             36%              28%             41%             43%             Met
          have been identified in Community Wildlife
          Protection Plans
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 38.95 percent to 43.05 percent. USDA projects that it will
 meet the target for this measure. USDA continues to stress the importance of working with partners in helping communities plan and prepare for wildland fires, which has
 likely led to an increase in these types of treatments.
 Data Assessment of Performance Measure 2.3.3
 The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA wildfire and other program
 managers collected, compiled, and analyzed the data.
 • Completeness of Data — Values shown are final FY 2010 data.
 • Reliability of Data — All data for hazardous fuels were reported through the National Fire Plan Operations Reporting System. USDA and the U.S.
    Department of Interior (DOI) land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by program
    managers, and certified by the respective line officer.




                                                             Annual Performance Report
                                                                         53
       Annual Performance Goals, Indicators,                                                                             Fiscal Year 2010
                                                           2006        2007         2008           2009
                    and Trends
                                                                                                                Target        Actual        Result
 • Quality of Data — Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is monitored
   continuously, and being improved with focused training and policy direction on reporting requirements. Data are projected based on historical
   performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately upon completion of the
   project, the quality of the projection will be compromised. USDA uses clear business rules and program direction to ensure the timely entry of
   project completions. In FY 2010, USDA redesigned its data entry system to increase overall product quality.


Challenges for the Future
An even greater emphasis on high priority WUI treatments is planned. These treatments will take place in more
costly and complex areas. These treatments already have been identified in CWPPs or an equivalent plan.




                                                      Annual Performance Report
                                                                  54
Strategic Goal 3:      Help America Promote Agricultural Production and Biotechnology Exports as
                       America Works to Increase Food Security
A productive agricultural sector is critical to increasing global food security. For many crops, a substantial portion
of domestic production is bound for overseas markets. USDA helps American farmers and ranchers use efficient,
sustainable production, biotechnology, and other emergent technologies to enhance food security around the
world and find export markets for their products.
Food security is measured by the availability of food and the ability to purchase food. A family is considered food
secure when its members do not live in hunger or fear of starvation. Food security in foreign countries is affected
by a number of factors, including the extent of the domestic food supply; the proportion of a nation’s total volume
of commodities used for such nonfood uses as feed or fuel; post-harvest losses due to waste and decay; the ability
to finance food and agricultural imports; population income levels; and the proportion of income that must be
devoted to food.
The Department is working to ensure U.S. agricultural resources contribute to enhanced global food security;
enhance America’s ability to develop and trade agricultural products derived from new technologies; and promote
sustainable and productive agricultural systems that enable food-insecure nations to feed themselves.
OBJECTIVE 3.1 ENSURE US AGRICULTURAL RESOURCES CONTRIBUTE TO ENHANCED GLOBAL SECURITY
3.1.1 Food Aid Targeting Effectiveness Ratio
Overview
To combat hunger, malnutrition, and poverty, USDA is working to promote enhanced food security through its
international development programs. Major goals include enhancing agricultural productivity, mitigating and
adapting to global climate change, and increasing trade with, and investment in, developing countries. This work
will enhance economic growth, food security, and the supply and affordability of food. USDA also provides food
assistance to developing countries through the donation of food commodities via its Food for Education and Food
for Progress programs. In combination with food assistance that covers gaps in supplies and helps to keep the
population healthy, the Department is assisting foreign governments in adopting productivity-enhancing
technologies. These technologies include biotechnology, reconstructing agriculture in post-conflict or disaster
areas, developing sustainable natural resource management systems, and strengthening agricultural research and
extension programs. USDA also works with foreign counterparts to advance market-based policies and
institutions, and expand international trade through trade capacity building. This work helps countries meet their
World Trade Organization (WTO) obligations, avoid or eliminate barriers to trade, and strengthen policy and
regulatory frameworks, with an emphasis on food safety and biotechnology. WTO is an international body that
oversees the rules of trade between nations.
In FY 2010, USDA collaborated with other Federal agencies in crafting the Feed the Future (FTF) Initiative.
FTF is designed to reduce global hunger and poverty by addressing their root causes and employing proven
strategies for achieving large scale and lasting changes. Through the initiative, the Department works with host
governments, development partners, and other stakeholders to achieve those goals. FTF links USDA’s technical
assistance efforts with the U.S. Agency for International Development, the White House, the State Department,
partner countries, multilateral institutions, private voluntary organizations, the private sector, donors, and civil
societies around the world.
USDA’s technical assistance has fostered positive change in other countries. Under the Iraqi Agricultural
Extension Revitalization Project, the Department and a five-member university consortium headed by Texas
A&M University helped professors and extension agents improve advisory services for Iraqi producers. They also
conducted an independent training needs assessment for the Iraqi Red Meats Association. USDA has also
provided technical assistance to the Government of the Republic of Georgia’s national statistics service, GeoStat.


                                           Annual Performance Report
                                                       55
As a result, GeoStat has developed an emerging, highly skilled agricultural division. This division is now
collecting and disseminating nationally- and regionally-representative statistics on the agricultural situation, while
also providing critical information for policy makers and the private sector.
USDA also has seen international success with the McGovern-Dole International Food for Education and Child
Nutrition Program. McGovern-Dole helps promote education, child development, and food security for some of
the world’s poorest children. It provides for donations of U.S. agricultural products and financial and technical
assistance for school feeding and maternal and child nutrition projects in developing countries. In Senegal, for
example, USDA continued to fund Counterpart International (CPI) to enhance the education and health status
of target communities. CPI provides school meals, health clinics, school gardens, and capacity building for
parent-teacher associations. It has helped children show dramatic improvement in their ability to pass compulsory
exams and advance to the next grade level. In Bolivia, the Department continued its support of Project Concern
International. Project Concern is an international health organization that saves the lives of children and families
around the world by preventing disease and providing access to clean water and nutritious food. This
collaboration has provided school meals, teacher training, and government capacity building. Attendance rates for
all children have increased more than 10 percent since the program’s 2005 inception.
Analysis of Results
The performance measure was met. The Food Aid Targeting Effectiveness Ratio (FATER) is based on a USDA
food security assessment. For countries with greater food insecurity, there is a larger estimated food gap. FATER
measures the effectiveness of USDA food aid in closing the gap. The higher the FATER score, the larger the
percentage of the estimated food gap met by USDA programmed food aid. In countries with greater food
insecurity, the FATER value would be relatively low because of large food gaps in those countries. The FATER
value would be higher in countries with less food insecurity, where the food gaps are smaller. A target of 35
percent represents a balance of food aid programming across countries with greater and lesser levels of food
insecurity.

         Annual Performance Goals, Indicators,                                                                                         Fiscal Year 2010
                                                                  2006         2007           2008             2009
                      and Trends
                                                                                                                              Target     Actual           Result
 3.1.1    Food Aid Targeting Effectiveness Ratio                30-35%         38%            57%              49%             37%         37%             Met
          (Percent)
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 34-39 percent.
 Data Assessment of Performance Measure 3.1.1
 Data on quantities and use of food aid commodities of food aid are captured through the USDA Food Assistance Division database.
 • Completeness of Data — Data for successfully reporting on the effectiveness ratio are based on the annual provision and use of food aid. Total
    quantities of commodities and how these commodities are used by the beneficiary in the country of donation is compiled and analyzed by USDA.
    Data include food aid provided by the Department.
 • Reliability of Data — Data are reliable, of good quality, and used by agency officials to highlight the success and impacts of food aid programs and
    strengthen food security.
 • Quality of Data — Data for successfully verifying the quantities and use of food aid commodities in which USDA analyzes to show the effectiveness
    of food aid are captured through the USDA Food Assistance Division database. The outcome from the analysis also is further confirmed through a
    variety of credible sources, including:
    − Reports from USDA and U.S. Department of State personnel at overseas posts;
    − Program activity reports as provided by USDA partner organizations;
    − Follow-on evaluations conducted by USDA;
    − Reports from other USDA agencies, the U.S. Department of State, and the U.S. Agency for International Development;
    − On-going assessment of the progress of projects; and
    − Evaluation of activities by outside consulting firms.




                                                            Annual Performance Report
                                                                        56
Challenges for the Future
In the Food Security Assessment, 2010-2020, USDA estimates that the number of food-insecure people in
developing countries will decrease about 7.5 percent from 953 million in 2009 to 882 million in 2010. Despite
this drop, the number of food-insecure people will not improve much during the next decade, declining by only 1
percent. While there will be notable improvements in Asia and Latin America, the situation in sub-Saharan
Africa is projected to deteriorate after 2010. Food-insecure people are defined as those consuming less than the
nutritional target of 2,100 calories per day per person. Any increase or decrease highlights that consumption for
large portions of the populations in lower income countries is clustered around the nutritional target. Even a brief
economic slowdown or food production shock could result in millions of additional people being subjected to food
insecurity. Conversely, a slight improvement in economic conditions can propel people past the nutritional target.
USDA will continue to work with other Federal agencies through FTF. The Department also will work with
global stakeholders to provide the political momentum and resources needed to address these challenges.
USDA will also continue to improve the efficiency and effectiveness of its food aid programs. The Web-based
Supply Chain Management Project and the Food Aid Information System will bring improved technology and
up-to-date information to the grants process. Implementation of both systems will take place in FY 2011. The
implementation will require testing, training, and resources. Increasing efficiency will be important to help offset
expected increases in commodity prices and the budget environment.
OBJECTIVE 3.2 ENHANCE AMERICAS ABILITY TO DEVELOP AND TRADE AGRICULTURAL PRODUCTS DERIVED FROM NEW TECHNOLOGIES
3.2.1  Cumulative number of genetically engineered plant lines reviewed by USDA and found safe for use in the
       environment
Overview
USDA takes a science-based approach in regulating products derived from new technologies, such as genetic
engineering (GE). GE is a precise and predictable method used to introduce new traits into plants and animals by
moving genetic elements from one or more organisms into another. This system allows for the safe development
and use of agricultural goods derived from genetic engineering. These technologies provide increased production
options to agricultural producers. Before a GE crop can be commercialized, the Department thoroughly evaluates
it to ensure there is no plant-pest risk. This evaluation process enhances public and international confidence in
these products.
After a GE organism has been extensively field tested and demonstrates no plant pest risk, the developer may
petition USDA for a non-regulated status. The Department also acts proactively to include the public in its
regulatory processes. It gives the public a chance to comment on substantive regulatory changes and proposals
through Federal Register notices and rulemaking procedures. USDA approves a petition when it is determined
that the plant-pest risks posed by the GE organism are not greater than its non-GE counterparts.
Analysis of Results
The performance measure is unmet.
The Department processed approximately 91,000 constructs during FY 2010, compared to 63,000 in FY 2009.
Each construct requires individual environmental analyses. Technological and scientific advancements result in
new crops and traits, concurrently increasing the complexity of sound regulatory decisions.
USDA tracks the cumulative number of GE crops it no longer regulates. When a GE plant line is no longer
regulated, the developer is free to sell the product to producers who then make it available to growers. This
process demonstrates the new and innovative GE technologies that have the potential to enter the marketplace
and enable the U.S. to compete in international trade. USDA set a goal to approve five GE plant lines in FY
2010. It fell short of meeting the target and only approved three lines.



                                          Annual Performance Report
                                                      57
         Annual Performance Goals, Indicators,                                                                                          Fiscal Year 2010
                                                                  2006          2007           2008             2009
                      and Trends
                                                                                                                              Target        Actual          Result
 3.2.1    Cumulative number of genetically engineered               70           741           762               783             85           81            Unmet
          plant lines reviewed by USDA and found safe
          for use in the environment
 1,2,3USDA reviewed the calculation methodology for this performance measure and discovered that a previous deregulation of a plant line was accounted for in the wrong

 fiscal year – the data for 2007 was off by one and the following fiscal years were adjusted accordingly.
 Data Source: Data regarding the cumulative number of approved petitions for deregulated status are available at http://www.aphis.usda.gov/biotechnology/not_reg.html.
 Rationale for Met Range: The cumulative number of genetically engineered (GE) plant lines reviewed by USDA and found safe for use in the environment is an indicator
 of the GE technologies that can be commercialized by their developers. Some deregulated GE plant lines do not reach the market – this is a business decision made by
 the developer. USDA has established an ambitious target to increase the number of deregulation decisions by 5-8 from FY 2008 through FY 2012 because of the
 implications of deregulation decisions for GE developers, and ultimately, agricultural producers who may choose to use GE technology. The FY 2011 and FY 2012 targets
 are a cumulative 92 and 100 deregulations of GE plant lines, respectively.
 Data Assessment of Performance Measure 3.2.1
 • Completeness of Data — USDA maintains the currency of its Web site – new petition requests are updated weekly. When a petition request is
   granted, the Web site is updated to reflect its decision.
 • Reliability of Data — This performance measure serves as an indicator of the rate of the petition process. The data is used by both internal
   managers and external stakeholders as an authoritative source of information. The measure is currently included in the USDA High Priority
   Performance Goals and was validated by the Office of Management and Budget as an effective measure for the overall program.
 • Quality of Data — USDA has a series of checks and balances to ensure that the information reported on its Web site accurately reflects the
   decisions made regarding the deregulation of genetically engineered plant lines. This information is also transmitted to the public via the Federal
   Register to ensure transparency of regulatory decision making.


Descriptions of Actions for Unmet Measures
Many factors contributed to USDA not meeting the target. Several lawsuits have challenged USDA’s
environmental documentation. These challenges have necessitated more extensive environmental analysis for each
petition. The number and complexity of issues submitted during public comment periods have increased
significantly. The Department reviewed 21 petitions for non-regulated status for GE plants. Historically, USDA
reviewed approximately four to five petitions per year. The unprecedented volume of petitions has greatly affected
the timeliness of the decision-making process. In addition, the steadily increasing number of permit and
notification applications for field trials and other programmatic activities has affected the speed of decisions. The
Department is taking steps to address the increasing workload and to improve the deregulation process.
Lawsuits involving Round-Up Ready alfalfa and sugar beets recently challenged the processes USDA had in place
when considering petitions for deregulations. While the Department approved the deregulation of these plant
lines based on sound science and regulatory authority, after examining the deregulation processes and procedures,
it reviewed the petition process. Special attention was paid to steps hindering time to deregulate, enhancing
quality assurance, and improving quality control methods. In FY 2011, USDA will finalize its project plan to
undertake specific process improvement actions. These actions will establish new timeframes for intermediate
process steps. They also will revise tracking mechanisms from receipt of petition to publication of a decision and
train staff to use consistent and thorough implementation of the step in the revised petition process.
The implications of the two court cases indicated a need to strengthen the Department’s internal National
Environmental Policy Act (NEPA) processes and procedures. NEPA establishes national environmental policy
and goals for the protection, maintenance, and enhancement of the environment. It also provides a process for
implementing these goals within Federal agencies. USDA created a new unit to prepare and oversee the
development of NEPA documents to better inform petition decisions. The Department established a system to
assist in the development of environmental documentation while also allowing itself to focus on complex and
controversial initiatives. This process is consistent with other Federal agencies and departments that oversee the
development of environmental documents. To improve transparency and public involvement in the NEPA




                                                            Annual Performance Report
                                                                        58
process, USDA will continue to improve outreach capacity through Web site improvements and direct
communication to stakeholders and interested parties.
Challenges for the Future
Legal challenges over USDA decisions to deregulate GE crops emphasize their controversial nature. Legal
challenges require an enormous investment of resources—the same resources invested in petition review processes
and procedures. Legal challenges will dramatically affect USDA’s ability to meet the targeted performance.
The public will continue its vigilance over the development of GE agricultural products. The Department will
continue its commitment to ensure public participation in its regulatory decision making. USDA will post ample
notice in the Federal Register, host public meetings when appropriate, organize stakeholder engagements, and
update the Web site. Such engagement requires an investment in resources and impacts the rate at which USDA
is able to undertake petition reviews.




                                        Annual Performance Report
                                                    59
Strategic Goal 4:      Ensure that All of America’s Children Have Access to Safe, Nutritious, and
                       Balanced Meals
A plentiful supply of safe and nutritious food is essential to the well-being of every family and the healthy
development of every child in America. USDA supports and protects the Nation’s agricultural system and the
consumers it serves. The Department safeguards the quality and wholesomeness of meat, poultry, and egg
products. USDA also provides nutrition assistance to children and low-income people who need it. It also
addresses and prevents loss and damage from pests and disease outbreaks.
The Department works to improve the healthy eating habits of all Americans, especially children. Science has
established strong links between diet, health, and productivity. Even small improvements in the average diet will
yield large health and economic benefits. USDA’s programs provide an infrastructure that enables the natural
abundance of U.S. lands in combination with the ingenuity and hard work of the Nation’s agricultural producers.
This combination creates a food supply system unparalleled in its abundance, safety, and quality.
USDA helps put a healthy diet within reach of every American consumer by increasing access to nutritious food;
promoting healthy diet and physical activity behaviors; protecting public health by ensuring food is safe; and
protecting agricultural health by minimizing major diseases and pests to ensure access to safe, plentiful, and
nutritious food.
OBJECTIVE 4.1 INCREASE ACCESS TO NUTRITIOUS FOODS
4.1.1 Participation levels for major Federal nutrition assistance programs SNAP (millions per month)
Overview
The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition assistance
program system. SNAP provides benefits that can be used to purchase food at authorized retailers for preparation
and consumption at home. It makes resources that can be used for food available to most households with little
income. Benefit levels are based on the Thrifty Food Plan, a representative healthful and minimal cost meal plan
that shows how a nutritious diet may be achieved with limited resources. The benefit levels are adjusted based on
the economic circumstances of participating households.
Analysis of Results
USDA met its performance target. In FY 2010, the Department and its program delivery partners sustained
effective access to SNAP. Average monthly participation reached 39.2 million in 2010, within the range (37.5
million-43.5 million) for the 2010 target of 40.5 million.
Program participation increased almost 17 percent during FY 2010. USDA’s efforts to support and encourage
SNAP participation included:
• Continued efforts with states to develop outreach strategies. Forty-four out of 53 State agencies — up from
   40 in FY 2009 — now have formal outreach plans or other documented outreach activity;
• Supported innovative state practices to promote access by simplifying the application process. Twenty-six
   States use an Internet-based application filing system. Nearly 30 States allow telephone interviews. Twenty-
   seven States use call centers;
• Implemented the Defense Appropriations Act of 2010 to provide $400 million in administrative funding to
   states in further response to the economic downturn; and
• Provided numerous strategies to help States manage workloads because of increasing participation and
   decreasing State resources due to the economic downturn. These strategies include policy waivers; a workload
   management matrix tool; a program access toolkit; and encouragement of broad-based categorical eligibility
   to improve access to applicants and simplify policies for state administration.



                                           Annual Performance Report
                                                       60
USDA also estimates the number of people eligible for the program along with the rate at which eligible people
are participating. The latest study shows that, in 2008, 67 percent of all persons eligible for SNAP participated.
While the number of those eligible continued to grow rapidly in 2008, increasing by 5.5 percent over the 2007
level, the number of participants increased by 7 percent. Also in 2008, participants received 84 percent of all
benefits available if every eligible person participated. This number indicates that the program is effectively
reaching those most in need.

         Annual Performance Goals, Indicators,                                                                                             Fiscal Year 2010
                                                                   2006          2007           2008              2009
                      and Trends
                                                                                                                                 Target       Actual          Result
 4.1.1    Participation levels for the major Federal                26.7          26.5           28.2             33.5            40.5          39.2            Met
          nutrition assistance programs (millions per
          month): Supplemental Nutrition Assistance
          Program Avg.(Monthly) participation (millions)
 Rationale for Met Range: Thresholds for 4.1.1 reflect the margin of error in forecasts of future participation. For Supplemental Nutrition Assistance Program (SNAP)
 participation, results from 2 independent assessments suggest that predictions of the number of SNAP participants are accurate to within plus-or-minus 7.5 percent (on
 average). This reflects the pattern of variance between actual and target performance during the past 5 years.
 • For 2010, this percentage thus allows for actual performance that meets the target in the range of 37.5-43.5 million for SNAP.
 Data Assessment of Performance Measure 4.1.1
 SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional offices.
 There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National Data Bank
 (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the report and the state
 agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and consistent with previous reports,
 they will be downloaded to NDB for public release. If not, the Department works with regional offices and states to resolve problems and
 inconsistencies. This process of review and revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data — Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly before being
    declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1, 2010.
 • Reliability of Data — The data are highly reliable. Participation-data reporting is used to support program financial operations. All of the data are
    used in published analyses, studies, and reports. They also are used to support dialogue with and information requests from the U.S. Government
    Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data — As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside
    USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Challenges for the Future
Studies indicate that some SNAP-eligible people are not participating due to a lack of awareness of their
eligibility. Efforts to improve access to and promote awareness of SNAP, and seeking improvements in policy and
operations that make applying easier are ongoing challenges.
The quality of program delivery by third parties—hundreds of thousands of State and local government workers
and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition. Proper program
administration, including timely determination of eligibility, is of special concern.
4.1.2 Improve SNAP payment accuracy
Overview
Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is central to
USDA’s mission. Waste and abuse draw scarce resources away from the children who need them the most. Just as
importantly, the programs are ultimately not sustainable without public confidence that benefits go to those who
qualify, are used appropriately, and achieve their intended purposes. The Department seeks to increase food
security and reduce hunger in a manner that inspires public confidence that taxpayer dollars are used wisely.
Designed to respond to economic conditions, participation in the program has recently grown and benefits have
increased, yet USDA remains strongly committed to program integrity. The Department takes its stewardship
responsibilities for tax payer dollars seriously through an established Quality Control (QC) system and long-


                                                             Annual Performance Report
                                                                         61
standing support for payment accuracy initiatives. The Department continuously works to improve payment
accuracy through partnerships with States, and regulatory and statutory requirements for a system that rewards
exemplary program performance while holding low-performing states accountable. It also uses an early detection
system to target states that may be experiencing a higher incidence of errors based on preliminary QC data.
Actions then are taken by regional offices to address these situations in the individual states.
Analysis of Results
The FY 2010 result is deferred, and will be reported in the FY 2011 PAR. SNAP payment accuracy reached a
record-high 95.64 percent in 2009, the latest for which data are available. The number reflects the excellent
performance by State agencies in administering the program. This combined rate reflects 3.53 percent in
overpayments and 0.83 percent in underpayments for a total of 4.36 in erroneous payments.
Forty-seven States had a payment accuracy rate greater than 94 percent, including 29 States with rates greater
than 96 percent. These figures are up from the 35 States with 94 percent accuracy and 15 with 96 percent
accuracy the previous year.

         Annual Performance Goals, Indicators,                                                                                            Fiscal Year 2010
                                                                   2006          2007           2008             2009
                      and Trends
                                                                                                                                Target        Actual           Result
 4.1.2    Improve SNAP Payment Accuracy Rate                      94.2%         94.4%          94.3%            94.9%1          95.0%          Not             Deferred
                                                                                                                                             Available
 1Data reported for 2006 in the Annual Performance Report has been adjusted to its proper value. The 2009 figure is based on data available after the Annual
 Performance Report was released.
 FY 2010 data will be available in 2011. USDA doesn’t tabulate data until states’ SNAP data is received.
 Rationale for Met Range: The 95 percent confidence interval around the estimate of payment accuracy is ±.33.
 • For 2010, this confidence level allows for actual performance that meets the target in the range 94.7-95.3 percent.
 Data Assessment of Performance Measure 4.1.2
 The Supplemental Nutrition Assistance Program (SNAP), formerly the Food Stamp Program, uses annual payment accuracy data from the Quality
 Control (QC) process to support SNAP management. The data are based upon statistically valid methodology. The QC process uses a systematic
 random sampling of SNAP participants to determine a combined payment error rate for each state. The combined error rate is composed of over-
 issuances and under-issuances of SNAP benefits. A regression formula is applied to the results of the reviews to calculate official error rates. State
 agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level determination. The process includes a client
 interview and verification of all elements of eligibility and the basis of issuance. Federal reviewers validate a sample of the state’s reviews by
 conducting a re-review. The process has proven to be a sound method of calculating reliable data.
 • Completeness of Data — The most current data available for this measure are for FY 2009. The payment accuracy rate of 95.64 percent exceeded
     the performance goal/measure target. FY 2010 performance will be deferred until next year’s report.
 • Reliability of Data — QC data are valid and accepted by state SNAP agencies as a basis for performance-incentive payments and penalties. The
     U.S. Government Accountability Office and the Office of Inspector General also use it regularly.
 • Quality of Data — As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside
     USDA. The measure itself is frequently cited as an important, high-quality indicator of program performance.


Challenges for the Future
The most critical challenge impacting future success is continuing resource limitations for State agencies. State
budgets have been and will continue to be extremely tight. This factor could hurt state performance in payment
accuracy. USDA will continue to provide technical assistance and support to maintain payment accuracy in the
context of this difficult program environment.
4.1.3 Participation levels for the school meals programs (millions of children per school day)
Overview
The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
ensuring access to nutritious food for the children they serve. The programs provide per-meal reimbursement to



                                                             Annual Performance Report
                                                                         62
State and local governments for meals and snacks served. All meals must meet Federal nutrition standards to
qualify for reimbursement.
NSLP serves lunches and snacks in more than 101,000 schools and residential child-care facilities. More than 60
percent of meals are served to low-income children for free or at reduced price.
SBP helps school children start the day ready to learn by serving breakfast in more than 88,000 schools and
residential child-care facilities. More than 80 percent of meals are served free or at reduced price to low-income
children, with more than 75 percent of participating schools serving low-income areas.
Analysis of Results
USDA met its target for this performance measure. In FY 2010, USDA and its program delivery partners
sustained effective access to school meals. The increased use of direct certification for free school meals for
children enrolled in means-tested programs such as SNAP or the Temporary Assistance for Needy Families
(TANF) program has helped to provide easy access to school meal benefits. During the 2008-09 school year, 78
percent of school districts used direct certification, up from 67 percent in the prior year. TANF provides financial
assistance for children and their parents or relatives who are living with them.
NSLP participation levels reached 31.8 million in FY 2010, within the Met range (30.5 million-33.7 million) for
the 2010 target of 32.1 million. Participation increased slightly from FY 2009, continuing the trend of increases
in recent years. SBP participation levels reached 11.6 million in FY 2010, within the Met range (11.1 million-12.3
million) for the 2010 target of 11.7 million.

         Annual Performance Goals, Indicators,                                                                                               Fiscal Year 2010
                                                                     2006          2007           2008              2009
                      and Trends
                                                                                                                                   Target        Actual          Result
 4.1.3    Participation levels for the school meals
          programs (millions)
          • National School Lunch Program                            30.1          30.5           30.9              31.6            32.1          31.8             Met
              Avg.(Daily)
          • School Breakfast Program Avg. (Daily)                     9.8          10.1           10.6              11.0            11.7          11.6             Met
 Historical figures for FY2006-FY2008 have been revised from those published in the Annual Performance Report to reflect more recent data.
 Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 5 percent for the school meals programs. This
 reflects the pattern of variance between actual and target performance for both programs during the past 5 years.
 For 2010, this percentage range allows for actual performance that meets the targets in the range of 30.5- 33.7 million for the National School Lunch Program and 11.1-
 12.3 million for the School Breakfast Program.
 Data Assessment of Performance Measure 4.1.3
 School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
 offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National Data
 Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the report and the state
 agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and consistent with previous reports,
 they will be downloaded to NDB for public release. If not, USDA works with regional offices and states to resolve problems and inconsistencies. This
 process of review and revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data — Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and validated
     monthly before being declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1, 2010.
 • Reliability of Data— The data are highly reliable. Participation-data reporting is used to support program financial operations. All of the data are
     used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the Government
     Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside USDA.
     The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.




                                                              Annual Performance Report
                                                                          63
Challenges for the Future
While almost all school children have access to Federally-subsidized school lunches, significantly fewer schools
operate SBP. USDA will work to ensure that all students are able to start the day with a nutritious breakfast, at
home or at school.
As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
hundreds of thousands of state and local government workers and their cooperators— to sustain effective school
meals program delivery.
4.1.4 Participation levels for the WIC program (millions per month)
Overview
The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical component of
the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs of low-income
pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age who are found to be at
nutritional risk.
Analysis of Results
The measure was met. In FY 2010, average monthly WIC participation was approximately 9.2 million
participants, within range (9.2 million-9.8 million) for the 2010 target of 9.5 million. USDA continued to meet
its ongoing commitment to provide sufficient program resources to support participation for all eligible people
who apply for benefits.
The Department also estimates the number of people eligible for WIC and calculates the rate at which eligible
people are participating. The latest study shows that, in 2007, WIC served an estimated 59 percent of the
population eligible for benefits. This figure reflects participation by more than 80 percent of eligible infants, 66
percent of eligible pregnant women, more than 85 percent of eligible breastfeeding women, and 71 percent of
eligible postpartum women.

         Annual Performance Goals, Indicators,                                                                                                Fiscal Year 2010
                                                                     2006          2007            2008              2009
                      and Trends
                                                                                                                                    Target        Actual           Result
 4.1.4    WIC Program average monthly participation                   8.1           8.3             8.7               9.1             9.5           9.2             Met
          (millions)
 Rationale for Met Range: Thresholds for 4.1.4 reflect the margin of error in forecasts of future participation, estimated at 3 percent for the WIC program. This reflects the
 pattern of variance between actual and target performance for both programs over the past 5 years.
 • For 2010, this percentage thus allows for actual performance that meets the target in the range of 9.2-9.8 million for WIC.
 Data Assessment of Performance Measure 4.1.4
 WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional offices.
 There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National Data Bank
 (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the report and the state
 agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and consistent with previous reports,
 they will be downloaded to NDB for public release. If not, USDA works with regional offices and states to resolve problems and inconsistencies. This
 process of review and revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data — Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly before being
    declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1, 2010.
 • Reliability of Data — The data are highly reliable. Participation-data reporting is used to support program financial operations. All of the data are
    used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the Government
    Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
 • Quality of Data — As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside
    USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.




                                                               Annual Performance Report
                                                                           64
Challenges for the Future
Ensuring that adequate, timely funding is available to USDA’s program partners to support participation among
all eligible applicants is an ongoing challenge. Scarce discretionary budget resources add to this challenge. The
Department and its partners must continue to work together to manage funds carefully and maintain efficient
operations to serve all those in need.
OBJECTIVE 4.2 PROMOTE HEALTHY DIET AND PHYSICAL ACTIVITY BEHAVIOR
4.2.1 Nutrition guidance, education and promotion materials distributed
Overview
Good nutrition and physical activity are important throughout the life cycle. Both, combined, are major forces to
be used to help reduce the rates of obesity among different segments of the U.S. population, especially among
children. Good nutrition and physical activity will help reduce the obesity epidemic and help prevent the chronic
diseases associated with unhealthful dietary practices, such as diabetes, cardiovascular disease, and high blood
pressure. To encourage Americans to eat well and be more physically active, USDA uses Federal nutrition policy
and nutrition education — both for the general public and those served by nutrition assistance programs. This
work helps provide scientifically based information about healthful diets and lifestyles.
The Department values the trust the public has in the information it provides — information that is based on the
most recent, credible science. In addition, during the past few decades, evidence-based systematic reviews have
replaced expert opinion as the predominant basis for health-related treatment guidelines and policy. In response,
USDA created the Nutrition Evidence Library to specialize in conducting systematic reviews to inform nutrition
policy and programs. For the first time, the Department and the U.S. Department of Health and Human Services
used the Nutrition Evidence Library to update the 2010 Dietary Guidelines for Americans.
USDA uses the Dietary Guidelines and the MyPyramid food guidance system, to advise people in the U.S. on how
to improve their overall health through proper nutrition. MyPyramid, located at MyPyramid.gov, implements the
guidelines through a network of educational tools. The Department will continue to use the Nutrition Evidence
Library to conduct systematic reviews of the science that represents the foundation of its policy and nutrition
education tools. It also will continue encouraging partners and “information multipliers” — such as healthcare
providers, supermarkets, and school teachers — to maximize the reach and impact of nutrition education
messages, both within Federal nutrition-assistance programs and with the general public.
Other key FY 2010 accomplishments include:
• Continuing the collaborative effort to increase all communication of dietary and physical activity guidance
   messages. Partnering with MyPyramid, with more than 230 members, showcases the role of various industries
   and others (e.g., youth groups) as Government partners to encourage healthier eating and physical activity
   behaviors among families. The partnership is designed to empower nutrition gatekeepers by providing easy to
   apply guidance for modeling a healthy lifestyle. It also provides information to help them make healthy food
   choices for themselves and their families where they prepare food, work, play, and purchase food; and
• USDA released its newest educational tool: MyFood-A-Pedia, located at MyPyramid.gov, this mobile tool
   provides consumers quick access to nutrition information for more than a thousand foods. Consumers can
   check calorie amounts, the contribution of a food to the food groups, and the amount of extra calories from
   solid fats, added sugars, and alcohol in a food.
Analysis of Results
USDA did not meet the target for this performance measure. USDA continued its leadership role in promoting
nutrition guidance through educational tools designed to motivate people to live healthier. The Department
distributed more than 1.6 billion pieces of nutrition guidance materials via the Web and in print. Since the
implementation of the 2005 Dietary Guidelines for Americans, USDA distributed more than 22 billion pieces of


                                           Annual Performance Report
                                                       65
nutrition guidance materials. The 2010 distribution level, while substantial, fell short of USDA’s goal – a change
from the years immediately following the release of the 2005 Dietary Guidelines for Americans. During that time,
distribution performance typically exceeded goals.

         Annual Performance Goals, Indicators,                                                                                            Fiscal Year 2010
                                                                   2006          2007           2008              2009
                      and Trends
                                                                                                                                Target        Actual          Result
 4.2.1    Nutrition guidance, education and promotion               1.5           2.6            3.2               3.5            3.0           1.7           Unmet
          materials distributed (e-hits and print
          materials) (billions of pieces of information)
 This legacy performance goal, part of the 2010 Annual Performance Plan, will be dropped for FY 2011. A new measure has been developed for future planning and
 reporting.
 Rationale for Met Range: The precision of USDA’s tracking systems and forecasting methods allow for actual figures to meet the 2010 target in the range 2.8-3.2 billion.
 Thresholds reflect trends of MyPyramid.gov “hits” and print materials distributed (MyPyramid and the Dietary Guidelines for Americans).
 Data Assessment of Performance Measure 4.2.1
 Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with
 http://www.mypyamid.gov/MyPyramid.gov, survey analysis, and from inventory records of print materials.
 • Completeness of Data — Data related to MyPyramid.gov are collected instantaneously, indicating the number of e-hits to the Web site and the
     number of registrations to MyPyramid Tracker. However, data for October-December 2009 were not available for all parts of the site due to system
     problems. Estimates based on prior year performance were used for this portion of the performance period. For print materials, data from national
     headquarters represent counts of what was distributed among divisions of FNCS.
 • Reliability of Data — The data are highly reliable. The number of hits is instantaneously recorded, the online survey is continual and well-tested,
     and the number of distributed print materials is tracked.
 • Quality of Data — The data are used to report on the success of the MyPyramid Food Guidance System. Because of the simultaneous recording of
     MyPyramid.gov usage, and the thoroughness and continual nature of the customer satisfaction survey, usage and customer satisfaction levels are
     a high-quality indicator of the degree to which USDA promotes, and customers respond to, interactive tools and print materials designed to help
     Americans personalize their diets. With a change in the system used to record MyPyramid.gov usage, the Department will again be able to rely on
     the quality of the data to report whether performance goals have been met.


Descriptions of Actions for Unmet Measures
The number of nutrition education materials distributed via the Web and print materials is a direct measure of the
degree to which people will seek information that will help them make prudent decisions about their diet and
lifestyle. Typically, a drop in the numbers of requests is anticipated prior to the release of the next edition of the
Dietary Guidelines (in this case, the 2010 Dietary Guidelines for Americans). In 2010, the tremendous public, press,
and nutrition community interest in the concluding activities of the 2010 Dietary Guidelines Advisory
Committee, and the release of its advisory report resulted in a larger drop in requests than expected with the view
that new information was looming. However, with the upcoming release of the 2010 Dietary Guidelines policy
document, the publicized future release of a revamped food pyramid icon, and the pending updated educational
materials and modernized on-line nutrition education tools in 2011, USDA expects to exceed its target for Web-
accessed and print materials in 2011.
Challenges for the Future
USDA must craft actionable, understandable, science-based, and consistent nutrition messages and nutrition
education programs. This communication should promote positive behavioral change to help people make better
food choices requires understanding their current choices. There also must be an awareness of the relationships
between these choices and their attitudes towards and knowledge of diet/health links. The data that can address
this information gap, however, are limited.
The ability of existing nutrition guidance and promotional materials to achieve behavior change remains
challenging. Limited resources are available for nutrition promotion relative to other messages, products and
practices in the food marketplace. Physical activity and other lifestyle issues also significantly impact body weight
and health.



                                                             Annual Performance Report
                                                                         66
USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring its annual
distribution of nutrition education materials. Over the longer term, the Department assesses the effect of these
efforts with its Healthy Eating Index (HEI). HEI assesses the conformance to Federal dietary guidance and is
based on nutrition surveillance data.
OBJECTIVE 4.3           PROTECT PUBLIC HEALTH BY ENSURING FOOD IS SAFE
4.3.1  Reduce overall public exposure to Salmonella from broiler carcasses
4.3.2  Reduce total illnesses from all FSIS-regulated products
4.3.3  Increase the percentage of establishments with a functional Food Defense Plan (large, small and very small
       establishments)
Overview
USDA is committed to ensuring Americans have access to safe, nutritious, and balanced meals. Today, as many as
one in four Americans experience a foodborne illness annually. 2 The Department takes a farm-to-table approach
to reducing and preventing foodborne illness. USDA invests in its workforce and data infrastructure to prevent
harm to consumers by reducing the incidence of food contaminants, and quickly identifying and preventing
outbreaks. Effective food safety inspections and enforcement depend upon timely, quality data and analysis.
The Department protects public health by ensuring that meat, poultry, and processed egg products are safe,
secure, wholesome, and correctly labeled and packaged. Currently, USDA is focused on protecting the food
supply and preventing illnesses from Salmonella, Listeria monocytogenes (Lm), and E. coli O157:H7. These three
bacterial pathogens are known to cause human illness, hospitalization, and death.
The Department is also working to better verify that effective food safety systems are being implemented in
USDA-regulated slaughter and processing establishments. It trains inspection personnel and has developed an
automated system to alert inspectors about potential food safety problems through effective inspection data
analysis according to risk. These actions give inspectors greater and timelier access to establishment performance
data.
USDA uses three key measures to assess its performance to ensure that food is safe:
• Increase the percentage of Federally inspected establishments in “Category 1,” reducing overall public
  exposure to generic Salmonella from broiler carcasses. Establishments are placed in Category 1 if they
  demonstrate consistent process control in USDA Salmonella verification testing. 3
• Total Illnesses from all Food Safety Inspection Service (FSIS)-regulated products: Salmonella, Lm, and E. coli
  O157:H7 (All-Illness Measure). The All Illness Measure is aimed at reducing Salmonella, Lm, and E. coli
  O157:H7 illnesses from USDA-regulated products. Of the illnesses attributed to USDA-regulated products
  in 2009, 97 percent of illnesses came from Salmonella, .23 percent from Lm, and 2.8 percent from E. coli
  O157:H7. This is the equivalent of 1 illness for every 298,796 servings of meat and poultry products
  consumed annually. 4
• Increase the percent of Federally inspected establishments with a functional food defense plan (large, small
  and very small establishments).USDA measures the industry adoption of functional food defense plans. These
  plans assist industry in preventing intentional contamination of food products, thereby protecting public
  health and reducing the negative economic impact on the food infrastructure.

2 Based upon the estimated 76 million annual number of domestically acquired foodborne illnesses, Mead et al. (1999). Mead PS, Slutsker L, Dietz V, McCaig LF, Bresee JS,
Shapiro C, Griffin PM, and Tauxe RV. “Food-related illness and death in the United States”. Emer Infect Dis: 1999, 5(5):607-25.
3 USDA plans to tighten its Salmonella performance measure for broilers, which will require a downward adjustment to a lower percentage attained for the FY 2015
performance goal for Salmonella broiler carcasses in the first quarter of FY 2011.
4Data for this measurement is obtained using FSIS illness estimates and food availability data from ERS. ERS data are available at the following Web site:
http://www.ers.usda.gov/Data/FoodConsumption/app/reports/displayCommodities.aspx?reportName=Total%20meat&id=39#startForm


                                                              Annual Performance Report
                                                                          67
Analysis of Results
USDA did not meet its goals for 4.3.1 and 4.3.2, but exceeded its goal for 4.3.3.
4.3.1         Reduce overall public exposure to Salmonella from broiler carcasses
USDA employs a “category” system to measure the Salmonella performance of establishments producing raw
products. Selection of the category system was partially based on the long-term evidence from USDA regulatory
samples (collected between 1998 and 2004). These samples showed a statistically significant difference in the
likelihood of serotypes of Salmonella in Category 2 establishments compared to Category 1 establishments. USDA
compares how many establishments are in Category 1 from one quarter to the next and from one year to the next.
Category 1 represents establishments that have results from their two most recent completed sample sets that are
at or below half of the performance standard. Category 1 represents the highest measure attainable by
establishments. Category 2 represents establishments that have achieved greater than 50 percent on at least one of
the two most recent test sets without exceeding the performance standard or baseline guidance. Category 3
represents establishments that have exceeded the performance standard or baseline guidance on the most recent
USDA test set. As more establishments attain Category 1 status, USDA believes that fewer people will be
exposed to Salmonella from raw classes of Department-regulated products.
4.3.2         Reduce total illnesses from all FSIS-regulated products
The Department calculates a measure that estimates all foodborne illnesses for Salmonella, Lm, and E. coli
O157:H7 from USDA-regulated products. Objectives for this measure are set using a combination of data from
published case rates from the U.S. Centers for Disease Control’s (CDC) FoodNet data and National Outbreak
Reporting System (NORS) outbreak data. These case rates are aligned with Healthy People 2010 goals and the
HPPG for Salmonella. USDA will shift to using quarterly FoodNet pathogen-specific case rates to estimate the
total number of foodborne illnesses from Salmonella, Lm, and E. coli O157:H7.
4.3.3         Increase the percentage of establishments with a functional Food Defense Plan (large, small and very small
              establishments)
The food defense measure was developed with the goal of increasing the number of establishments with a
functional food defense plan. Such plans should be developed, written, implemented, assessed, and maintained by
establishments if they are to be considered functional. The Department considers these plans to be important
measures for preventing intentional product adulteration. It has developed guidance materials to assist in the
development and understanding of what constitutes a food defense plan for establishments. This performance
metric is measured by the annual USDA Food Defense Plan Survey. The survey gathers data about industry’s
voluntary adoption of food defense plans. Results from the first survey, conducted in August 2006, established a
baseline adoption rate of food defense plans by industry of 34 percent. USDA’s goal for the adoption of food
defense plans by FY 2015 is that 90 percent of all establishments (large, small, and very small) will voluntarily
implement a plan.


         Annual Performance Goals, Indicators,                                                              Fiscal Year 2010
                                                            20061    2007      2008     20092
                      and Trends
                                                                                                  Target      Actual           Result
 4.3.1    Reduce overall public exposure to Salmonella      45%      73%       83%       82%       90%          82%            Unmet
          from broiler carcasses
 4.3.2    Reduce total Illnesses for all FSIS Products       —      598,087   656,702   615,014   577,262     640,362          Unmet
 4.3.3    Increase Percent of Establishments With a         34%      39%       46%       62%       67%         73.6%      Exceeded
          Food Defense Plan
          •     Large Establishment                         81%      91%       96%       97%9      90%         97.1%
          •     Small Establishment                         48%      53%       64%       72%       75%         82.3%
          •     Very Small Establishment                    18%      21%       25%       49%       56%         63.6%



                                                         Annual Performance Report
                                                                     68
        Annual Performance Goals, Indicators,                                                                                                Fiscal Year 2010
                                                                    20061         2007            2008             20092
                     and Trends
                                                                                                                                  Target        Actual           Result
 Data from 2006-2008 represent the percentage of facilities with a written plan, while the data from 2009 and 2010 represents the percentage of facilities with a functional
 plan, as defined above. Variations from previous year figures and from Annual Performance Plan figures are due to recalculated, more accurate totals.
 The FY 2009 baseline in the FY 2011 Budget of 96 percent, 64 percent, and 25 percent has been revised here and reflects actual data collected via the annual FY 2009
 FSIS Food Defense Survey as opposed to objectives that were set prior to the survey being conducted.
 USDA measures its Salmonella performance in terms of a percentage of broiler chicken processing establishments that are in Salmonella performance Category 1.
 Establishments are placed in Category 1 if they demonstrate consistent process control in Department verification testing.
 Rationale for Met Range: Up to April 2010, the performance standards were anchored to 1999 illness burden data and objectives were set for each pathogen using the
 Healthy People Goals for 2010. USDA shifted to using CDC FoodNet data, which are pathogen-specific case rates updated annually to calculate the burden of foodborne
 illnesses. These case rates are superior data from 1999 as they are an up-to-date, actual measure of the burden of foodborne illnesses. The final shift in methodology
 occurred in August 2010 where, at the request of the CDC, USDA shifted to using only simple foods when calculating pathogen-specific attribution fractions. The simple
 foods methodology only takes illnesses from simple foods, such as chicken or a steak, into account when calculating the pathogen-specific attribution fraction, rather than
 using complex plus simple foods.
 Data Assessment of Performance Measure 4.3.1, 4.3.2, and 4.3.3
 Through consultations with its stakeholders, USDA continuously examines the Nation’s changing food safety system and practices. The Department
 articulates a long-term view in regard to its performance and the benefits to public health. USDA also monitors its performance against the Healthy
 People 2010 goals for these three critical pathogens — Salmonella, Lm and E. coli O157:H7. The Department developed an attribution model to
 determine what percentage of all Salmonella, Lm, and E. coli illnesses result from USDA-regulated contaminated products.
 • Completeness of Data — Results are based upon USDA’s laboratory results analyzed as of June 30, 2010. They are the best available indication
     of FY 2010 fourth-quarter results. Quarterly and annual data are based on sampling at a range of establishments, from very small to large.
 • Reliability of Data — The data are reliable because they are based on testing and verification from the USDA’s field service laboratories for
     regulated establishments. Each sample is subjected to highly specific verification testing. The primary goal of these sampling programs is to monitor
     how well each establishment is maintaining control of food safety through its Hazard Analysis and Critical Control Point, sanitation and supporting
     programs. USDA recognizes that its verification testing samples for Salmonella in raw classes of product and for Lm in ready-to-eat foods are
     biased in favor of being collected at establishments with poor process controls and/or higher volume. This factor likely results in overestimates in
     public exposure to these two pathogens. This factor is not the case for E. coli O157:H7 because FSIS programs sample every establishment and
     take into account establishment production volume. USDA is working towards incorporating statistical design into its verification testing programs
     for Salmonella and Lm to have true measures of prevalence.
 • Quality of Data — The volume adjusted data show that these measures historically correlated with the CDC and Prevention foodborne illness
     outbreak data.


Descriptions of Actions for Unmet Measures
A primary reason why USDA did not meet the goal of reducing overall public exposure to Salmonella from
broiler carcasses was that the poultry industry (broiler and turkey carcass establishments) did not take the requisite
steps to improve operational performance. (Second quarter results were 80.47 percent and third quarter 82
percent, an improvement from the beginning of the year.)
The poultry industry relies upon USDA for guidance on the actions needed to make poultry safer. New poultry
standards will be announced in a Federal Register notice at the end of November, 2010. The standards will be
implemented by January 1, 2011. Due to the fact that Salmonella accounts for the largest number of illnesses in
proportion to the other pathogens in the “total illnesses” measure, USDA did not meet the target for that
measure. The FY 2010 target for the total number of illnesses from Salmonella, Lm, and E. coli O157:H7
associated with USDA-regulated products was an estimated 577,262 illnesses. The actual number was an
estimated 640,362 illnesses. While USDA has not met the overall performance goal for the all-illness measure, it
did meet the performance goal for two of the three pathogens.
Challenges for the Future
Ensuring the safety of the Nation’s food supply is a challenge and requires a strong and robust infrastructure
coupled with sound science. USDA uses a data-driven, scientific approach to food safety, incorporating public
health data critical to combating the ever-changing threats to public health. This is a challenge since the
Department has minimal control of animals on the farm or food products once they leave Federally inspected



                                                              Annual Performance Report
                                                                          69
establishments. Educating producers about best practices on the farm, and retailers and the public on how to
safely store and prepare meat and poultry products is an important requirement for USDA.
While the Department firmly believes that its day-to-day activities directly impact the burden of foodborne illness
in this country, it is often challenging to quantitatively relate such USDA activities as pathogen verification
testing to reductions in foodborne illness. The Department measures its progress in meeting its public health
performance measures quarterly. Consequently, it has also developed an Operational Performance Measures
Report to supplement the three key measures reported by USDA. This report will allow the Department to assess
whether it is carrying out its regular, routine activities to reduce or prevent contamination of the products it
regulates, ensure import activities are carried out appropriately, and provide educational material to the public,
amongst other activities. These operational performance measures allow USDA to prioritize activities, inform
resource allocation, and identify program area gaps. As the operational performance measures report will be
produced monthly, it will allow the Department to measure its progress towards meeting its key objectives before
the end of a quarterly reporting period, and allow for mid-reporting adjustments in a more timely and effective
manner. Currently, USDA is reviewing the Operational Performance Measure report. Upon completion of the
review, the Department intends to include several key operational performance measures in each USDA Quarterly
Report.
USDA is also a key partner in the President’s Food Safety Working Group (FSWG), which is co-chaired by
Agriculture Secretary Tom Vilsack. In support of the FSWG recommendation to intensify USDA efforts to meet
the performance goal of reducing overall public exposure to Salmonella from young chicken carcasses, the
Department proposed tightening its performance standard. The proposal was based on results from the 2008
Nationwide Young Chicken Microbiological Baseline. The aim is to reduce the occurrence of Salmonella, thereby
diminishing the public’s exposure to it in USDA-regulated products.
Another food safety challenge is small and very small establishments that often lack the technical knowledge to
design and implement food safety systems. To assist establishments, USDA has released a Compliance Guide for
Poultry Slaughter to reduce Salmonella and Campylobacter. This guide includes the latest information about
technologies to reduce those pathogens’ occurrence in Department-regulated products. As consumers are
increasingly purchasing raw poultry products in ‘parts’ rather than whole birds, USDA has also initiated a
nationwide study of young chicken parts microbiological baseline to learn more about the public’s possible
exposure to Salmonella.
In its work to contain Lm and meet future illness reduction goals, USDA is continually challenged as illnesses
may occur due to re-contamination of product after it leaves the USDA establishment, for example in retail
slicing operations or during the distribution process. The Department does not currently conduct inspection
activities at the retail level.
Finally, the Department is working to improve its trace back positive E. coli O157:H7 test results. USDA is also
working to ensure that its policies evolve to address a broader range of pathogens, beyond E. coli O157:H7. This
work will ensure that public health and food safety policy keeps pace with the demonstrated advances in science
and data about foodborne illness to best protect consumers.
OBJECTIVE 4.4 PROTECT AGRICULTURAL HEALTH BY MINIMIZING MAJOR DISEASES AND PESTS ENSURING ACCESS TO SAFE, PLENTIFUL
AND NUTRITIOUS FOOD

4.4.1  Value of damage prevented and mitigated annually as a result of selected plant and animal health
       monitoring and surveillance efforts ($ billions)
Overview
USDA ensures access to a diverse supply of fruits, vegetables, meat, and poultry. The Department protects the
agriculture production system and defends against plant and animal pests and diseases. There are several programs


                                          Annual Performance Report
                                                      70
that contribute towards the prevention and mitigation of economic and environmental damage to U.S.
agricultural resources. USDA’s monitoring and surveillance programs assist with documenting the health status of
U.S. agricultural products. This work results in the prevention and early detection of plant and animal pests and
diseases. The Department also conducts various pest and disease programs to limit the damage caused by known
pests and diseases. Together, these efforts contribute towards the Nation’s overall agricultural health. USDA
monitors the health status of agricultural resources and quickly detects and responds to pests and diseases to
prevent their spread.
Analysis of Results
USDA met the target for this performance measure. USDA reached the target of preventing and mitigating $1.07
billion in damage to agricultural resources. Several efforts contributed towards meeting the target. The
Department enhanced the Nation’s capabilities of finding and responding to plant and animal diseases. This work
pre-empted any potentially significant damage to the agricultural production system and food supply. USDA’s
animal health monitoring and surveillance efforts are focused on finding diseases quickly, tracing them to their
origin, and preventing their spread.
There were no significant outbreaks of animal diseases in FY 2010. As a result of the increasing diversity of
livestock and poultry rearing facilities in the U.S., a more flexible animal disease traceability system is needed to
effectively respond to animal disease concerns, and minimize harm to producers. To replace the original effort—
the National Animal Identification System, which was perceived as being too intrusive—USDA announced a new
approach to animal disease traceability. The Department gathered input from the public through a variety of
mechanisms to develop a comprehensive understanding of how to design and deliver an animal disease traceability
program. USDA held eight listening sessions with associated public comment periods. It has invited ongoing
stakeholder input. These forums enabled the Department to provide details about the framework and learn from
industry representatives and producers about how to best support the states and tribes as they develop workable
traceability systems. Additionally, USDA distributed informational packets to more than 560 Federally
recognized tribes. It has worked with the Indian Nations Conservation Alliance to reach out to tribes in nine
States. The Department also maintained information systems developed under the previous system that assist
with tracing animals potentially exposed to a disease.
USDA continues to develop a specific plan on traceability that is more flexible than the previous system. The new
system allows States, tribes, territories, and producers to use their expertise to develop the animal disease
traceability approach that works best for them. Detecting an animal disease before many animals have been
exposed to it limits the spread of the disease. It allows for more timely eradication and management efforts. The
Department estimates that a half week delay in intervention can increase total costs by $135 million, including
production and trade losses related to a major disease event. Therefore, the monitoring and surveillance activities
are crucial to minimizing and preventing damages to the U.S. livestock industry, and ensuring access to a variety
of meat and poultry products.
USDA also prevented and mitigated economic and environmental damage to such other agricultural commodities
as grapes. The European Grapevine Moth (EGVM), a significant pest of grapes and other specialty crops, was
initially discovered in major grape production areas of northern California in 2009. The pest damages grape
production when larvae feed on the flowers and berries; subsequent fungal infection causes further damage. High
population densities of EGVM can destroy entire vineyards, resulting in a total loss of grapes at harvest. Other
potential impacts include reduced availability of fresh and processed commodities, a decreased number of export
markets for the grape and stone fruit industry, and increased costs to both the producers and consumers.
The Department believes that many of the impacts have been avoided due to the rapid response to the initial
discovery of the pest. USDA, State, county, and university cooperators continue to conduct survey and regulatory
activities, as well as education and outreach efforts. The Department and cooperators have been conducting



                                          Annual Performance Report
                                                      71
intense regulatory compliance activities to prevent the movement of infested products from quarantined areas.
Growers in affected areas also are conducting treatments to suppress the moth.

         Annual Performance Goals, Indicators,                                                                                          Fiscal Year 2010
                                                                  2006          2007           2008             2009
                      and Trends
                                                                                                                              Target        Actual          Result
 4.4.1    Value of damage prevented and mitigated                  N/A          $1.37         $1.38            $1.05           $1.07         $1.07           Met
          annually as a result of selected plant and
          animal health monitoring and surveillance
          efforts ($ billions)
 Rationale for Met Range: The value of the agricultural resources protected can vary year to year and are disease and commodity specific. A threshold boundary equal to
 the economic assumptions for a given year are considered acceptable.
 Data Assessment of Performance Measure 4.4.1
 Data Source: Data for animal health programs are entered by state partners into a USDA database and verified by Department officials to document
 the results of surveillance efforts and the health status of the U.S. herd. Data for plant health programs are maintained in the Cooperative Agricultural
 Pest Survey program database. The estimated value of savings is a calculation of the costs associated with conducting monitoring and surveillance
 programs versus potential losses of not having these programs in place.
 • Completeness of Data — USDA maintains the databases and results are entered directly into the system. Should a pest or disease be detected, the
    Department updates information on its detection and response efforts to plant and animal pests and diseases daily at http://www.aphis.usda.gov/.
    The pests and diseases of highest concern are easily identified from USDA’s Web site.
 • Reliability of Data — The surveillance results are used by both internal managers and external partners and stakeholders as an authoritative
    source of information.
 • Quality of Data — USDA ensures the information reported on its Web site accurately reflects the status of U.S. plant and animal health.


Challenges for the Future
USDA is faced with prioritizing and determining an appropriate Federal response to an increasing number of
agricultural health threats. The Department must continually prioritize the list of major pest and disease threats,
since these threats are increasing domestically and internationally. In addition, USDA’s monitoring and
surveillance efforts will need to be adjusted to respond to these threats to protect agricultural resources and ensure
that America has access to nutritious foods.




                                                            Annual Performance Report
                                                                        72
Selected Results in Research, Extension, and Statistics
USDA engages in scientific research and extension work that helps farmers and others involved in producing food
and fiber, and statistical analysis designed to aid understanding of agricultural issues. This important facet of
USDA’s role supports its mission through its strategic goals, as outlined below. The examples provided are a small
selection from a large effort to further our understanding.
STRATEGIC GOAL 1: ASSIST RURAL COMMUNITIES TO CREATE PROSPERITY SO THEY ARE SELF-SUSTAINING, REPOPULATING, AND
ECONOMICALLY THRIVING
Objective 1.1 – Enhance Rural Prosperity
America’s Family Farms. Most U.S. farms—98 percent in 2007—are family-owned operations. While large-scale
family farms and nonfamily farms account for 12 percent of those in the U.S., they also comprise 84 percent of
the value of production. In contrast, small family farms make up most of the U.S. farm count while producing a
modest share of farm output. Small farms are less profitable than large-scale farms, on average, and tend to rely on
off-farm income for their livelihood. Generally speaking, farm-operator households cannot be characterized as
low-income when both farm and off-farm income are considered. Nevertheless, limited-resource farms still exist
and account for 3 to 12 percent of family farms. This research provides decision makers with an ongoing
assessment of the economic status of family farms.
Small Farms in the United States: Persistence under Pressure. Ninety-one percent of U.S. farms are classified as small,
with gross cash farm income (GCFI) of less than $250,000. About 60 percent of these small farms are very small,
generating GCFI of less than $10,000. These very small noncommercial farms, in some respects, exist
independently of the farm economy because their operators rely heavily on off-farm income. The remaining small
farms—small commercial farms—account for most small-farm production. Overall farm production, however,
continues to shift to larger operations, while the number of small commercial farms and their share of sales
maintain a long-term decline. This research provides decision makers with an assessment of the current economic
status of the Nation’s small farms.
Objective 1.2 – Create Thriving Communities
Promoting Local Community Sustainability. Because of the increased demand for local foods, especially by restaurants,
USDA-funded extension programs now link growers to consumers. In Oregon, one town has 22 restaurants, 85
small farms/growers, 5 food markets, 3 fishing boats, and consumers participating in a food Web linkage project,
in which participants share a wide range of food expertise using the Internet. It is estimated that more than
$129,000 in local food trade occurred in 2009 within these groups. As a result of the demand generated by the
project, 4 new farms began production. This production added between $80,000 and $320,000 annually in net
income to an economically depressed community. The project can be a model of sustainability for other
communities to emulate.
Objective 1.3 – Support a Sustainable and Competitive Agricultural System
Organic Production Survey. The 2008 Farm Bill provided funding for USDA to develop statistics on organically
produced agricultural products. The Organic Production Survey results were released in FY 2010 in response to
this mandate. The one-time funding provided by the Farm Bill allowed the Department to develop baseline
statistics about this quickly expanding and vital sector of U.S. agriculture. Information on this survey and on the
Census of Agriculture can be found at http://www.agcensus.usda.gov/.
Decoding the Swine Genome. An international team of scientists, funded with a grant from USDA, has completed
the first draft sequence of the genome of a domesticated pig. A genome is the full complement of genetic material
within an organism. This first draft sequence will spur advancements in swine production and human medicine.
Understanding the swine genome will lead to health advancements in the swine population. It will also accelerate



                                           Annual Performance Report
                                                       73
the development of vaccinations for pigs. This new insight into the genetic makeup of the swine population can
help reduce disease and enable medical advancements in both pigs and humans.
Improving Sustainability in the Agricultural System. USDA funded the Western Sustainable Agriculture Research and
Education (SARE) program to educate and help the agriculture industry become more profitable, protect natural
resources and the environment, and improve the quality of life for producers and consumers. The number of
separate SARE-impacted farms and ranches which increased profits and/or reduced costs was documented as at
least 1,452. Adjacent farms and ranches totaled more than 3,000, impacting 4,178,000 acres. Of these farms and
ranches, 82 percent reported the sustained use of the research-based idea or practices tested. Finally, across the 5-
year life-span of this cooperative agreement, and across the entire western region, there was a positive economic
impact of more than $500 million.
STRATEGIC GOAL 2: ENSURE OUR NATIONAL FORESTS AND PRIVATE WORKING LANDS ARE CONSERVED, RESTORED, AND MADE MORE
RESILIENT TO CLIMATE CHANGE, WHILE ENHANCING OUR WATER RESOURCES
Objective 2.1 – Restore and Conserve the Nation’s Forests, Farms, Ranches, and Grasslands
Participation in Conservation Programs by Targeted Farmers: Beginning, Limited-Resource, and Socially Disadvantaged
Operators' Enrollment Trends. Beginning, limited-resource, and socially disadvantaged farmers make up as much as
40 percent of all U.S. farms. Some Federal conservation programs contain provisions that encourage participation
by such “targeted” farmers. A 2010 USDA report provided Departmental decision makers with a comparison of
the natural resource characteristics, resource issues, and conservation treatment costs on targeted farmers against
those of other participants in the largest U.S. conservation programs. Some evidence shows that targeted farmers
tend to operate more environmentally sensitive land than other farmers, have different conservation priorities, and
receive different levels of payments. The different conservation priorities among types of farmers suggest that, if a
significantly larger proportion of targeted farmers participate in these programs, the programs’ economic and
environmental outcomes could change.
‘Recovery’, a New Grass Cultivar to Improve Rangeland Restoration. Western wheatgrass is an important native grass in
many range land ecosystems. Despite its importance, its low rate of seed production and poor seedling vigor limit
its use when quick establishment is needed to stabilize and restore degraded range lands. USDA scientists in
Logan, Utah, worked with the Army Corps of Engineers to develop and jointly release ‘Recovery’, a superior and
more easily established western wheatgrass. Developed and tested for more than 10 years, Recovery was designed
for reseeding range lands following severe disturbance, frequent wildfires, and soil erosion. With a 20-48 percent
increase in the rate of successful establishment, ‘Recovery’ enables land managers to use a native grass species to
help limit weed infestation and soil erosion in systems where reestablishment of wheatgrass is inhibited by
frequent disturbances. USDA and the Army Corps of Engineers recommend ‘Recovery’ for reseeding private,
public, and military training lands throughout the northern plains and intermountain west.
Objective 2.2 – Lead Efforts to Mitigate and Adapt to Climate Change
Reducing Greenhouse Gases. In Nebraska, proven technologies and management practices could reduce the pumping
of irrigation water by at least 460 billion gallons per year, and energy use by at least 42 million gallons of fuel per
year. In addition, for every acre-inch of water not pumped, the environment benefits from 55 pounds of reduced
carbon dioxide emissions. This could result in a 490,000-ton reduction of carbon dioxide emissions. Participants
in a USDA-funded University of Nebraska program estimated that the skills gained during the educational
experiences would allow them to reduce water use between 1.4 and 2.6 inches of water per acre. Increased carbon
storage has multiple environmental benefits, such as reduced soil erosion, increased water-holding capacity for
plants, and a slower rise in atmospheric carbon dioxide concentrations.




                                           Annual Performance Report
                                                       74
Objective 2.3 – Protect and Enhance America’s Water Resources
Use of On-Farm Irrigation. The Farm and Ranch Irrigation Survey (FRIS), conducted every 5 years, provides the
only complete, consistent data regarding on-farm irrigation activities in the Nation. The 2008 FRIS, released in
FY 2010, provided information that will promote efficient irrigation practices, and ensure long-term sustainability
of the Nation’s water resources. Statistics were provided on irrigation water use, including application methods,
equipment, facilities, expenditures, crop acreage and yield, and many other areas. The survey results are used by
industry, Government, and producers. FRIS aids in developing improved technology, more efficient water use
practices, and sound programs and policies. The survey can be found under “Census Highlights” at
http://www.agcensus.usda.gov/.
Objective 2.4 – Reduce Risk from Catastrophic Wildfire and Restore Fire to its Appropriate Place on the Landscape
Prescribed Burning Reduces Emergence of Invasive Weeds. Common rangeland weed control methods rarely prevent
weed seeds already on the ground from germinating and reestablishing the weed population. USDA scientists in
Miles City, Montana, evaluated how fire management could reduce seed viability. Seeds of Japanese brome,
spotted knapweed, Russian knapweed, and leafy spurge were deposited on the soil surface. Scientists burned the
seeds at six fuel loads common to grasslands. The results were compared with a non-burned control. At fuel loads
common to the northwestern Great Plains, seedling emergence was reduced 79 to 88 percent. At fuel loads
common to the north-central Great Plains, emergence was reduced at least 97 percent. At fuel loads typical of the
northeastern Great Plains, emergence probabilities were less than 1 percent for all species except spotted
knapweed. Results indicate the high potential for using fire to disrupt the life cycle of invasive species across the
northern Great Plains. Reducing invasive weeds through proper fire management provides an affordable method
to aid in weed control. It also increases livestock production and protects the ecosystem services of native
rangelands.
STRATEGIC GOAL 3: HELP AMERICA PROMOTE AGRICULTURAL PRODUCTION AND BIOTECHNOLOGY EXPORTS AS AMERICA WORKS TO
INCREASE FOOD SECURITY
Objective 3.1 – Ensure U.S. Agricultural Resources Contribute to Enhanced Global Food Security
Food Security Assessment, 2009-2010. USDA analysis finds that global food security improved between 2009 and
2010. The improvement is the result of moderation of the global economic downturn. Department analysis warns
of a long-term deterioration in food security in some regions, most notably sub-Saharan Africa.
Early-flowering genes identified that accelerate fruit tree breeding. Fruit tree breeding is a slow and expensive process
because of the long delay between planting a seedling and the plant’s first flowering. Years of breeding and testing
can be saved if that time is shortened. USDA scientists have identified and incorporated into breeding stock a
gene that promotes early flowering and fruiting. This new gene shortens the juvenile stage of plum trees from 4
years to less than 12 months. Once breeding results are achieved, the genetically engineered early-flowering trait
can be removed, which creates a tree that can be categorized as non-genetically engineered. Early flowering and
fruiting will allow for the rapid development of new and improved varieties of plum and other fruits, as well as
forest and woody ornamental species.
Objective 3.2 – Enhance America’s Ability to Develop and Trade Agricultural Products Derived from New
Technologies
Trade Negotiations and Policy Analysis. USDA research on trade policy provides decision makers with analysis that
evaluates the impact of changes in U.S. and other countries' agricultural trade policies. Department research in
support of World Trade Organization (WTO) negotiations has helped to inform and strengthen U.S. negotiating
positions on agriculture. WTO is the only international body dealing with the rules of trade between nations.
Despite strong critics of WTO, membership continues to grow as countries seek the benefits of expanding trade.




                                            Annual Performance Report
                                                        75
Within the organization, member countries trade concessions to gain access to foreign markets, benefiting foreign
producers and consumers.
New value-added lentil products. Many people are allergic to gluten (Celiac disease). Gluten is a protein found in
cereal grains, especially wheat. The gluten-free market is valued at $700 million. Using extrusion technology,
lentil-based snacks rich in gluten-free dietary fiber and protein were developed by USDA researchers in
collaboration with the California Departments of Food Science and Human Nutrition and Biological Systems
Engineering at Washington State University. The commercialization of lentil-based, gluten-free products will
benefit a large number of consumers and increase demand for this commodity.
Objective 3.3 – Support Sustainable Agriculture Production in Food-Insecure Nations
Protecting Global Agricultural Markets. USDA-funded scientists in Arkansas have developed the Arkansas Global
Rice Model (AGRM). This model generates a 10-year baseline projection of the global rice market. The baseline
includes all major rice producing, consuming, and trading nations. During the past year, AGRM was used to
evaluate bio-fuels policies in explaining the spikes in global rice prices in 2008. The research on the global rice
economy and analysis of trade protection has received considerable attention from the World Bank, the United
Nations, Congress, and many policy decision-makers in the U.S. and the rest of the world. The World Bank, the
Organization for Economic Cooperation and Development, the Food and Agriculture Organization of the
United Nations, and the Government of Japan have requested assistance from the Arkansas Global Rice
Economics Team in developing rice market analysis.
Development of Ug99 Resistant Wheat for Production in Afghanistan and Pakistan. Ug99 causes stem rust, a significant
disease of cereal crops. USDA, in partnership with the International Maize and Wheat Improvement Center and
the International Center for Agriculture Research in Dry Areas, is working to bring Afghanistan and Pakistan
into the Borlaug Global Rust Initiative. The initiative is designed to systematically reduce the world’s vulnerability
to stem, yellow, and leaf rusts of wheat. It also advocates the evolution of a sustainable international system to
contain the threat of wheat rusts, and the continuation of the productivity enhancements required to withstand
future global threats to wheat. The partnership strives to help safeguard wheat production in the aforementioned
countries. The Food and Agriculture Organization of the United Nations has determined that more than a
quarter of the world’s wheat crop is vulnerable to Ug99. Both Afghani and Pakistani wheat lacks resistance to
Ug99 and are at extreme risk since the rust is advancing towards their wheat growing areas. The Department
worked with the Egyptian Agricultural Research Center to provide resistant wheat seed to Afghanistan. They also
organized a 3-year project with Pakistan to develop resistant wheat varieties for release in that country.
STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN HAVE ACCESS TO SAFE, NUTRITIOUS, AND BALANCED MEALS
Objective 4.1 – Increase Access to Nutritious Food
Household Food Security in the United States. Food security for a household means that it can access, at all times,
enough food for an active, healthy life. To inform policy makers and the public about the extent to which U.S.
households consistently have economic access to enough food, USDA publishes an annual statistical report on
household food security in the U.S. The latest report, Household Food Security in the United States, 2008, based on
data from the December 2008 Food Security Survey and published in FY 2010, provides the most recent statistics
on the food security of U.S. households. It documents how much was spent for food, and the extent to which
food-insecure households participated in Federal and community food assistance programs. Results show that 85
percent of American households were food secure throughout 2008. The remaining 15 percent of households
were food insecure at least some time during that year.
The U.S. Food Environment Atlas. The Atlas is a Web-based mapping tool USDA developed to allow users to
compare U.S. counties in terms of their “food environment,” the set of factors that help determine and reflect a
community’s access to affordable, healthy food. The 90 indicators of the food environment currently included in
the Atlas cover a wide range of demographic, health, and food access characteristics, most at the county level. The


                                          Annual Performance Report
                                                      76
basis of the U.S. Food Environment Atlas is a recognition that factors such as store/restaurant proximity, food
prices, food and nutrition assistance programs, and community characteristics, interact to influence food choices
and diet quality.
New Dietary Supplement Ingredient Database. A partnership between USDA scientists in Beltsville, Maryland, and
the National Institutes of Health, Office of Dietary Supplements, resulted in release of the Dietary Supplement
Ingredient Database, Version 1. The database can be found at http://dietarysupplementdatabase.usda.nih.gov.
This list of hundreds of multivitamin/mineral products is the first of several related goals to provide better dietary
assessments of the American people. This database will be used by researchers who determine how much of
various nutrients people consume. Because half the population takes dietary supplements, this new information
will make estimates of intake more accurate. It will also lead to better dietary recommendations for health.
Objective 4.2 – Promote Healthy Diet and Physical Activity Behaviors
New Intervention Method Can Decrease Obesity. A USDA-funded integrated research/extension project at the
Children’s Nutrition Research Center, Baylor College of Medicine, investigated adding a new intervention to
Expanded Food and Nutrition Education Program (EFNEP) classes in Texas. At issue was whether it would lead
to improved dietary behaviors and lower body mass index (BMI) as compared with groups receiving standard
EFNEP classes. BMI is the ratio of a person’s weight to height. While both the control and intervention groups’
improved dietary behaviors, the intervention group also experienced a significant decrease in BMI. This project
demonstrates the potential for EFNEP to significantly impact family dietary behaviors in populations at risk for
obesity.
Golden Rice as an Effective Source of Vitamin A. Vitamin A deficiency leads to premature disability and millions of
deaths worldwide each year. Scientists from USDA nutrition centers in Houston and Boston proved that golden
rice provides enough beta-carotene (an organic compound that can easily be converted to vitamin A) to satisfy the
requirements for this essential vitamin. Widespread consumption of golden rice would help eliminate this nutrient
deficiency.
Objective 4.3 – Protect Public Health by Ensuring Food is Safe
Fighting Food Pathogens at the Source. Although cattle are important reservoirs of foodborne pathogens, no validated
method exists to monitor them on farms. The goal of this project was to improve food safety by developing
efficient, effective methods to determine the E. coli O157:H7 and Salmonella status of pens of feedlot cattle. It
also looked to reduce the potential for these foodborne pathogens to be transmitted outside the feedlot. USDA-
funded scientists in Nebraska developed and validated a pen-testing protocol as a monitoring tool for feedlot
production Hazard Analysis and Critical Control Points (HACCP) programs. HACCP is a process that has been
established for juice, meat, poultry, and seafood processing to prevent foodborne illness. Scientists also look to use
the protocol. This work was important to the understanding of when and where food safety pathogens occur in
cattle feedlots and enable the development of control strategies.
Salmonella Serotyping. Definitively characterizing Salmonella species isolated from foods is a critical issue for
USDA. Department scientists in Athens, Georgia, developed a multiplex polymerase chain reaction (PCR)
Salmonella serotyping technique for high-throughput analysis. PCR is a scientific technique in molecular biology
to amplify a single or a few copies of a piece of deoxyribonucleic acid (DNA) to generate thousands to millions of
copies of a particular DNA sequence. DNA is a molecule that carries the genetic information of all living
organisms. A serotype is a group of organisms, microorganisms, or cells distinguished by how they produce
immune-defense molecules. The multiplex PCR assay can identify the top 50 serotypes isolated, which represent
85 percent of all clinically isolated Salmonella. It has been adapted to a high-throughput platform by incorporation
of capillary analysis of the multiplex PCR products. The impact of the research will be immediate. The technique,
which requires little training, could replace traditional serotyping for most Salmonella isolates. It facilitates the
determination of up to 90 isolates in 24 hours with very little hands-on time at a cost of $1.50 per sample. This
result compares to several days and about $40 for traditional serotyping. The technique is currently being tested

                                           Annual Performance Report
                                                       77
and validated by several Federal and State public health laboratories in the U.S., and the Public Health Agency of
Canada.
E-beam Technology for Developing Poultry Vaccines. Some microorganisms, particularly bacteria, cause serious disease
in commercial poultry. They can also be of importance in causing food poisoning in poultry products reaching the
consumer. New methods are needed to minimize the effects of such microorganisms. USDA scientists, in
collaboration with Texas A&M University scientists, used high energy electron-beam (E-beam) irradiation to
render Salmonella non-viable as an infectious agent, while retaining the necessary antigenic properties to
stimulate a strong immunological response in poultry. The research established that broiler chickens exposed to
E-beam-treated bacteria were much more efficient in fighting off subsequent infections by normal, viable bacteria.
This finding suggests that the irradiated bacteria could serve as a vaccine. It also shows that, although vaccines
against viruses are well known and relatively easy to create, developing effective ones against bacteria have
historically been much more difficult.
X-ray Treatments to Improve Seafood Safety. USDA-funded scientists at Mississippi State University evaluated the
use of X-ray technology on oysters and shrimp to reduce bacterial pathogen levels. In half- and whole-shell
oysters and ready to eat shrimp, more than 1 million cells of the foodborne pathogens E. coli O157: H7,
Salmonella, Shigella flexneri, and Vibrio parahaemolyticus could be killed with X-ray treatments of between 2 to
5 kGy (kGy, or KiloGray, is a unit of radiation measurement). More importantly, X-ray treatment did not kill the
oysters even with the highest dose (5 kGy). This research will have a direct impact on producers, particularly in
southern States, which are eager for an alternative pathogen intervention process that does not impact product
quality.
Objective 4.4 – Protect Agricultural Health by Minimizing Major Diseases and Pests to Ensure Access to Safe,
Plentiful, and Nutritious Food
National Network of Labs Detect Diseases Early. The National Plant Diagnostic Network (NPDN) developed links to
laboratories in every State. NPDN provides a nationwide network of public agricultural institutions with a
cohesive, distributed system to quickly detect high consequence pests and pathogens introduced into agricultural
and natural ecosystems, identify them, and immediately report them to appropriate responders and decision
makers. ISDA funding has enabled NPDN to increase the cumulative number of specific plant diseases labs
within the network prepared to detect from 3 in 2004 to 10 in 2010. Plant disease (and insect) detection criteria
have been developed for soybean rust, sudden oak death, Ralstonia stem rot, plum pox virus, pink hibiscus
mealybug, potato wart, huanglongbing (citrus greening), Potato Cyst Nematode, Late Blight and Beet Curly
Top. The Department also helped fund and provide leadership to establish the National Animal Health
Laboratory Network (NAHLN), a multifaceted network comprised of sets of laboratories that focus on different
diseases, using common testing methods and software platforms to process diagnostic requests and share
information. USDA’s work helped enable NAHLN to increase the number of animal diseases that labs within the
network can detect.
Genome of the Citrus Greening Bacterium Sequenced. USDA scientists in Fort Pierce, Florida, in collaboration with
university researchers, have completely sequenced the genome of Candidatus Liberibacter asiaticus. This bacterium
is the likely causative agent associated with citrus greening disease. Knowledge of the genome will be used to
better understand the microbe’s genetic make-up and nutritional requirements. Such knowledge can be exploited
to interrupt disease transmission and find cures for the disease.




                                          Annual Performance Report
                                                      78
Selected 2010 Program Evaluations

  Perform.
  Measure                   Title                    Findings and Recommendations/Actions                               Availability
2.4.1, 2.4.2,   Managerial Cost Accounting      Findings: The Forest Service (FS) should continue to       http://www.gao.gov/products/GAO-06-
2.4.3           Practices: Department of        place a high priority on addressing its remaining          1002R
                Agriculture, Forest Service     financial management and reporting problems. At the
                (FY2007 study, action           same time, the Secretary of Agriculture should direct
                continued in FY2010)            appropriate FS officials to assess FS MCA needs and
                                                require that they are appropriately addressed in any
                                                new systems that are implemented.
                                                Actions: In 2010, the USDA Office of the Chief
                                                Financial Officer (OCFO) and Forest Service (FS)
                                                officials assessed and defined its managerial cost
                                                accounting needs and requirements. FS assessed its
                                                managerial cost accounting needs through participation
                                                in the USDA Managerial Cost Accounting Workgroup
                                                ongoing discussions led by the OCFO, including
                                                discussions in FY 2008-2010 of a strategic framework
                                                for MCA practices across the Department. Additionally,
                                                at that time, FS, along with USDA's OCFO, was
                                                charged with responsibility for identifying and ensuring
                                                MCA requirements are incorporated in the cost
                                                accounting module of USDA's Financial Management
                                                Modernization Initiative (FMMI). The MCA requirements
                                                identified included 34 mandatory Financial Systems
                                                Integration Office (FSIO) cost management
                                                requirements and 12 additional USDA-mandatory
                                                requirements. These requirements are to enable
                                                USDA-wide cost management, including recording and
                                                accumulating financial data, cost distribution and full
                                                cost reporting. If fully and effectively implemented,
                                                USDA's actions to identify and establish MCA
                                                requirements for the FMMI cost accounting module,
                                                should enable FS obtain more relevant MCA
                                                information to help support decision making at USDA
                                                and its components, including Forest Service.

3.2.1           Managerial Cost Accounting      Findings: To promote the implementation and use of         http://www.gao.gov/products/GAO-06-
                Practices: Department of        MCA methodologies at APHIS, the Secretary of               1002R
                Agriculture, Animal and Plant   Agriculture should direct appropriate APHIS officials to
                Health Inspection Service       finalize and document procedures for using ACMS data
                (APHIS) (FY2007 study, action   fields for MCA as a step toward better informed
                continued in FY2010)            managerial decision making.
                                                Actions: In FY2010, the Animal and Plant Health
                                                Inspection Service (APHIS) issued a APHIS Cost
                                                Management System (ACMS) User Guide that
                                                provided instructions on recording and accumulating
                                                cost data into appropriate ACMS data fields in the
                                                system's spending and collections module to track
                                                costs associated with APHIS information and
                                                technology investments. The spending and collections
                                                module is to provide important information, such as
                                                planned and committed costs related to APHIS
                                                program agreements and cost centers. At the same
                                                time, APHIS also expanded reporting capabilities in
                                                ACMS to include managerial reports for tracking costs
                                                for component organizations and programs to include



                                                   Annual Performance Report
                                                               79
 Perform.
 Measure                 Title                     Findings and Recommendations/Actions                                 Availability
                                             reporting on allocations, agreements, strategic funds,
                                             forecasting and performance. Further, in March 2010,
                                             APHIS conducted three training sessions on using
                                             ACMS specifically for APHIS managers who have
                                             responsibility for managing agency funding and making
                                             spending decisions. Based on these collective APHIS
                                             actions, if fully and effectively implemented, APHIS will
                                             have greater assurance that relevant managerial cost
                                             accounting data is available to support APHIS program
                                             decision making.

4.1.1       Enhancing Supplemental           This report uses information from case studies                http://www.fns.usda.gov/ora/MENU/Publ
            Nutrition Assistance Program     conducted in 14 SNAP agencies in 2009 to describe             ished/snap/FILES/ProgramOperations/E
            Certification: SNAP              states’ goals for modernization, factors that led to shifts   nhancedCertification_FinalSummary.pdf
            Modernization Efforts -- Final   in business practices, and types of changes. These
            Report (released first quarter   changes include efforts to improve customer service in
            FY2010)                          the local offices, and manage workload, technological
                                             innovations, and partnering arrangements.
                                             Actions: No recommendations for action.
4.1.1       Low Income Household             This study uses information from the Consumer                 http://www.fns.usda.gov/ora/MENU/Publ
            Spending Patterns and            Expenditure Survey to compare spending patterns               ished/snap/FILES/Participation/Spendin
            Measures of Poverty (April,      across major consumption categories for SNAP                  gPatterns.pdf
            2010)                            households, income-eligible non participating
                                             households, and ineligible households with incomes
                                             between 130 and 300 percent of poverty.
                                             Findings: All three categories spent less than one-
                                             quarter of their household income on food, with SNAP
                                             participants spending slightly higher percentages than
                                             other low-income people. SNAP participants are less
                                             likely to have checking and savings accounts than non-
                                             participants, and tend to carry much lower account
                                             balances.
                                             Actions: No recommendations for action.

4.1.1       Implementing Supplemental        This study assesses the feasibility and effects of adding     http://www.fns.usda.gov/ora/MENU/Publ
            Nutrition Assistance Program     the Commonwealth to SNAP in place of its current              ished/snap/FILES/ProgramDesign/Puert
            in Puerto Rico: A Feasibility    block grant for nutrition assistance to low-income            oRico.pdf
            Study (June, 2010)               families.
                                             Findings: Changing the current NAP block grant to
                                             SNAP in the Commonwealth would increase
                                             participation by about 85,000 households, with 220,000
                                             people in an average month, and increase annual costs
                                             by roughly $500 million. However, these estimates are
                                             highly sensitive to economic conditions and policy
                                             choices.
                                             Actions: No recommendations for action.

4.1.1       Summary of Nationwide            Findings: Office of Inspector General (OIG) concluded         http://www.usda.gov/oig/webdocs/27099
            Electronic Benefits Transfer     that, while FNS generally had adequate controls over          -71-Hy.pdf
            (EBT) Operations (January,       EBT processing, there were a small number of
            2010)                            instances in which retailers redeemed SNAP benefits
                                             using incorrect store authorization numbers.
                                             Actions: While OIG made no formal recommendations,
                                             FNS agreed to take action to validate and cross-check
                                             retailer authorization numbers.




                                                Annual Performance Report
                                                            80
  Perform.
  Measure                     Title                      Findings and Recommendations/Actions                                Availability
4.1.3           Direct Certification in the        Presents information on the effectiveness of State and       http://www.fns.usda.gov/ora/MENU/Publ
                National School Lunch              local efforts to directly certify children for free school   ished/CNP/FILES/NSLPDirectCertificati
                Program (NSLP): State              meals in School Year (SY) 2008-09.                           on2009.pdf
                Implementation Progress            Findings: Seventy-eight percent of local education
                Report to Congress 2009            agencies directly certified SNAP-participating students
                (released first quarter FY2010)    in SY 2008-09. These LEAs enroll 96 percent of all
                                                   students in NSLP-participating schools. The median
                                                   direct certification rate was 72 percent in SY 2008-
                                                   2009. This is up from 69 percent in SY 2007-08.
                                                   Actions: No recommendations for action.
4.1.3           Child and Adult Care Food          Estimates the accuracy level of CACFP meal                   http://www.fns.usda.gov/ora/MENU/Publ
                Program (CACFP) –                  reimbursement levels (“tiering”), and related improper       ished/CNP/FILES/CACFPTiering08.pdf
                Assessment of Sponsor Tiering      payments in 2008.
                Determinations – 2008              Findings: The level of improper payments was
                (released March 2010)              comparable to the estimates from previous years at
                                                   about 2 percent of total CACFP meal reimbursements.
                                                   Actions: No recommendations for action.
4.1.3           Regional Office Review of          Assesses administrative error associated with the local      http://www.fns.usda.gov/ora/MENU/Publ
                Applications (RORA) for            educational agency’s approval of applications for free       ished/CNP/FILES/rora2008.pdf
                School Meals 2008 (released        and reduced-price school meals.
                February 2010)                     Findings: The percent of all students with
                                                   administrative errors in the processing of their
                                                   applications for meal benefits has remained relatively
                                                   stable during the 4-year period, with administrative
                                                   errors ranging between 3 and 4 percent.
                                                   Actions: No recommendations for action.
4.1.3           Analysis of Verification           Presents results of an analysis of the data on the           http://www.fns.usda.gov/ora/MENU/Publ
                Summary Data School Year           application verification process reported by States for      ished/CNP/FILES/CNVerification2007-
                2007-08 (released first quarter    SY 2007-08.                                                  08.pdf
                FY2010)                            Findings: Of the almost 300,000 applications selected
                                                   for verification by local education agencies, about half
                                                   (48 percent) were confirmed at the initial free or
                                                   reduced price status, 9 percent changed from free to
                                                   reduced price, 9 percent changed from free or reduced
                                                   price to paid, 2 percent changed from reduced price to
                                                   free, and about a third (32 percent) resulted in non-
                                                   response.
                                                   Actions: No recommendations for action.

4.1.1, 4.1.2,   Food and Nutrition Service         Findings: OIG reviewed FNS financial statements for          http://www.usda.gov/oig/webdocs/27401
4.1.3. 4.1.4    Financial Statements for Fiscal    Fiscal Years 2008 and 2009. FNS’ statements received         -34-HY.pdf
                Years 2009 and 2008                an unqualified opinion. The agency’s core financial
                (released first quarter FY2010)    management system was found to be in substantial
                                                   compliance with the Federal Financial Management
                                                   Improvement Act of 1996.
                                                   Actions: The report contains no recommendations.

4.1.1, 4.1.3.   Domestic Food Assistance:          Findings: The U.S. Government Accountability Office          http://www.gao.gov/new.items/d10346.
4.1.4           Complex System Benefits            (GAO) found research suggesting that, while                  pdf
                Millions, but Additional Efforts   participation in the Special Supplemental Nutrition
                Could Address Potential            Program for Women, Infants and Children (WIC), the
                Inefficiency and Overlap           National School Lunch Program, the School Breakfast
                among Smaller Programs             Program, and SNAP is associated with positive health
                (April, 2010)                      and nutrition outcomes, little is known about the
                                                   effectiveness of the remaining 11 programs because



                                                      Annual Performance Report
                                                                  81
 Perform.
 Measure                Title                   Findings and Recommendations/Actions                                    Availability
                                          they have not been well studied. GAO also found that,
                                          while the existing range of multiple programs may help
                                          to increase access to food for vulnerable or target
                                          populations, it shows signs of program overlap. This
                                          overlap can create unnecessary work and lead to
                                          inefficient use of resources.
                                          Actions: GAO recommended that USDA identify and
                                          develop methods for addressing potential inefficiencies
                                          and reducing unnecessary overlap among smaller
                                          programs, while ensuring access to the programs for
                                          those who are eligible. FNS agreed to consider a study
                                          to examine potential inefficiencies and overlap among
                                          smaller programs.

            Review of the Emergency       Findings: OIG found that the agency was not                      http://www.usda.gov/oig/webdocs/27703
            Food Assistance Program       frequently and consistently reviewing State operations           -01-AT.pdf
            (March 2010)                  of the Emergency Food Assistance Program (TEFAP).
                                          It also found that the evaluations performed did not
                                          necessarily focus on States and territories that were at
                                          the greatest risk of fraud, waste, and abuse.
                                          Actions: OIG recommended setting policies and
                                          timeframes for TEFAP reviews. FNS will explore the
                                          use of a standard, risk-based approach to identifying
                                          TEFAP agencies that should receive priority reviews. It
                                          also will develop guidance to improve consistency in
                                          the review process.

4.2.1       Food Expenditures and Diet    Uses data from several national surveys to compare               http://www.fns.usda.gov/ora/MENU/Publ
            Quality among Low-Income      food spending and household diet quality of SNAP                 ished/snap/FILES/Other/FoodExpendDi
            Households and Individuals    participants with other low-income households.                   etQuality.pdf
            (July 2010)                   Findings: Ten-percent higher food spending is
                                          associated with a small but, for some groups,
                                          statistically significant positive difference in diet quality.
                                          Actions: No recommendations for action.

4.2.1       WIC Breastfeeding Peer        Provides a comprehensive and systematic picture of               http://www.fns.usda.gov/ora/MENU/Publ
            Counseling Study Final        the implementation of the Loving Support Peer                    ished/WIC/FILES/WICPeerCounseling_
            Implementation Report (June   Counseling Program. (A second phase of the project,              Summary.pdf
            2010)                         now underway, will assess the impact of enhancing
                                          Loving Support on breastfeeding outcomes for WIC
                                          participants.)
                                          Findings:
                                          • More than half of pregnant WIC participants were
                                             enrolled at local WIC agencies that offered the
                                             Loving Support program.
                                          • The dollar amount of FNS Loving Support grants
                                             per pregnant WIC participant varies widely.
                                          • Breastfeeding peer counseling contacts occur both
                                             in WIC offices and on the telephone.
                                          Actions: No recommendations for action.




                                             Annual Performance Report
                                                         82
                                                Section 3.
                                                Financial Statements, Notes, Supplemental
                                                and Other Accompanying Information

3.   Financial Statements, Notes, Supplemental and Other Accompanying Information
Message from the Chief Financial Officer
The Office of the Chief Financial Officer leads the U.S. Department of Agriculture (USDA) with fiscally sound,
cost-effective program delivery. Our efforts are supported by reliable financial management information and
infrastructure. Because we are accountable to the American taxpayer, we strive for peak performance in all facets
of the Department. We continually adjust our operations to improve the quality of services we provide to the
American people.
The purpose of Sections 3 and 4 of this Fiscal Year 2010 Performance Accountability Report is to provide factual
data that clearly characterize our accomplishments in managing USDA resources with maximum efficiency.
Sections 3 and 4 include detailed information regarding:
• Financial Statements;
• Audit Reports;
• Findings and Recommendations;
• Balance Sheets;
• Supplemental Notes; and
• Other Accompanying Information.
Through the leadership and collaborative efforts of USDA managers, employees, business partners, and
stakeholders, we have made significant strides in fiscal year 2010, advancing the Department’s impressive record
of excellence in financial management.
•    Highlights of USDA’s significant progress in financial management during FY 2010 include:
•    Received another clean financial audit opinion;
•    Continued implementation of a core financial system to replace USDA’s 9 general ledger systems;
•    of the 29 agencies and offices that form the Department, 21 have implemented the Financial Management
     Modernization Initiative System;
•    Completed the assessment of internal control over financial reporting as required by Office of Management
     and Budget Circular A-123, Appendix A, “Internal Control over Financial Reporting.” As a result of testing,
     USDA identified 182 new control deficiencies. The Department also closed 32 business-process corrective
     action plans and 182 general-computer-control plans of action and milestones from prior years’ assessments;
•    Reduced USDA’s inventory of audits open 1 or more years without final action by 39 percent;
•    Reduced improper payments from 5.92 percent to 5.37 percent;
•    Exceeded USDA’s recovery target of $54.1 million with total improper payment recoveries of $310.3 million;
     and



             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  83
•     Provided cost-effective and secure payroll, and other administrative services reliably and accurately
      Government-wide through our National Finance Center.
Though we are continually making progress in financial management, we cannot yet give unqualified assurance of
compliance with the Federal Managers’ Financial Integrity Act, nor with the financial systems requirements of
the Federal Financial Management Improvement Act. We will continue to focus on these efforts in the coming
year.
We remain proud of the accomplishments of our hard working employees at USDA. All of us are committed to
the sound management of resources under our stewardship. We look forward to more financial management
improvements in fiscal year 2011.




    November 15, 2010




             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  84
                                   Consolidated Balance Sheet
                                   As of September 30, 2010 and 2009
                                              (In Millions)
                                                                                  2010           2009
Assets (Note 2):
Intragovernmental:
     Fund Balance with Treasury (Note 3)                                      $    75,805    $    72,334
     Investments (Note 5)                                                             154            165
     Accounts Receivable, Net (Note 6)                                                288            270
     Other (Note 11)                                                                   83              4
   Total Intragovernmental                                                         76,330         72,773

  Cash and Other Monetary Assets (Note 4)                                             161            248
  Investments (Note 5)                                                                  3              3
  Accounts Receivable, Net (Note 6)                                                 7,320          8,596
  Direct Loan and Loan Guarantees, Net (Note 7)                                    89,405         85,657
  Inventory and Related Property, Net (Note 8)                                         47            205
  General Property, Plant, and Equipment, Net (Note 9)                              2,964          2,972
  Other (Note 11)                                                                     178            185

Total Assets                                                                      176,408        170,639

  Stewardship PP&E (Note 10)

Liabilities (Note 12):
  Intragovernmental:
     Accounts Payable                                                                   7              5
    Debt (Note 13)                                                                 87,915         84,119
     Other (Note 15)                                                               11,735         11,774
  Total Intragovernmental                                                          99,657         95,898

  Accounts Payable                                                                    580            734
  Loan Guarantee Liability (Note 7)                                                 2,857          1,844
  Federal Employee and Veteran Benefits                                               881            846
  Environmental and Disposal Liabilities (Note 14)                                      9              9
  Benefits Due and Payable                                                          3,356          3,119
  Other (Notes 15 & 16)                                                            21,584         23,274
  Total Liabilities                                                               128,924        125,724

  Commitments and Contingencies (Note 17)

Net Position:
 Unexpended Appropriations - Earmarked Funds (Note 18)                               (302)         1,263
 Unexpended Appropriations - Other Funds                                           36,563         37,039
 Cumulative Results of Operations - Earmarked Funds (Note 18)                         429           (349)
 Cumulative Results of Operations - Other Funds                                    10,794          6,962
 Total Net Position                                                                47,484         44,915

Total Liabilities and Net Position                                            $ 176,408      $ 170,639




                              Consolidated Financial Statements


                       The accompanying notes are an integral part of these statements.


Financial Statements, Notes, Supplemental and Other Accompanying Information
                                     85
                                  Consolidated Statement of Net Cost
                          For the Years Ended September 30, 2010 and 2009
                                             (In Millions)


                                                                                    2010          2009

Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
 Gross Costs                                                                    $    25,912   $    36,036
 Less: Earned Revenue                                                                 5,301         9,843
     Net Costs                                                                       20,611        26,193

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
 Gross Costs                                                                         11,804        10,529
 Less: Earned Revenue                                                                   670           665
   Net Costs                                                                         11,134         9,864

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
  Gross Costs                                                                         3,231         1,890
  Less: Earned Revenue                                                                  375           380
    Net Costs                                                                         2,856         1,510

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
  Gross Costs                                                                        98,684        82,296
  Less: Earned Revenue                                                                  847           795
    Net Costs                                                                        97,837        81,501


Total Gross Costs                                                                   139,631       130,751
Less: Total Earned Revenue                                                            7,193        11,683

Net Cost of Operations (Note 19)                                                $ 132,438     $ 119,068




                        The accompanying notes are an integral part of these statements.



  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                       86
                                    Consolidated Statement of Changes in Net Position
                                           For The Year Ended September 30, 2010
                                                         (In Millions)

                                                          Earmarked
                                                            Funds                  All Other                         Consolidated
                                                           (Note 18)                Funds            Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                      $         (349)       $        6,962        $          -    $     6,613

 Budgetary Financing Sources:
     Other Adjustments (recissions, etc.)                            -                    (44)                  -            (44)
     Appropriations Used                                         5,673                124,330                   -        130,003
     Non-exchange Revenue                                            -                      5                   -              5
     Donations and Forfeitures of Cash and Equivalents               1                      -                   -              1
     Transfers In (Out) without Reimbursement                    1,444                  5,812                   -          7,256
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                      (60)                   (30)                  -            (90)
     Imputed Financing                                              57                  3,982              (2,949)         1,090
     Other                                                          44                 (1,217)                  -         (1,173)
 Total Financing Sources                                         7,159                132,838              (2,949)       137,048

 Net Cost of Operations                                          (6,381)             (129,006)             2,949         (132,438)

 Net Change                                                        778                  3,832                   -          4,610

    Cumulative Results of Operations                               429                 10,794                   -         11,223

Unexpended Appropriations:
 Beginning Balances                                              1,263                 37,039                   -         38,302
 Adjustments:
     Changes in Accounting Principles (Note 24)                    (444)                    -                   -           (444)
     Beginning Balance, as Adjusted                                 819                37,039                   -         37,858

 Budgetary Financing Sources:
   Appropriations Received                                        6,909               124,360                   -         131,269
   Appropriations Transferred In (Out)                               (5)                  177                   -             172
   Other Adjustments                                             (2,352)                 (683)                  -          (3,035)
    Appropriations Used                                          (5,673)             (124,330)                  -        (130,003)
 Total Budgetary Financing Sources                               (1,121)                 (476)                  -          (1,597)

   Unexpended Appropriations                                       (302)               36,563                   -         36,261

 Net Position                                            $          127        $       47,357        $          -    $    47,484




                                  The accompanying notes are an integral part of these statements.



          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               87
                                         Consolidated Statement of Changes in Net Position
                                               For The Year Ended September 30, 2009
                                                             (In Millions)

                                                          Earmarked
                                                            Funds                  All Other                       Consolidated
                                                           (Note 18)                Funds          Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                       $        (490)       $        9,108       $         -    $     8,618

 Budgetary Financing Sources:
     Appropriations Used                                          6,986               104,227                 -        111,213
     Non-exchange Revenue                                             -                    10                 -             10
     Donations and Forfeitures of Cash and Equivalents                1                     -                 -              1
     Transfers In (Out) without Reimbursement                     1,639                 4,592                 -          6,231
 Other Financing Sources (Non-Exchange):
     Transfers In (Out) without Reimbursement                       (70)                 (492)                -           (562)
     Imputed Financing                                               48                 3,785            (2,800)         1,033
     Other                                                           48                  (911)                -           (863)
 Total Financing Sources                                          8,652               111,211            (2,800)       117,063

 Net Cost of Operations                                          (8,511)             (113,357)           2,800         (119,068)

 Net Change                                                         141                (2,146)                -          (2,005)

    Cumulative Results of Operations                               (349)                6,962                 -          6,613

Unexpended Appropriations:
 Beginning Balances                                               1,428                29,355                 -         30,783

 Budgetary Financing Sources:
   Appropriations Received                                        6,778               114,209                 -         120,987
   Appropriations Transferred In (Out)                               (5)                   22                 -              17
   Other Adjustments                                                 48                (2,320)                -          (2,272)
    Appropriations Used                                          (6,986)             (104,227)                -        (111,213)
 Total Budgetary Financing Sources                                 (165)                7,684                 -           7,519

   Unexpended Appropriations                                      1,263                37,039                 -         38,302

 Net Position                                             $         914        $       44,001       $         -    $    44,915




                                     The accompanying notes are an integral part of these statements.


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                88
                                          Combined Statement of Budgetary Resources
                                        For The Years Ended September 30, 2010 and 2009
                                                           (In Millions)

                                                                             2010                                        2009
                                                                                 Non-Budgetary                               Non-Budgetary
                                                                                  Credit Reform                               Credit Reform
                                                              Budgetary        Financing Accounts        Budgetary         Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 24)    $     33,120         $     4,689            $    28,078          $     5,314
Recoveries of prior year unpaid obligations                         3,721               1,106                  3,934                  754
Budget Authority -
  Appropriation                                                   144,701                   -                132,335                    -
  Borrowing Authority                                              39,063              21,852                 28,870               14,905
  Earned -
    Collected                                                      21,285              10,988                 22,678                9,496
    Change in receivables from Federal Sources                        189                   1                    (60)                   -
  Change in unfilled customer orders -
    Advances received                                                 426                   -                    140                    -
    Without advance from Federal Sources                              309                 (34)                   (47)                 220
  Expenditure transfers from trust funds                              937                   -                  1,130                    -
Nonexpenditure transfers, net, anticipated and actual                (253)                  -                   (431)                   -
Temporarily not available pursuant to Public Law                     (134)                  -                    (12)                   -
Permanently not available                                         (50,335)             (6,246)               (32,938)              (5,605)
Total Budgetary Resources                                         193,029              32,356                183,677               25,084

Status of Budgetary Resources:
Obligations Incurred -
   Direct                                                         138,924              24,059                122,471               20,395
   Reimbursable                                                    25,685                   -                 27,642                    -
Unobligated Balance -
   Apportioned                                                     10,349               4,233                 13,786                2,324
   Exempt from Apportionment                                        1,392                   5                    873                    4
Unobligated balance not available                                  16,679               4,059                 18,905                2,361
Total Status of Budgetary Resources                               193,029              32,356                183,677               25,084

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                  29,604               23,298                 25,277               20,694
Obligations incurred                                              164,609               24,059                150,113               20,395
Gross outlays                                                    (154,185)             (17,174)              (141,959)             (16,818)
Recoveries of prior year unpaid obligations, actual                (3,721)              (1,106)                (3,934)                (754)
Change in uncollected payments from Federal Sources                  (498)                  34                    107                 (220)
Obligated balance, net, end of period -
  Unpaid obligations                                               37,540              30,193                 30,836               24,414
  Uncollected customer payments from Federal Sources               (1,730)             (1,082)                (1,232)              (1,116)
Obligated Balance, net, end of period                              35,810              29,111                 29,604               23,298

Net Outlays:
Gross outlays                                                     154,185               17,174               141,959               16,818
Offsetting collections                                            (22,648)             (10,989)              (23,948)              (9,496)
Distributed offsetting receipts                                    (1,512)                (576)               (3,100)                (474)
Net Outlays                                                  $    130,025         $      5,609           $   114,911          $     6,848




                                      The accompanying notes are an integral part of these statements.




         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                              89
                                    Notes to the Consolidated Financial Statements
                                          As of September 30, 2010 and 2009
                                                      (In Millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around the
world. USDA is organized into seven distinct mission areas and their agencies that execute these missions.
Listed below are the missions and the agencies within each mission including four Government corporations:
Farm and Foreign Agricultural Services (FFAS)
• Farm Service Agency (FSA)
    −   Commodity Credit Corporation (CCC)
•   Foreign Agricultural Service (FAS)
•   Risk Management Agency (RMA)
    − Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
• Food and Nutrition Service (FNS)
Food Safety
• Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
• Agricultural Marketing Service (AMS)
• Animal and Plant Health Inspection Service (APHIS)
• Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
• Forest Service (FS)
• Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
• Agricultural Research Service (ARS)
• National Institute of Food and Agriculture (NIFA)
• Economic Research Service (ERS)
• National Agricultural Statistics Service (NASS)
Rural Development
• Rural Development (RD)
    − Alternative Agricultural Research and Commercialization Corporation (AARC)
Effective October 1, 2009, Section 7511(f) (2) of the Food, Conservation, and Energy Act of 2008 transferred all
authorities administered by the Cooperative State Research, Education, and Extension Service (CSREES) to the
newly established National Institute of Food and Agriculture (NIFA).




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                90
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and
balances are eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis.
The financial statements are prepared in accordance with generally accepted accounting principles for the Federal
Government.
Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation. The
FY 2009 Statement of Net Cost and related note was reclassified to align with the strategic goals presented in the
USDA Strategic Plan for 2010 – 2015.
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
amounts reported in the financial statements and accompanying notes. Actual results could differ from those
estimates.
Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery has
occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably assured.
In certain cases, the prices charged by the Department are set by law or regulation, which for program and other
reasons may not represent full cost. Prices set for products and services offered through the Department’s working
capital funds are intended to recover the full costs incurred by these activities. Revenue from non-exchange
transactions is recognized when a specifically identifiable, legally enforceable claim to resources arises, to the
extent that collection is probable and the amount is reasonably estimable. Appropriations are recognized as a
financing source when used. An imputed financing source is recognized for costs subsidized by other Government
entities.
Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried at
cost. Investments in market-based Treasury securities are classified as held to maturity and are carried at
amortized cost. The amortized cost of securities is based on the purchase price adjusted for amortization of
premiums and accretion of discounts using the straight-line method over the term of the securities.
Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The adequacy
of the allowance is determined based on past experience and age of outstanding balances.
Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value of
the net cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding
principal of the loans and the present value of their net cash inflows is recognized as a subsidy cost allowance; the
present value of estimated net cash outflows of the loan guarantees is recognized as a liability for loan guarantees.
The subsidy expense for direct or guaranteed loans disbursed during the year is the present value of estimated net
cash outflows for those loans or guarantees. A subsidy expense also is recognized for modifications made during
the year to loans and guarantees outstanding and for reestimates made as of the end of the year to the subsidy
allowances or loan guarantee liability for loans and guarantees outstanding.
Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value
method. Under the present-value method, the outstanding principal of direct loans is reduced by an allowance



           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                91
equal to the difference between the outstanding principal and the present value of the expected net cash flows.
The liability for loan guarantees is the present value of expected net cash outflows due to the loan guarantees.
Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are valued
on the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of cost or net
realizable value using a weighted average method.
Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is
determined using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E are
disclosed in Note 9. Capitalization thresholds for personal property and real property are $25,000 and $100,000
for internal use software. There are no restrictions on the use or convertibility of PP&E.
Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the time
the employees’ services are rendered. The expense is equal to the actuarial present value of benefits attributed by
the pension plan’s benefit formula, less the amount contributed by the employees. An imputed cost is recognized
for the difference between the expense and contributions made by and for employees.
Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when a
future outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on or
before the reporting date. The liability for long-term other post-employment benefits is the present value of
future payments.
Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, the Department has reported the
earmarked funds for which it has program management responsibility when the following three criteria are met:
(1) a statute committing the Federal Government to use specifically identified revenues and other financing
sources only for designated activities, benefits or purposes; (2) explicit authority for the earmarked fund to retain
revenues and other financing sources not used in the current period for future use to finance the designated
activities, benefits or purposes; and (3) a requirement to account for and report on the receipt, use, and retention
of the revenues and other financing sources that distinguishes the earmarked fund from the Government’s general
revenues.
Stewardship PP&E
SFFAS 29, Heritage Assets and Stewardship Land, reclassified all heritage assets and stewardship land
information as basic except for condition information, which is classified as RSI. The reclassification as basic
information was phased in per SFFAS 29. Heritage assets and stewardship land information that was previously
reported in RSSI temporarily shifted to RSI until it moved to a note on the balance sheet as basic information.
The phase-in of disclosure requirements being reported as basic information provided that SFFAS 29 was fully
implemented for reporting periods beginning after September 30, 2008. See Note 10, Stewardship PP&E.
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow or
other sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.
Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               92
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All
allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the
child entity are charged to this allocation account as they execute the delegated activity on behalf of the parent
entity.
The Department allocates funds, as the parent, to the Department of Transportation, Department of the Interior,
Department of Defense, Department of Housing and Urban Development, U.S. Agency for International
Development and the Small Business Administration. The Department receives allocation transfers, as the child,
from the Department of Labor, Department of Transportation, Department of the Interior, Economic
Development Administration, Appalachian Regional Commission and the Delta Regional Authority.
Inter-Entity Cost Implementation
Beginning in FY 2009, SFFAS 30, Inter-Entity Cost Implementation became effective. This standard requires
full implementation of the inter-entity cost provision in SFFAS 4, Managerial Cost Accounting Standards and
Concepts. Each entity’s full cost should incorporate the full cost of goods and services that it receives from other
entities. The entity providing the goods or services has the responsibility to provide the receiving entity with
information on the full cost of such goods or services either through billing or other advice.
Recognition of inter-entity costs that are not fully reimbursed is limited to material items that (1) are significant
to the receiving entity, (2) form an integral or necessary part of the receiving entity’s output, and (3) can be
identified or matched to the receiving entity with reasonable precision. Broad and general support services
provided by an entity to all or most other entities should not be recognized unless such services form a vital and
integral part of the operations or output of the receiving entity.
Fiduciary Activities
Beginning in FY 2009, SFFAS 31, Accounting for Fiduciary Activities became effective. Fiduciary activities are
the collection or receipt, and the management, protection, accounting, investment and disposition by the Federal
Government of cash or other assets in which non-Federal individuals or entities have an ownership interest that
the Federal Government must uphold. Fiduciary assets are not assets of the Federal Government and are not
recognized on the balance sheet. Prior period amounts presented in the basic financial statements and notes were
not restated. See Note 29, Fiduciary Activities.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                93
NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract performance
bonds, employer contributions and payroll taxes withheld for agencies serviced by the National Finance Center,
interest, fines and penalties.
                                                                     FY 2010                   FY 2009
           Intragovernmental:
                 Fund balance with Treasury                      $             121         $          152
                 Accounts Receivable                                            25                     24
           Subtotal Intragovernmental                                          146                    176

           With the Public:
                 Cash and other monetary assets                                  -                        -
                 Accounts receivable                                            89                     97
           Subtotal With the Public                                             89                     97

           Total non-entity assets                                             235                    273

           Total entity assets                                           176,173                   170,366

           Total Assets                                          $       176,408           $       170,639


NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted to Fund
Balance represents un-obligated and obligated amounts recorded at year-end that will be funded by future
borrowings. Non-Budgetary Fund Balance with Treasury includes special fund receipt accounts; and clearing and
suspense account balances awaiting disposition or reclassification. Unprocessed Intragovernmental Payment and
Collection (IPAC) transactions were not reported to Treasury at the end of FY 2010 and FY 2009 because the
proper Treasury Account Symbol was unknown which reduced Fund Balance with Treasury by $48 million and
$35 million, respectively.

                                                                            FY 2010                FY 2009
         Fund Balances:
            Trust Funds                                                 $            472       $          519
            Special Funds                                                      15,230                  16,977
            Revolving Funds                                                    11,270                    8,003
            General Funds                                                      48,735                  46,761
            Other Fund Types                                                         98                       74
         Total                                                                 75,805                  72,334


         Status of Fund Balance with Treasury:
         Unobligated Balance:
            Available                                                          15,979                  16,987
            Unavailable                                                        20,738                  21,266
         Obligated Balance not yet Disbursed                                   64,797                  52,748
         Borrowing Authority not yet Converted to Fund Balance                 (39,613)               (32,803)
         Non-Budgetary Fund Balance with Treasury                              13,904                  14,136
         Total                                                          $      75,805          $       72,334




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               94
NOTE 4. CASH AND OTHER MONETARY ASSETS
In FY 2010 and FY 2009, cash includes Federal crop insurance escrow amounts of $123 million and $154,
respectively. In FY 2010, cash includes certificates of deposit of $37 million. In FY 2009, cash includes price
support transfers in transit of $93 million.
                                                                                     FY 2010                    FY 2009


                    Cash                                                        $              161          $             248




NOTE 5. INVESTMENTS
 FY 2010                                                            Amortized                                                        Market
                              Amortization                          (Premium)               Interest            Investments,          Value
                                Method             Cost             Discount               Receivable               Net             Disclosure
 Intragovernmental:
   Non-marketable
     Par value                                 $            -   $               -      $                -       $           -   $            -
     Market-based              Straight Line              152                  (1)                      3                 154              154
 Total                                         $          152   $              (1)     $                3       $         154   $          154


 With the Public:
   AARC                                        $           3    $               -      $                -       $           3   $             3
 Total                                         $           3    $               -      $                -       $           3   $             3


 FY 2009                                                            Amortized                                                        Market
                              Amortization                          (Premium)               Interest            Investments,          Value
                                Method             Cost             Discount               Receivable               Net             Disclosure
 Intragovernmental:
   Non-marketable
     Par value                                 $            -   $               -      $                -       $           -   $                -
     Market-based              Straight Line              165                  (1)                      1                 165              165
 Total                                         $          165   $              (1)     $                1       $         165   $          165


 With the Public:
   AARC                                        $           3    $               -      $                -       $           3   $             3
 Total                                         $           3    $               -      $                -       $           3   $             3




             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  95
NOTE 6. ACCOUNTS RECEIVABLE, NET
                FY 2010
                                                Accounts           Allowance for           Accounts
                                              Receivable,           Uncollectible        Receivable,
                                                 Gross               Accounts                Net
                Intragovernmental             $       288          $             -       $       288
                With the Public                     7,354                     (34)             7,320
                Total                         $     7,642          $          (34)       $     7,608

                FY 2009
                                                Accounts           Allowance for           Accounts
                                              Receivable,           Uncollectible        Receivable,
                                                 Gross               Accounts                Net
                Intragovernmental             $       270          $             -       $       270
                With the Public                     8,621                     (25)             8,596
                Total                         $     8,891          $          (25)       $     8,866


NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.
Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of
1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the
cost of direct loans and loan guarantees at present value for the budget. Additionally, the present value of the
subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other
cash flows) associated with direct loans and loan guarantees are recognized as a cost in the year the loan or loan
guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in time
is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the subsidy at
that time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds
that might be expected if these loans were sold on the open market.
Direct Loan and Loan Guarantees, Net at the end of FY 2010 was $89,405 million compared to $85,657 million
at the end of FY 2009. Loans exempt from the Federal Credit Reform Act of 1990 represent $673 million of the
total compared to $414 million in FY 2009. Table 1 illustrates the overall composition of the Department’s credit
program balance sheet portfolio by mission area and credit program for FY 2010 and FY 2009.
During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the
value of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and
reestimates all contribute to the change of the subsidy cost allowance throughout the year. The subsidy cost
allowance moved from $5,284 million to $5,576 million during FY 2010, an increase of $292 million. Table 2
shows the reconciliation of subsidy cost allowance balances from FY 2009 to FY 2010.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total direct loan
subsidy expense in FY 2010 was $429 million compared to $977 million in FY 2009. Table 3 illustrates the
breakdown of total subsidy expense for FY 2010 and FY 2009 by program.


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                96
Direct loan volume increased from $9,715 million in FY 2009 to $11,144 million in FY 2010. Volume
distribution between mission area and program is shown in Table 4.
Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of
the principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the
borrower’s account for the life of the loan. The Department, however, is responsible for ensuring borrowers meet
certain qualifying criteria to be eligible and monitoring the lender’s servicing activities. Borrowers interested in
guaranteed loans must apply to a conventional lender, which then arranges for the guarantee with a Department
agency. Estimated losses on loan and foreign credit guarantees are reported at net present value as Loan
Guarantee Liability. Defaulted guaranteed loans are reported at net present value as Loans Receivable and
Related Foreclosed Property, Net.
Guaranteed loans outstanding at the end of FY 2010 were $75,688 million in outstanding principal and $67,793
million in outstanding principal guaranteed, compared to $57,367 and $51,527 million, respectively at the end of
FY 2009. Table 5 shows the outstanding balances by credit program.
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the
loan guarantee liability through the year. The loan guarantee liability is a combination of the liability for losses on
pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved from $1,844 million to
$2,857 million during FY 2010, an increase of $1,013 million. Table 7 shows the reconciliation of total loan
guarantee liability.
Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in
the current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
guaranteed loan subsidy expense in FY 2010 was $702 million compared to $409 million in FY 2009. Table 8
illustrates the breakdown of total subsidy expense for FY 2010 and FY 2009 by program.
Guaranteed loan volume increased from $23,126 million in FY 2009 to $26,892 million in FY 2010. Volume
distribution between mission area and program is shown in Table 9.
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2010 and FY 2009 are shown in Table 10.
Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses. The subsidy rates disclosed in Tables 11 and 12
pertain only to the FY 2010 cohorts. These rates cannot be applied to the direct and guaranteed loans disbursed
during the current reporting year to yield the subsidy expense. The subsidy expense for new loans reported in the
current year could result from disbursements of loans from both current year cohorts and prior-year cohorts. The
subsidy expense reported in the current year also includes reestimates.
Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through
the FSA and the CCC, and in the RD mission area.
The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America’s farmers and ranchers in business as they face the uncertainties of
weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance programs
that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the farm sector
with programs that encourage the expansion of export markets for U.S. agriculture.


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                97
FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial credit
and nonprofit entities that are engaged in the improvement of the nation’s agricultural community. Often, FSA
borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient financial resources.
Additionally, the agency helps established farmers who have suffered financial setbacks from natural disasters, or
have limited resources to maintain profitable farming operations. FSA officials also provide borrowers with
supervision and credit counseling.
FSA’s mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and
weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is able to
provide certain loan servicing options to assist borrowers whose accounts are distressed or delinquent. These
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements, and
debt write-downs. The eventual goal of FSA’s farm credit programs is to graduate its borrowers to commercial
credit.
CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both credit guarantee and
direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance.
Its sole purpose is to assess, on a case-by-case basis, liquidity problems faced by economically disadvantaged
countries. The general premise of the Club’s activities is to provide disadvantaged nations short-term liquidity
relief to enable them to re-establish their credit worthiness. The Departments of State and Treasury lead the U.S.
Delegation and negotiations for all U.S. Agencies.
CCC also provides loans for Farm and Sugar Storage Facilities (FSFL). FSFL provides low-interest financing for
producers to build or upgrade farm storage and handling facilities. The 2008 Farm Bill added hay and renewable
biomass as eligible FSFL commodities, extended the maximum loan term to 12 years and increased the maximum
loan amount to $500,000.

Farm and Foreign Agricultural Service List of Programs

                                 Farm Service Agency                    Commodity Credit Corporation
                        Direct Farm Ownership                      General Sales Manager Guarantee Credit
                        Direct Farm Operating                      Program
                        Direct Emergency Loans                     Facility Program Guarantee
                        Direct Indian Land Acquisition             P.L. 480 Title 1 Program
                        Direct Boll Weevil Eradication             Direct Farm Storage Facility
                        Direct Seed Loans to Producers
                                                                   Direct Sugar Storage Facilities
                        Direct Conservation
                        Guaranteed Farm Operating
                        Subsidized/Unsubsidized
                        Agricultural Resource Demonstration Fund
                        Bureau of Reclamation Loan Fund
                        Guaranteed Farm Ownership
                        Unsubsidized
                        Guaranteed Conservation
                        American Recovery and Reinvestment
                        Fund




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               98
The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of
rural housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal
Governments, as well as private and not-for-profit organizations and user-owned cooperatives.
Through its rural housing loan and grant programs, RD provides affordable housing and essential community
facilities to rural communities. Rural housing programs help finance new or improved housing for moderate, low,
and very low-income families each year. The programs also help rural communities finance, construct, enlarge or
improve fire stations, libraries, hospitals and medical clinics, industrial parks, and other community facilities.
The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners
with the private sector and community-based organizations to provide financial assistance and business planning.
It also provides technical assistance to rural businesses and cooperatives, conducts research into rural economic
issues, and provides cooperative educational materials to the public.
The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan
programs for electric energy, telecommunications, and water and environmental projects. This program leverages
scarce Federal funds with private capital for investing in rural infrastructure, technology and development of
human resources.
RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements
and debt write-downs. The choice of servicing options depends on the loan program and the individual borrower.
Rural Development List of Programs
              Rural Housing Program                   Rural Business Program                      Rural Utilities Program
 Single Family Housing Direct Loans            Business and Industry Direct Loans      Water and Environmental Direct Loans
 Single Family Housing Guaranteed Loans        Business and Industry Guaranteed        Water and Environmental Guaranteed Loans
 Self Help Housing Direct Loans                Loans                                   Electric Direct Loans
 Single Family Housing Credit Sales            Intermediary Relending Program Direct   Electric Guaranteed Loans
 Site Development Loans                        Loans                                   Telecommunications Direct Loans
 Farm Labor Housing Direct Loans               Rural Economic Development Direct       Federal Financing Bank-Electric
 Multi-Family Housing Direct Loans             Loans                                   Federal Financing Bank-Telephone
 Multi-Family Housing Guaranteed Loans         Biorefinery Guaranteed Loans            Distance Learning and Telemedicine Direct
 Multi-Family Housing-Credit Sales             Renewable Energy Guaranteed Loans       Broadband Telecommunications Services
 Multi-Family Housing Relending Program        Rural Microenterprise Direct Loans
 Multi-Family Housing Revitalization Program
 Community Facilities Direct Loans
 Community Facilities Guaranteed Loans



Events and Changes Having a Significant and Measurable Effect on Subsidy Rates, Subsidy Expense, and Subsidy
Reestimates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting treatment
of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan guarantees is
referred to as “subsidy cost.” Under the act, subsidy costs for loans obligated beginning in FY 1992 are recognized
at the net present value of projected lifetime costs in the year the loan is disbursed. Subsidy costs are revalued
annually. Components of subsidy include interest subsidies, defaults, fee offsets, and other cash flows.



             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  99
The annual reestimate process updates the budget assumptions with actual portfolio performance, interest rates
and updated estimates for future loan performance. The FY 2010 reestimate process resulted in an $52 million
increase in the post 1991 estimated cost of the direct loan portfolio and a $207 million increase in the post 1991
estimated cost of the guaranteed loan portfolio.
The net upward reestimate for direct loans was mostly due to an upward reestimate for Housing less a downward
reestimate for Farm:
For the direct loan programs under the Agricultural Credit Insurance Fund (ACIF), there was a large downward
technical reestimate of $254 million, of which ownership and operating comprised 96% of the total. Cohorts 2009
and 2010 accounted for 70% of the totals for those two programs. The largest change in direct operating was in
the 2009 cohort, and is due to approximately $70 million more in actual cash receipts in the first two years than
was reported/projected at the end of FY 2009. For direct ownership, the downward reestimate reflects the effect
of revisions to the econometric predictions of default. The single largest contributing factor to default predictions
for direct ownership is the interest rate spread between the borrower interest rate and the Treasury interest rate.
Previously, this relationship did not take into account the effect of the very low borrower interest rate on down
payment loans that was authorized in the 2008 Farm Bill. Therefore a change to the econometrics was necessary
and was made during FY 2010. This change revised the default predictions to include the effect of the lower
weighted average borrower interest rate.
The Housing programs had an overall upward reestimate of $315 million. The Single Family Housing program
accounted for the largest portion of this reestimate. Due to the current decline of the housing market, combined
with the poor labor market, the forecasting method for projecting cash flows was revised. This revision shifted
more weight to current cash flows trends and less to historical trends when forecasting out years. Consequently,
the prepayments, recoveries, and recapture repayments (other inflows) curves were impacted. The effect of home
values declining, along with the tightening of credit requirements, also resulted in fewer prepayments than
forecasted. As borrowers were unable to obtain credit from commercial organizations, and others required
additional payment assistance, the costs associated with loans are anticipated to increase in comparison to previous
years. These assumptions were factored into the FY 2011 forecasts. The FY 2010 upward reestimate for the
Single Family Housing program was $270 million, while the loan cohort for the acquired properties had an
upward reestimate of $48 million. This was due to recognizing the current impact of short sales and a model
change.
The net upward reestimate for loan guarantees was mostly due to an upward reestimate for Housing:
The Guaranteed Housing programs had an overall upward reestimate of $265 million. The model for the
guaranteed programs was revised in FY 2010. Prepayment and default curves were added in order to model
unpaid principal balance (UPB) projections more accurately. The model was also adjusted to include purchased
unpaid principal balances separately. Finally, the model was modified to use actual cohort-specific UPB amounts,
subject to interest assistance, as an input. The changes impacted the current year reestimates.
These changes and the rise in unemployment rates were also reflective in the increase of actual default payments
for FY 2010. Due to increased default payments, the total default payments rate assumption increased from 3.94
percent in FY 2009 to 4.14 percent in FY 2010. As a result of this payment rate assumption increase, an upward
reestimate of $151 million occurred in the Guaranteed Single Family Housing program.
Changes to the model also impacted Multi-Family Housing program’s reestimate. The interest assistance
percentages for historical periods were included for the reestimates. This program was also impacted by increased
default assumptions. The combination of model changes and economic conditions resulted in an overall
reestimate of $103 million for the Multi-Family Housing program.
During FY 2010, the Guaranteed Single Family Housing portfolio increased due to the public’s interest in the
program. Growth in this program was achieved through several initiatives. Guaranteed loans were funded by


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               100
ARRA, regular appropriations, and from an amendment to the Housing Act of 1949. This amendment permitted
a negative subsidy rate while increasing the upfront fee to 3.5 percent.
The loan guaranteed liability also increased substantially due to the upward reestimates, increased fees, and
subsidy expense associated with the volume increase. The housing allowance increased $714 million in FY 2010.
The liability covers future costs of the program.
Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between the
budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy
formulation and reestimate rates of many USDA direct programs. USDA uses the Governmentwide interest rate
projections provided by the OMB in order to do its calculations and analysis.
The Inter-agency Country Risk Assessment System (ICRAS) is a Federal interagency effort chaired by OMB
under the authority of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk
assessment and budget assumptions for all direct credits and credit guarantees provided by the Government, to
foreign borrowers. ICRAS identification for each country is still the basis for a given country’s risk rating, but a
set of program specific default and recovery rates by ICRAS grade has been established for each program.
Domestic programs have always utilized program-specific default and recovery assumptions.
In accordance with the General Fund Receipt Account Guide, a liability for non-entity assets is accrued for
downward reestimate of subsidy. When more subsidy was collected than is necessary to fund future net cash
outflows, the financing fund must transfer the excess subsidy, with interest, to a designated general fund receipt
account in the following year.
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy cost,
such as a change in the terms of the loan contract. The cost of a modification is the difference between the
present value of the cash flows before and after the modification.
Multiple-family housing direct loan program modifications related to the revitalization project, which began in
FY 2006, continued throughout FY 2010. The revitalization project is used to rehabilitate ailing housing
developments. In this program, RD determines whether the development owner should be offered a financial
restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate an ailing
housing development and to provide affordable rents for tenants.
In FY 2009, loan extension modifications were granted for three borrowers in the FFB electric program. The
maturity dates were extended up to 20 years on selected advances. Interest rates on the advances did not change.
At the time of the modification, the liquidating fund was paid off and the advances were moved to the financing
fund. The post-modification cash flows were discounted at the first quarter net present value discount factor from
the FY 2009 President’s Budget relative to the effective date of the loan extension modifications.
The Debt Reduction Fund is used to account for CCC’s “modified debt.” Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed
by the Federal Credit Reform Act of 1990 as amended.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with
loans are reported at their market value at the time of acquisition. The projected future cash flows associated with
acquired properties are used in determining the related allowance (at present value).




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               101
As of September 30, 2010 and 2009, foreclosed property consisted of 1,209 and 1,082 rural single-family housing
dwellings, with an average holding period of 16 and 15 months, respectively. As of September 30, 2010 and 2009,
FSA-Farm Loan Program properties consist primarily of 59 and 64 farms, respectively. The average holding
period for these properties in inventory for FY 2010 and FY 2009 was 61 and 58 months, respectively. Certain
properties can be leased to eligible individuals.
Other Information
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling. When RD,
FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late interest is
accrued on arrears.
Approximately $19,000 million and $18,100 million of Rural Housing Service (RHS) unpaid loan principal as of
September 30, 2010, and 2009 were receiving interest credit, respectively. If those loans receiving interest credit
had accrued interest at the full-unreduced rate, interest income would have been approximately $966 million and
$961 million higher for FY 2010 and FY 2009, respectively.
At the end of FY 2010 and FY 2009, the RD portfolio contained approximately 70,100 and 71,400 restructured
loans with an outstanding unpaid principal balance of $2,500 million. At the end of FY 2010 and FY 2009, the
farm loan portfolio contained approximately 20,683 and 20,500 restructured loans with an outstanding unpaid
principal balance of $1,189 million and $1,126 million, respectively. Direct credit and credit guarantee principal
receivables in the food aid and export programs under rescheduling agreements as of September 30, 2010 and
2009, were $2,819 million and $2,887 million, respectively.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               102
Table 1. Direct Loan and Loan Guarantees, Net
FY 2010                                        Loans                                  Present       Value of Assets
Direct Loans                                 Receivable,    Interest    Foreclosed     Value          Related to
                                               Gross       Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $     1,040   $      70    $      11    $      (108)   $        1,013
  Export                                               -           -            -              -                 -
  Food Aid                                         4,150          43            -         (1,517)            2,676
  Housing                                          9,505          76           36         (4,462)            5,155
  Electric                                         3,994           7            -         (1,457)            2,544
  Telecommunications                                 565           2            -            (27)              540
  Water and Environmental                          1,122          10            -           (123)            1,009
  Business and Industry                                -           -            -              -                 -
  Economic Development                                30           -            -            (14)               16
Pre-1992 Total                                    20,406         208           47         (7,708)           12,953

Obligated Post-1991
  Farm                                             7,070         181            8           (344)            6,915
  Export                                               -           -            -              -                 -
  Food Aid                                         1,473          18            -           (511)              980
  Housing                                         20,143         120           53         (2,671)           17,645
  Electric                                        36,723          32            -           (751)           36,004
  Telecommunications                               3,732           1            -             56             3,789
  Water and Environmental                          9,891          95            -           (740)            9,246
  Business and Industry                               28           -            -             (3)               25
  Economic Development                               551           1            -           (168)              384
Post-1991 Total                                   79,611         448           61         (5,132)           74,988
Total Direct Loan Program Receivables            100,017         656          108        (12,840)           87,941
Defaulted Guarantee Loans
 Pre-1992
    Farm                                              -            -            -              -                 -
    Export                                          134            1            -            (70)               65
    Food Aid                                          -            -            -              -                 -
    Housing                                           -            -            -              -                 -
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                             4            -            -              -                 4
    Economic Development                              -            -            -              -                 -
 Pre-1992 Total                                     138            1            -            (70)               69

  Post-1991
    Farm                                              85           -            -            (83)                2
    Export                                           731          10            -           (226)              515
    Food Aid                                           -           -            -              -                 -
    Housing                                          130           1            -           (108)               23
    Electric                                           -           -            -              -                 -
    Telecommunications                                 -           -            -              -                 -
    Water and Environmental                            -           -            -              -                 -
    Business and Industry                            206           2            -            (26)              182
    Economic Development                               -           -            -              -                 -
  Post-1991 Total                                  1,152          13            -           (443)              722
Total Defaulted Guarantee Loans                    1,290          14            -           (513)              791
Loans Exempt from Credit Reform Act:
  Commodity Loans                                   671            2            -              -               673
  Other Foreign Receivables                           -            -            -              -                 -
Total Loans Exempt                                  671            2            -              -               673
Total Direct Loan and Loan Guarantees, Net                                                          $       89,405




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               103
Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2009                                        Loans                                  Present       Value of Assets
Direct Loans                                 Receivable,    Interest    Foreclosed     Value          Related to
                                               Gross       Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                       $    1,219    $      83    $      14    $       (43)   $        1,273
  Export                                              -            -            -              -                 -
  Food Aid                                        4,470           48            -         (1,408)            3,110
  Housing                                         9,984           83           33         (4,667)            5,433
  Electric                                        6,877            1            -         (1,675)            5,203
  Telecommunications                                706            2            -            (44)              664
  Water and Environmental                         1,224           12            -           (142)            1,094
  Business and Industry                               -            -            -              -                 -
  Economic Development                               34            -            -            (16)               18
Pre-1992 Total                                   24,514          229           47         (7,995)           16,795

Obligated Post-1991
  Farm                                            6,057          169            5           (500)            5,731
  Export                                              -            -            -              -                 -
  Food Aid                                        1,615           20            -           (518)            1,117
  Housing                                        18,301          103           46         (2,410)           16,040
  Electric                                       33,119           32            -           (652)           32,499
  Telecommunications                              3,409            2            -             43             3,454
  Water and Environmental                         9,218           94            -           (728)            8,584
  Business and Industry                              30           (1)           -            (10)               19
  Economic Development                              543            2            -           (174)              371
Post-1991 Total                                  72,292          421           51         (4,949)           67,815
Total Direct Loan Program Receivables            96,806          650           98        (12,944)           84,610

Defaulted Guarantee Loans
 Pre-1992
    Farm                                              1            -            -              -                 1
    Export                                          135            1            -            (82)               54
    Food Aid                                          -            -            -              -                 -
    Housing                                           -            -            -              -                 -
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                             4            -            -              -                 4
    Economic Development                              -            -            -              -                 -
 Pre-1992 Total                                     140            1            -            (82)               59

  Post-1991
    Farm                                             54            -            -            (52)                2
    Export                                          619            7            -           (203)              423
    Food Aid                                          -            -            -              -                 -
    Housing                                          98            -            -            (65)               33
    Electric                                          -            -            -              -                 -
    Telecommunications                                -            -            -              -                 -
    Water and Environmental                           -            -            -              -                 -
    Business and Industry                           127            3            -            (14)              116
    Economic Development                              -            -            -              -                 -
  Post-1991 Total                                   898           10            -           (334)              574
Total Defaulted Guarantee Loans                   1,038           11            -           (416)              633

Loans Exempt from Credit Reform Act:
  Commodity Loans                                   414            3            -             (3)              414
  Other Foreign Receivables                           -            -            -              -                 -
Total Loans Exempt                                  414            3            -             (3)              414

Total Direct Loan and Loan Guarantees, Net                                                          $       85,657




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               104
Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                        FY 2010       FY 2009

     Beginning balance of the subsidy cost allowance                                $    5,284    $    4,661
     Add: Subsidy expense for direct loans disbursed during the year by component
       Interest rate differential costs                                                   (216)           73
       Default costs (net of recoveries)                                                   234           253
       Fees and other collections                                                           (1)           (1)
       Other subsidy costs                                                                 319            79
     Total subsidy expense prior to adjustments and reestimates                            336           404

     Adjustments
       Loan modifications                                                                   41             9
       Fees received                                                                        49            39
       Loans written off                                                                  (498)         (335)
       Subsidy allowance amortization                                                      (56)         (264)
       Other                                                                               368           206
     Total subsidy cost allowance before reestimates                                     5,524         4,720

     Add or subtract subsidy reestimates by component
       Interest rate reestimate                                                            284           383
       Technical/default reestimate                                                       (232)          181
     Total reestimates                                                                      52           564
     Ending balance of the subsidy cost allowance                                   $    5,576    $    5,284




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               105
Table 3. Subsidy Expense for Direct Loans by Program and Component

   FY 2010
                                            Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                           Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
   Direct Loan Programs
    Farm                                    $     (16)    $ 121      $           -    $   -    $ 105       $         -    $        41     $     (272)   $     (231)   $       (126)
    Export                                          -         -                  -        -        -                34             23             17            40              74
    Food Aid                                        -         -                  -        -        -                 -              -              -             -               -
    Housing                                      (237)       74                 (1)     326      162                 7             42            262           304             473
    Electric                                      (75)       24                  -       (2)     (53)                -            205           (202)            3             (50)
    Telecommunications                             (5)       11                  -       (1)       5                 -             (2)             1            (1)              4
    Water and Environmental                       101         4                  -       (4)     101                 -            (18)           (32)          (50)             51
    Business and Industry                           -         -                  -        -        -                 -             (2)            (5)           (7)             (7)
    Economic Development                           16         -                  -        -       16                 -             (5)            (1)           (6)             10
   Total Direct Loan Subsidy Expense        $    (216)    $ 234      $          (1)   $ 319    $ 336      $         41    $       284     $     (232)   $       52    $        429
                                                                                          .

   FY 2009
                                            Interest                 Fees and Other            Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                           Differential   Defaults     Collections    Other    Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
   Direct Loan Programs
    Farm                                    $       2     $ 160      $           -    $  1     $ 163       $         -     $      204     $      424    $      628    $        791
    Export                                          -         -                  -       -         -                 -              -              -             -               -
    Food Aid                                        -         -                  -       -         -                19           (244)          (172)         (416)           (397)
    Housing                                        24        75                 (1)     85       183                 6            (41)           129            88             277
    Electric                                      (45)       13                  -      (4)      (36)              (16)           600           (324)          276             224
    Telecommunications                             (1)        4                  -       -         3                 -             29            120           149             152
    Water and Environmental                        75         1                  -      (3)       73                 -           (164)            19          (145)            (72)
    Business and Industry                           -         -                  -       -         -                 -             (6)            (5)          (11)            (11)
    Economic Development                           18         -                  -       -        18                 -              5            (10)           (5)             13
   Total Direct Loan Subsidy Expense        $      73     $ 253      $          (1)   $ 79     $ 404      $          9    $       383     $      181    $      564    $        977
                                                                                          .




                                       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                            106
Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                               FY 2010     FY 2009
           Direct Loan Programs
             Farm                                             $ 2,106      $ 1,823
             Export                                                  -           -
             Food Aid                                                -           -
             Housing                                             2,622       1,971
             Electric                                            4,745       4,462
             Telecommunications                                    675         565
             Water and Environmental                               949         842
             Business and Industry                                   -           -
             Economic Development                                   47          52
           Total Direct Loans Disbursed                       $ 11,144     $ 9,715




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               107
Table 5. Guaranteed Loans Outstanding
                                                     Pre - 1992   Post - 1991      Total       Pre - 1992   Post - 1991      Total
                                                    Outstanding   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                    FY 2010
                                                     Principal,    Principal,    Principal,    Principal,    Principal,    Principal,
                                                    Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                 Loan Guarantee Programs
                   Farm                             $       24    $   11,771    $   11,795    $       21    $   10,585    $   10,606
                   Export                                     -        6,645         6,645              -        6,513         6,513
                   Food Aid                                   -             -             -             -             -             -
                   Housing                                   3        50,947        50,950             3        45,833        45,836
                   Electric                                148           202           350           147           202           349
                   Telecommunications                         -             -             -             -             -             -
                   Water and Environmental                    -           64            64              -           55            55
                   Business and Industry                     5         5,879         5,884             1         4,433         4,434
                   Economic Development                       -             -             -             -             -             -
                 Total Guarantees Disbursed         $      180    $   75,508    $   75,688    $      172    $   67,621    $   67,793


                                                     Pre - 1992   Post - 1991      Total       Pre - 1992   Post - 1991      Total
                                                    Outstanding   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                    FY 2009
                                                     Principal,    Principal,    Principal,    Principal,    Principal,    Principal,
                                                    Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                 Loan Guarantee Programs
                   Farm                             $       32    $   10,675    $   10,707    $       29    $    9,598    $    9,627
                   Export                                     -        7,039         7,039              -        6,898         6,898
                   Food Aid                                   -             -             -             -             -             -
                   Housing                                   4        34,781        34,785             3        31,293        31,296
                   Electric                                161           210           371           161           210           371
                   Telecommunications                         -             -             -             -             -             -
                   Water and Environmental                    -           69            69              -           60            60
                   Business and Industry                    13         4,383         4,396             8         3,267         3,275
                   Economic Development                       -             -             -             -             -             -
                 Total Guarantees Disbursed         $      210    $   57,157    $   57,367    $      201    $   51,326    $   51,527




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      108
Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)

                                                Liabilities for   Liabilities for Loan
                                                 Losses on          Guarantees on
             FY 2010
                                                  Pre-1992            Post-1991
                                                Guarantees           Guarantees          Total Liabilities for
                                               Present Value        Present Value        Loan Guarantees
         Loan Guarantee Programs
           Farm                                $             -    $              283      $             283
           Export                                            -                   184                    184
           Food Aid                                          -                     -                      -
           Housing                                           -                 1,833                  1,833
           Electric                                          -                     -                      -
           Telecommunications                                -                     -                      -
           Water and Environmental                           -                     -                      -
           Business and Industry                             -                   557                    557
           Economic Development                              -                     -                      -
         Total Liability for Loan Guarantees   $             -     $           2,857      $           2,857



                                                Liabilities for   Liabilities for Loan
                                                 Losses on          Guarantees on
             FY 2009
                                                  Pre-1992            Post-1991
                                                Guarantees           Guarantees          Total Liabilities for
                                               Present Value        Present Value        Loan Guarantees
         Loan Guarantee Programs
           Farm                                $             -    $              170      $             170
           Export                                            -                   221                    221
           Food Aid                                          -                     -                      -
           Housing                                           -                 1,102                  1,102
           Electric                                          -                     -                      -
           Telecommunications                                -                     -                      -
           Water and Environmental                           -                    (1)                    (1)
           Business and Industry                             1                   351                    352
           Economic Development                              -                     -                      -
         Total Liability for Loan Guarantees   $             1     $           1,843      $           1,844




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               109
Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                   FY 2010      FY 2009
Beginning balance of the loan guarantee liability                                 $   1,842    $   1,332
Add:Subsidy expense for guaranteed loans disbursed during the year by component
  Interest supplement costs                                                              19           25
  Default costs (net of recoveries)                                                     876          661
  Fees and other collections                                                           (402)        (349)
  Other subsidy costs                                                                     2            -
Total of the above subsidy expense components                                           495          337

Adjustments
 Loan guarantee modifications                                                             -            -
 Fees received                                                                          458          344
 Interest supplements paid                                                              132            5
 Claim payments to lenders                                                             (301)        (144)
 Interest accumulation on the liability balance                                          64           48
 Other                                                                                  (40)        (152)
Ending balance of the subsidy cost allowance before reestimates                       2,650        1,770

Add or subtract subsidy reestimates by component:
  Interest rate reestimate                                                               42          (45)
  Technical/default reestimate                                                          165          117
Total of the above reestimate components                                                207           72
Ending balance of the loan guarantee liability                                    $   2,857    $   1,842




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               110
Table 8. Subsidy Expense for Loan Guarantees by Program and Component
      FY 2010
                                                                                                                                                        Total
                                               Interest          Fees and Other                    Total      Interest Rate Technical    Total        Subsidy
      Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates     Expense
        Farm                                  $      21   $ 72    $         (27)  $ -   $ 66     $         -    $      (13) $     (60) $     (73)      $    (7)
        Export                                         -     11              (5)    -       6              -           (41)       (22)       (63)          (57)
        Food Aid                                       -       -              -     -        -             -             -          -          -              -
        Housing                                       (2)   569           (325)     -     242              -            80       193        273           515
        Electric                                       -       -              -     -        -             -             -          -          -              -
        Telecommunications                             -       -              -     -        -             -             -          -          -              -
        Water and Environmental                        -       -              -     -        -             -             -          1          1              1
        Business and Industry                          -    224             (45)    2     181              -            16         53         69           250
        Economic Development                           -       -              -     -        -             -             -          -          -              -
      Total Loan Guarantee Subsidy Expense    $      19   $ 876   $       (402)  $2     $ 495    $         -    $       42  $    165   $    207       $ 702

      FY 2009
                                                                                                                                                        Total
                                               Interest          Fees and Other                    Total      Interest Rate Technical     Total       Subsidy
      Loan Guarantee Programs                Supplement Defaults   Collections   Other Subtotal Modifications Reestimates Reestimates Reestimates     Expense
        Farm                                  $      17  $ 63     $         (25)  $ -   $ 55     $         -     $       5  $     (10)  $       (5)   $     50
        Export                                         -    76              (22)    -      54              -           (45)         9         (36)          18
        Food Aid                                       -      -               -     -        -             -             -          -            -            -
        Housing                                       8    445            (267)     -     186              -           (15)        72          57         243
        Electric                                       -      -               -     -        -             -             -          -            -            -
        Telecommunications                             -      -               -     -        -             -             -          -            -            -
        Water and Environmental                        -      -               -     -        -             -            (1)         1            -            -
        Business and Industry                          -    77              (35)    -      42              -            11         45          56           98
        Economic Development                           -      -               -     -        -             -             -          -            -            -
      Total Loan Guarantee Subsidy Expense    $      25  $ 661    $       (349)  $ -    $ 337    $         -    $      (45) $    117   $       72     $ 409




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      111
Table 9. Guaranteed Loans Disbursed
                                                         FY 2010                      FY 2009
                                               Principal,       Principal,    Principal,    Principal,
                                              Face Value       Guaranteed    Face Value    Guaranteed
                                               Disbursed        Disbursed     Disbursed     Disbursed
Loan Guarantee Programs
    Farm                                      $     3,117       $    2,803       $    2,594   $    2,332
    Export                                          2,891            2,835            5,250        5,145
    Food Aid                                            -                -                -            -
    Housing                                        18,711           16,834           14,165       12,745
    Electric                                            -                -                -            -
    Telecommunications                                  -                -                -            -
    Water and Environmental                             1                1                5            4
    Business and Industry                           2,172            1,768            1,112          865
    Economic Development                                -                -                -            -
Total Guaranteed Loans Disbursed              $    26,892       $   24,241       $   23,126   $   21,091




Table 10. Administrative Expenses
                                                              FY 2010          FY 2009
                Direct Loan Programs                        $       533      $       594
                Guaranteed Loan Programs                            485              375
              Total Administrative Expenses                 $     1,018      $       969




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               112
Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                               Fees and
      FY 2010                                        Interest                   Other
                                                    Differential   Defaults   Collections    Other    Total
    Direct Loan Programs
      Farm Ownership                                     (0.20)       4.82            -      (0.54)     4.08
      Farm Operating                                     (1.26)       5.74            -       0.25      4.73
      Farm Operating—ARRA                                (1.26)       5.74            -       0.25      4.73
      Indian Tribe Land Acquisition                     (37.37)        -              -        -      (37.37)
      Emergency Disaster                                 (6.92)       9.92            -       0.68      3.68
      Boll Weevil Eradication                            (0.88)        -              -      (0.26)    (1.14)
      Indian Highly Fractionated Land                    (8.18)      13.80            -       2.30      7.92
      Conservation—Direct                                (6.60)       6.58            -       1.44      1.42
      Farm Storage Facility Loan Program                 (0.88)       0.02          (0.14)   (0.01)    (1.01)
      Sugar Storage Facility Loan Program                (0.22)       0.83            -        -        0.61
      Water and Waste Disposal Loans                      7.76        0.05            -      (0.27)     7.54
      Distance Learning and Telemedicine Loans             -          3.18            -      (0.40)     2.78
      Broadband Treasury Loans                           (0.02)       7.54            -      (0.27)     7.25
      Electric Hardship Loans                           (31.86)       0.02            -       4.11    (27.73)
      FFB Electric Loans                                  0.07        0.12            -      (0.66)    (0.47)
      FFB Guaranteed Underwriting                         0.87        0.96          (3.68)     -       (1.85)
      Telecommunication Hardship Loans                  (18.59)       0.04            -      (0.04)   (18.59)
      FFB Telecommunications Loans                        3.94        0.09            -      (4.68)    (0.65)
      Treasury Telecommunication Loans                     -          0.03            -      (0.46)    (0.43)
      Community Facility Loans                            0.46        0.88            -      (0.03)     1.31
      Single-Family Housing Credit Sales                (29.41)       2.64            -      11.14    (15.63)
      Multi-Family Housing Credit Sales                 (39.19)      18.89            -      58.70     38.40
      Section 502 Single-Family Housing                 (15.69)       2.69            -      16.63      3.63
      Section 504 Housing Repair                         14.25        2.00            -      (3.39)    12.86
      Section 515 Multi-Family Housing                  (38.61)       9.74            -      56.11     27.24
      Section 523 Self-Help Housing                      (2.21)        -              -        -       (2.21)
      Section 524 Site Development                       (5.18)       0.96            -        -       (4.22)
      Section 514 Farm Labor Housing                     25.48       11.45            -      (0.80)    36.13
      Multi-Family Housing Relending Program             27.89         -              -        -       27.89
      Multi-Family Housing Revitalization Seconds        49.03       23.83            -        -       72.86
      Multi-Family Housing Revitalization Zero           28.81        9.53            -      (0.18)    38.16
      Intermediary Relending Program                     25.33        0.25            -      (0.33)    25.25
      Rural Economic Development Loans                   13.09        0.01            -      (0.05)    13.05
      Rural Microenterprise Loans                         8.27        3.05            -        -       11.32




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               113
Table 12. Subsidy Rates for Loan Guarantees (percentage)

                                                                                 Fees and
     FY 2010                                           Interest                   Other
                                                      Differential   Defaults   Collections    Other   Total
   Guaranteed Loan Programs
    CCC Export Loan Guarantees Program                       -         11.32          (1.40)     -      9.92
    Farm Operating—Unsubsidized                              -          3.24          (0.90)     -      2.34
    Farm Operating—Subsidized                              11.86        2.20            -        -     14.06
    Farm Ownership—Unsubsidized                              -          1.26          (0.89)     -      0.37
    Conservation—Guaranteed                                  -          1.26          (0.89)     -      0.37
    Water and Waste Disposal Loans                           -           -            (0.82)     -     (0.82)
    Community Facility Loans                                 -          4.07          (0.87)     -      3.20
    Section 502 Single-Family Housing Purchase               -          3.44          (2.00)     -      1.44
    Section 502 Single-Family Housing Refinance              -          2.22          (0.50)     -      1.72
    Guaranteed 538 Multi-Family Housing                      -          1.15            -        -      1.15
    Guaranteed 538 Tornado Supplemental                    26.66        0.79          (8.18)     -     19.27
    Business and Industry Loans Loan Guarantees              -          8.42          (3.09)     -      5.33
    North American Development Bank Loan Guarantees          -         11.23          (3.27)     -      7.96
    Renewable Energy Loan Guarantees                         -         15.62          (1.98)     -     13.64
    Section 9003 Loan Guarantees                             -         39.13          (6.30)    2.65   35.48



NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity loan
forfeitures during the fiscal years ended September 30, 2010 and 2009 were $3 million and $47 million,
respectively.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               114
                                                      FY 2010                               FY 2009
Inventories                                                     $      1                              $      -

                                               Volume                          Volume
Commodities:
                                            (in millions)       Amount      (in millions)             Amount
  Corn (In Bushels):
   On hand at the beginning of the year                 -              -              -                     -
   Acquired during the year                             -              -              2                    11
   Disposed of during the year
      Sales                                             -              -               -                    (2)
      Donations                                         -              -              (2)                   (9)
      Other                                             -              -               -                     -
   On hand at the end of the year                       -              -               -                     -

  Wheat (In Bushels):
   On hand at the beginning of the year                -              -               -                     -
   Acquired during the year                           36            208              32                   217
   Disposed of during the year
      Sales                                          (33)           (187)           (25)                  (176)
      Donations                                       (3)            (21)            (7)                   (44)
      Other                                            -               -              -                      3
   On hand at the end of the year                      -               -              -                      -

  Nonfat Dry Milk (In Pounds):
   On hand at the beginning of the year              224            184               -                     -
   Acquired during the year                            -              -             270                   220
   Disposed of during the year
      Sales                                           (1)             (1)            (1)                   (1)
      Donations                                      (52)            (59)           (23)                  (27)
      Other                                         (165)           (118)           (22)                   (8)
   On hand at the end of the year                      6               6            224                   184

  Other:
    On hand at the beginning of the year                             21                                   15
    Acquired during the year                                        738                                3,653
    Disposed of during the year
        Sales                                                        141                              (2,625)
        Donations                                                   (978)                             (1,031)
        Other                                                        120                                  10
    On hand at the end of the year                                    42                                  22
Allowance for losses                                                  (2)                                 (1)
Total Commodities                                                     46                                 205
Total Inventory and Related Property, Net                       $     47                              $ 205




     Financial Statements, Notes, Supplemental and Other Accompanying Information
                                          115
NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
    FY 2010                                            Useful                                           Net
                                                        Life                       Accumulated         Book
       Category                                       (Years)          Cost        Depreciation        Value

    Land and Land Rights                                           $         76    $          -    $         76
    Improvements to Land                              10 - 50               721            (631)             90
    Construction-in-Progress                                                988               -             988
    Buildings, Improvements and Renovations           15 - 30             2,023          (1,322)            701
    Other Structures and Facilities                   15 - 50             1,795          (1,390)            405
    Equipment                                          5 - 20             1,602          (1,247)            355
    Assets Under Capital Lease                         3 - 20                74             (44)             30
    Leasehold Improvements                              10                   75             (48)             27
    Internal-Use Software                              5-8                  521            (338)            183
    Internal-Use Software in Development                                    170             (61)            109
    Other General Property, Plant and Equipment       5 - 15                  -               -               -
        Total                                                      $      8,045    $     (5,081)   $      2,964

    FY 2009                                            Useful                                           Net
                                                        Life                       Accumulated         Book
       Category                                       (Years)          Cost        Depreciation        Value

    Land and Land Rights                                           $         76    $          -    $         76
    Improvements to Land                              10 - 50               707            (611)             96
    Construction-in-Progress                                                983               -             983
    Buildings, Improvements and Renovations           15 - 30             1,991          (1,269)            722
    Other Structures and Facilities                   15 - 50             1,776          (1,346)            430
    Equipment                                          5 - 20             1,661          (1,330)            331
    Assets Under Capital Lease                         3 - 20                76             (42)             34
    Leasehold Improvements                              10                   66             (44)             22
    Internal-Use Software                              5-8                  579            (441)            138
    Internal-Use Software in Development                                    137              (1)            136
    Other General Property, Plant and Equipment       5 - 15                  4               -               4
        Total                                                      $      8,056    $     (5,084)   $      2,972




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are
traditionally capitalized in the financial statements. Due to the nature of these assets however, valuation would be
difficult and matching costs with specific periods would not be meaningful. Stewardship PP&E include heritage
assets and stewardship land.
Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be unique
because they have historical or natural significance, are of cultural, educational or artistic importance, or have
significant architectural characteristics. The assets are reported in terms of physical units rather than cost, fair
value, or other monetary values. No amounts are shown on the balance sheet for heritage assets, except for multi-
use heritage assets in which the predominant use of the asset is in general government operations. The costs of
acquisition, betterment, or reconstruction of multi-use heritage assets is capitalized as general PP&E and
depreciated. The costs of acquiring, constructing, improving, reconstructing, or renovating heritage assets, other
than multi-use is considered an expense in the period incurred when determining the net cost of operations.
Heritage assets consist of collection type, such as objects gathered and maintained for exhibition, for example
library collections; and non-collection-type, such as memorials, monuments and buildings.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                116
National Forests, National Grasslands and Other Sites—FS manages its heritage assets by site. Sites include National Forests,
National Grasslands, other Forest Service-managed sites, and non Forest Service- managed sites such as museums
and university laboratories. The mission of the FS is to sustain the health, diversity, and productivity of the
Nation’s forests and grasslands to meet the needs of present and future generations. The FS strives to achieve
quality land management under the sustainable multiple-use management concept to deliver the necessary
products and services that are essential for enhancing natural resource stewardship and to meet the diverse needs
of people.
Heritage Asset categories can include the following:
Priority Heritage Assets (PHA): Heritage assets of distinct public value that are, or should be, actively
maintained, and meet one or more of the following criteria:
• The property is recognized through an official designation; such as a listing on the National Register of
    Historic Places, State register, etc.
• The property is recognized through prior investment in preservation, interpretation, and use. Any
    improvement to a PHA that meets real property designation criteria is considered real property.
• The property is recognized in an agency-approved management plan.
• The property exhibits critical deferred maintenance needs, and those needs have been documented.
Other Heritage Assets: Assets that may have potential important historical or cultural significance, but lack
formal listing and the demonstrated need for active maintenance.
Assemblage Assets: Any grouping of artifacts or archival materials aggregated through donation, agency events,
site-specific or other field collection, other acquisition method, or combination therein. This would include
materials donated to the FS; artifact or archival materials collected from a single site, FS administrative unit, or
event; or any combination thereof.
Research Centers—ARS conducts research at centers nationwide to develop and transfer solutions to agricultural
problems of high national priority and provides information access and dissemination to ensure high-quality, safe
food and other agricultural products; assess the nutritional needs of Americans; sustain a competitive agricultural
economy; enhance the natural resource base and the environment; and provide economic opportunities for rural
citizens, communities, and society as a whole. NRCS owns one research center, the Tucson Plant Material Center
(TPMC). The TPMC develops and evaluates native plants and addresses an array of resource issues in the areas
of rangeland, mined land, urban lands, cropland riparian areas and desert lands. Research centers are considered
heritage assets because one or more buildings or structures at these centers is on the National Register of Historic
Places or have been identified as eligible for inclusion on the National Register.
Library Collections—The National Agricultural Library (NAL) as a whole is the largest collection of materials
devoted to agriculture in the world. The collections are in constant use to support the research activities of
USDA, departmental operations and to answer citizen inquiries. NAL houses and provides access to millions of
books and periodicals. The overwhelming number of these items were published more than 25 years ago and
almost all of them are out-of-print and unavailable for purchase. By statute, NAL is the primary depository of
publications and information concerning the research and other activities of USDA. Included in the collection are
government documents and many items that are unique and irreplaceable. NAL collects, preserves and provides
access to manuscripts, rare books, photographs, posters, oral histories and other unique materials. Collection
concentrations include the fields of agriculture, horticulture, entomology, poultry sciences, botany, natural history
and agricultural history. Although focused primarily on American agriculture and related sciences, NAL holds
numerous items of international origin.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                117
Acquisition and Withdrawal of Heritage Assets — The FS generally does not construct heritage assets, although in some
circumstances important site-structural components may be rehabilitated or reconstructed into viable historic
properties to provide forest visitors with use and interpretation. Heritage assets may be acquired through the
procurement process, but this rarely occurs. Normally, heritage assets are part of the land acquisition and
inventory process. Withdrawal occurs through land exchange or natural disasters. Most additions occur through
inventory activities where previously undocumented sites are discovered and added to the total. Although not
technically additions—they already existed on NFS lands—they do represent an increased management
responsibility commensurate with the spirit of “additions.”
Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E. Land is
defined as the solid surface of the earth, excluding natural resources. Stewardship land is valued for its
environmental resources, recreational and scenic value, cultural and paleontological resources, vast open spaces,
and resource commodities and revenue provided to the Federal government, states, and counties. These assets are
reported in terms of physical units rather than cost, fair value, or other monetary values. No asset amount is
shown on the balance sheet for stewardship land. The acquisition cost of stewardship land is considered an
expense in the period acquired when determining the net cost of operations. Stewardship land consists primarily
of the national forests and grasslands owned by the FS and conservation easements purchased by NRCS.
National Forests—National forests are formally established and permanently set aside and reserved for national
forest purposes, including National Wilderness, National Primitive, National Wild and Scenic River, National
Recreation, National Scenic Research, National Game Refuges and Wildlife Preserve, and National Monument
areas.
National Grasslands—National grasslands are designated by the Secretary of Agriculture and permanently held by
the USDA under Title III of the Bankhead-Jones Farm Tenant Act.
Research and Experimental Areas—Research and experimental areas are reserved and dedicated by the Secretary of
Agriculture for forest and range research experimentation. Areas reported are located outside the exterior
boundaries of a national forest or national grassland.
National Preserves and Other Areas—National preserves are units established to protect and preserve scientific, scenic,
geologic, watershed, fish, wildlife, historic, cultural and recreational values; and provide for multiple use and
sustained yield of its renewable resources. Other areas include areas administered by the FS that are not included
in one of the above groups.
Conservation Easements— NRCS’s objective in administering the conservation easement programs are to provide
landowners financial and technical assistance in return for maintaining and improving high quality productive
soils, clean and abundant water, healthy plant and animals communities, clean air , an adequate energy supply,
and working farm and ranch land. NRCS’s objective in managing, monitoring and enforcing the terms and
conditions of the easement deed is to ensure that the taxpayers investments are properly used in accordance with
the intent of the program, to ensure that the agency is a good steward of the land and to be a good neighbor to
adjacent landowners. The uses for the land are identified under each program. Withdrawals from the program are
not allowed. Stewardship resources involve a substantial investment by the NRCS for long-term benefits for the
American public to help people help the land. The purchase of easements is to restore or enhance wetlands,
protect farmland, restore and protect grassland, restore and protect forest ecosystems, and to restore, protect,
maintain and enhance the functions of the floodplain.
Acquisition and Withdrawal of Stewardship Lands— The Land and Water Conservation Fund (L&WCF) Land Acquisition
Program acquires land for the FS NFS. The program coordinates with a variety of partners, including State, local,
and Tribal governments, and private landowners through statewide planning for development of a land-
adjustment strategy.


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                118
The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for the public
and provides permanent access to public lands for recreation, commodity production, resource management,
public safety, and community economic viability.
The L&WCF statutory authority specifically defines the purpose to also include protecting the quality of
scientific, scenic, historical, ecological, environmental, air and atmospheric, water resource, archeological values, as
well as food and habitat for fish and wildlife, and managing the public lands for minerals, food, timber and fiber.
From these several allowable uses of program funding, the program concentrates on protecting habitat for priority
species identified in the national forest and grassland’s Land Management Plans (LMPs) and enhancing
recreational opportunities for areas with high demand for recreation. The program focuses acquisitions on
inholdings and areas adjacent to existing NFS lands.


                                                  FY 2010               Additions         Withdrawals       FY 2009
  Heritage Assets
    National Forests                                      155                    -                  -              155
    National Grasslands                                    20                    -                  -               20
    Other Sites                                           155                   20                  -              135
    Research Centers                                       36                    -                 (1)              37
    Library Collections                                     1                    -                  -                1
  Total                                                   367                   20                 (1)             348

  Stewardship Land
    National Forests                                      155                    -                  -              155
    National Grasslands                                    20                    -                  -               20
    Research and Experimental Areas                         3                    -                  -                3
    National Preserves and Other Areas                      3                    -                  -                3
    Conservation Easements                             11,085                  251                  -           10,834
  Total                                                11,266                  251                  -           11,015




NOTE 11. OTHER ASSETS
In FY 2010 and FY 2009, other assets include investments in trust for loan asset sales of $35 million and $35
million, respectively.
                                                              FY 2010                FY 2009
                        Intragovernmental:
                           Advances to Others             $          70         $              4
                           Other Assets                              13                        -
                        Subtotal Intragovernmental                   83                        4

                        With the Public:
                          Advances to Others                        142                    148
                          Other Assets                               36                     37
                        Total Other Assets                $         261         $          189




NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In FY 2010 and FY 2009, other intragovernmental liabilities not covered by budgetary resources include accruals
for Federal Employee Compensation Act (FECA) of $169 million and $169 million, contract disputes claims


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                119
payable to Treasury’s Judgment Fund of $19 million and $18 million, deposit funds and clearing accounts of $40
million and $38 million, and custodial of $5 million and $4 million, respectively. In FY 2010, unemployment
compensation was $16 million.
In FY 2010 and FY 2009, other liabilities with the public not covered by budgetary resources include, Tobacco
Transition Payment Program of $3,797 million and $4,705million, future funded indemnity costs of $724 million
and $339 million, unfunded leave of $647 million and $629 million, Payments to States $409 million and $443
million, contingent liabilities of $1,157 million and $20 million, and deposit funds and clearing accounts of $25
million and $17 million, respectively. In FY 2010, custodial was $1 million. In FY 2009, rental payments under
the Conservation Reserve Program (CRP) were $1,735 million.
                                                                          FY 2010            FY 2009
       Intragovernmental:
         Other                                                        $         249      $         229
       Subtotal Intragovernmental                                               249                229
       With the Public:
         Accounts Payable                                                           1                  -
         Federal employee and veterans' benefits                                881                846
         Environmental and disposal liabilities                                     8                  9
        Other                                                                 6,761              7,887
       Subtotal With the Public                                               7,651              8,742

       Total liabilities not covered by budgetary resources                   7,900              8,971

       Total liabilities covered by budgetary resources                     121,024            116,753

       Total Liabilities                                              $     128,924      $     125,724




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               120
NOTE 13. DEBT
                                                           Beginning                            Ending
          FY 2010
                                                            Balance        Net Borrowing        Balance
          Intragovernmental
             Debt to the Treasury                      $       55,629      $        970     $      56,599
             Debt to the Federal Financing Bank                28,490             2,826            31,316
          Total Intragovernmental                              84,119             3,796            87,915

          Agency Debt:
            Held by the Public                                         -               -                  -

          Total Debt                                   $       84,119      $      3,796     $      87,915

                                                           Beginning                            Ending
          FY 2009
                                                            Balance        Net Borrowing        Balance
          Intragovernmental
             Debt to the Treasury                      $       51,201      $      4,427     $      55,628
             Debt to the Federal Financing Bank                26,376             2,115            28,491
          Total Intragovernmental                              77,577             6,542            84,119

          Agency Debt:
            Held by the Public                                         -               -                  -

          Total Debt                                   $       77,577      $      6,542     $      84,119




NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act,
the Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. In FY
2010 and FY 2009, the CCC and FS estimate the liability for total cleanup costs for sites known to contain
hazardous waste to be $8 million and $1 million, respectively, based on actual cleanup costs at similar sites. These
estimates will change as new sites are discovered, remedy standards change and new technology is introduced.
NOTE 15. OTHER LIABILITIES
In FY 2010, other liabilities with the public include estimated losses on crop insurance claims of $1,575 million,
estimated underwriting gains on crop insurance of $2,334 million, crop insurance premium subsidy deficiency
reserve of $724 million, Payments to States of $409 million, Brazilian Cotton Industry of $286 million, estimated
program delivery cost to reinsurer of $11 million, loans paid in advance for multi-family housing of $11 million,
undistributed credits for insured loans of $10 million, credit reform programs of $8 million, and purchaser road
credits of $1 million.
In FY 2009, other liabilities with the public include estimated losses on crop insurance claims of $2,865 million,
estimated underwriting gains on crop insurance of $2,194 million, crop insurance premium subsidy deficiency
reserve of $839 million, Payments to States of $443 million, estimated program delivery cost to reinsurer of $13
million, loans paid in advance for multi-family housing of $9 million, undistributed credits for insured loans of $4
million, credit reform programs of $7 million, and purchaser road credits of $1 million.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                121
FY 2010                                                    Non-Current       Current         Total
Intragovernmental:
   Other Accrued Liabilities                           $           19    $       22    $       41
  Employer Contributions and Payroll Taxes                          -            96            96
  Unfunded FECA Liability                                           -           169           169
  Other Unfunded Employment Related Liability                       -            17            17
  Advances from Others                                              -            69            69
  Liability for Deposit Funds, Clearing Accounts                    -            29            29
  Liability for Subsidy Related to Undisbursed Loans                -           179           179
  Resources Payable to Treasury                                     -        11,084        11,084
  Custodial Liability                                               -            37            37
  Other Liabilities                                                 -            14            14
Subtotal Intragovernmental                                         19        11,716        11,735

With the Public:
 Other Accrued Liabilities                                          -        13,154        13,154
 Accrued Funded Payroll and Leave                                   -           437           437
 Unfunded Leave                                                     -           647           647
 Advances from Others                                               -            63            63
 Deferred Credits                                                   -           505           505
 Liability for Deposit Funds, Clearing Accounts                     -           112           112
 Contingent Liabilities                                             -         1,257         1,257
 Capital Lease Liability                                           22            11            33
 Custodial Liability                                                3             1             4
 Other Liabilities                                                 21         5,351         5,372
Subtotal With the Public                                           46        21,538        21,584

Total Other Liabilities                                $           65    $   33,254    $   33,319


FY 2009                                                    Non-Current       Current         Total
Intragovernmental:
   Other Accrued Liabilities                           $           18    $       31    $       49
   Employer Contributions and Payroll Taxes                         -            86            86
  Unfunded FECA Liability                                           -           169           169
  Other Unfunded Employment Related Liability                       -            17            17
  Advances from Others                                              -            37            37
  Liability for Deposit Funds, Clearing Accounts                    -             9             9
  Liability for Subsidy Related to Undisbursed Loans                -           564           564
  Resources Payable to Treasury                                     -        10,799        10,799
  Custodial Liability                                               -            44            44
Subtotal Intragovernmental                                         18        11,756        11,774

With the Public:
 Other Accrued Liabilities                                          -        13,930        13,930
 Accrued Funded Payroll and Leave                                   -           239           239
 Unfunded Leave                                                     -           629           629
 Advances from Others                                               -            51            51
 Deferred Credits                                                   -           613           613
 Liability for Deposit Funds, Clearing Accounts                     -           127           127
 Contingent Liabilities                                            16         1,254         1,270
 Capital Lease Liability                                           25            15            40
 Custodial Liability                                                -            (1)           (1)
 Other Liabilities                                                 21         6,355         6,376
Subtotal With the Public                                           62        23,212        23,274

Total Other Liabilities                                $           80    $   34,968    $   35,048




Financial Statements, Notes, Supplemental and Other Accompanying Information
                                     122
NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA) leased
facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, and South
Building) is a government owned facility, which is part of the GSA Federal Buildings Inventory. As the result of a
1998 Agreement between GSA and USDA, a moratorium was placed on the rental billings for the Headquarters
complex beginning in FY 1999.
At current market rate, the estimated yearly rental payment for the above mentioned space would be $63 million.
This agreement is still in effect and as a result, USDA activities located in the Headquarter complex are not billed
for rental costs.
FY 2010
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $             73
   Machinery and Equipment                                        -
   Accumulated Amortization                                     (44)

  Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
                                                                        Equipment
    Fiscal Year
    2011                                                         13                  -               -            13
    2012                                                         12                  -               -            12
    2013                                                         11                  -               -            11
    2014                                                         10                  -               -            10
    2015                                                          9                  -               -             9
    After 5 Years                                                35                  -               -            35
Total Future Lease Payments                                      90                  -               -            90
Less: Imputed Interest                                           39                  -               -            39
Less: Executory Costs                                            18                  -               -            18
Less: Lease Renewal Options                                       -                  -               -             -
Net Capital Lease Liability                                      33                  -   $           -            33

Lease liabilities covered by budgetary resources                 33

Operating Leases:
 Future Payments Due:
                                                                       Machinery &
                                                   Land & Buildings                          Other       Totals
    Fiscal Year                                                         Equipment
    2011                                                        126                  1               1            128
    2012                                                        111                  -               1            112
    2013                                                         97                  -               1             98
    2014                                                         89                  -               -             89
    2015                                                         80                  -               1             81
    After 5 Years                                               468                  -               2            470
  Total Future Lease Payments                      $            971    $             1   $           6   $        978




             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  123
FY 2009
Capital Leases:
 Summary of Assets Under Capital Leases
   Land and Building                               $            76
   Machinery and Equipment                                       -
   Accumulated Amortization                                    (42)

  Future Payments Due:
                                                                      Machinery &
                                                   Land & Buildings                         Other       Totals
                                                                       Equipment
    Fiscal Year
    2010                                                        14                  -               -             14
    2011                                                        13                  -               -             13
    2012                                                        12                  -               -             12
    2013                                                        11                  -               -             11
    2014                                                        11                  -               -             11
    After 5 Years                                               44                  -               -             44
Total Future Lease Payments                                    105                  -               -            105
Less: Imputed Interest                                          44                  -               -             44
Less: Executory Costs                                           21                  -               -             21
Less: Lease Renewal Options                                      -                  -               -              -
Net Capital Lease Liability                                     40                  -   $           -             40

Lease liabilities covered by budgetary resources                40

Operating Leases:
 Future Payments Due:
                                                                      Machinery &
                                                   Land & Buildings                         Other       Totals
    Fiscal Year                                                        Equipment
    2010                                                       117                  1               -            118
    2011                                                       104                  1               1            106
    2012                                                        93                  -               1             94
    2013                                                        82                  -               1             83
    2014                                                        76                  -               1             77
    After 5 Years                                              462                  -               2            464
  Total Future Lease Payments                      $           934    $             2   $           6   $        942




             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  124
NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability has been
estimated, $1,257 million and $1,270 million has been accrued in the financial statements as of September 30,
2010 and 2009, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote. The Department’s potential liability for claims where a
judgment against the Department is reasonably possible ranges from $2,136 million to $3,663 million as of
September 30, 2010, compared to $547 million to $741 million as of September 30, 2009.
CRP rental payments are estimated to be $1,800 million annually through FY 2016. Commitments to extend
loan guarantees are estimated to be $4,802 million and $6,066 million in FY 2010 and FY 2009, respectively.
NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing sources are required
by statute to be used for designated activities, benefits or purposes and must be accounted for separately from the
Government’s general revenues.
Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose shown
below.
Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other
insurance related fees that are used with appropriations from Congress and unobligated balances from previous
years to fund the Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and other
necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets. The fund
is permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts collected
during each calendar year and is automatically appropriated for expanding outlets for perishable, non-price
supported commodities. An amount equal to 30 percent of receipts collected on fishery products is transferred to
the Food and Nutrition Service and is used to purchase commodities under section 6 of the National School
Lunch Act and other authorities specified in the child nutrition appropriation. Funds are available under section
32 of the Act of August 24, 1935, as amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety of
fresh and processed food commodities using federally approved grade standards and purchase specifications. This
fund is financed by the collection of fees charged to producers of various food commodities who request, on a
voluntary basis, inspection and grading of agricultural food commodities. This program is authorized by the
Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               125
Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural
Quarantine Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal
Agriculture Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service
(APHIS) the authority to charge user fees for AQI services, and to use the revenue to fund AQI activities. In
March of 2003, a portion of the AQI program was transferred to the Department of Homeland Security (DHS);
however, APHIS retained the authority to collect AQI revenue. APHIS transfers a portion of the revenue to
DHS periodically throughout the year to fund their expenditures. The revenue in the fund is collected from
airlines, air passengers, vessels, trucks, and railroad cars that are subject to AQI inspection at ports of entry. These
user fees are an inflow of revenue from the public that is used to fund AQI inspections that are required by
APHIS and DHS. The authority is codified in 21 U.S.C. 136(a).
Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the
agreement between the cooperator and the Forest Service. Cooperators include timber purchasers, not-for-profit
organizations, and local hunting and fishing clubs. The governing authorities are the Cooperative Funds Act of
June 30, 1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.
Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land
and Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including
administrative expenses, to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as
amended (16 U.S.C. 460l-4-11), pertaining to the preservation of watersheds. The Land Acquisition program is
authorized by the Interior and Related Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983, Public
Law 97-394).
Payments to States, National Forest Fund
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”, requires with
a few exceptions, that 25.0 percent of all monies received from the national forests and deposited into the
National Forest Fund during a fiscal year from timber, grazing, special-use permits, power and mineral leases, and
admission and user fees be paid to the States in which the national forests are located, for public schools and
public roads in the county or counties in which the national forests are situated. The Secure Rural Schools and
Community Self-Determination Act of 2000 (P.L. 106-393) as amended by § 601 of The Emergency Economic
Stabilization Act of 2008, (H.R. 1424) (P.L. 110-343), provides stabilized education and road maintenance
funding through predictable payments to counties, job creation in those counties, and other opportunities
associated with the restoration, maintenance, and stewardship of Federal lands.
Timber Salvage Sales
The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind,
insects, disease, or other events. Amounts collected from the sale of salvaged timber are used on other qualifying
salvage sales to cover the cost of preparing and administering the sales. The Timber Salvage Sales program is
authorized by 16 USC 472(a).
State, Private, and International Forestry Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public Law 108-108)
authorizes the Forest Service to receive a transfer of receipts from the Department of the Interior’s Land and
Water Conservation Fund to finance the existing Forest Legacy Program, funded previously by State and Private


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                126
Forestry general appropriation. To accommodate the new financing arrangement and at OMB’s request, the U.S.
Department of Treasury established a new special fund, “State, Private and International Forestry Land and
Water Conservation Fund”. The program expenditures include grants and an occasional land purchase, but no
real property will be procured or constructed.
Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects that
are part of the Recreation Fee Demonstration Program. These monies are retained and used for backlog repair
and maintenance of recreation areas, sites or projects. These funds are also used for interpretation, signage, habitat
or facility enhancement, resource preservation, annual operation, maintenance, and law enforcement related to
public use of recreation areas and sites. The Recreation Fee Demonstration Program is authorized by 16 U.S.C.
4601-6(a).
Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) states any monies received by the
United States with respect to lands under the administration of the Forest Service (a) as a result of the forfeiture
of a bond or deposit by a permittee or timber purchaser for failure to complete performance of improvement,
protection, or rehabilitation work required under the permit or timber sale contract or (b) as a result of a
judgment, compromise, or settlement of any claim, involving present or potential damage to lands or
improvements, shall be deposited into the United States Treasury and are appropriated and made available until
expended to cover the cost to the United States of any improvement, protection, or rehabilitation work on lands
under the administration of the Forest Service rendered necessary by the action which led to the forfeiture,
judgment, compromise, or settlement: Provided, that any portion of the monies received in excess of the amount
expended in performing the work necessitated by the action which led to their receipt shall be transferred to
miscellaneous receipts.
Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action, with forest
revenues generated by the occupancy of public land or from the sale of natural resources other than minerals. All
funds appropriated that remain unobligated at the end of the fiscal year are returned to the receipts of the affected
national forests. These funds are used to purchase land and for related expenditures such as title search, escrow,
recording, and personnel costs when the purchase is considered necessary to minimize soil erosion and flood
damage. This appropriation is available for land acquisition within the exterior boundaries of the national forests.
National Institute of Food and Agriculture (NIFA)
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund was authorized by Public Law 103-382, and provided an
initial installment to establish an endowment to benefit the 1994 land grant institutions. The public law states
that “This program will enhance educational opportunities for Native Americans by building educational capacity
at these institutions in the areas of student recruitment and retention, curricula development, faculty preparation,
instruction delivery systems, and scientific instrumentation for teaching.” While the principal (corpus) of the fund
cannot be used, the interest that is earned on the endowment fund investments in Treasury instruments can be
used for the purposes described above. After the close of a fiscal year, the income is distributed after making
adjustments for the cost of administering the fund.
Farm Service Agency
Agricultural Disaster Assistance Transition – Recovery Act and Agricultural Disaster Relief Trust Fund
The Agricultural Disaster Assistance Transition – Recovery Act and the Agricultural Disaster Relief Trust Fund
shall make amounts available for the purpose of expenditures to meet the obligations of the United States incurred
under section 901 or section 531 of the Federal Crop Insurance Act. The trust funds will be used to make


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               127
payments to farmers and ranchers under seven disaster assistance programs: (1) Supplemental Revenue Assistance
Payments (SURE) Program, (2) Livestock Feed Program (LFP), (3) Livestock Indemnity Program (LIP), (4)
Tree Assistance Program (TAP), (5) Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish
Program (ELAP), (6) Recovery Act for the Supplemental Revenue Assistance Payments Program, and (7)
Recovery Act for the Tree Assistance Program. The funds are appropriated an amount equivalent to 3.08 percent
of the amounts received in the general fund of the Treasury of the United States during fiscal years 2008 through
2011 attributable to the duties collected on articles entered, or withdrawn from warehouse, for consumption under
the Harmonized Tariff Schedule of the United States.
Other
Financial information is summarized for all other earmarked funds with total assets less than $50 million listed
below.
Agricultural Marketing Service
Perishable Agricultural Commodities Act
Wool Research, Development and Promotion Trust Fund
Animal Plant Health Inspection Service
Miscellaneous Contributed Funds
Forest Service
National Forest Fund Receipts
Roads and Trails for States, National Forest Fund
Reforestation Trust Fund
Payments to Counties, National Grasslands
Timber Sales Pipeline Restoration Fund
Operation and Maintenance of Forest Service Quarters
Timber Roads, Purchaser Elections
Expenses, Brush Disposal
Range Betterment Fund
Acquisition of Lands for National Forests, Special Acts
Construction of Facilities or Land Acquisition
Recreation Fees for Collection Costs
Payment to Minnesota (Cook, Lake and Saint Louis Counties)
Licensee Program
Tongass Timber Supply Fund
Resource Management Timber Receipts
Quinault Special Management Area
MNP Rental Fee Account
Midewin National Tallgrass Prairie Restoration Fund
Land Between the Lakes Management Fund
Administration of Rights-of-Way and Other Land Uses Fund
Valles Caldera Fund
Hardwood Technology Transfer and Applied Research Fund
Stewardship Contracting Product Sales
Mount Saint Helens Highway



          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               128
Gifts, Donations and Bequests for Forest and Rangeland Research
Land Between the Lakes Trust Fund
Gifts and Bequests
Natural Resources Conservation Service
Miscellaneous Contributed Funds
Agricultural Research Service
Concessions Fees and Volunteer Services
Gifts and Bequests
Miscellaneous Contributed Funds
Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund
Foreign Agricultural Service
Miscellaneous Contributed Funds
Gifts and Bequests
Grain Inspection, Packers and Stockyards Administration
Inspection and Weighing Services
Food Safety and Inspection Service
Expenses and Refunds, Inspection of Farm Products
Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
Inspector General Assets Forfeiture, Department of Treasury
National Agricultural Statistics Service
Miscellaneous Contributed Funds
Economic Research Service
Miscellaneous Contributed Funds
Departmental Offices
Gifts and Bequests




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                129
Earmarked Funds


                                                      RMA                   AMS                 AMS                 APHIS                 FS                 FS                  FS                 FS

                                                                                            Expenses and
                                                                          Funds for            Refunds,           Agricultural
                                                  Federal Crop          Strengthening       Inspection and        Quarantine                                                Payments to
                                                   Insurance          Markets, Income,     Grading of Farm     Inspection User                                            States, National    Timber Salvage
Balance Sheet As of September 30, 2010          Corporation Fund         and Supply            Products          Fee Account        Cooperative Work   Land Acquisition     Forests Fund          Sales
                                                    12X4085                12X5209             12X8015             12X5161              12X8028           12X5004             12X5201            12X5204
Fund Balance with Treasury                     $              646     $             141    $             52    $               91   $            357   $             35   $            197    $           49
Investments                                                      -                     -                 20                     -                  -                  -                   -                 -
Other Assets                                                2,557                   486                  46                  117                  21                 46                  4                 3
Total Assets                                                3,203                   627                 118                  208                 378                 81                201                52

Other Liabilities                                           5,246                     4                 65                    74                 52                  1                 392                 5
Total Liabilities                                           5,246                     4                 65                    74                 52                  1                 392                 5

Unexpended Appropriations                                     (677)                 302                  -                     -                  -                  -                   -                 -
Cumulative Results of Operations                            (1,366)                 321                 53                   134                326                 80                (191)               47

Total Liabilities and Net Position                          3,203                   627                118                   208                378                 81                 201                52




Statement of Net Cost For the Period
Ended September 30, 2010
Gross program costs                                         4,171                   854                195                   192                111                 54                  38                27
Less Earned Revenue                                           602                     1                151                   504                 79                  -                 119                21
Net Cost of Operations                                      3,569                   853                 44                  (312)                32                 54                 (81)                6




Statement of Changes in Net Position
For the period Ended September 30, 2010
Net Position Beginning of Period                            (2,577)                 677                 54                   129                359                 71                (272)               54
Changes in Accounting Principles (Note 24)                    (444)                   -                  -                     -                  -                  -                   -                 -
Beginning Balance, as Adjusted                              (3,021)                 677                 54                   129                359                 71                (272)               54

Non-Exchange Revenue                                         4,547                  799                  1                  (307)                 -                 63                   -                  -
Other Financing Sources                                          -                    -                 42                     -                 (1)                 -                   -                 (1)
Net Cost of Operations                                      (3,569)                (853)               (44)                  312                (32)               (54)                 81                 (6)

Change in net Position                                        978                   (54)                 (1)                   5                (33)                 9                  81                 (7)

Net Position End of Period                     $            (2,043)   $             623    $            53     $             134    $           326    $            80    $           (191)   $           47




                                             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                  130
Earmarked Funds


                                                     FS                   FS                 FS                  FS                 NIFA                FSA                 FSA
                                                State, Private,
                                               and International                                                                                     Agricultural
                                                Forestry, Land                          Restoration of      Acquisition of     Native American        Disaster
                                                  and Water         Recreation Fee       Forest Lands         Lands to           Institutions        Assistance         Agricultural
                                                 Conservation       Demonstration            and           Complete Land         Endowment           Transition -      Disaster Relief
Balance Sheet As of September 30, 2010               Fund              Program          Improvements         Exchanges               Fund           Recovery Act         Trust Fund             Other            Total
                                                   12X5367             12X5268             12X5215            12X5216              12X5205           129/05591            12X5531
Fund Balance with Treasury                     $            124    $             98    $           169     $            38     $              14   $           287    $              87     $       319      $       2,704
Investments                                                    -                   -                   -                   -                126                   -                    -              9                155
Other Assets                                                  8                   4                   3                 37                     -                  1                    5             34              3,372
Total Assets                                                132                 102                172                  75                  140                288                   92             362              6,231

Other Liabilities                                           49                    5                   1                    -                   -                47                  108                 55           6,104
Total Liabilities                                           49                    5                   1                    -                   -                47                  108                 55           6,104

Unexpended Appropriations                                    -                    -                   -                   -                  69                  -                     -              4                  (302)
Cumulative Results of Operations                            83                   97                 171                  75                  71                241                   (16)           303                   429

Total Liabilities and Net Position                         132                  102                 172                  75                140                 288                   92             362              6,231




Statement of Net Cost For the Period
Ended September 30, 2010
Gross program costs                                         73                   96                  37                   6                   3                624                1,459             220              8,160
Less Earned Revenue                                          -                   65                  33                   6                   6                  -                    -             192              1,779
Net Cost of Operations                                      73                   31                   4                   -                  (3)               624                1,459              28              6,381




Statement of Changes in Net Position
For the period Ended September 30, 2010
Net Position Beginning of Period                            80                  128                 175                  75                125                    -               1,531             305                   914
Changes in Accounting Principles (Note 24)                   -                    -                   -                   -                  -                    -                   -               -                  (444)
Beginning Balance, as Adjusted                              80                  128                 175                  75                125                    -               1,531             305                   470

Non-Exchange Revenue                                         76                   -                   -                    -                 12                865                   (88)            29              5,997
Other Financing Sources                                       -                   -                   -                    -                  -                  -                     -              1                 41
Net Cost of Operations                                      (73)                (31)                 (4)                   -                  3               (624)               (1,459)           (28)            (6,381)

Change in net Position                                        3                 (31)                 (4)                   -                 15                241                (1,547)               2                (343)

Net Position End of Period                     $            83     $             97    $            171    $             75    $            140    $           241    $              (16)   $       307      $           127




                                             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                  131
Earmarked Funds


                                                 RMA                   AMS                  AMS                APHIS                 FS                 FS                   FS                 FS

                                                                                        Expenses and
                                                                     Funds for             Refunds,          Agricultural
                                             Federal Crop          Strengthening        Inspection and       Quarantine                                                 Payments to
                                              Insurance          Markets, Income,      Grading of Farm    Inspection User                                             States, National    Timber Salvage
Balance Sheet As of September 30, 2009     Corporation Fund         and Supply             Products         Fee Account        Cooperative Work   Land Acquisition      Forests Fund          Sales
                                               12X4085                12X5209              12X8015            12X5161              12X8028           12X5004              12X5201            12X5204
Fund Balance with Treasury                $            1,218     $             427     $             61   $               79   $            388   $             23    $            150    $           55
Investments                                                 -                     -                  40                    -                  -                  -                    -                 -
Other Assets                                           2,981                   253                   17                 127                  22                 49                   3                 4
Total Assets                                           4,199                   680                  118                 206                 410                 72                 153                59

Other Liabilities                                       6,776                     3                 64                   77                 51                  1                  425                 5
Total Liabilities                                       6,776                     3                 64                   77                 51                  1                  425                 5

Unexpended Appropriations                                 897                  302                   -                    -                  -                  -                    -                 -
Cumulative Results of Operations                       (3,474)                 375                  54                  129                359                 71                 (272)               54

Total Liabilities and Net Position                      4,199                  680                 118                  206                410                 72                  153                59




Statement of Net Cost For the Period
Ended September 30, 2009
Gross program costs                                    10,060                1,017                 183                  230                126                 59                  400                36
Less Earned Revenue                                     2,878                    1                 148                  486                 91                  -                  163                24
Net Cost of Operations                                  7,182                1,016                  35                 (256)                35                 59                  237                12




Statement of Changes in Net Position
For the period Ended September 30, 2009
Net Position Beginning of Period                       (2,210)                 680                  53                  220                263                 80                  (35)               66

Non-Exchange Revenue                                    6,815                 1,013                  1                 (347)               131                 50                    -                  -
Other Financing Sources                                     -                     -                 35                    -                  -                  -                    -                  -
Net Cost of Operations                                 (7,182)               (1,016)               (35)                 256                (35)               (59)                (237)               (12)

Change in net Position                                   (367)                   (3)                 1                  (91)                96                  (9)               (237)               (12)

Net Position End of Period                $            (2,577)   $             677     $            54    $             129    $           359    $            71     $           (272)   $           54




                                          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                               132
Earmarked Funds


                                                FS                   FS                  FS                 FS                 NIFA                 FSA
                                           State, Private,
                                          and International
                                           Forestry, Land                          Restoration of      Acquisition of     Native American
                                             and Water         Recreation Fee       Forest Lands         Lands to           Institutions        Agricultural
                                            Conservation       Demonstration            and           Complete Land         Endowment          Disaster Relief
Balance Sheet As of September 30, 2009          Fund              Program          Improvements         Exchanges               Fund             Trust Fund            Other            Total
                                              12X5367             12X5268             12X5215            12X5216              12X5205             12X5531
Fund Balance with Treasury                $            106    $            129    $           150     $            43     $              20   $          1,533     $       314      $       4,696
Investments                                               -                   -                   -                   -                105                     -            10                155
Other Assets                                             6                   4                 26                  33                     -                    -            32              3,557
Total Assets                                           112                 133                176                  76                  125               1,533             356              8,408

Other Liabilities                                      32                    5                   1                   1                    -                   2                51           7,494
Total Liabilities                                      32                    5                   1                   1                    -                   2                51           7,494

Unexpended Appropriations                               -                    -                   -                   -                  60                    -              4              1,263
Cumulative Results of Operations                       80                  128                 175                  75                  65                1,531            301               (349)

Total Liabilities and Net Position                    112                  133                 176                  76                125                 1,533            356              8,408




Statement of Net Cost For the Period
Ended September 30, 2009
Gross program costs                                    76                   86                  10                   8                   3                    5            219             12,518
Less Earned Revenue                                     -                   67                  30                   9                   4                    -            106              4,007
Net Cost of Operations                                 76                   19                 (20)                 (1)                 (1)                   5            113              8,511




Statement of Changes in Net Position
For the period Ended September 30, 2009
Net Position Beginning of Period                      107                  147                 154                  74                112                   833            394                  938

Non-Exchange Revenue                                    49                   -                   1                   -                  12                  703             33              8,461
Other Financing Sources                                  -                   -                   -                   -                   -                    -             (9)                26
Net Cost of Operations                                 (76)                (19)                 20                   1                   1                   (5)          (113)            (8,511)

Change in net Position                                 (27)                (19)                 21                   1                  13                  698            (89)                 (24)

Net Position End of Period                 $           80     $            128    $            175    $             75    $           125     $           1,531    $       305      $           914




                                       Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                            133
NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
       FY 2010                                                                            FSA                                  CCC                                  FAS
                                                                           Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




       Assist Rural Communities to Create Prosperity so They Are
       Self-Sustaining, Repopulating, and Economically Thriving:
       Gross Costs                                                         $            998    $        4,253   $           1,077   $        5,342   $            102    $         144
       Less: Earned Revenue                                                             240               200                  21              174                 44                3
       Net Costs                                                                        758             4,053               1,056            5,168                 58              141

       Ensure Our National Forests and Private Working Lands Are
       Conserved, Restored, and Made More Resilient to Climate Change,
       While Enhancing Our Water Resources:
       Gross Costs                                                                      111              471                 415             2,012                   -                -
       Less: Earned Revenue                                                              27               22                   -                 1                   -                -
       Net Costs                                                                         84              449                 415             2,011                   -                -

       Help America Promote Agricultural Production and
       Biotechnology Exports as America Works to Increase Food Security:
       Gross Costs                                                                         -                -                161             2,566                 50               70
       Less: Earned Revenue                                                                -                -                137               188                 21                2
       Net Costs                                                                           -                -                 24             2,378                 29               68

       Ensure that All of America's Children Have Access
       to Safe, Nutritious, and Balanced Meals:
       Gross Costs                                                                         -                -                   -                -                   -                -
       Less: Earned Revenue                                                                -                -                   -                -                   -                -
       Net Costs                                                                           -                -                   -                -                   -                -

       Total Gross Costs                                                               1,109            4,724               1,653            9,920                152              214
       Less: Total Earned Revenue                                                        267              222                 158              363                 65                5
       Net Cost of Operations                                              $             842   $        4,502   $           1,495   $        9,557   $             87    $         209




                                         Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                              134
FY 2010                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             74    $        4,201   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -               603                   -                -                   -                 -
Net Costs                                                                         74             3,598                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -               1,129           94,460                 382              936
Less: Earned Revenue                                                                -                -                   2               49                   2              157
Net Costs                                                                           -                -               1,127           94,411                 380              779

Total Gross Costs                                                                 74             4,201               1,129           94,460                 382              936
Less: Total Earned Revenue                                                         -               603                   2               49                   2              157
Net Cost of Operations                                              $             74    $        3,598   $           1,127   $       94,411   $             380    $         779




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       135
FY 2010                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             98    $         465    $             54    $         146    $             35    $          68
Less: Earned Revenue                                                               2               92                   6               82                   1               49
Net Costs                                                                         96              373                  48               64                  34               19

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 35               93                    -                -
Less: Earned Revenue                                                                -                -                  4               52                    -                -
Net Costs                                                                           -                -                 31               41                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 21               56                    -                -
Less: Earned Revenue                                                                -                -                  2               32                    -                -
Net Costs                                                                           -                -                 19               24                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                      113              540                 298              800                    -                -
Less: Earned Revenue                                                               1              107                  33              450                    -                -
Net Costs                                                                        112              433                 265              350                    -                -

Total Gross Costs                                                                211             1,005                408             1,095                 35               68
Less: Total Earned Revenue                                                         3               199                 45               616                  1               49
Net Cost of Operations                                              $            208    $          806   $            363    $          479   $             34    $          19




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       136
FY 2010                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            241    $         976    $             45    $         224    $             87    $         336
Less: Earned Revenue                                                              24               89                   8                1                  11                6
Net Costs                                                                        217              887                  37              223                  76              330

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                     1,088            4,396                542             2,749                 54              213
Less: Earned Revenue                                                              108              402                 94                10                  7                4
Net Costs                                                                         980            3,994                448             2,739                 47              209

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  1                4                  40              155
Less: Earned Revenue                                                                -                -                  -                -                   5                3
Net Costs                                                                           -                -                  1                4                  35              152

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                130              506
Less: Earned Revenue                                                                -                -                   -                -                 17                9
Net Costs                                                                           -                -                   -                -                113              497

Total Gross Costs                                                               1,329            5,372                588             2,977                311             1,210
Less: Total Earned Revenue                                                        132              491                102                11                 40                22
Net Cost of Operations                                              $           1,197   $        4,881   $            486    $        2,966   $            271    $        1,188




                                 Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                      137
FY 2010                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              20    $         650    $             13    $          20    $             55    $         141
Less: Earned Revenue                                                               16                -                   -                -                  23               11
Net Costs                                                                           4              650                  13               20                  32              130

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         5              151                   5                7                    -               1
Less: Earned Revenue                                                                4                -                   -                -                    -               -
Net Costs                                                                           1              151                   5                7                    -               1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         4              134                   8               13                    -                -
Less: Earned Revenue                                                                3                -                   -                -                    -                -
Net Costs                                                                           1              134                   8               13                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         6              192                  10               15                   3                8
Less: Earned Revenue                                                                6                -                   -                -                   1                1
Net Costs                                                                           -              192                  10               15                   2                7

Total Gross Costs                                                                  35             1,127                 36               55                  58              150
Less: Total Earned Revenue                                                         29                 -                  -                -                  24               12
Net Cost of Operations                                              $               6    $        1,127   $             36    $          55    $             34    $         138




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       138
FY 2010                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,023   $        3,144    $             201    $        365    $            7,123   $       20,475
Less: Earned Revenue                                                              496            3,224                  328              (3)                1,220            4,531
Net Costs                                                                       3,527              (80)                (127)            368                 5,903           15,944

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 117              213                 2,372           10,306
Less: Earned Revenue                                                                -                -                 192               (2)                  436              489
Net Costs                                                                           -                -                 (75)             215                 1,936            9,817

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  12               22                  297             3,020
Less: Earned Revenue                                                                -                -                  20                -                  188               225
Net Costs                                                                           -                -                  (8)              22                  109             2,795

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                  156             286                 2,227           97,743
Less: Earned Revenue                                                                -                -                  256              (2)                  318              771
Net Costs                                                                           -                -                 (100)            288                 1,909           96,972

Total Gross Costs                                                               4,023            3,144                  486             886               12,019           131,544
Less: Total Earned Revenue                                                        496            3,224                  796              (7)               2,162             6,016
Net Cost of Operations                                              $           3,527   $          (80)   $            (310)   $        893    $           9,857    $      125,528




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       139
FY 2010                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,686)   $     25,912
Less: Earned Revenue                                                             (450)          5,301
Net Costs                                                                      (1,236)         20,611

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      (874)         11,804
Less: Earned Revenue                                                             (255)            670
Net Costs                                                                        (619)         11,134

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                       (86)          3,231
Less: Earned Revenue                                                              (38)            375
Net Costs                                                                         (48)          2,856

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,286)         98,684
Less: Earned Revenue                                                             (242)            847
Net Costs                                                                      (1,044)         97,837

Total Gross Costs                                                              (3,932)        139,631
Less: Total Earned Revenue                                                       (985)          7,193
Net Cost of Operations                                              $          (2,947)   $    132,438




                                    Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                         140
FY 2009                                                                             FSA                                       CCC                                       FAS
                                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             904    $        1,974       $            1,095   $       11,757       $               70    $         193
Less: Earned Revenue                                                              219               223                        2            2,361                       87                -
Net Costs                                                                         685             1,751                    1,093            9,396                      (17)             193

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                       103               226                     399             1,825                        -                    -
Less: Earned Revenue                                                               25                26                       -                 1                        -                    -
Net Costs                                                                          78               200                     399             1,824                        -                    -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                          -                    -                 136             1,612                      34                94
Less: Earned Revenue                                                                 -                    -                 192               112                      43                 -
Net Costs                                                                            -                    -                 (56)            1,500                      (9)               94

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                                 -                    -                    -                    -                    -                    -
Net Costs                                                                            -                    -                    -                    -                    -                    -

Total Gross Costs                                                                1,007            2,200                    1,630           15,194                     104               287
Less: Total Earned Revenue                                                         244              249                      194            2,474                     130                 -
Net Cost of Operations                                              $              763   $        1,951       $            1,436   $       12,720       $             (26)    $         287




                                   Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                        141
FY 2009                                                                            RMA                                  FNS                                  FSIS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental   With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             67    $       10,082   $               -   $            -   $               -    $            -
Less: Earned Revenue                                                               -             2,878                   -                -                   -                 -
Net Costs                                                                         67             7,204                   -                -                   -                 -

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                   -                -                   -                 -
Less: Earned Revenue                                                                -                -                   -                -                   -                 -
Net Costs                                                                           -                -                   -                -                   -                 -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -               1,097           78,332                 354              875
Less: Earned Revenue                                                                -                -                   2               40                   3              140
Net Costs                                                                           -                -               1,095           78,292                 351              735

Total Gross Costs                                                                 67            10,082               1,097           78,332                 354              875
Less: Total Earned Revenue                                                         -             2,878                   2               40                   3              140
Net Cost of Operations                                              $             67    $        7,204   $           1,095   $       78,292   $             351    $         735




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       142
FY 2009                                                                            AMS                                 APHIS                                GIPSA
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $             79    $         682    $             49    $         129    $             32    $          64
Less: Earned Revenue                                                               1              107                   4               74                   -               41
Net Costs                                                                         78              575                  45               55                  32               23

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 20               52                    -                -
Less: Earned Revenue                                                                -                -                  1               30                    -                -
Net Costs                                                                           -                -                 19               22                    -                -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                 20               52                    -                -
Less: Earned Revenue                                                                -                -                  2               30                    -                -
Net Costs                                                                           -                -                 18               22                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                       61              528                 298              788                    -                -
Less: Earned Revenue                                                               1               83                  24              450                    -                -
Net Costs                                                                         60              445                 274              338                    -                -

Total Gross Costs                                                                140             1,210                387             1,021                 32               64
Less: Total Earned Revenue                                                         2               190                 31               584                  -               41
Net Cost of Operations                                              $            138    $        1,020   $            356    $          437   $             32    $          23




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       143
FY 2009                                                                             FS                                 NRCS                                  ARS
                                                                    Intragovernmental  With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $            260    $        1,111   $             28    $         126    $             79    $         315
Less: Earned Revenue                                                              27               115                  5                -                  25               12
Net Costs                                                                        233               996                 23              126                  54              303

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      991             4,227                520             2,296                 49              193
Less: Earned Revenue                                                             101               436                 90                10                 16                9
Net Costs                                                                        890             3,791                430             2,286                 33              184

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  1                4                  36              142
Less: Earned Revenue                                                                -                -                  -                -                  12                5
Net Costs                                                                           -                -                  1                4                  24              137

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                   -                -                116              463
Less: Earned Revenue                                                                -                -                   -                -                 36               18
Net Costs                                                                           -                -                   -                -                 80              445

Total Gross Costs                                                               1,251            5,338                549             2,426                280             1,113
Less: Total Earned Revenue                                                        128              551                 95                10                 89                44
Net Cost of Operations                                              $           1,123   $        4,787   $            454    $        2,416   $            191    $        1,069




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       144
FY 2009                                                                            NIFA                                  ERS                                 NASS
                                                                    Intragovernmental   With the Public   Intragovernmental  With the Public   Intragovernmental  With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $              23    $         686    $             15    $          20    $             54    $         132
Less: Earned Revenue                                                               28                -                   -                -                  20                3
Net Costs                                                                          (5)             686                  15               20                  34              129

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         5              158                   5                7                   1                1
Less: Earned Revenue                                                                6                -                   -                -                   -                -
Net Costs                                                                          (1)             158                   5                7                   1                1

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         4              135                  10               14                    -                -
Less: Earned Revenue                                                                6                -                   -                -                    -                -
Net Costs                                                                          (2)             135                  10               14                    -                -

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         6              203                  11               15                   1                2
Less: Earned Revenue                                                                8                -                   -                -                   -                -
Net Costs                                                                          (2)             203                  11               15                   1                2

Total Gross Costs                                                                  38             1,182                 41               56                  56              135
Less: Total Earned Revenue                                                         48                 -                  -                -                  20                3
Net Cost of Operations                                              $             (10)   $        1,182   $             41    $          56    $             36    $         132




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       145
FY 2009                                                                             RD                                    DO                                  Total
                                                                    Intragovernmental  With the Public    Intragovernmental  With the Public   Intragovernmental    With the Public




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $           4,069   $        2,707    $             204    $        340    $            7,028   $       30,318
Less: Earned Revenue                                                              471            3,320                  320               3                 1,209            9,137
Net Costs                                                                       3,598             (613)                (116)            337                 5,819           21,181

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                         -                -                 108              181                 2,201            9,166
Less: Earned Revenue                                                                -                -                 169                2                   408              514
Net Costs                                                                           -                -                 (61)             179                 1,793            8,652

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                         -                -                  12               20                  253             2,073
Less: Earned Revenue                                                                -                -                  18                -                  273               147
Net Costs                                                                           -                -                  (6)              20                  (20)            1,926

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                         -                -                 158              263                 2,102           81,469
Less: Earned Revenue                                                                -                -                 247                3                   321              734
Net Costs                                                                           -                -                 (89)             260                 1,781           80,735

Total Gross Costs                                                               4,069            2,707                  482             804               11,584           123,026
Less: Total Earned Revenue                                                        471            3,320                  754               8                2,211            10,532
Net Cost of Operations                                              $           3,598   $         (613)   $            (272)   $        796    $           9,373    $      112,494




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       146
FY 2009                                                             Intradepartmental
                                                                       Eliminations      Grand Total




Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:
Gross Costs                                                         $          (1,310)   $     36,036
Less: Earned Revenue                                                             (503)          9,843
Net Costs                                                                        (807)         26,193

Ensure Our National Forests and Private Working Lands Are
Conserved, Restored, and Made More Resilient to Climate Change,
While Enhancing Our Water Resources:
Gross Costs                                                                      (838)         10,529
Less: Earned Revenue                                                             (257)            665
Net Costs                                                                        (581)          9,864

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food Security:
Gross Costs                                                                      (436)          1,890
Less: Earned Revenue                                                              (40)            380
Net Costs                                                                        (396)          1,510

Ensure that All of America's Children Have Access
to Safe, Nutritious, and Balanced Meals:
Gross Costs                                                                    (1,275)         82,296
Less: Earned Revenue                                                             (260)            795
Net Costs                                                                      (1,015)         81,501

Total Gross Costs                                                              (3,859)        130,751
Less: Total Earned Revenue                                                     (1,060)         11,683
Net Cost of Operations                                              $          (2,799)   $    119,068




                                  Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                       147
NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2010 and FY 2009 was $449 million and $168 million,
respectively.


NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

          FY 2010
                                                             Direct          Reimbursable        Total
          Apportionment by Fiscal Quarter                $     35,605    $           2,075   $     37,680
          Apportionment for Special Activities                126,313               23,609        149,922
          Exempt from Apportionment                             1,065                   1           1,066
          Total Obligations Incurred                     $    162,983    $          25,685   $   188,668


          FY 2009
                                                             Direct          Reimbursable        Total
          Apportionment by Fiscal Quarter                $     38,698    $           2,310   $    41,008
          Apportionment for Special Activities                103,216               25,331       128,547
          Exempt from Apportionment                               952                   1                953
          Total Obligations Incurred                     $    142,866    $          27,642   $   170,508




NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2010 and 2009 was $39,385 million and $32,508 million,
respectively.


NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the
purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt
related to foreign assistance programs. The permanent indefinite borrowing authority includes both interest
bearing and non–interest bearing notes. These notes are drawn upon daily when disbursements exceed deposits.
Notes payable under the permanent indefinite borrowing authority have a term of one year. On January 1 of each
year, USDA refinances its outstanding borrowings, including accrued interest, at the January borrowing rate.
In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit
programs to finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In
accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October
1, for the entire fiscal year, based on annual estimates of the difference between the amount appropriated (subsidy)
and the amount to be disbursed to the borrower. Repayment under this agreement may be, in whole or in part,
prior to maturity by paying the principal amount of the borrowings plus accrued interest to the date of repayment.
Interest is paid on these borrowings based on weighted average interest rates for the cohort, to which the
borrowings are associated. Interest is earned on the daily balance of uninvested funds in the credit reform
financing funds maintained at Treasury. The interest income is used to reduce interest expense on the underlying
borrowings.
USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of Beneficial
Ownership (CBO) or loans executed directly between the borrower and FFB with an unconditional USDA


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               148
=
repayment guarantee. CBO’s outstanding with the FFB are generally secured by unpaid loan principal balances.
CBO’s outstanding are related to pre-credit reform loans and no longer are used for program financing.
FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made to
finance loans directly between the borrower and FFB mature and are repaid as the related group of loans become
due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings, except in those
situations where an FFB funded loan is restructured and the terms of the loan are modified.
Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB
CBO’s, without a penalty.
Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of its
borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by agencies
and others. All bonds, notes, debentures, and similar obligations issued by the Department are subject to approval
by the Secretary of the Treasury. Reservation of borrowing authority for these purposes has not been required for
many years.
NOTE 24. ADJUSTMENT TO BEGINNING BALANCE OF BUDGETARY RESOURCES DUE TO CHANGE IN ACCOUNTING PRINCIPLE
FCIC has permanent indefinite appropriations available to fund premium subsidy, delivery expenses, losses in
excess of premiums and research and development costs. Beginning in FY 2010, FCIC returned to the U.S.
Treasury all unobligated balances in its indefinite appropriation in excess of the amount FCIC is authorized by
statue to retain which includes the capital stock, paid-in capital, and the contingency fund. Prior to this change,
FCIC carried over its unobligated balances each year. As a result of this change, FCIC adjusted the unobligated
balance brought forward on the Statement of Budgetary Resources and the unexpended appropriations beginning
balance on the Statement of Changes in Net Position in FY 2010 for the amount that would have been returned
had the change been made in FY 2009. This reduced beginning balances by $444 million.
NOTE 25. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform
programs, 2) certain costs of the crop insurance program, (3) certain commodity program costs and 4) certain costs
associated with FS programs.
The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing provisions of
law without further action by Congress after transmittal of the Budget for the year involved. They are treated as
permanent the first year they become available, as well as in succeeding years. However, they are not stated as
specific amounts but are determined by specified variable factors, such as cash needs for liquidating accounts, and
information about the actual performance of a cohort or estimated changes in future cash flows of the cohort in
the program accounts.
The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy, delivery
expenses, losses in excess of premiums and research and delivery costs.
The permanent indefinite appropriation for commodity program costs is used to encourage the exportation of
agricultural commodities and products, to encourage domestic consumption of agricultural products by diverting
them, and to reestablish farmers’ purchasing power by making payments in connection with the normal
production of any agricultural commodity for domestic consumption.
The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs, Brush
Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and Improvements,
Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber Salvage Sales and


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               149
=
Operations, and Maintenance of Quarters. Each of these permanent indefinite appropriations is funded by
receipts made available by law, and is available until expended.
NOTE 26. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in
an expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section
at the end of the appropriations act.
NOTE 27. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
The differences between the FY 2009 Statement of Budgetary Resources and the FY 2009 actual numbers
presented in the FY 2011 Budget of the United States Government (Budget) are summarized below.
The Budget excludes expired accounts that are no longer available for new obligations. Adjustments were made
subsequent to the Budget submission as follows:
CCC zeroed out the balance in its Export Guarantee Program, Negative Subsidies account for FACTS II
reporting and corrected an abnormal balance in its Export Credit Guarantee Program fund.
The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for use by the
Department.
Other items are mainly due to rounding.
A comparison between the FY 2010 Statement of Budgetary Resources and the FY 2010 actual numbers
presented in the FY 2012 Budget cannot be performed as the FY 2012 Budget is not yet available. The FY 2012
Budget is expected to be published in February 2011 and will be available from the Government Printing Office.

        FY 2009
                                                                                         Distributed
                                                           Budgetary      Obligations    Offsetting
                                                           Resources       Incurred       Receipts         Net Outlays


        Combined Statement of Budgetary Resources          $   208,761    $   170,508    $     3,574       $   125,333
        Reconciling items:
         Expired accounts                                      (13,252)        (2,634)                 -             -
         CCC export guarantee program negative subsidies           27              27                  -           (91)
         Milk Market Orders Fund                                   54              54                  -             -
         Other                                                     (22)            (2)                 -             6
        Budget of the United States Government             $   195,568    $   167,953    $     3,574       $   125,248




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                150
=
NOTE 28. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2010 and 2009 was $54,799 million and
$44,332 million, respectively.
NOTE 29. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest products,
miscellaneous general fund receipts such as collections on accounts receivable related to canceled year
appropriations, civil monetary penalties and interest, and commercial fines and penalties. Custodial collection
activities are considered immaterial and incidental to the mission of the Department.


             Revenue Activity:                                            FY 2010             FY 2009
                 Sources of Collections:
                 Miscellaneous                                        $             80    $         86
             Total Cash Collections                                                 80              86
             Accrual Adjustments                                                    (4)             (4)
             Total Custodial Revenue                                                76              82
             Disposition of Collections:
             Transferred to Others:
                 Treasury                                                       (69)               (85)
             ( Increase )/Decrease in Amounts Yet to be Transferred                 (7)                 3
             Net Custodial Activity                                   $              -    $             -




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                151
=
NOTE 30. FIDUCIARY ACTIVITIES
Rural Housing Insurance Fund (RHIF) was established by Public Law 89-117 pursuant to section 517 of title V
of the Housing Act of 1949, which authorized RD to collect escrow payments on behalf of new and existing
Single Family Housing borrowers. Other fiduciary activities by RD include but are not limited to collections from
borrowers, interest paid on escrow accounts, payments to insurance agencies and taxing authorities.



                                        Schedule of Fiduciary Activity
                            For the Years Ended September 30, 2010 and 2009


                                                                    Rural Housing            Rural Housing
                                                                         Insurance                Insurance
                                                                           Fund                       Fund
                                                                           2010                       2009
    Fiduciary net assets, beginning of year                          $            97          $              95
     Fiduciary revenues                                                              -                           -
     Contributions                                                                474                        433
     Investment earnings                                                             -                           -
     Gain (Loss) on disposition of investments, net                                  -                           -
     Administrative and other expenses                                               -                           -
     Disbursements to and on behalf of beneficiaries                           (471)                     (431)
    Increases/(Decrease) in fiduciary net assets                                     3                           2
    Fiduciary net assets, end of year                                $            100         $              97



                                          Fiduciary Net Assets
                                 As of September 30, 2010 and 2009


                                                                         Rural Housing       Rural Housing
                                                                           Insurance              Insurance
                                                                              Fund                    Fund
                                                                              2010                    2009
    Fiduciary Assets
     Cash and cash equivalents                                            $              2        $          8
     Investments                                                                     98           $      89
     Other assets                                                                        -        $          -
    Fiduciary Liabilities
     Less: Liabilities                                                                   -        $          -
    Total Fiduciary Net Assets                                            $        100            $      97




             Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                  152
=
NOTE 31. RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The reconciliation of budgetary resources obligated and the net cost of operations
provides a link between budgetary and proprietary accounting information. It serves not only to explain how
information on net obligations relates to the net cost of operations but also to assure integrity between budgetary
and proprietary accounting.
Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed
by non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may
finance activities which are not components of the net cost of operations; and (3) the net cost of operations may
contain components which do not use or generate resources in the current period.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               153
=
                                                                                                                 2010         2009
    Resources Used to Finance Activities:
    Budgetary Resources Obligated -
       Obligations Incurred                                                                                    $ 188,668    $ 170,508
       Less: Spending authority from offsetting collections and recoveries                                        38,928       38,245
       Obligations net of offsetting collections and recoveries                                                  149,740      132,263
       Less: Distributed Offsetting receipts                                                                       2,088        3,574
       Net Obligations                                                                                           147,652      128,689

    Other Resources -
       Transfers in(out) without reimbursement                                                                       (90)        (562)
       Imputed financing from costs absorbed by others                                                             1,090        1,033
       Other                                                                                                      (1,173)        (863)
       Net other resources used to finance activities                                                               (173)        (392)

        Total resources used to finance activities                                                               147,479      128,297

    Resources Used to Finance Items not Part of the Net Cost of Operations:
       Change in undelivered orders                                                                              (10,505)      (6,538)
       Resources that fund expenses recognized in prior periods                                                   (5,638)      (4,692)
       Budgetary offsetting collections and receipts that do not affect net cost of operations -
         Credit program collections which increase liabilities for loan guarantees or allowances for subsidy      15,770       13,145
         Change in Unfilled Customer Orders                                                                          656          286
         Decrease in exchange revenue receivable from public                                                       7,054        6,697
         Other                                                                                                       493        2,111
       Resources that finance the acquisition of assets                                                          (25,033)     (26,597)
       Other resources or adjustments to net obligated resources that do not affect net cost of operations         2,055          359

        Total resources used to finance items not part of the net cost of operations                             (15,148)     (15,229)

        Total resources used to finance the net cost of operations                                               132,331      113,068

    Components of the Net Cost of Operations that will not Require or Generate
    Resources in the Current Period:
    Components Requiring or Generating Resources in Future Periods -
       Increase in annual leave liability                                                                             21           12
       Increase in environmental and disposal liability                                                                -            -
       Upward/Downward reestimates of credit subsidy expense                                                       1,502        1,928
       Increase in exchange revenue receivable from the public                                                         -            -
       Other                                                                                                      (1,154)         997
       Total components of Net Cost of Operations that will require or generate
         resources in future periods                                                                                369         2,937

    Components not Requiring or Generating Resources -
       Depreciation and amortization                                                                                262          223
       Revaluation of assets or liabilities                                                                          27           27
       Other Components not Requiring or Generating Resources:
         Bad Debt Expense                                                                                           (531)      (1,226)
         Cost of Goods Sold                                                                                          835        2,803
       Other                                                                                                        (855)       1,236
       Total components of Net Cost of Operations that will not require or generate resources                       (262)       3,063

        Total components of Net Cost of Operations that will not require or generate
          resources in the current period                                                                           107         6,000

        Net Cost of Operations                                                                                 $ 132,438    $ 119,068




                Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                     154
=
NOTE 32. SUBSEQUENT EVENTS
A settlement agreement was signed on October 19, 2010, including $680 million in monetary relief from the
Judgment Fund, $80 million in debt relief, and programmatic relief in connection with a class action filed by
Native American farmers and ranchers who allege discrimination under the Equal Credit Opportunity Act and
Title VI of the Civil Rights Act of 1964. After approximately a year of negotiations beginning in October 2009,
parties presented the court with a settlement agreement on October 29, 2010. The court granted preliminary
approval of the agreement on November 1, 2010, and will make a final determination after a fairness hearing.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               155
=
Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS (UNAUDITED)
                                                    FY 2010   FY 2009   FY 2008   FY 2007   FY 2006
                                                    Expense   Expense   Expense   Expense   Expense
    Non-Federal Physical Property:
    Food and Nutrition Service
        Supplemental Nutrition Assistance Program   $   41    $   55    $   32    $    20   $    21
        Special Supplemental Nutrition Program          17        15        10         15        12
    National Institute of Foods and Agriculture
        Extension 1890 Facilities Program               19        17        17         17        17
    Total Non-Federal Property                      $   77    $   87    $   59    $    52   $    50

    Human Capital:
    National Institute of Foods and Agriculture
        Higher Education and Extension Programs     $   559   $   547   $   521   $   524   $   525
    Food and Nutrition Service
        Supplemental Nutrition Assistance Program       63        19        36         51        66
    Agricultural Research Service
        National Agricultural Library                   24        23        22         22        22
    Risk Management Agency
        Risk Management Education                         6         6        10        11        10
    Total Human Capital                             $   652   $   595   $   589   $   608   $   623




                Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                     156
=
                                                  FY 2010   FY 2009   FY 2008   FY 2007     FY 2006
                                                  Expense   Expense   Expense   Expense     Expense
    Research and Development:

    Basic Research:
    Agricultural Research Service
        Human Nutrition                           $    45   $    43   $    42   $     42    $     41
        Collaborative Research Program                  -         2         2          2           3
        Product Quality/Value Added                    56        54        51         52          51
        Livestock Production                           44        43        42         42          41
        Crop Production                               119       102        99         99          97
        Food Safety                                    53        53        51         51          50
        Livestock Protection                           45        42        40         41          43
        Crop Protection                               103       100        96         97          96
        Environmental Stewardship                     103       112       109        110         107
    National Institute of Foods and Agriculture
        Land-grant University System                  283       256       245        245         245
    Forest Service                                     94        87        82         60          76
    Economic Research Service
        Economic and Social Science                    8         8         8           7           7
    National Agricultural Statistics Service
        Statistical                                     3         3         3          3           2
    Total Basic Research                          $   956   $   905   $   870   $    851    $    859

    Applied Research:
    Agricultural Research Service
        Human Nutrition                           $   35    $   34    $   35    $     35    $     36
        Collaborative Research Program                  -        1         2           1           4
        Product Quality/Value Added                   44        43        43          43          45
        Livestock Production                          35        34        35          35          36
        Crop Production                               96        82        82          83          84
        Food Safety                                   43        42        43          43          44
        Livestock Protection                          36        33        34          34          38
        Crop Protection                               82        81         80         81          83
        Environmental Stewardship                      83        90        92         92          94
    National Institute of Foods and Agriculture
        Land-grant University System                  461       435       418        416         416
    Forest Service                                    227       220       207        154         166
    Economic Research Service
        Economic and Social Science                   74        71        69          68          68
    National Agricultural Statistics Service
        Statistical                                     4         5         5           3           3
    Total Applied Research                        $ 1,220   $ 1,171   $ 1,145   $   1,088   $   1,117

    Development:
    Agricultural Research Service
        Human Nutrition                           $    9    $    8    $    8    $      9    $      8
        Product Quality/Value Added                   11        11        11          11          11
        Livestock Production                           9         9         8           8           8
        Crop Production                               24        20        20          20          20
        Food Safety                                   11        11        10          11          11
        Livestock Protection                           9         8         8           8           9
        Crop Protection                               20        20        20          20          20
        Environmental Stewardship                     21        23        22          22          22
    Forest Service                                     17        16        15         47          76
    Total Development                             $   131   $   126   $   122   $    156    $    185


    Total Research and Development                $ 2,307   $ 2,202   $ 2,137   $   2,095   $   2,161




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               157
=
Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State and
local governments for the purpose of administering the Supplemental Nutrition Assistance Program (SNAP).
The total SNAP expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial
statements. FNS’ non-Federal physical property also consists of computer systems and other equipment obtained
by the State and local governments for the purpose of administering the Special Supplemental Nutrition Program
for Women, Infants and Children.
National Institute of Food and Agriculture
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of new
facilities that permit faculty, students, and communities to benefit fully from the partnership between USDA and
the historically African-American land-grant universities.
Human Capital
National Institute of Food and Agriculture
The Higher Education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-
year Post Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a
Native American institutions program, a Native American institutions endowment fund, an Alaska Native
Serving and Native Hawaiian Serving institutions program, a resident instruction grant program for insular areas,
and a capacity building program at the 1890 institutions. These programs enable universities to broaden their
curricula, increase faculty development and student research projects, and increase the number of new scholars
recruited in the food and agriculture sciences. NIFA also supports extension-related work at 1862 and 1890 land-
grant institutions throughout the country through formula and competitive programs. NIFA supported the
Outreach and Assistance for Disadvantaged Farmers Program for the first time in fiscal 2003. The purpose is to
enhance the ability of minority and small farmers and ranchers to operate farming or ranching enterprises
independently to assure adequate income and maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the SNAP. The E&T program requires
recipients of SNAP benefits to participate in an employment and training program as a condition to SNAP
eligibility.
Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 812,318 work registrants subject to the 3 - month SNAP participant limit and 1,503,052
work registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work
experience.
Agricultural Research Service
As the Nation’s primary source for agricultural information, the National Agricultural Library (NAL) has a
mission to increase the availability and utilization of agricultural information for researchers, educators,
policymakers, consumers of agricultural products, and the public. The NAL is one of the world’s largest and most
accessible agricultural research libraries and plays a vital role in supporting research, education, and applied
agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One
of four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the
National Library of Education), it is also the coordinator for a national network of State land-grant and USDA
field libraries. In its international role, the NAL serves as the U.S. center for the international agricultural
information system, coordinating and sharing resources and enhancing global access to agricultural data. The


          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               158
=
NAL collection of over 50 million items and its leadership role in information services and technology
applications combine to make it the foremost agricultural library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the
Federal Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the
NIFA, the Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic
Research Service, and private industry to leverage the federal government’s funding of its RME program by using
both public and private organizations to help educate their members in agricultural risk management. The RME
effort was launched in 1997 with a Risk Management Education Summit that raised awareness of the tools and
resources needed by farmers and ranchers to manage their risks. RMA has built on this foundation since 2003 by
expanding State and Regional education partnerships; encouraging the development of information and
technology decision aids; supporting the National Future Farmers of America (FFA) foundation with an annual
essay contest; facilitating local training workshops; and supporting Cooperative Agreements with Educational and
outreach organizations.
During fiscal years 2010 and 2009, the RME worked toward the goals by funding risk management sessions,
most of which targeted producers directly. The number of producers reached through these sessions is
approximately 47,100 and 20,000 in fiscal years 2010 and 2009, respectively. Additionally, some training sessions
helped those who work with producers, such as lenders, agricultural educators, and crop insurance agents, better
understand those areas of risk management with which they may be unfamiliar. Total RME obligations incurred
by the FCIC were approximately $6 million for fiscal years 2010 and 2009. The following table summarizes the
RME initiatives since fiscal year 2006:

                         (dollars in millions)                 2010     2009     2008     2007     2006
              RME Obligations                              $     6        6       10       11       10
              Number of producers attending RME sessions       47,100   20,000   49,000   49,000   48,000


One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and
outreach efforts in certain areas of the country that have been historically underserved by the Federal crop
insurance program. The Secretary determined that fifteen states met the underserved criteria. These states are
Maine, Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania,
Vermont, Maryland, Utah, Rhode Island, New Hampshire, and West Virginia.
Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high
national priority and provide information access and dissemination to: ensure high quality, safe food, and other
agricultural products; assess the nutritional needs of Americans; sustain a competitive agricultural economy;
enhance the natural resource base and the environment; and provide economic opportunities for rural citizens,
communities, and society as a whole. ARS’ programs are aligned under the Department’s priorities as follows:
USDA Strategic Goal 1: Assist Rural Communities to Create Prosperity So They Are Self-Sustaining, Repopulating,
and Economically Thriving
Product Quality/Value Added – Many agricultural products are marketed as low value commodities and harvested
commodities often suffer losses due to spoilage or damage during shipping, storage, and handling. Healthy foods
are often not convenient and/or are not widely accepted by many consumers. Biobased product represent small



          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               159
=
fraction of the market for industrial products and their performance is often uncertain. Biofuels and some
biobased products are not yet economically competitive with petroleum-based products.
ARS has active research programs directed toward: 1) improving the efficiency and reducing the cost for the
conversion of agricultural products into biobased products and biofuels; 2) developing new and improved products
to help establish them in domestic and foreign markets; and 3) providing higher quality, healthy foods that satisfy
consumer needs in the United States and abroad. Note: Some of ARS’ Livestock and Crop Production research is
carried out under this Strategic Goal and Strategic Goal 3.
National Agricultural Library — The Library, the world’s largest library serving agriculture, delivered more than 91
million direct customer service transactions in FY 2010, a reduction of about 2 per cent from the FY 2009 level
due to a change in the way Web usage metrics are recorded. NAL no longer reports total “hits” but rather total
unique visitors, page views, and searches.
Buildings and Facilities —ARS has over 100 laboratories, primarily located throughout the United States. ARS’
facilities programs are designed to meet the needs of its scientists and support personnel to accomplish the
agency’s mission.
USDA Strategic Goal 2: Ensure Our National Forests and Private Working Lands Are Conserved, Restored, and Made More Resilient to
Climate Change, While Enhancing Our Water Resources
Environmental Stewardship — ARS’ research programs in environmental stewardship support scientists at seventy
locations. Emphasis is given to developing technologies and systems that support profitable production and
enhance the Nation’s vast renewable natural resource base.
ARS is currently developing the scientific knowledge and technologies needed to meet the challenges and
opportunities facing U.S. agriculture in managing water resource quality and quantity under different climatic
regimes, production systems, and environmental conditions. ARS’ air resources research is developing
measurements, prediction, and control technologies for emissions of greenhouse gases, particulate matter,
ammonia, hydrogen sulfide, and volatile organic compounds affecting air quality and land-surface climate
interactions. The agency is a leader in developing measurement and modeling techniques for enhancing the health
and productivity of soils, including developing predictive tools to assess the sustainability of alternative land
management practices. Finding mechanisms to aid agriculture in adapting to changes in atmospheric composition
and climatic variations are also important components of ARS’ research program.
ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range land and
pasture ecosystems and agroecosystems through improved management of fire, invasive weeds, grazing, global
change, and other agents of ecological change. ARS is currently developing improved grass and forage legume
germplasm for livestock, conservation, bioenergy, and bioproduct systems as well as grazing-based livestock
systems that reduce risk and increase profitability. In addition, the agency is developing whole system
management strategies to reduce production costs and risks.
USDA Strategic Goal 3: Help America Agricultural Production and Biotechnology Exports As America Works to
Increase Food Security
Livestock Production — ARS’ livestock production program is directed toward: 1) safeguarding and utilizing animal
genetic resources, associated genetic and genomic databases, and bioinformatics tools; 2) developing a basic
understanding of the physiology of livestock and poultry; and 3) developing information, tools, and technologies
that can be used to improve animal production systems. The research is heavily focused on the development and
application of genomics technologies to increase the efficiency and product quality of beef, dairy, swine, poultry,
aquaculture, and sheep systems.




            Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                 160
=
Current areas of emphasis include increasing efficiency of nutrient utilization; increasing animal well-being and
reducing stress in production systems; increasing reproductive rates and breeding animal longevity; developing and
evaluating non-traditional production systems (e.g., organic, natural); and evaluating and conserving animal
genetic resources.
Crop Production — ARS’ crop production program focuses on developing and improving ways to reduce crop losses
while protecting and ensuring a safe and affordable food supply. The research program concentrates on effective
production strategies that are environmentally friendly, safe to consumers, and compatible with sustainable and
profitable crop production systems. Research activities are directed at safeguarding and utilizing plant genetic
resources and their associated genetic, genomic, and bioinformatics databases that facilitate selection of varieties
and/or germplasm with significantly improved traits.
Current research activities attempt to minimize the impacts of crop pests while maintaining healthy crops and safe
commodities that can be sold in markets throughout the world. ARS is conducting research to: discover and
exploit naturally occurring and engineered genetic mechanisms for plant pest control; develop agronomic
germplasm with durable defensive traits, and transfer genetic resources for commercial use. ARS is also providing
taxonomic information on invasive species that strengthen prevention techniques, aid in detection/identification
of invasives, and increase control through management tactics which restore habitats and biological diversity.
USDA Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe, Nutritious, and Balanced Meals
Food Safety — Assuring that the United States has the highest levels of affordable, safe food requires that the food
system be protected at each stage from production through processing and consumption from pathogens, toxins,
and chemical contaminants that cause diseases in humans. The U.S. food supply is very diverse, extensive, easily
accessible, and thus vulnerable to the introduction of biological and chemical contaminants through natural
processes, intentional means, or by global commerce.
ARS’ current food safety research is designed to yield science-based knowledge on the safe production, storage,
processing, and handling of plant and animal products, and on the detection and control of toxin producing
and/or pathogenic bacteria and fungi, parasites, chemical contaminants, and plant toxins. ARS’ research activities
involve a high degree of cooperation and collaboration both within the USDA-REE agencies as well as with
USDA’s Food Safety and Inspection Service and the Animal and Plant Health Inspection Service, and with other
entities, including the Food and Drug Administration, the Centers for Disease Control, the Department of
Homeland Security, and the Environmental Protection Agency. ARS also collaborates in international research
programs to address and resolve global food safety issues.
Specific research efforts are directed toward developing new technologies that assist ARS stakeholders and
customers, that is, regulatory agencies, industry, and commodity and consumer organizations in detecting,
identifying, and controlling foodborne diseases that affect human health.
Livestock Protection — ARS’ animal health program is directed at protecting and ensuring the safety of the Nation’s
agriculture and food supply through improved disease detection, prevention, control, and treatment. Basic and
applied research approaches are used to solve animal health problems of high national priority. Emphasis is given
to methods and procedures to control animal diseases.
The research program has ten strategic objectives: 1) establish ARS’ laboratories into a fluid, highly effective
research network to maximize use of core competencies and resources; 2) access specialized high containment
facilities to study zoonotic and emerging diseases; 3) develop an integrated animal and microbial genomics
research program; 4) establish centers of excellence in animal immunology; 5) launch a biotherapeutic discovery
program providing alternatives to animal drugs; 6) build a technology driven vaccine and diagnostic discovery
research program; 7) develop core competencies in field epidemiology and predictive biology; 8) develop
internationally recognized expert collaborative research laboratories; 9) establish a best in class training center for


            Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                 161
=
our Nation’s veterinarians and scientists; and 10) develop a model technology transfer program to achieve the full
impact of ARS’ research discoveries.
ARS’ current animal research program includes eight core components: 1) biodefense research, 2) animal
genomics and immunology, 3) zoonotic diseases, 4) respiratory diseases, 5) reproductive and neonatal diseases, 6)
enteric diseases, 7) parasitic diseases, and 8) transmissible spongiform encephalopathies.
Crop Protection – ARS research on crop protection is directed toward epidemiological investigations to
understand pest and disease transmission mechanisms, and to identify and apply new technologies that increase
our understanding of virulence factors and host defense mechanisms.
Currently, ARS’ research priorities include: 1) identification of genes that convey virulence traits in pathogens and
pests; 2) factors that modulate infectivity, gene functions, and mechanisms; 3) genetic profiles that provide
specified levels of disease and insect resistance under field conditions, and 4) mechanisms that facilitate the spread
of pests and infectious diseases.
ARS is developing new knowledge and integrated pest management approaches to control pest and disease
outbreaks as they occur. Its research will improve the knowledge and understanding of the ecology, physiology,
epidemiology, and molecular biology of emerging diseases and pests. This knowledge will be incorporated into
pest risk assessments and management strategies to minimize chemical inputs and increase production. Strategies
and approaches will be available to producers to control emerging crop diseases and pest outbreaks.
Human Nutrition – Maintenance of health throughout the lifespan along with prevention of obesity and chronic
diseases via food-based recommendations are the major emphasis of ARS’ human nutrition research program.
These health-related goals are based on the knowledge that deficiency diseases are no longer the most important
public health concerns. Excessive consumption has become the primary nutrition problem in the American
population. This is reflected by increased emphasis on prevention of obesity from basic science through
intervention studies to assessments of large populations. ARS’ research programs also actively study bioactive
components of foods that have no known requirement but have health promotion activities.
Four specific areas of research are currently emphasized: 1) nutrition monitoring and the food supply, e.g., a
national diet survey and the food composition databank; 2) dietary guidance for health promotion and disease
prevention, i.e., specific foods, nutrients, and dietary patterns that maintain health and prevent diseases; 3)
prevention of obesity and related diseases, including research as to why so few of the population do not follow the
Dietary Guidelines for Americans; and 4) life stage nutrition and metabolism, in order to better define the role of
nutrition in pregnancy, growth of children, and for healthier aging.
National Institute of Food and Agriculture
NIFA participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation among the
State institutions, and between the State institutions and their Federal research partners. NIFA administers grants
and formula payments to State institutions to supplement State and local funding for agriculture research.
Forest Service
Forest Service R&D has an integrated portfolio that supports achievement of the agency’s strategic goals with an
emphasis in seven strategic program areas:
Wildland Fire and Fuels - R&D provides managers the knowledge and tools to reduce the negative impacts of
fire and enhance the beneficial effects of fire, as a natural process, and the human process of fire and fuels
management on society and the environment.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               162
=
Research focuses on understanding and modeling fundamental fire processes; interactions of fire with ecosystems
and the environment; social and economic aspects of fire; evaluation of integrated management strategies and
disturbance interactions at multiple scales; and application of fire research to address management problems.
Invasive Species — R&D provides the scientific information, methods, and technology to reduce or eliminate the
introduction, spread, and impact of invasive species, and to restore or improve the functionality of ecosystems
affected by invasives species.
Research focuses on plants, animals, fish, insects, diseases, invertebrates, and other species not native to an
ecosystem whose introduction is likely to cause economic or environmental harm.
Water, Air, and Soil — R&D enables the sustainable management of these essential resources by providing clear air
and safe drinking water, by protecting lives and property from wildlife fire and smoke, and through adapting to
climate variability and change.
The program features ecosystem services with a high level of integration between water, air, and soil research,
such as the effects of climate variability and change on water budgets or carbon sequestration from an ecosystem
perspective.
Wildlife and Fish — R&D relies upon interdisciplinary research to inform policy initiatives affecting wildlife and
fish habitat on private and public lands, and the recovery of threatened or endangered species.
Scientists investigate the complex interactions among species, ecosystem dynamics and processes, land use and
management, and any emerging broadscale threats, including global climate change, loss of open space, invasive
species, and disease.
Resource Management and Use — R&D provides the scientific and technology base to sustainably manage and use
forest resources and forest fiber-based products.
Research focuses on the plant sciences, soil sciences, social sciences, silviculture, productivity, forest and range
ecology management, harvesting and operations, forest and biomass products and utilization, economics, urban
forestry, and climate change.
Outdoor Recreation — R&D promotes human and ecological sustainability by researching environmental
management, activities, and experiences that connect people with the natural world.
Research in Outdoor Recreation is interdisciplinary, focusing on nature-based recreation and the changing trends
in American society; connections between recreation visitors, communities, and the environment; human benefits
and consequences of recreation and nature contact; the effectiveness of recreation management and decision-
making; and sustaining ecosystems affected by recreational use.
Inventory and Monitoring — R&D provides the resource data, analysis, and tools needed to monitor forest
ecosystems at greatest risk from rapid change due to threats from fire, insects, disease, natural processes, or
management actions. From their research, scientists determine the status and trend of the health of the Nation’s
forests and grasslands, and the potential impact from climate change.
Their research integrates the development and use of science, technology, and remotely sensed data to better
understand the incidences of forest fragmentation over time from changes in land use or from insects, disease, fire,
and extreme weather events.
A representative summary of FY 2010 accomplishments include the following:
• 38 new interagency agreements and contracts
• 12 interagency agreements and contracts continued
• 1,790 articles published in journals


           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                163
=
•   1,481 articles published in all other publications
•   2 patents granted
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff analyses,
briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information and analysis
helps public and private decision makers attain the goals that promote agricultural competitiveness, food safety
and security, a well-nourished population, environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation
program through development of better estimators at lower cost and with less respondent burden. This means
greater efficiency in sampling and data collection coupled with higher quality data upon which to base the official
estimates. In addition, products for data users are being improved using technologies such as remote sensing and
geographic information systems. Continued service to users will be increasingly dependent upon methodological
and technological efficiencies.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                164
=
Required Supplementary Information
DEFERRED MAINTENANCE (UNAUDITED)
Deferred maintenance is maintenance that was scheduled to be performed but was delayed until a future period.
Deferred maintenance represents a cost that the Federal Government has elected not to fund and, therefore, the
costs are not reflected in the financial statements.
Maintenance is defined to include preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it continues to provide acceptable service and
achieve its expected life. Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise
upgrading it to service needs different from, or significantly greater than, those originally intended.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               165
=
Forest Service
                                                     Cost to Return to        Cost of Critical   Cost of Non-critical
         FY 2010
                                                    Acceptable Condition       Maintenance         Maintenance


    Asset Class
        Bridges                                     $                 172     $           34     $              138
        Buildings                                                   1,038                125                    913
        Dam                                                            24                  6                     18
        Minor Constructed Features                                    115                  -                    115
        Fence                                                         297                297                      -
        Handling Facility                                              22                 22                      -
        Heritage                                                       26                  8                     18
        Road                                                        3,108                311                  2,797
        Trail Bridge                                                   11                  4                      7
        Wastewater                                                     37                 23                     14
        Water                                                         117                 66                     51
        Wildlife, Fish, TES                                             7                  5                      2
        Trails                                                        296                  7                    289
        General Forest Area                                             -                  -                      -
    Total Forest Service                            $               5,270     $          908     $            4,362


                                                     Cost to Return to        Cost of Critical   Cost of Non-critical
         FY 2009
                                                    Acceptable Condition       Maintenance         Maintenance
    Asset Class
        Bridges                                     $                 156     $           29     $              127
        Buildings                                                   1,023                144                    879
        Dam                                                            29                 10                     19
        Minor Constructed Features                                    107                  -                    107
        Fence                                                         298                298                      -
        Handling Facility                                              22                 22                      -
        Heritage                                                       25                  9                     16
        Road                                                        3,178                318                  2,860
        Trail Bridge                                                   11                  4                      7
        Wastewater                                                     40                 24                     16
        Water                                                         118                 67                     51
        Wildlife, Fish, TES                                             6                  4                      2
        Trails                                                        294                  5                    289
        General Forest Area                                             -                  -                      -
    Total Forest Service                            $               5,307     $          934     $            4,373



Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets, and
stewardship land. It is also reported separately for critical and noncritical amounts of maintenance needed to
return each class of asset to its acceptable operating condition. Critical maintenance is defined as a serious threat
to public health or safety, a natural resource, or the ability to carry out the mission of the organization. Noncritical
maintenance is defined as a potential risk to the public or employee safety or health (e.g., compliance with codes,
standards, or regulations) and potential adverse consequences to natural resources or mission accomplishment.
The Forest Service began reporting deferred maintenance in 2000. Estimates of deferred maintenance for all
major classes of PP&E, heritage assets, and stewardship assets are based on condition surveys. The agency has


            Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                 166
=
completed two rounds of condition surveys providing a comprehensive national assessment of Forest Service
property.
For roads, deferred maintenance is determined from surveys of an annual random sample of a sufficient number of
roads to achieve estimates of 95-percent accuracy and 95-percent confidence. Validation of this process is
ongoing.
Deferred maintenance needs for all other asset groups are determined from surveys of all individual assets on a
revolving schedule where the interval between visits does not exceed 5 years.
No deferred maintenance exists for fleet vehicles as they are managed through the agency’s working capital fund
(WCF). Each fleet vehicle is maintained according to schedule. The cost of maintaining the remaining classes of
equipment is expensed.
The overall condition of major asset classes range from poor to good depending on the location, age, and type of
property. The standards for acceptable operating condition for various classes of general PP&E, stewardship, and
heritage assets are as follows.
Conditions of roads and bridges within the National Forest System (NFS) road system are measured by various
standards:
• Federal Highway Administration regulations for the Federal Highway Safety Act;
• Best management practices for the nonpoint source provisions of the Clean Water Act from Environmental
    Protection Agency and States;
• Road management objectives developed through the National Forest Management Act forest planning
    process; and
• Forest Service Directives—Forest Service Manual (FSM) 7730, Operation and Maintenance (August 25, 2005,
    amendment was superseded with October 1, 2008, revision); Forest Service Handbook (FSH) 7709.56a,
    Road Preconstruction, and FSH 7709.56b, Transportation Structures Handbook.
Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11, Dams
Management Handbook. The condition of a dam is acceptable when the dam meets current design standards and
does not have any deficiencies that threaten the safety of the structure or public. For dams to be rated in
acceptable condition, the agency needs to restore the dams to the original functional purpose, correct unsightly
conditions, or prevent more costly repairs.
Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and
the Occupational Safety Health Administration as determined by condition surveys. These requirements are
found in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The condition of
administrative facilities ranges from poor to good, with approximately 35 percent needing major repairs or
renovations; approximately 14 percent in fair condition; and 51 percent of the facilities in good condition.
The agency is currently developing an integrated strategy to realign our administrative facility infrastructure to
meet current organizational structure and to reduce the maintenance liability for unneeded buildings, free up land
for use by local communities and private enterprise, and provide added funds for infrastructure maintenance and
development. Forest Service anticipates maximum benefits from a combination of appropriations, facility
conveyance receipts, and decommissioning of unneeded facilities.
Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails, water
and wastewater systems, interpretive facilities, and visitor centers. These components are included in several asset
classes of the deferred maintenance exhibit. All developed sites are managed in accordance with Federal laws and
regulations (Code of Federal Regulations (CFR) 36).



           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                167
=
Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation Opportunities, and
forest- and regional-level user guides. Quality standards for developed recreation sites were established as
Meaningful Measures for health and cleanliness, settings, safety and security, responsiveness, and the condition of
the facility.
The condition assessment for range structures (fences and stock handling facilities) is based on (1) a
determination by knowledgeable range specialists or other district personnel of whether the structure would
perform the originally intended function, and (2) a determination through the use of a protocol system to assess
conditions based on age. A long-standing range methodology is used to gather this data.
Heritage assets include archaeological sites that require determinations of National Register of Historic Places
status, National Historic Landmarks, and significant historic properties. Some heritage assets may have historical
significance, but their primary function in the agency is as visitation or recreation sites and, therefore, may not fall
under the management responsibility of the heritage program.
Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific direction is
contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH 2309.18, Trails
Management Handbook.
Deferred maintenance of structures for wildlife, fish, and threatened and endangered species is determined by
field biologists using their professional judgment. The deferred maintenance is considered critical if resource
damage or species endangerment would likely occur if maintenance were deferred much longer.
Condition of Heritage Assets and Stewardship Lands
The Statement of Federal Financial Accounting Standard No. 29, Heritage Assets and Stewardship Lands,
reclassified information on heritage and stewardship land assets from “supplementary” to “basic.” This change
moves the acquisitions and withdrawals of these assets to the financial notes, accompanying the financial
statements. The condition information for these assets remains supplementary.
Heritage Assets
Heritage professionals are responsible for documenting and maintaining cultural resource condition assessments
to standard. Periodic monitoring and condition assessments are the basis for applying protective measures and
treatments to vulnerable, deteriorating, or threatened cultural resources. The condition of heritage assets depends
on the type of asset and varies from poor to fair.
Stewardship Land
The condition of NFS lands varies by purpose and location. The Forest Service monitors the condition of its
stewardship lands based on information compiled by two national inventory and monitoring programs—Forest
Inventory and Analysis (FIA) and Forest Health Monitoring (FHM).
Although most of the estimated 193 million acres of stewardship lands continue to produce valuable benefits –
clean air and water, habitat for wildlife, and products for human use – significant portions are at risk to pest
outbreaks or catastrophic fires.
There are 25 million acres of NFS forest lands at risk to future mortality from insects and diseases, based on the
2006 publication of Mapping Risk from Forest Insects and Diseases. Invasive species of insects, diseases, and
plants continue to affect our native ecosystems by causing mortality to, or displacement of, native vegetation.
The projected accomplishments on NFS lands include treatment of 198,478 acres for invasives and 33,043 acres
for native pests. These numbers should be considered preliminary, with final amounts of acres treated for invasives
and native pests on NFS lands available at www.fs.fed.us in February 2011.




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                168
=
Agricultural Research Service

                                              FY 2010        FY 2009
    Asset Class
       Buildings                             $     251       $    258
       Structures                                   21             19
       Heritage                                     94             89
    Total Agricultural Research Service      $     366       $    366

Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal direction as
long as the original intent or purpose of the fixed asset is not changed. Also includes work performed to bring an
asset up to present environmental standards or correction of safety problems. Critical DM is DM that is identified
for critical systems including HVAC, electrical, roofing, and plumbing tasks. Non-critical DM is all other
systems. DM is reported for buildings, structures and heritage assets.
Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and plan for
their full life cycle management. The Condition Index (CI) is a general measure of the constructed asset’s
condition at a specific point in time. It is calculated as the ration of repair needs, or DM, to plant replacement
value (PRV). PRV can be calculated systematically and without much effort. The condition of the constructed
asset is a more difficult figure to determine. A repair need is the amount necessary to ensure a constructed asset is
restored to a condition substantially equivalent to the originally intended and designed capacity, efficiency or
capability. Ideally, with enough money and time, repair needs would be determined for each asset by inspection,
evaluation of the repairs required, and consistent estimating of the repairs throughout ARS. ARS does not have
available manpower in-house to complete this type of inspection and estimating, nor the funding to contract.
ARS looked at approaches to model ARS assets and evaluate the results for management purposes.
Whitestone Research is a company that estimates DM based on the age of the facility, geographic location,
typical major components and size of the structure. Whitestone first inspected a sample of representative
buildings from 36 ARS sites (roughly 55 percent of the total inventory) and used parametric models to estimate
DM and PRV. These results were generalized to the entire population of ARS facilities. Assuming a PRV of $3.8
billion, the CI ratio (1 - $DM/PRV) is 92 percent, an outcome commonly classified as “adequate.”




           Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                169
=
STATEMENT OF BUDGETARY RESOURCES (UNAUDITED)

    FY 2010                                                                FSA                         CCC                   FAS            RMA           FNS            FSIS           AMS            APHIS
                                                                          Non-Budgetary               Non-Budgetary
                                                                            Financing                   Financing
                                                                Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary      Budgetary      Budgetary
    Budgetary Resources:
    Unobligated balance, brought forward, October 1 (Note 24)   $   2,692     $   1,726     $    2,020     $     971     $     368      $     557     $    15,471    $       32     $     497      $      299
    Recoveries of prior year unpaid obligations                        71            97          1,332            34            24              3             990           132            18             128
    Budget Authority:
      Appropriation                                                 4,274             -         18,014             -           391           6,979         87,130         1,028          8,316           1,443
      Borrowing Authority                                               -         3,034         39,063         1,199             -               -              -             -              -               -
      Earned -
        Collected                                                     660         2,389         11,294           500               48        2,449           129            141               57          143
        Change in receivables from Federal Sources                     (1)            -             14             1               21            -             -             19                -           (4)
      Change in unfilled customer orders -
        Advances received                                               -              -            382            -              1              -              -             -              -               -
        Without advance from Federal Sources                            4            (16)             -          (19)           135              -              -             9              -               -
      Expenditure transfers from trust funds                            -              -            937            -              -              -              -             -              -               -
    Nonexpenditure transfers, net, anticipated and actual               -              -         (3,618)           -            143              1          7,039             -         (7,068)           (200)
    Temporarily not available pursuant to Public Law                    -              -              -            -              -              -              -             -           (122)              -
    Permanently not available                                        (469)        (1,309)       (41,586)        (348)           (82)        (2,353)          (313)           (2)          (134)             (2)
     Total Budgetary Resources                                      7,231          5,921         27,852        2,338          1,049          7,636        110,446         1,359          1,564           1,807

    Status of Budgetary Resources:
    Obligations Incurred:
      Direct                                                        5,383         2,676          3,127         1,228           345           7,073         95,816         1,168          1,396           1,379
      Reimbursable                                                    421             -         22,438             -           120               -             51           141             53             140
    Unobligated Balance:
      Apportioned                                                     460           822            305           861            176            559          3,774            46            100             268
      Exempt from Apportionment                                       204             -          1,188             5              -              -              -             -              -               -
    Unobligated balance not available                                 763         2,423            794           244            408              4         10,805             4             15              20
    Total Status of Budgetary Resources                             7,231         5,921         27,852         2,338          1,049          7,636        110,446         1,359          1,564           1,807

    Change in Obligated Balances:
    Obligated balance, net, brought forward October 1                  594           479          9,308           (18)           71            392          5,347            169           168             360
    Obligations incurred                                             5,804         2,676         25,565         1,228           465          7,073         95,867          1,309         1,449           1,519
    Gross outlays                                                   (5,294)       (2,552)       (23,881)       (1,115)         (446)        (7,233)       (93,951)        (1,169)       (1,420)         (1,341)
    Recoveries of prior year unpaid obligations, actual                (71)          (97)        (1,332)          (34)          (24)            (3)          (990)          (132)          (18)           (128)
    Change in uncollected payments from Federal Sources                 (3)           15            (14)           19          (156)             -              -            (28)            -               4
    Obligated balance, net, end of period -
      Unpaid obligations                                            1,046           541          9,895           238            182           230           6,272           194           181             438
      Uncollected customer payments from Federal Sources              (15)          (19)          (247)         (158)          (271)            -               -           (44)           (2)            (23)
      Obligated balance, net, end of period                         1,031           522          9,648            80            (89)          230           6,272           150           179             415

    Net Outlays:
     Gross outlays                                                  5,294          2,552       23,881          1,115           446           7,233         93,951         1,169          1,420           1,341
     Offsetting collections                                          (660)        (2,389)     (12,613)          (501)          (49)         (2,449)          (129)         (141)           (57)           (143)
     Distributed offsetting receipts                                 (213)             -            -           (576)            -               -              -           (10)          (154)            (19)
     Net Outlays                                                $   4,421 $          163    $ 11,268 $            38     $     397      $    4,784    $    93,822    $    1,018     $    1,209     $     1,179




                                                      Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                           170
=
    FY 2010                                                         GIPSA         FS              NRCS           ARS           NIFA           ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                                   Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                     Financing                                  Financing
                                                                Budgetary     Budgetary       Budgetary      Budgetary     Budgetary      Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
    Budgetary Resources:
    Unobligated balance, brought forward, October 1 (Note 24)   $       13    $   2,747       $    1,768     $     423     $      204     $          6    $          7   $    5,910    $    1,992     $     106     $    33,120     $    4,689
    Recoveries of prior year unpaid obligations                          5           40              384            20            318                -               1          233           975            22           3,721          1,106
    Budget Authority:
      Appropriation                                                     42        6,094            1,010          1,264         1,386               83          162           6,453             -           632         144,701              -
      Borrowing Authority                                                -            -                -              -             -                -            -               -        17,619             -          39,063         21,852
      Earned -
        Collected                                                       49             495           113             75            15                1           18           4,886         8,099           712          21,285         10,988
        Change in receivables from Federal Sources                       1             (50)            1            (22)            7                -           19               4             -           180             189              1
      Change in unfilled customer orders -
        Advances received                                                -            8               (3)             2            23                -            3               -             -            10             426              -
        Without advance from Federal Sources                             -            8               46             74           (32)               4            8              (2)            1            55             309            (34)
      Expenditure transfers from trust funds                             -            -                -              -             -                -            -               -             -             -             937              -
    Nonexpenditure transfers, net, anticipated and actual                -           (1)           2,940              2           123                -            -             356             -            30            (253)             -
    Temporarily not available pursuant to Public Law                     -            -                -              -           (12)               -            -               -             -             -            (134)             -
    Permanently not available                                           (1)           -                -             (2)           (5)              (1)           -          (5,381)       (4,589)           (4)        (50,335)        (6,246)
     Total Budgetary Resources                                         109        9,341            6,259          1,836         2,027               93          218          12,459        24,097         1,743         193,029         32,356

    Status of Budgetary Resources:
    Obligations Incurred:
       Direct                                                           46        6,571            4,414          1,394         1,754               83          161           8,209        20,155           605         138,924         24,059
      Reimbursable                                                      46          409              156            120            (2)               5           28             620             -           939          25,685              -
    Unobligated Balance:
      Apportioned                                                       16        1,362              403            289           232                1           20           2,225         2,550           113          10,349          4,233
      Exempt from Apportionment                                          -            -                -              -             -                -            -               -             -             -           1,392              5
    Unobligated balance not available                                    1          999            1,286             33            43                4            9           1,405         1,392            86          16,679          4,059
    Total Status of Budgetary Resources                                109        9,341            6,259          1,836         2,027               93          218          12,459        24,097         1,743         193,029         32,356

    Change in Obligated Balances:
    Obligated balance, net, brought forward October 1                    6         2,290            3,225           342          1,630           26               22          5,516         22,837           138          29,604         23,298
    Obligations incurred                                                92         6,980            4,570         1,514          1,752           88              189          8,829         20,155         1,544         164,609         24,059
    Gross outlays                                                      (87)       (6,509)          (3,265)       (1,353)        (1,185)         (69)            (180)        (5,474)       (13,507)       (1,328)       (154,185)       (17,174)
    Recoveries of prior year unpaid obligations, actual                 (5)          (40)            (384)          (20)          (318)           -               (1)          (233)          (975)          (22)         (3,721)        (1,106)
    Change in uncollected payments from Federal Sources                 (1)           42              (47)          (51)            25           (4)             (27)            (2)            (1)         (236)           (498)            33
    Obligated balance, net, end of period -
      Unpaid obligations                                                10        3,072            4,242            574         1,965               46            33          8,649        29,414           511          37,540         30,193
      Uncollected customer payments from Federal Sources                (6)        (310)            (144)          (142)          (62)              (5)          (30)           (14)         (905)         (415)         (1,730)        (1,082)
      Obligated balance, net, end of period                              4        2,762            4,098            432         1,903               41             3          8,635        28,509            96          35,810         29,111

    Net Outlays:
     Gross outlays                                                      87        6,509            3,265          1,353         1,185               69          180           5,474        13,507         1,328       154,185            17,174
     Offsetting collections                                            (49)        (503)            (110)           (77)          (38)              (1)         (21)         (4,886)       (8,099)         (722)      (22,648)          (10,989)
     Distributed offsetting receipts                                     -         (429)               1            (13)           (4)               -            -            (661)            -           (10)       (1,512)             (576)
     Net Outlays                                                $       38    $   5,577       $    3,156     $    1,263    $    1,143     $         68    $     159      $      (73) $      5,408     $     596     $ 130,025 $           5,609




                                                    Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                         171
=
    FY 2009                                                               FSA                         CCC                   FAS           RMA            FNS            FSIS           AMS            APHIS
                                                                         Non-Budgetary               Non-Budgetary
                                                                           Financing                   Financing
                                                               Budgetary   Accounts        Budgetary   Accounts         Budgetary     Budgetary      Budgetary      Budgetary      Budgetary      Budgetary
    Budgetary Resources:
    Unobligated balance, brought forward, October 1:           $   2,215     $     869     $    2,098     $   2,516     $     382     $    2,057     $   14,258     $       29     $     433      $      368
    Recoveries of prior year unpaid obligations                       55            72            181            10           170              4            507          1,441            15             168
    Budget Authority:
      Appropriation                                                2,733             -         15,444             -           331          6,843         75,647            982          8,227           1,394
      Borrowing Authority                                              -         2,937         28,870           340             -              -              -              -              -               -
      Earned -
        Collected                                                    728         1,628         11,722           553           102          4,211               84          146               58          105
        Change in receivables from Federal Sources                    (3)            -            (89)            -            42              -                -          (15)               -            8
      Change in unfilled customer orders -
        Advances received                                              -             -             154             -             -             -              -              -              -               -
        Without advance from Federal Sources                           1            23               -           (18)          (13)            -              -              3              -               -
      Expenditure transfers from trust funds                           -             -           1,130             -             -             -              -              -              -               -
    Nonexpenditure transfers, net, anticipated and actual             51             -          (2,241)            -           102             1          6,590              -         (6,616)           (300)
    Temporarily not available pursuant to Public Law                   -             -               -             -             -             -              -              -              -               -
    Permanently not available                                       (321)         (524)        (27,444)       (1,583)          (75)           (2)        (2,119)            (9)          (295)             (9)
     Total Budgetary Resources                                     5,459         5,005          29,825         1,818         1,041        13,114         94,967          2,577          1,822           1,734

    Status of Budgetary Resources:
    Obligations Incurred:
       Direct                                                      2,317         3,279          3,573           847           529         12,113         79,454          2,419          1,274           1,099
      Reimbursable                                                   450             -         24,232             -           144              -             42            126             51             336
    Unobligated Balance:
      Apportioned                                                  2,523           628            329           363             89           996          1,520             12             33             267
      Exempt from Apportionment                                        -             -            841             4              -             -              -              -             32               -
    Unobligated balance not available                                169         1,098            850           604            279             5         13,951             20            432              32
    Total Status of Budgetary Resources                            5,459         5,005         29,825         1,818          1,041        13,114         94,967          2,577          1,822           1,734

    Change in Obligated Balances:
    Obligated balance, net, brought forward October 1                 497           330          7,646            6             20            456          4,288            162           122             391
    Obligations incurred                                            2,767         3,279         27,805          847            673         12,113         79,496          2,545         1,325           1,435
    Gross outlays                                                  (2,618)       (3,036)       (26,050)        (879)          (423)       (12,173)       (77,928)        (1,108)       (1,265)         (1,289)
    Recoveries of prior year unpaid obligations, actual               (55)          (72)          (181)         (10)          (170)            (4)          (507)        (1,441)          (15)           (168)
    Change in uncollected payments from Federal Sources                 2           (23)            89           18            (29)             -              -             12             -              (8)
    Obligated balance, net, end of period -
     Unpaid obligations                                              606           514          9,541           159            187           392          5,347            186           170             387
     Uncollected customer payments from Federal Sources              (12)          (35)          (233)         (177)          (116)            -              -            (17)           (2)            (27)
     Obligated balance, net, end of period                           594           479          9,308           (18)            71           392          5,347            169           168             360

    Net Outlays:
     Gross outlays                                                 2,618          3,036       26,050            879            423        12,173         77,928          1,108          1,265           1,289
     Offsetting collections                                         (729)        (1,628)     (13,006)          (553)          (103)       (4,211)           (84)          (146)           (58)           (104)
     Distributed offsetting receipts                                (951)             -            -           (474)            (1)            -              -            (11)          (155)            (15)
     Net Outlays                                               $     938 $        1,408    $ 13,044 $          (148)    $      319    $    7,962     $   77,844     $      951     $    1,052     $     1,170




                                                            Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                                 172
=
    FY 2009                                                       GIPSA         FS              NRCS           ARS           NIFA           ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                                 Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                   Financing                                  Financing
                                                              Budgetary     Budgetary       Budgetary      Budgetary     Budgetary      Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
    Budgetary Resources:
    Unobligated balance, brought forward, October 1:          $       14    $   2,170       $    1,793     $     241     $      127     $          4    $          4   $    1,827    $    1,929     $        58   $    28,078       5,314
    Recoveries of prior year unpaid obligations                        6           38              572           111            446                4               6          153           672              57         3,934         754
    Budget Authority:
      Appropriation                                                   40        7,107            1,308          1,387         1,270               80          152           8,847             -           543         132,335           -
      Borrowing Authority                                              -            -                -              -             -                -            -               -        11,628             -          28,870      14,905
      Earned -
        Collected                                                     42             535           108           105             46                -           24           3,846         7,315           816          22,678       9,496
        Change in receivables from Federal Sources                     -             (23)           (6)            -             (2)               -            -               4             -            24             (60)          -
      Change in unfilled customer orders -
        Advance received                                               -            2                4              -           (18)               -            -               -             -            (2)            140           -
        Without advance from Federal Sources                           -          (51)              17             (6)           11                1            -               -           215           (10)            (47)        220
       Expenditure transfers from trust funds                          -            -                -              -             -                -            -               -             -             -           1,130           -
    Nonexpenditure transfers, net, anticipated and actual              -            -            1,612              3           160                -            -             204             -             3            (431)          -
    Temporarily not available pursuant to Public Law                   -            -                -              -           (12)               -            -               -             -             -             (12)          -
    Permanently not available                                         (1)          (5)              (1)            (6)           (5)              (1)          (2)         (2,636)       (3,498)           (7)        (32,938)     (5,605)
     Total Budgetary Resources                                       101        9,773            5,407          1,835         2,023               88          184          12,245        18,261         1,482         183,677      25,084

    Status of Budgetary Resources:
    Obligations Incurred:
      Direct                                                          46        6,544            3,540          1,300         1,717               81          153           5,780        16,269           532         122,471      20,395
      Reimbursable                                                    42          482               99            112           102                1           24             555             -           844          27,642           -
    Unobligated Balance:
      Apportioned                                                      8        2,031              794            399           202                1            5           4,423         1,333           154          13,786       2,324
      Exempt from Apportionment                                        -            -                -              -             -                -            -               -             -             -             873           4
    Unobligated balance not available                                  5          716              974             24             2                5            2           1,487           659           (48)         18,905       2,361
    Total Status of Budgetary Resources                              101        9,773            5,407          1,835         2,023               88          184          12,245        18,261         1,482         183,677      25,084

    Change in Obligated Balances:
    Obligated balance, net, brought forward October 1                  6         1,707            3,006           340          1,489           29               20          4,916         20,358           182          25,277     20,694
    Obligations incurred                                              88         7,026            3,639         1,412          1,819           82              177          6,335         16,269         1,376         150,113     20,395
    Gross outlays                                                    (83)       (6,480)          (2,836)       (1,306)        (1,223)         (80)            (169)        (5,580)       (12,903)       (1,348)       (141,959)   (16,818)
    Recoveries of prior year unpaid obligations, actual               (6)          (38)            (572)         (111)          (446)          (4)              (6)          (153)          (672)          (57)         (3,934)      (754)
    Change in uncollected payments from Federal Sources                -            74              (11)            6             (9)          (1)               -             (4)          (215)          (14)            107       (220)
    Obligated balance, net, end of period
      Unpaid obligations                                              11        2,641            3,322           432          1,716               27           25           5,527        23,741           319          30,836      24,414
      Uncollected customer payments from Federal Sources              (5)        (351)             (97)          (90)           (86)              (1)          (3)            (11)         (904)         (181)         (1,232)     (1,116)
      Obligated Balance, net, end of period                            6        2,290            3,225           342          1,630               26           22           5,516        22,837           138          29,604      23,298

    Net Outlays:
     Gross outlays                                                    83        6,480            2,836          1,306         1,223               80          169           5,580        12,903         1,348       141,959        16,818
     Offsetting collections                                          (42)        (536)            (111)          (105)          (29)               -          (24)         (3,846)       (7,315)         (814)      (23,948)       (9,496)
     Distributed offsetting receipts                                   -         (574)               1            (23)           (5)               -            -          (1,310)            -           (56)       (3,100)         (474)
     Net Outlays                                              $       41    $   5,370       $    2,726     $    1,178    $    1,189     $         80    $     145      $      424 $       5,588     $     478     $ 114,911 $       6,848




                                                            Financial Statements, Notes, Supplemental and Other Accompanying Information
                                                                                                 173
=
RISK ASSUMED INFORMATION (UNAUDITED)
Risk assumed is generally measured by the present value of unpaid expected losses net of associated premiums
based on the risk inherent in the insurance or guarantee coverage in force. Risk assumed information is in
addition to the liability for unpaid claims from insured events that have already occurred. The assessment of losses
expected based on the risk assumed are based on actuarial or financial methods applicable to the economic, legal
and policy environment in force at the time the assessments are made. The FCIC has estimated the loss amounts
based on the risk assumed for its programs to be $7,546 million and $8,930 million as of September 30, 2010 and
2009, respectively.




          Financial Statements, Notes, Supplemental and Other Accompanying Information
                                               174
                                                      Section 4.
                                                      Other Accompanying Information


4.      Other Accompanying Information

Appendix A —Response to Management Challenges
The Department of Agriculture’s (USDA) Office of Inspector General (OIG) has identified and reported 10
management challenges for Fiscal Year (FY) 2010. The report includes the most significant challenges faced by
USDA. It can be found at: http://www.usda.gov/oig/webdocs/MgmtChallenges2009.pdf.
The OIG report also includes emerging issues that could become a Departmental challenge in upcoming years.
OIG did not remove any of the previous year’s challenges; however, sub-elements/issues reported under
Challenge 2 (Internal Controls), Challenge 5 (Civil Rights), and Challenge 6 (Global Trade) were removed. OIG
added new issues under Challenge 1 (Interagency Coordination) and Challenge 2 (Internal Controls).
The following table summarizes those challenges that changed from FY 2009 to FY 2010.

                            FY 2009 Management Challenges                                               FY 2010 Changes
     Challenge #1                                                            Challenge #1
     Issue: Interagency Communication, Coordination, and Program             Issue added: Coordination between Federal agencies to prevent residue
     Integration Need Improvement                                            from entering the food supply
     Emerging Issue                                                          Challenge #2
     National Organic Program                                                Issue added: National Organic Program
     Challenge #2                                                            Challenge #2
     Issue: Implementation of Strong, Integrated, Internal Control Systems   Issue added: Standard Reinsurance Agreement
     Still Needed                                                            Issue added: Group Risk Plan and the Group Risk Income Protection
                                                                             program
     Challenge #2
     Issue: Capitalize on Farm Service Agency Compliance Activities to       Issue Removed by OIG
     Improve Program Integrity
     Challenge #5
     Issue: Develop Procedures to Control and Monitor Case File              Issue Removed by OIG
     Documentation and Organization
     Challenge #6
     Issue: Strengthen Trade Promotion Operations                            Issue Removed by OIG




                                                      Other Accompanying Information
                                                                   175
The following table includes FY 2010 accomplishments; FY 2011 planned actions, and ongoing activities to
address the Department’s challenges.
USDA’s Management Challenges

 1) Interagency Communications, Coordination, and Program Integration Need Improvement.
 • Farm Programs: Challenge #1. Farm Service Agency (FSA),Risk Management Agency (RMA), Natural Resources Conservation Service (NRCS)
     − Implement a Comprehensive Information Management System (CIMS) to better share program data and eliminate duplicate reporting by
         producers;
     − Implement a more effective data reconciliation process, as mandated by the Agricultural Risk Protection Act of 2000 (RMA and FSA);
     − Incorporate data mining techniques that detect data anomalies and prevent potential improper payments; and
     − Integrate interagency communication and coordination in their program activities to ensure that one agency’s actions do not adversely affect
         another’s programs.
 Fiscal Year 2010 Accomplishments
 • RMA, FSA, worked jointly on the CIMS project and accomplished the following:
     − Met with Approved Insurance Providers (AIP) to review CIMS project, functions, and services in order to assess progress to date and future
         direction;
     − Established requirements for RMA Reinsured Policy Acceptance Systems to use CIMS data for verification of new producers reported to RMA;
     − Continued development of a streamlined acreage reporting process that will enable the producer to report common data once. RMA, FSA,
         NRCS and NASS will share the data to eliminate duplicate reporting, including the formation of a Department-wide acreage reporting effort
         sponsored by the OCIO and FFAS;
     − Established discovery reports of possible differences in RMA and FSA business entities and comparable crop acreage;
     − FSA provided CIMS access to more than 12,000 FSA county and state office workers, including use of CIMS to provide insurance production for
         use in calculating benefits in the ACRE program;
     − Coordinated efforts between FSA and NRCS on participant eligibility including crop insurance guarantee information for use by the
         Supplemental Revenue Assistance Payments (SURE) program in calculating 2008 benefits;
     − NRCS finalized the Conservation Stewardship Program (CSP) rule to include provisions that utilize the FSA farm record system to determine
         producer eligibility; and
     − NRCS amended program policy to address resource concerns related to land with expiring Conservation Reserve Program (CRP) contracts.
 Planned Actions for Fiscal Year 2011
 • Implement future enhancements to the CIMS project;
 • Improve access to data required for program benefits;
 • Timely identify and discover possible data differences;
 • Establish process and conditions for AIPs to report on data records differences;
 • Establish a more efficient and faster producer service by allowing data to be loaded directly to AIPs systems;
 • RMA will perform reviews to reconcile information utilized for FSA disaster programs where FSA county offices find instances in which RMA and
     FSA program data do not match;
 • RMA will continue to research, develop and implement data mining techniques and implement them as appropriate;
 • RMA and FSA will establish a memorandum of understanding for the SURE and Average Crop Revenue Election (ACRE) disaster programs
     outlying interaction between the two agencies concerning these programs;
 • Continue to analyze crop reporting data recommendations from the RMA/FSA working group;
 • Establish a memorandum of understanding between FSA and RMA for the SURE and ACRE disaster programs outlining interaction between the
     two Agencies concerning these programs; and
 • NRCS will continue to coordinate issues and opportunities common to the conservation agencies and related to program financial assistance
     eligibility, the Service Center Information Management System and the Federal Financial Accountability and Transparency Act.
 Inspection of Agricultural Commodities: Challenge #1. Animal and Plant Health Inspection Service (APHIS)
 • Develop and provide to the Department of Homeland Security’s U.S. Customs and Border Protection (CBP), a system of risk assessment for rail
     cargo so that the degree of risk can be determined.
 Planned Actions for Fiscal Year 2011
 • Coordinate with CBP on the establishment of the railway assessment project; and
 • Collect data and perform risk assessment.
 National Residue Program for Cattle: Challenge #1. Food Safety and Inspection Service (FSIS)
 • Improve coordination among Federal agencies to prevent residues from entering the food supply – build a consensus with the Food and Drug
     Administration (FDA) and the Environmental Protection Agency (EPA).




                                                  Other Accompanying Information
                                                               176
Fiscal Year 2010 Accomplishments
• Held a chemical residues summit with representatives from USDA, FDA, and EPA, to coordinate chemical residue strategy.
Planned Actions for Fiscal Year 2011
• Provide proposals to FDA and EPA to:
    − Update the memorandum of understanding that established the Surveillance Advisory Team (SAT) and Interagency Residue Control Group
       (IRCG);
    − Draft a charter governing SAT and IRCG operations;
    − Develop a process for elevating issues identified by SAT and IRCG to executive-level officials for appropriate action;
    − Develop plans to ensure the National Residue Program has the resources needed to test for substances identified as high-risk;
    − Develop plans through SAT for periodically reviewing FSIS’ sampling methods;
    − Develop a plan to establish policies for handling hazardous substances with no tolerances; and
      − Work with FDA to develop a process for expedited approval of new testing methodologies.



2) Implementation of Strong, Integrated Internal Control Systems Still Needed. Rural Housing Service (RHS)
• Pursue computer matching agreements with other agencies that provide disaster response and relief; and
• Develop procedures to monitor and control assistance in response to disasters.
Fiscal Year 2010 Accomplishments
• Issued revised disaster procedures to field offices to monitor the provision of housing assistance;
• Established internal controls to prevent duplicative assistance;
• Worked with organizations and impacted communities to ensure disaster supplemental appropriations are made available and used in areas
    affected by the disaster;
• Developed a Data Check Query Tool, within the Single Family Housing Direct Program, that provides users with an automated method to ensure
    application data was entered accurately into the Dedicated Loan Origination System;
• Provided training to the field staff on identifying and correcting errors before loans are obligated; and
• Revised procedures for monitoring the delinquency rates for Section 502 direct loans.
Planned Actions for Fiscal Year 2011
• Coordinate with other federal agencies to include Federal Emergency Management Agency and Small Business Administration to share benefit
    information on who has applied for or received disaster assistance to avoid/minimize the potential for duplicate benefits;
• Provide staff training, as needed; on (1) How delivering disaster assistance differs from regular program assistance and (2) Checking for duplicate
    benefits from other sources; and
• Perform additional enhancements to the automated system based on any agreements entered into with any other government agencies.
• Strengthen quality control and perform required reconciliation of producer/policyholder data in the Federal Crop Insurance Program (RMA)
• Continue efforts to establish a consistent and comprehensive review process to be used by all reinsured companies;
• Implement a system to evaluate the overall effectiveness and reliability of quality control reviews performed by companies;
• Develop a comprehensive, systematic, and well-defined strategy for its compliance-related efforts, to include the organizational structure needed to
    support the strategy;
• Conduct and document an overall risk assessment of program operations to identify major program vulnerabilities and focus, coordinate, and
    prioritize resources on high-risk areas; and
• Ensure that AIPs follow RMA’s policies and procedures while underwriting nursery crop insurance policies, adjusting resulting losses, and reporting
    loss data to RMA.
Fiscal Year 2010 Accomplishments
• Issued a new Standard Reinsurance Agreement for crop year 2011 including a revised Appendix IV Quality Assurance and Integrity document that
    establishes a consistent and comprehensive review process to be used by all reinsured companies;
• Completed National Program Operations Reviews on 5 AIPs’ operations to determine their compliance with quality control guidelines listed in the
    Standard Reinsurance Agreement and associated Appendix IV;
• RMA expanded its strategic data acquisition and analysis efforts by incorporating additional remote sensing and geospatial analyses to its data
    warehousing and data mining initiative, and increased the application of these data and analysis tools to include underwriting and program integrity
    issues throughout the crop insurance program; and
      •      RMA performed spot checks on selected nursery policies to determine Approved Insurance Providers compliance with the Nursery Crop
             Provisions, Special Provisions of Insurance, and all nursery procedures including the Nursery Underwriting Guide, and the Nursery Loss
             Adjustment Standards Handbook.




                                                  Other Accompanying Information
                                                               177
Planned Actions for Fiscal Year 2011
• Conduct National Program Operations Reviews on 6 AIP operations to determine their compliance with quality control guidelines listed in the
   Standard Reinsurance Agreement and associated Appendix IV; and
• Revise the “RMA Strategic Plan” to incorporate a well defined strategy for its compliance related efforts.
• Improve verification under the Group Risk Plan (GRP) and Group Risk Income Protection programs (GRIP). (RMA)
• Notify AIPs in writing that they are required to physically verify the crops they have insured under GRP/GRIP as part of the acreage report field
    reviews.
Fiscal Year 2010 Accomplishments
• As required in OIG Audit 05601-14-Te, “Group Risk Crop Insurance,” RMA completed actions to formalize the reporting and analysis of Approve
    Insurance Providers required acreage field reviews for GRP/GRIP policies.
• Prepare complete, accurate financial statements without extensive manual procedures and adjustments. (all agencies that prepare financial
    statements)
Fiscal Year 2010 Accomplishments
• FS:
    − Implemented stronger internal controls over interim financial reporting to identify trends, variances, or abnormal activity/transactions.
       Specifically:
       o Developed automated cash reconciliation tool that facilitates more timely resolution of funds balance variance and automatically produces
           cash summary reports;
       o Improved the work processes by eliminating 11 pages of FACTS II PRC Validation errors which increased the efficiency and productivity on
           FACTS II reporting and eliminated recurring year-end cash adjustments;
       o Created a trial balance tool that tracks the ARRA Funds and the top 5 treasury symbol activity;
       o Developed and implemented an internal control process to monitor SUSF activities to determine the impact on financial reporting and to
           identify aged transactions to be cleared;
       o Updated the FACTS I process to compare data on a monthly basis and improved the monitoring of the Unidentified Trading Partner Usage
           Code;
       o Developed general ledger activity and trend analysis reports to identify unusual and/or unexplained financial activity for use by Operational
           Branches in monitoring their respective account balances;
       o Created SF-133 automated tool to calculate data sets for adjustment review; and
       o Implemented stronger monitoring functions over financial reporting financial controls to supplement A-123 Appendix A testing. These
           functions are performed quarterly to form an independent basis for certification of financial statements.
• NRCS:
    − Developed business requirements and provided support to implement the successful resolution of financial audit findings on access controls for
       Fund Manager and ProTracts software access;
    − Obtained contractor support to conduct audit remediation services; conducted reviews in 18 states;
      − Issued interim policy via national instructions on reimbursable agreements, open obligations, accruals, capital leases, internal use software,
           and unfilled customer orders.
Planned Actions for Fiscal Year 2011
• FS:
   − Prepare for conversion to the new USDA financial systems (Financial Management Modernization Initiative);
   − Complete implementation of the new system for accepting credit cards for fees and services/products provided by the Agency throughout all 153
      national forests;
   − Work with Federal Accounting Standards Advisory Board on developing clearer guidance regarding deferred maintenance reporting
      requirements; and
   − Institute rotational effectiveness of field operated internal controls over financial reporting.
• NRCS:
   − Strengthen separation of duties for cost share agreement management by implementation of nationally standardized permissions in ProTracts;
   − Continue contractor support services including, performing additional state office site visits, finalizing corrective actions of audit issues, and
      training for new policies and procedures;
   − Complete managerial cost accounting business requirements, model design, and Statement of Net Costs methodology to ensure proper
      presentation of the Statement of Net Costs;
   − Prepare for conversion to the USDA Financial Management Modernization Initiative financial system;
   − Issue financial policies and procedures; and
   − Complete comprehensive training for financial and non-financial employees at all organizations levels.




                                                  Other Accompanying Information
                                                               178
• Improve Forest Service (FS) and NRCS internal controls and management accountability in order to effectively manage resources, measure
  progress towards goals and objectives, and accurately report accomplishments.
Fiscal Year 2010 Accomplishments
• FS:
    − Closed significant programmatic audit recommendations for 78 audit recommendations from 20 OIG audits. Specifically:
       o Developed new databases to improve tracking and monitoring of Emergency Equipment Rental Agreements (EERAs);
       o Provided new guidance to line officers when conducting fire investigations;
       o Improved Partnership Program implementation and oversight;
       o Provided direction to Firefighting Associations to restrict privileges to create and modify electronic training records;
       o Implement actions to assure all aircraft leased for firefighting meet the airworthiness standards and appropriate maintenance and inspection
           programs;
       o Ensured all Regions using alternate appraisal methods have calculation models that are consistent with FS’ Timber Sale Preparation
           Handbook;
       o Twenty five of the outstanding financial statement audit findings for previous years were closed in FY 2010. No material weaknesses
           identified in the financial statement audit for third consecutive year;
       o Implementing new system throughout the Agency to allow customers to use credit cards in order to streamline collection activities and
           reduce risk;
       o Implemented improved reporting and monitoring over Agency travel;
       o Implemented additional assessments over critical program management functions in areas such as ARRA program of work, grant
           management;
       o Instituted stronger programmatic controls for deferred maintenance and environmental disposal liabilities;
       o Conducted assessments of cash management functions at all FS operated Job Corp Centers;
       o Created database to trend unliquidated obligations certification, assess quality of certification, and provide feedback to regional offices.
           Auditors reduced the FS lack of monitoring over Unliquidated Obligations issue to a control deficiency and maintained that through FY 2010;
           and
       o Maintained robust and effective information security program. Continued progress in the reduction of significance of audit issues and
           maintained no material weakness in this area.
• NRCS:
    − Released the Conservation Effects Assessment Project (CEAP) report for cropland on the Upper Mississippi River Basin. The release of this
       report included a thorough technical review of processes which were then established for future reports on cropland; and
    − Implemented software controls to manage the statutory direct and indirect annual payment limitation rules for two Conservation Security
       Program signup periods.



Planned Actions for Fiscal Year 2011
• FS:
   − Conduct evaluation of grant management function to identify opportunities to improve overall compliance and effectiveness of the entire
      program;
   − Implement stronger cash management policy and procedures for Job Corp centers;
   − Finish implementation of credit card system;
   − Fully implement recommendations for ARRA efforts;
   − Implement statistical evaluation of ULO balances; and
   − Implement corporate aggregation evaluation process that evaluates results of audit and assessments to identify systemic internal control
      weaknesses inherent in business processes that impact programmatic effectiveness.
• NRCS:
   − Release additional CEAP studies; Release final report for the Chesapeake Bay crop and pastureland study. With these studies, NRCS will be
      able to assess the outcome of its programs and use the reports to facilitate decisions on the most effective future programmatic investments;
   − Implement corrective actions on findings from the Conservation Security Program review prior to making 2010 payments; and
     −    Release a revised Conservation Programs Manual and train all office staff.




                                                  Other Accompanying Information
                                                               179
• Strengthen oversight of the National Organic Program (NOP). (Agricultural Marketing Service)
Fiscal Year 2010 Accomplishments
• Worked in partnership with the Office of General Counsel to pursue enforcement actions;
• Developed an enforcement policy that specifies when civil penalties or other enforcement actions are warranted;
• Implemented policy and procedures for follow up monitoring of compliance with NOP enforcement actions, and increased timeliness and efficiency
    in complaint handling;
• Provided guidance on NOP reviews and audits;
• Renewed the status of California as a state organic program;
• Initiated development of the NOP Program Handbook;
• Implemented a document control policy; and
• Revised the NOP Quality Manual to include accreditation procedures.
Planned Actions for Fiscal Year 2011
• Establish guidelines to require certifiers to conduct periodic residue testing; and
• Issue an amendment to remove the Federal Advisory Committee Act requirements from the NOP regulations.
3) Continuing Improvements Needed in Information Technology (IT) Security. (Office of the Chief Information Officer and agency level IT managers)
• Emphasize security program planning and management oversight and monitoring.
Fiscal Year 2010 Accomplishments
• Implemented four time-phased strategic improvement plans, the “Cyber and Privacy Policy and Oversight (CPPO) 100-Day Plan,” “Getting to
    Federal Information Security Management Act (FISMA) Green Plan,” the Agriculture Security Operations Center 36-month "Get Healthy" plan and
    the OIG's “Get Healthy - Remediation of FISMA Weaknesses Plan,” to systematically mitigate identified IT risks and improve the USDA Security
    posture;
• Launched the Certification and Accreditation Center of Excellence to ensure compliance with OMB Circular A-130 Appendix III and implemented
    Department-wide best practices in system authorizations, Cyber Security Assessment and Management (CSAM) utilization, Plans of Action and
    Milestones (POA&M) management, and risk management strategies;
• Completed Phase 1 of the CSAM Remediation effort to improve the consistency and quality of the C&A/system authorization data points, reporting
    and tracking of system authorizations, and risk management;
• Hosted the USDA Cyber Security Summit and Department-wide “live” Information Security Awareness and Specialized Security training sessions to
    improve cyber security education and awareness and provide specialized training Department-wide;
• Drafted the Governance, Risk, and Compliance (GRC) Strategic Plan to focus on the strategic and technical aspects of the information security
    program. The Office of the Chief Information Officer’s (OCIO) GRC Strategic Plan emphasizes using the Risk Management Framework to mitigate
    vulnerabilities with the highest overall risk to the department;
• Worked diligently with USDA’s agencies to promote and collaborate with the Cyber Security Plans and to validate and ensure consistency of data in
    CSAM to improve the management of IT system risks;
• Launched the Agriculture Security Operations Center (ASOC) to improve the USDA security posture and institute operational best practices; and
• Continued using the monthly FISMA program compliance scorecard to monitor agency FISMA compliance including Plans of Action and Milestones
    (POA&Ms), Whole Disk Encryption deployment, and Configuration Management to mitigate identified system risks.



Planned Actions for Fiscal Year 2011
• Continue implementation of “Getting to FISMA Green” and OIG “Get Healthy” Plans to systematically mitigate identified risks;
• Continue leveraging CSAM, security metrics, program reviews, and the monthly FISMA program compliance scorecard to manage IT security
   program compliance and oversight;
• Continue deployment of Risk Management Framework initiative and implement CSAM Version 3.0 to leverage CSAM’s continuous monitoring
   capabilities across the Department;
• Continue deployment of ASOC and related program initiatives; and
• Continue Department-wide Cyber Security Awareness and Education efforts to increase end-user awareness of cyber security best practices.
• Establish an internal control program throughout the systems’ life cycle.
Fiscal Year 2010 Accomplishments
• Reviewed and revised Cyber Security Departmental Regulations as needed to maintain concurrency with National Institute of Standards and
    Technology (NIST) and other program requirements;
• Staffed critical positions to ensure compliance with incident handling and response requirements and improve the security management operations;
• Defined operational metrics for key security initiatives, and for endpoint health (via BigFixTM);
• Established Departmental bi-weekly meetings to discuss issues covering all aspects of NIST Security Policy 800-53 compliance and Departmental
    IT Security policies;



                                                 Other Accompanying Information
                                                              180
• Expanded the CSAM Dashboard to improve system authorization reporting, security control tracking and management and continuous monitoring
   functionality; and
• Conducted annual reviews on: USDA Cyber Security Policies, Certification and Accreditation (C&A) documentation, agency security plans (for
   systems not undergoing Certification & Accreditation), Contingency Plan test plans and test reports, outstanding POA&Ms, security controls
   assessments, security awareness training, IT systems inventories and Acquisition Approval Requests.
Planned Actions for Fiscal Year 2011
• Continue using CSAM to implement Continuous Monitoring and automate the Concurrency Review process;
• Develop dashboard and supporting analytics to monitor and assess security operational metrics; and
• Continue using Security Metrics and agency program reviews to measure agency Security Program compliance and maturity.
• Identify, test, and mitigate IT security vulnerabilities (risk assessments).
Fiscal Year 2010 Accomplishments
• Established C&A Center of Excellence to provide agencies with operational support and tools for the USDA C&A process, including the conduct of
    concurrency reviews, the development and management of POA&Ms, the use of CSAM tool, to ensure that USDA complies with NIST, FISMA,
    OMB, and USDA security polices and requirements;
• Began 14 and completed 10 assessments of the security practices within their IT operations programs;
• Continued reviewing selected POA&M closure documentation to validate/verify correction actions; and
• Continued C&A concurrency review program.
Planned Actions for Fiscal Year 2011
• Continue implementation of the Risk Management Framework and continuous monitoring initiatives;
• Begin remaining agencies' IT operational assessments, to complete baseline of entire department by end of FY; follow up with 2010 assessments
    to review progress on programmatic developmental milestones.
• Remediate IT Material Weakness relating to: Logical and Physical Access Controls, Disaster Recovery Planning, and Configuration Management
Fiscal Year 2010 Accomplishments
• Issued a memorandum directing compliance with Departmental Regulation 3505-003, Access Control Policy, and created program level POA&Ms
    as needed to address program risks;
• Developed tactical plan for monitoring monthly access control review efforts to ensure compliance with program goals;
• Integrated eAuthentication and LincPass cards to provide two-factor authentication to all eAuthentication-protected applications; and
• USDA’s 4 largest facilities that have over 1000 users (South Building, Riverdale, the Beltsville Agriculture Research Center, and the Kansas City
    Commodity Office) have personal identity verification card readers that meet the criteria put forward by Homeland Security Presidential Directive 12:
    Policy for a Common Identification Standard for Federal Employees and Contractors;
• Validated agency change management processes during C&A concurrency reviews; and
• Deployed the BigFixTM end point monitoring tool to over 130,000 endpoints Department-wide; began awareness campaign with agency CIO's
    focusing on FDCC compliance, and obsolete/high risk commercial software deployment;
• Verified submission of agency continuity of operations/disaster recovery plans in CSAM; and
• Verified continuity of operations plans annual testing.
Planned Actions for Fiscal Year 2011
• Continue monitoring agency compliance with access control policies;
• Develop the Department-wide Privilege Management Plan;
• Implement Digital Signature and Encryption Plans; and
• Complete the Identity Credential and Access Management technical infrastructure.
• Continue program oversight activities focusing on change/configuration and patch management.
• Expand continuous monitoring data awareness campaign to encompass OS patching, IPv6, critical trends, and the transition from informational to
    actionable reporting via BigFixTM;
• Continue Departmental initiatives to establish and fund alternate ‘hot sites’ for Service Center Agencies; and
• Continue USDA training and oversight activities to ensure effective Continuity of Operations for all systems.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
• Implement commodity inventory systems that provide critical homeland security features. (FSA)
Planned Actions for Fiscal Year 2011
   Continue implementation of the Web-based Supply Chain Management (WBSCM) system to be used by the Agricultural Marketing Service, FSA,
   the Food and Nutrition Service, Foreign Agricultural Service (FAS) and the U.S. Agency for International Development;
• Begin user security role testing within the implementation phase of the WBSCM. Completed user training and data management activities for
  WBSCM;
• Continue WBSCM security testing and begin communication with external stakeholders; and
• Define validation criteria and perform validation of Transactional Data Staging Database.



                                                  Other Accompanying Information
                                                               181
Agriculture Quarantine and Inspection Activities. (APHIS)
• Develop the necessary processes and procedures to assess inspection effectiveness;
• Identify major risks posed by foreign pests and diseases at ports of entry; and
• Ensure that staffing levels at ports are sufficient to meet risks.
Fiscal Year 2010 Accomplishments
• Held quarterly meetings to review data quality and performance measures; and
• Completed reviews at six ports in Texas, New Jersey, Arizona, Illinois, Florida, and Freeport/Nassau Bahamas.
Planned Actions for Fiscal Year 2011
• Use the current staffing model that does a good job of predicting USDA’s need for addressing agricultural risk at ports. APHIS will coordinate its
    staffing model with CBP to ensure it meets CBP staffing requirements; and
• Participate in a Trend Analysis Working Group that will analyze and predict the highest risk areas in cargo pathways.
Avian Influenza Surveillance Activities. (APHIS)
• Develop a Memorandum of Understanding with the U.S. Department of Health and Human Services that describes coordination efforts in the event
    of a Presidential emergency; and
• Consult with other Federal agencies and the poultry industry to identify the capability needed to respond to a probable scenario for a highly
    pathogenic avian influenza (HPAI) outbreak.
Fiscal Year 2010 Accomplishments
• Addressed quarantine and movement control issues for non-infected egg production in the event of a HPAI outbreak;
• Established a cooperative agreement with Texas A&M University to develop a preparedness and response emergency management dashboard
    system; and
• Established a cooperative agreement with the California Department of Food and Agriculture for further developing the California Animal Health
    Emergency System, to provide an information system of critical tasks and activities for responders in an outbreak.
Planned Actions for Fiscal Year 2011
• USDA (APHIS) and the U.S. Department of Homeland Security (DHS) will conduct a test response to a declared emergency requiring support from
    DHS’ Federal Emergency Management Agency;
• Formalize an agreement with DHS that clarifies and defines each department’s roles and responsibilities in the event of a USDA declared
    emergency, Presidential declared emergency, or major disaster; and
• Continue to work with DHS to identify the best interagency mechanism to formalize relationship within the context of the National Response
    Framework.
Importation and Movement of Live Animals. (APHIS)
• Provide procedures and implementation date for entering and analyzing instances of problems through its live animal tracking information system;
• Develop an automated system to track problems with imported animals;
• Provide procedures describing coordination efforts with CBP officials at the northern border to ensure that all animal shipments are properly
    inspected;
• Provide procedures for monitoring and reconciling imported cattle, the disease risk analysis for restricted imported swine, and the import protocol
    for cattle imported from Mexico;
• Provide procedures for analyzing rejected animals at the Mexican border; and
• Provide instructions regarding the inventory of USDA seals, and a summary of seal inventory conducted in 2009.
Fiscal Year 2010 Accomplishments
• Revised and implemented Veterinary Services Memorandum No. 592.122, “Inventory, Use and Control of Animal and Plant Health Inspection
    Service Seals by Veterinary Services Personnel”; and
• Completed deployment of the Veterinary Services Process Streamlining – Animal Import IT application (VSPS-AI) and made available to all US
    ports-of-entry where USDA live animal inspection services are provided.
Planned Actions for Fiscal Year 2011
• Develop procedures for entering and analyzing instances of non-compliance and the actual date of the Live Animal Imports Module (LAIM) is fully
    implemented at all ports-of-entry;
• Develop a Standard Operating Procedure that describes how USDA and CBP will coordinate efforts at the northern border of ports of entry;
• Develop a procedure for monitoring and reconciling imported cattle, and a copy of the disease risk analysis performed on restricted imported swine;
    and
• Develop procedures for entering and analyzing rejections at the border of Mexico and the actual date of LAIM system is fully implemented at all
    ports of entry on the U.S. border with Mexico.




                                                 Other Accompanying Information
                                                              182
5) Material Weaknesses Continue to Persist in Civil Rights Control Structure and Environment. (Office of the Assistant Secretary for Civil Rights)
• Develop a plan to process employment complaints timely and effectively in collaboration with USDA agencies; and
• Implement a monitoring framework to track the processing of complaints so that the agency can intervene when timeframes are not being met.
Fiscal Year 2010 Accomplishments
• Revised Standard Operating Procedures to incorporate monitoring and measures to intervene when timeframes are not being met;
• Established timeframes for the intake process so it not will exceed the deadline for completion of the formal complaint process; and
• Implemented controls to ensure timely processing of the Final Agency Decision (FAD) report. The Director, Office of Adjudication is provided with a
    weekly FAD report for a second level of review and monitoring.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Help American Producers To Meet the Global Trade Challenge. (FAS and APHIS)
• Continue to strengthen genetically engineered organism field testing controls to prevent inadvertent genetic mixing with agricultural crops for export.
Fiscal Year 2010 Accomplishments
• Obtained certification and accreditation on the Biotechnology Integrated Database System and written certification that the ePermits tracking
    system is fully deployed;
• Developed a revised regulation on the required field data reports and notices for all permits and notifications;
• Implemented procedures for processing missing/late progress report;
• Developed procedures for the Civil Penalty Action Team; and
• Established guidance for establishing and implementing timeframes for devitalization of genetically engineered crops.
Planned Actions for Fiscal Year 2011
• Develop guidance to better manage Genetically Engineered (GE) Organism Field Releases; and
• Revise regulations on the location of planted GE field test sites.
• Develop a global market strategy.
Fiscal Year 2010 Accomplishments
• Developed a Global Market Strategy in coordination with the USDA Intra-Departmental Coordination Committee on International Affairs and
    consultation with Congress; and
• Initiated periodic representational events with agricultural contacts.
Planned Actions for Fiscal Year 2011
• Continue to implement the Global Market Strategy and refine as needed; and
• Continue to initiate periodic representational events with agricultural contacts.

7) Better Forest Service Management and Community Action Needed to Improve the Health of the National Forests and Reduce the Cost of Fighting
Fires.
• Work with other land management agencies and State and local governments to conduct hazardous fuels reduction projects in those areas where
    they will have the greatest impact on reducing risk ;
• Work with Congress and other land management agencies to find ways to convince State and local governments to enact and enforce fire-wise
    building and zoning codes in areas threatened by wildland fire ;
• Improve its internal controls over wildland fire expenditures and the delivery of systems to help managers improve cost-containment decisions ; and
• Ensure human and physical resources to effectively address the changing environment of forest health and the expanding wildland urban interface
    (WUI).
Fiscal Year 2010 Accomplishments
• Allocated resources to address the changing environment of forest health and the expanding WUI;
• Continued to conduct large fire cost review and implement corrective actions, as applicable;
• Partnered with states and counties to develop and deliver fire prevention ordinances to use in planning and zoning in WUI areas;
• Participated in meetings held by the National Association of State Foresters; and
• Fully implemented the Wildland Fire Decision Support System that assists fire managers and analyst in making strategic and tactical decisions and
    introduces economic principals into the fire decision process.
Planned Actions for Fiscal Year 2011
• Issue guidance for monitoring the effectiveness of hazardous fuel treatments and restoration projects ;
• Continue to develop tools for the Regions to use in assessing and managing wildfire risk ;
• Continue to work with State, local and tribal governments and other land management agencies to encourage the use of community programs,
    such as Firewise and Ready ! Set ! Go !, to better protect people and communities threatened by wildland fire ;
• Work with other land management agencies and State and local governments to conduct hazardous fuels reduction projects in areas with the
    greatest impact of reducing risk ;
• Direct human and physical resources to address the changing environment of forest health and the expanding WUI ; and
• Develop and implement the Cohesive Wildland Fire Management Strategy.


                                                  Other Accompanying Information
                                                               183
8) Improved Controls Needed for Food Safety Inspection Systems.
• Complete corrective actions on prior recommendations.
Fiscal Year 2010 Accomplishments
• Responded to ongoing audits and completed final actions needed to reduce the backlog of outstanding “open” recommendations. FSIS closed 29
    recommendations increasing the percentage of recommendations issued since 2000 that are closed to 87 percent.
• Continued achievement of management decision to meet OIG deadlines ; and
• Issued reports to FSIS programs on open audit recommendations which has resulted in more coordinated and efficient reports to complete the final
    actions needed for recommendation closure.
Planned Actions for Fiscal Year 2011
• Continue to reduce the backlog of outstanding “open” recommendations, and use the audit recommendation tracking system to keep management
    apprised of “open” recommendations.
• Develop a time-phased plan to complete assessments of the food safety system control plans developed by USDA-inspected facilities and
    assessments of those facilities’ production processes, including a review program that includes periodic reassessment.
Fiscal Year 2010 Accomplishments
• Performed Food Safety Assessments (FSAs) at establishments responsible for the annual production of approximately 95% of meat and poultry
    products ;
• Conducted a performance and functional testing of the Public Health Inspection System (PHIS) to ensure the system operates as intended ; and
• Issued a technical report outlining the FSA prioritization criteria and an FSIS Directive on FSA scheduling and prioritization.
Planned Actions for Fiscal Year 2011
• Implement and complete user acceptance testing of PHIS ; and
• Test and implement the electronic FSA system in PHIS, which will include date “flags” to be used in scheduling FSAs.
• Improve the accuracy of data available in the systems.
Fiscal Year 2010 Accomplishments
• Completed development of PHIS features, to better ensure the accuracy of compliance and other data ; and
• Completed an analysis of humane handling noncompliance rates at dairy cow establishments compared to establishments that slaughter other
    adult cattle to determine whether more frequent humane handling reviews are needed.
Planned Actions for Fiscal Year 2011
• Complete performance and functional testing of PHIS during user acceptance testing;
• Implement PHIS training for in-plant inspection personnel nationwide;
• Continue programs to improve data quality, analysis and distribution;
• Develop Directives, Notices, and related training that emphasizes the development of data-driven inspection; and
• Improve access to AssuranceNet to help Districts meet in-Plant Performance System review requirements.
• Continue to develop and implement a strategy for hiring and training inspectors.
Fiscal Year 2010 Accomplishments
• Continued to hire Consumer Safety Inspectors and Food Inspectors with various incentives including bonuses, superior qualification appointments,
    and paying travel and transportation expenses;
• Conducted surveys to verify that inspectors are performing assigned duties;
• Utilized a structured on-the-job training program for Food Inspectors to reinforce concepts covered in classroom training; and
• Reviewed training reports to ensure appropriate personnel receive needed training.
Planned Actions for Fiscal Year 2011
• Complete an evaluation of the new circuit maintenance guidelines;
• Establish procedures and policies to ensure newly hired mission critical personnel receive training within 1 year of starting their position and that
    they recertify this training annually;
• Continue to offer volunteer training opportunities to veterinary students, and paid veterinary student programs to increase awareness and generate
    interest in veterinarian work at FSIS;
• Continue to train field veterinarians in Enforcement and Investigations Analysis Officer (EIAO) methodologies to conduct expanded critical public
    health assurance duties;
• Continue to offer a 9-week public health focused veterinary educational program for all new veterinary hires; and
• Continue to offer veterinarians opportunities for advancement as they follow diverse career pathways within FSIS.




                                                  Other Accompanying Information
                                                               184
9) Implementation of Renewable Energy Programs at USDA (Department-wide)
• Develop and implement a viable and comprehensive renewable energy strategy for USDA agencies and programs.
Fiscal Year 2010 Accomplishments
• The Energy Council Coordinating Committee (ECCC) drafted a mission and vision statement along with objectives for a proposed USDA
    Comprehensive Renewable Energy Strategic Plan (Plan);
• Prepared a Decision Memorandum to the Secretary on the development and deployment of the Renewable Energy Strategic Plan; and
• Vetted awards through the ECCC to avoid duplication of funding. USDA programs are currently being evaluated to determine what data is being
    provided to document the “actual” outcome vs. the “projected “outcome of funded projects.
Planned Actions for Fiscal Year 2011
• Prepare the strategic plan with a goal of having it in place by end of first quarter of FY 2011;
• Continue to evaluate potential awardees listing to assure no duplication is occurring;
• Complete the analysis of existing data to assure “actual “outcomes are being tracked.
10) Implementation of the American Recovery and Reinvestment Act (ARRA) of 2009 (all agencies that receive Recovery Act Funds)
• Provide timely and effective oversight of USDA Recovery Act monies and activities.
    − Implement proper controls and oversight to ensure accountability;
    − Distribute funding to participants that meet eligibility guidelines;
    − Validate that participants properly comply with program requirements; and
    − Ensure the program performance measures and accomplishments are fully supported.
Fiscal Year 2010 Accomplishments
• Established the Transparency and Accountability Reporting Division in the Office of the Chief Financial Officer to support the Department with
    timely and effective ARRA reporting and guidance to ensure greater transparency in Recovery Act implementation and delivery;
• Published departmental guidance on recipient reporting and trained agencies on the new guidance;
• Continued weekly Department of Agriculture Recovery Team (DART) meetings to provide forum for agencies to identify best practices, share
    lessons learned, and resolve implementation issues;
• Continued monitoring program eligibility;
• Conducted training via webinars to prepare recipients for their reporting responsibilities;
• FNS used ARRA funding to provide about $10.8 billion in additional Supplemental Nutrition Assistance Program (SNAP) benefits – about $890
    million in additional benefits each month to help combat hunger and provide needed resources to communities. SNAP is now serving over 42
    million low-income Americans each month;
• RD created web-based Dashboard to provide real-time ARRA statistics to identify low-performing program areas;
• RD created an ARRA project reporting database to ensure timely reporting of a project’s progress;
• RD invested more than $120 million in ARRA projects benefitting tribes;
• Rural Business and Cooperative Service assisted rural small businesses with $1.5 billion in loan guarantees and grants;
• Rural Housing Service’s (RHS) Community Facilities obligated $1 billion for essential rural facilities related to health care, public safety, education,
    public services, transportation, and cultural projects;
• Rural Utilities Service’ (RUS) Broadband obligated $1.0 billion in projects to bring broadband service to rural areas;
• RUS’ Water Programs obligated $2.8 billion to extend new or improved water service to 1.57 million rural customers;
• RHS’ Single Family Homes Direct and Guaranteed Programs provided rural homeowners with more than $11.2 billion in financial assistance; and
• NRCS initiated Corrective Action Plans to resolve identified deficiencies in all states with Emergency Watershed Protection Program (EWPP)
    Floodplain Easements.
Planned Actions for Fiscal Year 2011
• Agencies will continue servicing loans and grants;
• Agencies and Department officials will continue monitoring recipient reporting to FederalReporting.gov;
• Agencies will continue to review all quarterly recipient reports and address any discrepancies;
• RD will track project performance and job verification;
• RD will participate in tribal conferences to provide additional guidance on recipient reporting;
• RD will extend terms and contract hires and temporary ARRA employees for one-year to assist in monitoring, auditing, generating special reports;
• FS will improve the ARRA contract and grant monitoring regarding payments by implementing corrective actions as recommended in the various FY
   2010 OIG Fast Reports; and
• NRCS will conduct follow-up state visits to determine the effectiveness of new controls that have been implemented to prevent re-occurrence of
   deficiencies noted in previous studies related to ARRA, EWPP–Floodplain Easements.




                                                   Other Accompanying Information
                                                                185
Appendix B — Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management and
Budget’s (OMB) Circular A-11, “Preparation, Submission, and Execution of the Budget”. Under the Improper
Payments Information Act (IPIA), executive agencies must identify any of its programs that may be susceptible to
significant improper payments, estimate the annual amount of improper payments and submit those estimates to
Congress. Certain agencies were required to conduct recovery auditing. Specifically, agencies entering into
contracts worth more than $500 million in a fiscal year (FY) must execute a cost effective program for identifying
errors made in paying contractors and for recovering amounts erroneously paid to the contractors. On August 10,
2006, government-wide guidance was consolidated into OMB Circular A-123, “Management's Responsibility for
Internal Control, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments.” Under this guidance, the U.S. Department of Agriculture (USDA) has 5 programs required to report
under Section 57 of OMB Circular A-11 and has identified an additional 11 programs at risk of significant
improper payments through the risk assessment process.
Under the Improper Payments Information Act of 2002 (IPIA), executive agencies must identify programs
susceptible to significant improper payments, estimate the annual amount of improper payments, and submit
those estimates to Congress.
Accomplishments this year include:
• Measuring programs at risk of significant improper payments;
• Developing corrective action plans to reduce improper payments and establishing both reduction and recovery
  targets (where appropriate) for the programs at risk of significant improper payments;
• Complying with reporting standards; and
• Completing risk assessments for all low risk programs.
USDA’s improper payment error rate of 5.37 percent for FY 2010 declined from 5.92 percent in FY 2009.
Despite the drop, a $21.5 billion increase (30 percent) in high risk program outlays from FY 2009 to FY 2010 put
USDA’s estimated improper payments at $5 billion for FY 2010. This figure compares to $4.3 billion in FY 2009.
The increase in outlays was largely attributable to the increase in demand for food and nutrition assistance due to
the economic downturn. The FY 2010 results demonstrate that improper payment error rates are being reduced
and progress is being made:
• Seven USDA high risk programs reported improper payment error rates below their FY 2009 error rate;
• Six USDA high risk programs, representing 61 percent of USDA’s total high risk program outlays, reported
   error rates below their reduction targets in FY 2009. This number exceeded USDA’s goal of achieving
   reduction targets for 50 percent or more of the Department’s total high risk program outlays;
• Forest Service’s (FS) Wildland Fire Suppression Management Program error rate of 0.00 percent was below its
   reduction target of 0.02 percent, and equal to its FY 2009 error rate;
• Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP) error rate of 4.36
   percent was below its reduction target of 5.00 percent, and below its FY 2009 error rate of 5.01 percent. The
   SNAP error rate is a historic low for the program. This is the 6th year in a row that the SNAP error rate has
   been less than 6 percent;
• FNS’ Child and Adult Care Food Program error rate of 0.99 percent was less than its reduction target of 1.46
   percent and the FY 2009 error rate of 2.07 percent;
• Rural Development’s (RD) Rental Assistance Program error rate of 1.39 percent was less than its reduction
   target of 2.00 percent and its FY 2009 error rate of 2.06 percent;
• Farm Service Agency’s (FSA) Market Assistance Loan Program error rate of 0.81 percent was less than its
   reduction target of 1.50 percent and its FY 2009 error rate of 2.56 percent;
• FSA’s Loan Deficiency Payments Program error rate of 0.44% was below its reduction target of 0.60%;



                                      Other Accompanying Information
                                                   186
• FNS’ National School Lunch Program (NSLP) error rate of 16.28% was below its FY 2009 error rate of
   16.44%; however, this was above its reduction target of 15.60%;
• FNS’ Women, Infants and Children Program error rate of 1.17% was below its FY 2009 error rate of 1.27%;
   however, this was above its reduction target of 0.80%; and
• FSA’s Noninsured Assistance Program error rate of 11.65% was below its FY 2009 error rate of 14.18%,
   however, this was above its reduction target of 9.22%.
The root causes of improper payments are summarized into the error categories of verification, authentication,
and administrative. Verification errors relate to verifying such recipient information as earnings, income, assets,
work status, etc. Authentication errors relate to authenticating the accuracy of qualifying for program specific
requirements, criteria or conditions. Administrative errors relate to the accuracy of the entry, classification, or
processing of information associated with applications, supporting documents, or payments.
For FY 2010, the root causes of USDA improper payments were categorized as:
• 49 % attributable to verification error; and
• 51 % attributable to administrative error.
USDA establishes improper payment recovery targets for high risk programs, where appropriate, and actively
collects recoveries.
Actions taken by USDA during FY 2010 include:
• Implemented Departmental High-Dollar Quarterly Report of improper payments identified in high-risk
  programs and actions taken by agencies to recover overpayments;
• Designated a Senate-confirmed appointee as the Accountable Official for meeting improper payment
  reduction targets and consolidating program integrity activities;
• Developed and provided additional error measurements with semi-annual reporting;
• Provided an Annual Accountable Official Report to the USDA Inspector General for the USDA high-priority
  programs (SNAP and NSLP);
• Provided Departmental improper payments information for the Government-wide PaymentAccuracy.gov
  website that includes key indicators and statistics by program;
• Completed risk assessments for 32 programs in FY 2010 as scheduled on a three year cycle. No new programs
  were declared high risk as a result of the risk assessments;
• Recovered $310 million in improper payments, exceeding the Departmental recovery target of $54 million;
• Analyzed requirements and impacts of S. 1508, Improper Payments Elimination and Recovery Act of 2010
  and provided comments to OMB;
• Participated in OMB workgroups established under Executive Order (EO) 13520 “Reducing Improper
  Payments” providing research and recommendations to OMB on actions to aid Federal agencies in reducing
  improper payments; and
• Led the Executive Order (EO) 13520, “Reducing Improper Payments,” Forensic Accounting and Auditing
  Workgroup. The workgroup submitted recommendations to OMB for utilizing forensic accounting and
  auditing techniques to prevent improper payments.
USDA’s goal is to continue to achieve error reduction and recovery targets established for FY 2011. In addition to
meeting the requirements of IPIA, the Department is developing plans to implement the new requirements from
EO 13520, the Presidential Memorandum “Enhancing Payment Accuracy Through a Do Not Pay List,” the
Presidential Memorandum “Finding and Recapturing Improper Payments,” and the Improper Payments
Elimination and Recovery Act (IPERA) of 2010.




                                       Other Accompanying Information
                                                    187
USDA’s actions planned for FY 2011 include:
• Develop a Departmental action plan outlining the requirements and actions necessary to implement IPERA,
  EO 13520 “Reducing Improper Payments”, and the other new Government-wide requirements to reduce,
  eliminate and recovery improper payments;
• Develop and implement policies, controls, procedures and checklists at appropriate levels to reduce improper
  payments;
• Create aggressive correction plans that target the verification and administrative root causes of errors and
  address internal control issues for each program;
• Provide training to field personnel and cooperative partners that address specific issues found in internal
  controls, control procedures and the potential risks of noncompliance;
• Sustain accountability at all levels by incorporating the employee’s individual results into their annual
  performance evaluations;
• Provide grants and technical assistance to State agencies aimed at simplifying the application and eligibility
  determination systems of SNAP;
• Provide Departmental criteria for statutory, technical and other functionality of the Government-wide “Do
  Not Pay List” Web site being developed to allow agencies to verify eligibility against multiple databases before
  grants, contract, benefit award and/or payments are issued;
• Issue a Departmental payment recapture/recovery auditing contract available for all Departmental programs to
  address IPERA requirements for identifying and recovering overpayments; and
• Participate in interagency workgroups to assist OMB in developing Government-wide guidance for
   implementing IPERA, EO 13521, and other initiatives to reduce improper payments and recover
   overpayments.
OMB provided a reporting template for IPIA in OMB Circular A-136, “Financial Reporting Requirements.”
The template requires responses to specific issues. USDA’s response to these issues follows.


          I. Describe your agency’s risk assessments, performed subsequent to compiling your full program
             inventory. List the risk-susceptible programs identified through your risk assessments.


The Office of the Chief Financial Officer (OCFO) issued detailed guidance for the risk assessment process,
including templates. OCFO also reviewed drafts. Programs with larger outlays were required to perform more
detailed assessments than smaller programs. For USDA’s largest programs, the risk assessment process required
the following:
• Amount of improper payments needed to meet the reporting standards;
• Description of the program, including purpose and basic eligibility requirements;
• Definition of improper payments specific to the program;
• Program vulnerabilities linked to improper payments;
• Internal controls designed to offset the program vulnerabilities;
• Internal controls testing for selected programs;
• Listing of significant reviews and audits;
• Final determination of risk level;
• Planned future enhancements (optional); and
• Description of how improper payments are recovered (optional).



                                        Other Accompanying Information
                                                     188
USDA has identified the following 16 programs as susceptible to significant improper payments.

    Selection Methodology                           Agency                                                Program
 Section 57 of OMB Circular A-     Farm Service Agency (FSA), Commodity       Marketing Assistance Loan Program (MAL)
 11                                Credit Corporation (CCC)
                                   Food and Nutrition Service (FNS)           Supplemental Nutrition Assistance Program (SNAP)
                                                                              National School Lunch Program (NSLP)
                                                                              School Breakfast Programs (SBP)
                                                                              Special Supplemental Nutrition Program for Woman, Infants and
                                                                              Children (WIC)
 USDA Identified as                FSA, CCC                                   Milk Income Loss Contract (MILC) Program
 Susceptible to Significant                                                   Loan Deficiency Payments (LDP)
 Improper Payments
                                                                              Direct and Counter-Cyclical Payments (LCP)
                                                                              Conservation Reserve Program (CRP)
                                                                              Miscellaneous Disaster Programs (MDP)
                                                                              Noninsured Assistance Program (NAP)
                                   Food Nutrition Service (FNS)               Child and Adult Care Food Program (CACFP)
                                   Forest Service (FS)                        Wildland Fire Suppression Management (WFSM)
                                   Rural Development (RD)                     Rental Assistance Program (RAP)
                                   Risk Management Agency (RMA)               Federal Crop Insurance Corporation (FCIC) Program Fund
                                   Natural Resources Conservation Service     Farm Security and Rural Investment Act Programs (FSRIP)
                                   (NRCS)




                II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
                    program identified.


       Agency               Program                                                    Sampling Process
 FNS                Supplemental Nutrition      Statistical Sampling
                    Assistance Program          Each month, States select a statistically random sample of cases from a universe of all households
                    (SNAP)                      receiving SNAP benefits for that given month. Most States draw the samples using a constant
                                                sampling interval. There are some States which employ simple random and/or stratified sampling
                                                techniques. Required annual sample sizes range from 300 for State agencies with small SNAP
                                                populations to more than 1,000 for larger States. The average is approximately 950 per State.
                                                States are required to complete at least 98 percent of selected cases deemed to be part of the
                                                desired SNAP universe. Federal sub-samples are selected systematically by FNS from each State’s
                                                completed reviews. These sample sizes range from 150 to 400 per State.
                                                Error Rate Calculation
                                                The National payment error rate is calculated using a multi-step process:
                                                • Each State agency conducts quality control (QC) reviews of the monthly sample of cases. The
                                                   QC review measures the accuracy of eligibility and benefit determinations for each sampled
                                                   case against SNAP standards. State agencies are required to report to FNS the findings for
                                                   each case selected for review.
                                                • FNS then sub-samples completed State QC reviews and re-reviews selected individual case
                                                   findings for accuracy. Based on this sub-sample, FNS determines each State agency’s official
                                                   error rate using a regression formula.
                                                • The national payment error rate then is computed by averaging the error rate of the active cases
                                                   for each State weighted by the amount of issuance in the State.




                                               Other Accompanying Information
                                                            189
      Agency            Program                                                       Sampling Process
FNS            National School Lunch      • USDA conducts studies approximately every 5 years to assess the level of error in program
               Program (NSLP)               payments because detailed information on the circumstances of the NSLP and SBP participating
                                            households are not collected administratively. The November 2007 – NSLP/SBP Access,
                                            Participation, Eligibility and Certification (APEC) Study – makes use of a national probability
                                            sample of school food authorities (SFAs), schools, certified students and their households, and
                                            households that applied and were denied for program benefits in School Year 2005-06.
                                          • A stratified random sample of 78 unique public SFAs was selected in the first stage of sampling.
                                            Stratification variables included geographic region, prevalence of schools having a SBP and
                                            those using Provision 2/3, and a poverty indicator. For SFAs that do not have Provision 2/3
                                            schools, three schools, on average, were selected for inclusion in studying the second stage of
                                            sampling. Schools were stratified into two groups: 1) elementary schools and 2) middle and high
                                            schools. The school sample included both public and private schools. A total of 264 schools
                                            participated in the study (216 non-Provision 2/3 schools, 24 Provision 2/3 schools in their base
                                            year, and 24 Provision 2/3 schools not in their base year). For the third stage of sampling,
                                            samples of households were selected in 240 of these schools to yield completed interviews for
                                            about 3,000 students certified for free and reduced-price meals, and 400 denied applicant
                                            households.
                                          • The sample of approved and denied applicant households was augmented by sampling of
                                            applications from Provision 2/3 schools in which household surveys were not conducted.
                                            Application reviews of about 6,800 students approved for free and reduced-price meals and
                                            more than 1,000 denied applicants were conducted to estimate the case error rate due to
                                            administrative error.
                                          • Data on counting and claiming errors were collected in all schools selected for application
                                            reviews. On randomly selected school days, field staff observed approximately 100 lunch
                                            transactions at each of the 245 schools participating in NSLP, as well as 50 breakfast
                                            transactions at each of the 218 schools participating in SBP. Cashier error was estimated using
                                            information from these meal transactions. Data on school-recorded daily meal totals across all
                                            points of sale, aggregated meal counts reported to the district, and total meals submitted to the
                                            State agency for reimbursement were examined to determine claiming errors.
                                          • To update the erroneous payment rate estimates in NSLP without having to conduct another full
                                            round of primary data collection, a series of econometric models were developed that captured
                                            the relationship between characteristics of the districts that participated in the APEC study, and
                                            their estimated rates of certification error. Estimated coefficients from these models were used in
                                            conjunction with updated values of district characteristics obtained from the School Food
                                            Authorities Verification Summary Reports to predict certification error. Certification error rates
                                            were then translated into amounts and rates of erroneous payments in each district. Aggregating
                                            the district level estimates produced a national measure of predicted erroneous payments.
FNS            School Breakfast Program   The statistical sampling process for this program is similar to NSLP. See the NSLP description.
               (SBP)
FNS            Special Supplemental       FNS plans to continue periodic examinations of WIC vendor and certification error.
               Nutrition Program for      • Vendor Error — The 2005 vendor error study employed a nationally representative probability
               Women, Infants and           sample of WIC vendors. A two-stage clustered design was developed to facilitate over-sampling
               Children (WIC)               of WIC-only stores. Current lists of authorized WIC vendors were collected from the 45 States
                                            plus the District of Columbia that use retail vendors from delivery of benefits. These lists were
                                            used to establish the retail vendors for delivery of benefits and the national sample frame of
                                            vendors active during the study period. Geographic Information System software was used to
                                            form 365 primary sampling units (PSU) in contiguous counties. Most PSUs had at least 80
                                            vendors. The study selected 100 PSUs using probability non-replacement sampling with
                                            probabilities proportional to the size of the PSU. About 16 vendors and 4 reserve vendors were
                                            selected from each of the 100 PSUs. The final sample size (unweighted) was 1,768 vendors.
                                            The study compared the purchase price paid by the compliance buyer with i) observed shelf
                                            prices, and ii) the purchase amount the vendor reported to the State to yield estimates of
                                            overcharge and undercharge.




                                          Other Accompanying Information
                                                       190
      Agency           Program                                                      Sampling Process
                                           • Certification Error — The 1998 WIC Income Verification Study was designed to provide
                                               information on the characteristics of a nationally representative sample of WIC participants in the
                                               contiguous United States, certified for the program that spring. The sample was based on a
                                               multi-stage sample design, with 50 geographic PSUs selected at the first stage, 79 local WIC
                                               agencies selected at the second stage, and 178 WIC service sites selected at the third stage.
                                               WIC participants were randomly sampled for the study at the 178 WIC service sites as they
                                               appeared for WIC certification. In-person interviews were completed with 3,114 WIC participants
                                               at the 178 WIC service sites. The estimate of improper payments comes from a follow-up in-
                                               home survey conducted with approximately one out of every three persons selected for the in-
                                               person interviews. The in-home survey was designed to verify income information through
                                               review of household income documents. In-home interviews were completed with 931
                                               respondents.
FNS            Child and Adult Care Food   The national estimate of erroneous payments for the sponsor error component is based on a
               Program (CACFP)             nationally representative sample of sponsor files for 660 Family Day Care Homes (FDCH) in 60
                                           distinct sponsors in 14 States. The tiering status of FDCHs was first verified by determining their
                                           school area eligibility (at least 50 percent of students were approved for free/reduced-price meals
                                           and Census Block Group area eligibility (at least 50 percent of children at or less than 185 percent
                                           of the Federal P=overty Guidelines)) for Tier I and Tier II status. A sponsor of an FDCH not verified
                                           through area eligibility was contacted to secure additional documentation in support of the FDCH’s
                                           tiering status, such as income and categorical eligibility.
FSA/CCC        Marketing Assistance Loan   • A statistical sample of high risk programs is conducted by the FSA County Office Review
               Program (MAL)                   Program (CORP) under the direction of the Operations Review and Analysis Staff (ORAS).
                                           • Testing is conducted using statistically sound samples drawn from the total population of
                                               program payments made from September 2008 through August 2009. A professional statistician,
                                               under contract to FSA, is used to design the sampling approach, define the sample size, and
                                               identify the sample items. Sample size is chosen to achieve a 90 percent two-sided confidence
                                               level.
                                           • Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                               sampling approach is used. County offices (COFs) making payments for the target program are
                                               selected in the first stage and individual payments made or contracts reviewed by COFs are
                                               selected in the second stage.
                                           • That sample list of individual contracts or payments is provided to the members of the CORP
                                               staff covering the respective States. The CORP staff visits each of the COFs shown on the list
                                               and reviews the individual contracts or payments identified in the statistically sound sample. The
                                               CORP reviewers use a list of program division provided criteria that are drawn from legal and
                                               program administrative guidance. Findings of non-adherence to the criteria related to the
                                               individual contracts or payments in the sample will identify potential improper payments made.
                                               The results of that review are summarized and submitted to the CORP national office staff to be
                                               analyzed by the contractor statistician. That contractor determines the rate of improper
                                               payments based on the data provided by the CORP staff that visited the COFs and completed
                                               the actual review of documents.
FSA            Milk Income Loss Contract   See the process described in the MAL discussion. The same process was used for this program.
               Program (MILC)
FSA            Loan Deficiency Payments    See the process described in the MAL discussion. The same process was used for this program.
               (LDP)
FSA            Direct and Counter-         See the process described in the MAL discussion. The same process was used for this program.
               Cyclical Payments (DCP)
FSA            Conservation Reserve        See the process described in the MAL discussion. The same process was used for this program.
               Program (CRP)
FSA            Miscellaneous Disaster      See the process described in the MAL discussion. The same process was used for this program.
               Programs (MDP)
FSA            Noninsured Assistance       See the process described in the MAL discussion. The same process was used for this program.
               Program (NAP)




                                           Other Accompanying Information
                                                        191
     Agency           Program                                                     Sampling Process
FS            Wildland Fire Suppression   WFSM employs monetary unit sampling. Transactions coded to the Wildland Fire Suppression
              Management (WFSM)           Fund are systematically analyzed and reviewed.
                                          Two samples were selected by systematic random sampling with probability proportional to size
                                          (dollar amount). Sample size determination was based on total transaction amounts through
                                          6/30/2009 for sample one. The second sample size determination was based on total transaction
                                          amounts from 7/01/2009 through 9/30/2009. Due to the seasonality of the final amounts, the first
                                          nine months were sampled as a higher dollar rate (conservative rate) than the last three months.
                                          The final three months were sampled at the dollar rate for the entire balance.
                                          To ensure the validity of the sample design, sample sizes, and measurement methodology, a
                                          professional statistician from the University of New Mexico was consulted. The sample was
                                          selected using a 90 percent confidence level, with a precision range of 2.5 percent. Software used
                                          for sample selection was SAS 9.2 for Windows.
RD            Rental Assistance           RD reviewed the sampling plan developed by the U.S. Department of Housing and Urban
              Program (RAP)               Development for its studies. RD statisticians prepared a similar plan for this report. This report is
                                          based on a review of tenants receiving rental assistance (RA) during FY 2008. The sampling plan
                                          consisted of 666 RA payments from a universe of 3,411,380, or .02 percent. The methodology
                                          produced a sample with a 99-percent confidence level. This year, the audit unit from the Centralized
                                          Servicing Center (CSC) conducted the study rather than the RD field staff that were used in
                                          previous years. The study required CSC to evaluate tenant files and income calculations.
                                          The only parameter used to determine the eligible universe was the RA payment. No other data
                                          element, such as location, size of property, number of units, and availability of other rental
                                          assistance (such as Section 8) was a consideration. The statisticians were provided a data extract
                                          from the Multi-Family Housing Information System. The extract contained a list of all tenants
                                          receiving RA during FY 2008. The data included month of payment, project name, project identifier
                                          (case number/project number) and tenant name and unit number. From the data extract, the
                                          statisticians selected the sample by a systematic sample technique.
                                          Once the sample was identified, a letter was sent to the borrower/management agents that
                                          explained the process, provided the list of tenant payments to be reviewed, and provided a list of
                                          documents that needed to be provided to the Centralized Servicing Center (CSC) for review. The
                                          data received from the borrower/management agent were used to compare agency records. The
                                          study required CSC to complete the survey for the selected tenant payments. There was to be no
                                          substitution of the selected payment and, if the management agent was unable to submit the file,
                                          the payment would be considered improper.
RMA           Federal Crop Insurance      RMA completed the random 2006, 2007, and 2008 crop year indemnities to review during 2007,
              Corporation Program Fund    2008, and 2009. For FY 2010 reporting, RMA sampled and reviewed the 2008 crop year, using
              (FCIC)                      those results to replace the 2006 crop year results. This process allowed RMA to maintain a running
                                          average error rate for the three most recent crop years. RMA will repeat this process for 3 years to
                                          compile random indemnity reviews, and build a database that will identify the RMA program-error
                                          rate and identify any discernable trends. Samples are drawn by the compliance staff. The staff
                                          oversees the compliance review database and data quality control. Limited resources make it
                                          impractical to conduct a statistically valid program review each year. Despite these limits, in
                                          combination with the National Operations Reviews conducted by RMA compliance personnel, these
                                          random reviews of paid indemnities should provide the program with sufficient data to establish an
                                          acceptable error rate for the purposes of the IPIA.
NRCS          Farm Security and Rural     NRCS determined the universe size of payments for all the programs by using all transactions for
              Investment Act programs     FY 2009 entered into the accounting system against general ledger account 4902 and Treasury
              (FSRIP)                     Symbols 12_1004. Transaction codes were identified and extracted which represented payments
                                          against the individual program fund codes to create a universe of payments for each individual
                                          program.
                                          Based upon last year’s results and conversations with the individual Program Managers, NRCS
                                          projected the anticipated rate of occurrence. This occurrence would be the error rate from the
                                          previous years’ sampling, factoring in any substantial changes made which mitigates improper
                                          payment risk found in prior IPIA efforts, external, and internal audits or reviews.
                                          NRCS estimated the precision range, i.e., the upper and lower bounds around the estimated rate of
                                          occurrence as 5.00 percent (+/- 2.50 percent) based upon conversations with the program
                                          managers. While OMB guidance recommended a 90- percent confidence level, NRCS used a more
                                          rigorous confidence level of 95 percent for the sample since accounting and financial applications




                                          Other Accompanying Information
                                                       192
   Agency            Program                                                      Sampling Process
                                         typically use that confidence level. Based upon the four variables above (universe size, anticipated
                                         occurrence rate, precision range, and confidence level), the agency calculated the necessary
                                         sample size.
                                         Using a random number generator, NRCS selected payments for the sample. For program
                                         payments made through ProTracts system, payment amounts were aggregated by payment
                                         document number. ProTracts produced a payment transaction for each component of a payment
                                         request. This resulted in testing of the entire payment instead of a portion and simplifies the
                                         research required.
                                         A complete copy of the contract file was requested from the field office. The field office was required
                                         to verify highly erodible land/wetland conservation compliance, and obtain adjusted gross income
                                         compliance documentation from the participant. Headquarters financial management (FMD)
                                         personnel audited the contract information against the program’s business process using a
                                         standard template developed for each individual program. The template ensured consistency in the
                                         reviews, and incorporated tests for known causes of improper payments, issues identified by the
                                         program managers and internal controls implemented because of prior internal and external audits
                                         and reviews.




            III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include
                 in this discussion what is seen as the cause of errors and the corresponding steps necessary to
                 prevent future occurrences. If efforts are already underway, and/or have been ongoing for some
                 length of time, it is appropriate to include that information in this section.



   Agency            Program                                                 Corrective Actions Planned
FSA/CCC        Marketing Assistance   MAL improper payments were primarily attributable to administrative errors.
               Loan program (MAL)     Causes of improper payments include:
                                      •     An acceptable acreage report was not obtained;
                                      •     All required signatures were not obtained on the storage note and security agreement before
                                            disbursement; and
                                      •      Loan quantity amount was not supported by acceptable documentation.
                                      Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                                      a. Broad Scope Actions Taken:
                                      • FSA has committed to reducing improper payments and program weaknesses that contribute to
                                         improper payments;
                                      • FSA has taken actions to correct its deficiencies in many areas, and has incorporated the priority of
                                         reducing improper payments into its strategic planning documents; and
                                      • Compliance reviews and spot-checks are required to ensure the accuracy of payments and integrity
                                         of FSA programs. Annually, based on a statistical sampling method, producers nationwide are
                                         selected for compliance review and spot-check. COFs are required to complete spot-checks and
                                         reviews for the various programs and activities in which the selected producers participate for the
                                         year, and record the results of these reviews in the National Compliance Review database. This
                                         reporting mechanism allows the National office to monitor the overall integrity of each program
                                         being implemented.
                                      b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                      • Trained field personnel on improper payments and educated them on the importance of control
                                         procedures as well as the potential risks of noncompliance. Training was delivered through various
                                         means including in person and via USDA’s training tool, AgLearn, and is being followed up with
                                         communications and job aid to help facilitate compliance controls;
                                      • Integrated the employee’s individual performance results related to reducing improper payments
                                         into his/her annual performance rating;



                                        Other Accompanying Information
                                                     193
      Agency         Program                                                Corrective Actions Planned
                                      • Utilized program specific checklists for COF employees to use before payment. County Executive
                                         Directors and District Directors review the completed checklists to help identify apparent internal
                                         control deficiencies and address additional training needs to reduce future errors;
                                      • Issued various National Notices and handbook amendments to State and county offices, providing
                                         them with instructions to properly disburse and process repayments related to MAL benefits;
                                      • Contacted State office (SO) managers where the majority of improper payments were identified,
                                         according to the statistical sample, to determine possible training and/or job aids the SO and COF
                                         staff may need to assist in facilitating compliance to controls;
                                      • Issued a notice for each program for the FY 2008 National CORP review of improper payments
                                         providing detailed findings discovered during the FY 2008 statistical sample, including established
                                         policy and procedure references for each finding;
                                      • Issued various national notices to SOs and COFs re-enforcing current program policies and
                                         procedures; and
                                      • Conducted a 2008 National Farm Bill training conference that included a specific presentation
                                         pertained to necessary internal control procedures and action expected upon the issuance of
                                         national CORP review notices pertaining to improper payments. PowerPoint presentations of each
                                         of the respective training sessions were posted to the FSA Intranet for immediate reference for SOs
                                         and COFs to use in conducting subsequent training sessions for all the applicable FSA employees
                                         within a respective state.
                                      c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                                      • Provide a notice to SOs and COFs providing the detailed findings discovered during the FY 2010
                                         program specific statistical sample including established policy and procedure references for each
                                         finding;
                                      • Reinforce current program policies regarding program compliance through the issuance of National
                                         notices and handbook amendments to SOs and COFs personnel;
                                      • Improve the quality of field guidance by implementing a process whereby program directives are
                                         vetted by at least six field office employees before directives are approved and issued Nation-wide;
                                      • Review existing policy and procedures to determine program compliance inefficiencies and
                                         eliminate inadequate program compliance controls; and
                                      • Contact State office managers where the majority of improper payments were identified during the
                                         2010 IPIA reviews to facilitate necessary corrective actions in regard to training or clarifications
                                         regarding procedures and policies.
FNS            Supplemental           SNAP improper payments were primarily attributable to administrative and verification errors.
               Nutrition Assistance   Causes of improper payments include:
               Program (SNAP)         Improper payments occurred when a participating household is certified for too many or too few
                                      benefits compared to the level for which they are eligible. This can result from incomplete or inaccurate
                                      reporting of income and/or assets by participants at the time of certification. It also can occur from
                                      changes subsequent to certification or errors in determining eligibility or benefits by caseworkers.
                                      Eligibility worker delays in action or inaction taken on client reported changes also can cause of
                                      improper payments.
                                      An analysis of the FY 2009 completed statistical sample revealed that approximately 65.71 percent of
                                      all variances occurred before or at the most recent certification/recertification. Additionally, 69.40
                                      percent of the errors were State agency caused. About half of the errors (54.60 percent) were income
                                      related and caused by client misreporting or the agency misapplying the reported income. Misreporting
                                      or misapplying deductions was the second largest source of errors at 27.75 percent.
                                      Steps that are (or will be) taken to address specific findings in the last statistical sample
                                      Program regulations require State agencies to analyze data to develop corrective action plans to
                                      reduce or eliminate program deficiencies. A State with a high error rate must develop a quality control
                                      (QC) corrective action plan to address deficiencies revealed through an analysis of its own QC data. A
                                      State with an excessive error rate will be required to invest a specified amount (depending on its error
                                      rate and size) designated specifically to correct and lower its error rate. The State also will face further
                                      fiscal penalties if it fails to lower its error rate in a future fiscal year.




                                        Other Accompanying Information
                                                     194
      Agency         Program                                           Corrective Actions Planned
                                 Steps that are (or will be) taken to improve the overall control environment and improper
                                 payments
                                 FNS, through its regional offices, works directly with States to impart the importance of payment
                                 accuracy and correct payments to State leadership. The agency also helps those leaders develop
                                 effective corrective action strategies to reduce payment errors. Regional offices provide many forms of
                                 technical assistance to States, such as:
                                 • Analyzing data;
                                 • Reviewing and monitoring corrective action plans;
                                 • Developing strategies for error reduction and corrective action;
                                 • Participating on boards and in work groups; and
                                 • Hosting, attending, and supporting payment accuracy conferences.
                                 FNS administers a State Exchange Program that provides funds to States to facilitate travel for
                                 obtaining, observing, and sharing information on best practices, and effective techniques for error
                                 reduction. Coalitions have been formed among States to promote partnerships, information exchange
                                 and collaborative efforts. These efforts address mutual concerns and support development of effective
                                 corrective action.
FNS            National School   NSLP improper payments were primarily attributable to verification and administrative errors.
               Lunch Program     Causes of improper payments include:
               (NSLP)             •     Benefit calculation error or duplicate payments;
                                  •     Lack of proper documentation or inadequate supporting documentation; and
                                  •     Fraud or misrepresentation by program participants or others.
                                 FNS has worked closely with OMB, Congress, the States, schools, and advocacy partners for two
                                 decades to gain a better understanding of erroneous payments, and develop and implement initiatives
                                 to address them.
                                 Strengthened the Certification Process through Legislative Program Reauthorization
                                 FNS worked with Congress to develop the Child Nutrition and WIC Reauthorization Act of 2004 (CNR)
                                 to enact program changes that address school meals certification problems. CNR strengthened the
                                 certification process by:
                                 • Requiring SNAP direct certification for free meals in all school districts, and continuing authority for
                                     optional direct certification using data from the Temporary Assistance for Needy Families and the
                                     Food Distribution Program on Indian Reservations;
                                 • Simplifying the certification process by requiring a single application for all eligible children in a
                                     household;
                                 • Requiring eligibility determinations to be in effect for the entire school year;
                                 • Modifying verification requirements, and adding authority for optional direct verification of children’s
                                     eligibility;
                                 • Requiring State agencies to conduct additional administrative reviews of school districts with higher
                                     rates of error;
                                 • Requiring increased efforts to obtain household response to application verification requests; and
                                 • Requiring districts with high rates of non-response to verification to target subsequent year
                                     verification activity toward error-prone applications.
                                 FNS continues to fully implement all the CNR provisions designed to improve program accountability.
                                 Improved State and Federal Oversight and Strengthen Program Integrity
                                 FNS conducted the following to improve oversight and technical assistance:
                                 • Required annual training for schools on certification and accountability issues;
                                 • Secured funding from Congress in 2004 for FNS technical assistance to help State and local
                                     partners reduce administrative errors and improve program integrity;
                                 • Provided ongoing guidance and training materials to State agencies to improve school monitorings;
                                 • Issued a revised eligibility manual, which contains information on determining students’ eligibility for
                                     free and reduced price meals under 7 Code of Federal Regulations Parts 210 and 220, the National
                                     School Lunch Program (NSLP), including after school snacks and commodity schools, and the
                                     School Breakfast Program (SBP);




                                   Other Accompanying Information
                                                195
      Agency         Program                                                Corrective Actions Planned
                                       • Trained more than 500 State and federal reviewers on the Coordinated Review Effort (CRE)
                                          process and forms to ensure that performance standards related to meal counting and claiming and
                                          serving reimbursable meals are met. Also, the CRE Guidance, is being updated to include current
                                          procedures to be utilized during CRE Reviews. State agencies are implementing the CRE
                                          procedures that were identified during the training sessions;
                                       • Pursuant to the CNR, FNS released applications for the fourth round of Direct
                                          Certification/Verification grant funding in FY 2009. These grants are available to State agencies to
                                          assist in implementing mandatory direct certification, direct verification, and other provisions of CNR
                                          related to determining eligibility to receive benefits in NSLP and SBP. Child Nutrition and SNAP
                                          State agencies are eligible to apply for funds. A series of grants were awarded in FY 2006-09. CNR
                                          provided $8.3 million for this purpose.
                                       • FNS annually releases a solicitation for funding to State agencies for Administrative Reviews and
                                          Training grants. This funding is available to perform administrative reviews and training of selected
                                          local educational agencies identified by the States as having demonstrated a high level of, or high
                                          risk for, administrative error in the NSLP. A total of $4 million was set aside in FY 2005 and for each
                                          fiscal year thereafter.
                                       Additional Action Planned
                                       Planned efforts include:
                                       • Implementing improvements in data reporting systems, and have launched an improved we-based
                                          system for States to report the results of verification activity. We anticipate that this reporting
                                          mechanism will improve the accuracy and timeliness of this data. In addition, we have been actively
                                          emphasizing to States the importance of using this and other data sources, such as the CRE Data
                                          Report to identify and target corrective action;
                                       • Continue the APEC study every five years, which would enable FNS to estimate and measure
                                          changes in erroneous payments over time, and help inform FNS, Congress, the States, and
                                          advocacy partners on the development of additional guidance, training, and policy options; and
                                       • Implement an improved web-based system for States to report the results of verification activity
                                          annually. This report will improve the accuracy and timeliness of reporting and provide States with a
                                          way to identify and target corrective actions.
FNS            School Breakfast        SBP improper payments were primarily attributable to authentication and administrative errors.
               Program (SBP)           The corrective actions planned for this program are similar to NSLP. See the NSLP description.
FNS            Special Supplemental    WIC improper payments were primarily attributable to verification errors.
               Nutrition Program for   Causes of improper payments include:
               Women, Infants and      • Vendor overcharges and undercharges; and
               Children (WIC)          • Program participants were income ineligible.
                                       Actions to Reduce Improper Payments
                                       Vendor Error:
                                          The Child Nutrition Act was amended in 1996 to require the disqualification of WIC vendors who
                                          had been disqualified by SNAP. It also was amended in 1998 to require permanent disqualification
                                          of vendors who had been convicted of trafficking and illegal sales. The WIC/FSP Vendor
                                          Disqualification Final Rule implemented these requirements and also mandated three-year
                                          disqualifications for overcharging and charging for food not received. The WIC Food Delivery Final
                                          Rule mandated nationwide standards for vendor authorization, training, and monitoring. FNS will
                                          annually estimate and report improper payments to vendors based on information on vendor
                                          investigations routinely conducted by the State WIC Agencies and reported to FNS.
                                       • Certification Error:
                                       FNS plans to continue periodic examinations of certification error in the WIC Program. The Child
                                       Nutrition Act was amended in 1998 to require income documentation for WIC Program applicants in all
                                       States. The Final WIC Policy Memorandum #99-4, “Strengthening Integrity in the WIC Certification
                                       Process,” the WIC Certification Integrity Interim Rule, and the WIC Certification Integrity Final Rule
                                       implemented this requirement. The WIC Food Delivery Final Rule mandated 1-year disqualifications for
                                       the most serious participant violations, including dual participation and misrepresentation of income.
                                       The WIC Miscellaneous Final Rule required State agencies to prevent such conflicts of interest as
                                       clinic staff certifying themselves, close friends, or relatives, and also required State agencies to
                                       maintain information on participant and employee fraud and abuse.




                                         Other Accompanying Information
                                                      196
      Agency         Program                                                Corrective Actions Planned
                                      FNS plans to provide the results fo the measurements of improper payments due to certification error
                                      for FY 2009 payments, with the initial improper payment amount and error rate available in March
                                      2011.
FNS            Child and Adult Care   CACFP improper payments were primarily attributable to verification errors.
               Food Program           Causes of improper payments include:
               (CACFP)                • Family Day Care Homes (FDCH) error in reporting the number of meals eligible for reimbursement;
                                         and
                                      • Sponsor error in determining a participating FDCH’s reimbursement tier.
                                      Actions to Reduce Improper Payments
                                      CACFP has three distinct parts: Child Care Centers, Adult Day Care Facilities, and Family Day Care
                                      Homes (FDCH). Overall program funding is provided to State agencies which provide funds to
                                      sponsoring organizations to pay for claims for reimbursable meals served at provider sites. Sites can
                                      be as large as an institution or as small as a household. Each part of CACFP has its own
                                      reimbursement structure.
                                      Payments and claim information are transferred among FNS, State agencies, program sponsors, and
                                      program sites. Each such transaction represents a risk for improper payment. Because requirements
                                      vary significantly for each different type of program sponsor and site, a full and rigorous assessment of
                                      the rate of improper payments is extremely complex.
                                      The original plan was to develop a program-wide study which would examine reimbursements for
                                      meals served and develop program error measurements that complied with the requirements of the
                                      IPIA. Because of the complexities of the program, FNS estimated that it would cost $20 million to
                                      measure improper payments at the precision required by IPIA. This amount has not been provided.
                                      In lieu of funding for a program-wide measurement, FNS has identified the FDCH component of this
                                      program as potentially high risk. FDCHs participate in CACFP through public or private nonprofit
                                      sponsoring organizations. FDCH improper payments are most likely caused by sponsor error in
                                      determining a participating home’s reimbursement tier (tiering error) or by FDCH error in reporting the
                                      number of meals which are eligible for reimbursement (claiming error).
                                      Two activities are underway which provide information on improper payments in the FDCH component
                                      of CACFP. A third activity was pilot tested during FY2007.
                                      • Child Care Assessment Project (CCAP)—In the Spring of 2004, FNS began the CCAP. This
                                           project was designed to measure the effectiveness of efforts to improve the integrity of CACFP
                                           family day care homes and provide information from a broadly representative national sample of
                                           sponsors and providers. Over a four year period, FNS conducted comprehensive on-site
                                           assessments of a sample of participating family day care home sponsors. These assessments were
                                           designed to analyze the effectiveness of FNS regulatory and policy initiatives on program
                                           performance. They offered insights on the control points in the claiming and reimbursement process
                                           that most frequently cause or contribute to improper payments. FNS implemented the Targeted
                                           Management Evaluation process for FY 2010 and FY 2011, in response to identified areas of
                                           management weakness. The information from this process will help to estimate CACFP erroneous
                                           payments pursuant to IPIA.
                                      • Tiering Error—FNS has developed an annual sponsor tiering error measure and tested it. CACFP
                                           sponsors are responsible for determining whether family day care homes receive meal
                                           reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). The third annual data collection was
                                           conducted to determine a nationally representative sponsor tiering determination error rate.
                                      • Claiming Error—FNS has identified two potential methods of estimating the risk of claiming error:
                                           − State data approach: Use data from State monitoring visits of FDCHs.
                                           − Sponsor data approach: Federal staff select a random sample of sponsoring organizations
                                                and from each use a random selection of the sponsor’s monitoring visits of FDCHs.
                                      Both approaches compare the number of participants observed during a monitoring visit to the average
                                      number of meals claimed for reimbursement for the meal or snack closest to the time of the visit. FNS
                                      pilot-tested both approaches in conjunction with the CCAP reviews. FNS concluded that comparing
                                      meal claims to a sponsor’s report of the number of children observed during a monitoring visit does not
                                      provide a reliable estimate of family home day care meal claiming error.




                                        Other Accompanying Information
                                                     197
      Agency         Program                                              Corrective Actions Planned
                                     FNS has contracted with Mathematica Policy Research, Inc. to evaluate the feasibility of three different
                                     data collection methods for validating FDCH meal reimbursement claims. The pretest found that parent
                                     recalls hold promise for validating whether meals claimed for children of interviewed parents are
                                     erroneous. A plan is being developed to further evaluate the use of parent-recall interviews in validating
                                     sponsor submitted meal claims for FDCHs.
FSA            Milk Income Loss      MILC improper payments were primarily attributable to administrative errors.
               Contract Program      Causes of improper payments include:
               (MILC)                • Incorrect payee share calculation;
                                     • Wetland conservation certification not on file; and
                                     • Income ineligibility.
                                     For MILC corrective actions, see the MAL section. The same corrective actions apply to this program.
FSA            Loan Deficiency       LDP improper payments were primarily attributable to administrative errors.
               Payments (LDP)        Causes of improper payments include:
                                     • Incorrect rate used to calculate payment;
                                     • Producer did not have beneficial interest in the commodity; and
                                     • Producer did not have risk in producing the crop.
                                     For LDP corrective actions, see the MAL section. The same corrective actions apply to this program.
FSA            Direct and Counter-   DCP improper payments were primarily attributable to administrative errors.
               Cyclical Payments     Causes of improper payments include:
               (DCP)                 • Payee did not have enough cropland interest to support claim;
                                     • Required signatures and/or acreage reports were not on file; and
                                     • Payment did not take into account required base acres reduction.
                                     For DCP corrective actions, see the MAL section. The same corrective actions apply to this program.
FSA            Conservation          CRP improper payments were primarily attributable to administrative and verification errors.
               Reserve Program       Causes of improper payments include:
               (CRP)                 • Cost share amount was incorrect;
                                     • Conservation reserve contract or plan of operation was not on file or missing signatures; and
                                     • Payee share calculation incorrect.
                                     For CRP corrective actions, see the MAL section. The same corrective actions apply to this program.
FSA            Miscellaneous         MDP improper payments were primarily attributable to administrative errors.
               Disaster Programs     Each fiscal year’s payment data represents different disaster response programs based on authorities
               (MDP)                 provided by legislation passed by Congress.
                                     Causes of improper payments include:
                                     • Calculated payment amount is incorrect;
                                     • Acceptable acreage report not on file; and
                                     • Application not approved and payment should not have been made.
                                     For MDP corrective actions, see the MAL section. The same corrective actions apply to this program.
FSA            Noninsured            NAP improper payments were primarily attributable to administrative errors.
               Assistance Program    Causes of improper payments include:
               (NAP)                 • Application for payment filed late;
                                     • Incorrect total production used to calculate payment;
                                     • Notice of loss filed late;
                                     • Unit yield is not properly calculated; and
                                     • Incorrect crop acreage used to calculate payment.
                                     For NAP corrective actions, see the MAL section. The same corrective actions apply to this program.
FS             Wildland Fire         FS corrective actions have significantly reduced the potential for errors. Those actions resulted in a
               Suppression           zero improper payment error rate for WFSM. FS improved controls with regard to review processes,
               Management (WFSM)     performed continuous internal monitoring of possible improper payments, centralized accounting
                                     functions, improved communications, and performed follow-up prior to payment authorization.




                                       Other Accompanying Information
                                                    198
     Agency         Program                                               Corrective Actions Planned
RD            Rental Assistance      RAP improper payments were primarily attributable to administrative and verification errors.
              Program (RAP)          Cause of improper payment include:
                                     • Insufficient file documentation; and
                                     • Borrower/agent calculation errors and number transposition.
                                     Corrective actions include:
                                     • Establish a tracking process in the Multi-Family Information System (MFIS) to monitor the number
                                       of tenant files reviewed during the property’s triennial Supervisory Visit. This process will provide
                                       the agency with additional information regarding the review of tenant files outside of the IPIA audit
                                       to help determine trends to supplement with the IPIA review. It also will provide RD with additional
                                       documentation to determine on-going compliance with the proper payment of Rental Assistance.
                                       Timeframe – Completed on April 14, 2010.
                                     • Implement a new management agent performance assessment review that will reduce
                                       management fees paid to noncompliant management agents. If performance decreases, there will
                                       be a concurrent decrease in the base management fee allowed for that year. Errors made on tenant
                                       certifications will be one of six criteria used for determining reduction in management fees paid.
                                       Timeframe – December 31, 2010; and
                                     • Continue to pursue access to the Department of Health and Human Services’ New Hires database
                                       and the Department of Housing and Urban Development’s Enterprise Income Verification System to
                                       be shared with State offices and management agents. Ongoing.
RMA           Federal Crop           Causes of improper payments include:
              Insurance              • Incorrect application of crop insurance policy requirements for prevented planting;
              Corporation Program    • Incorrect acreage reports; and
              Fund (FCIC)            • Incorrect indemnity calculations.
                                     FCIC improper payments were primarily attributable to verification errors.
                                     RMA completed the 5th year of the 3-year review cycle established to determine the improper payment
                                     rate for the Federal Crop Insurance Program. While the strategy for identifying and controlling the error
                                     rate includes identifying error trends and policy concerns and correcting them, no underlying policy or
                                     underwriting issues have become apparent. This is in part due to the diversity of crops being reviewed
                                     and suggests it may be several cycles before RMA may amass sufficient numbers of samples on any
                                     particular crop to draw meaningful comparisons in the errors identified.
                                     RMA continues to expand its strategic data acquisition and analysis efforts by incorporating additional
                                     remote sensing and geospatial analyses to its data warehousing and data mining initiative. The data
                                     warehouse was extended to include the compilation of detailed geospatial NEXRAD radar and rainfall
                                     data. The application of these data and analysis tools were then increased to include underwriting and
                                     program integrity issues throughout the program. Data mining activities continue to show significant
                                     cost avoidance savings each year by identifying and spot checking the crop insurance program most
                                     anomalous participants based on their history of filing claims. Additionally, RMA and FSA continue to
                                     work on completing the Comprehensive Information Management System. This project is designed to
                                     identify common and unique producer and crop information reported to both agencies; develop
                                     services to access the information; aid in information reconciliation; and reduce the reporting burdens
                                     of farmers, ranchers, producers, RMA, FSA, and crop insurance providers.
                                     When RMA negotiated and executed the new Standard Reinsurance Agreement (SRA) starting in
                                     2005, it emphasized improved quality controls and enhanced penalties that together should encourage
                                     participating companies who sell and service Federal crop insurance policies to improve their improper
                                     payments rate. Based on the passage of the 2008 Farm Bill, RMA will have another opportunity
                                     beginning with the 2011 reinsurance year to further adjust and improve SRA holder quality control
                                     requirements.
NRCS          Farm Security and      FSRI improper payments were primarily attributable to administrative error.
              Rural Investment Act   Causes of improper payments include:
              programs (FSRI)
                                     • Contract modification error.
                                     NRCS performs a quarterly review of open obligations. Checklists are developed to be completed
                                     during the reviews. NRCS will add specific questions to the checklist to address the documentation
                                     issues found during IPIA testing.




                                       Other Accompanying Information
                                                    199
                 IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets through FY 2012.
                                    Improper Payment Reduction Outlook FY 2010 – FY 2012


Below are summary level tables for all high risk programs outlining improper payment rates for the last two years
and future reduction targets. When a number cannot be provided, an explanation is provided in the notes below.
The tables include amounts from program sampling results. USDA programs report results the year following
sampling activity. For example, results reported during FY 2010 represent measures of FY 2009 outlays and
program activity.

                                              Improper Payment Sampling Results ($ in millions)
                                                                                 Results                            Results
                                                                            Reported in FY 2009                Reported in FY 2010
                              Program                                 Outlays       IP%            IP$    Outlays     IP%            IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #3]                   4,935      2.56%            85     4,151     0.81%         35
 Supplemental Nutrition Assistance Program, FNS [Note #6]              34,611      5.01%          1,733   50,360     4.36%       2,195
 National School Lunch Program, FNS [Note #1]
     Total Program                                                      9,436     16.44%          1,551    8,925     16.28%      1,453
     Certification Error                                                9,436      9.56%           902     8,925      9.40%       839
     Counting/Claiming Error                                            9,436      6.88%           649     8,925      6.88%       614
 School Breakfast Program, FNS [Note #1]
    Total Program                                                       2,273     24.62%          560      2,534     24.87%          630
    Certification Error                                                 2,273      8.83%          201      2,534      9.08%          230
    Counting/Claiming Error                                             2,273     15.79%          359      2,534     15.79%          400
 Women, Infants and Children, FNS [Note #2]
      Total Program                                                     4,483       N/A           N/A      6,480      N/A            N/A
      Certification Error Component                                     4,483       N/A           N/A      6,480      N/A            N/A
      Vendor Error Component                                            4,483      1.27%          57       6,480     1.17%           76
 Child and Adult Care Food Program, FNS [Note #2]
      Total Program                                                     2,214       N/A           N/A      2,461      N/A            N/A
      FDC Homes – Tiering Decisions                                      713       2.07%          15        911      0.99%            9
      FDC Homes – Meal Claims                                            713        N/A           N/A       911       N/A            N/A
 Milk Income Loss Contract Program, FSA [Note #5] [Note #3]                2        N/A           N/A       602       0.66%           5
 Loan Deficiency Payments, FSA [Note #5] [Note #3]                         6        N/A           N/A       114       0.44%          0.5
 Direct and Counter-Cyclical Payments, FSA [Note #3]                    4,948      0.42%          20       5,921      0.96%          56
 Conservation Reserve Program, FSA [Note #3]                            1,876      0.72%          11       1,814     1. 20%          24
 Miscellaneous Disaster Programs, FSA [Note #3]                         2,245      0.90%          19        108       4.60%           5
 Noninsured Assistance Program, FSA [Note #3]                             67      14.20%           8         59      11.65%           7
 Wildland Fire Suppression Management, FS                               1,016      0.00%          0.0       710       0.00%          0.0
 Rental Assistance Program, RD                                           887       2.06%            18      979      1.39%         14
 Federal Crop Insurance Corporation Program Fund, RMA [Note #4]         3,545      5.79%           205     8,680     6.05%        525
 Farm Security and Rural Investment Act programs, NRCS                  1,320      0.03%           0.0     1,505     0.41%          6
 USDA Total                                                            72,363      5.92%          4,283   93,853     5.37%       5,039




                                                Other Accompanying Information
                                                             200
                                              Detailed Breakout of Improper Payment Reported in FY 2010
                                        Total                         Over-           Under-                        Incorrect            Incomplete
                                     Payments                       Payments          Payments      Other         Disbursement           Paperwork
                                    $ in millions         IP %         %                 %           %                 %                     %
Marketing Assistance Loan
Program, FSA/CCC                       4,151          0.81%             0.81%          0.00%         N/A                0.09%              0.72%
[Note #3]
Supplemental Nutrition                 50,360         4.36%             3.53%          0.82%         N/A                4.36%
Assistance Program, FNS                                                                                                                       N/A
[Note #6]
National School Lunch
                                       8,925         16.28%             12.34%         3.94%         N/A                16.28%                N/A
Program, FNS
School Breakfast Program,
                                       2,534         24.87%             21.47%         3.40%         N/A                24.87%                N/A
FNS
Women, Infants and Children,
                                       6,480          1.17%             0.86%          0.31%         N/A                1.17%                 N/A
FNS
Child and Adult Care Food
                                        911           0.99%             0.99%          0.00%         N/A                0.99%                 N/A
Program, FNS
Milk Income Loss Contract
Program, FSA [Note #5] [Note            602           0.66%             0.41%          0.25%         N/A                0.52%              0.14%
#3]
Loan Deficiency Payments,
                                        114           0.44%             0.30%          0.14%         N/A                0.44%                 N/A
FSA [Note #5] [Note #3]
Direct and Counter-Cyclical
                                       5,921          0.96%             0.86%          0.10%         N/A                0.74%              0.22%
Payments, FSA [Note #3]
Conservation Reserve
                                       1,814          1.20%             1.08%          0.12%         N/A                0.47%              0.76%
Program, FSA [Note #3]
Miscellaneous Disaster
                                        108           4.60%             3.55%          1.05%         N/A                3.56%              1.04%
Programs, FSA [Note #3]
Noninsured Assistance
                                         59          11.65%             10.23%         1.42%         N/A                5.63%              7.20%
Program, FSA [Note #3]
Wildland Fire Suppression
                                        710           0.00%             0.00%          0.00%         N/A                0.00%              0.00%
Management, FS
Rental Assistance Program,
                                        979           1.39%             1.13%          0.26%         N/A                1.19%              0.20%
RD
Federal Crop Insurance
Corporation Program Fund,              8,680          6.05%             6.02%          0.03%         N/A                6.05%              0.00%
RMA
Farm Security and Rural
                                       1,505          0.41%             0.41%          0.00%         N/A                0.41%              0.00%
Investment Program, NRCS
USDA Total                              93,853        5.37%             4.42%          0.95%        0.00%               5.30%              0.07%


                                                  Improper Payment Reduction Outlook ($ in millions)
                                                      FY 2011 Reporting                     FY 2012 Reporting                    FY 2013 Reporting
               Program                           Outlays          IP%           IP$    Outlays     IP%           IP$       Outlays      IP%           IP$
Marketing Assistance Loan Program,
                                                  2,278          0.81%           18      127      0.81%          1          127        0.81%          1
FSA/CCC
Supplemental Nutrition Assistance
                                                 72,577          4.36%       3,164      76,030    4.36%         3,315      76,030      4.36%         3,315
Program, FNS [Note #6]
National School Lunch Program, FNS               10,061          15.82%      1,592      10,456    15.37%        1,607      10,456      14.93%        1,561




                                                    Other Accompanying Information
                                                                 201
                                             Improper Payment Reduction Outlook ($ in millions)
                                                 FY 2011 Reporting                     FY 2012 Reporting                 FY 2013 Reporting
                Program                     Outlays         IP%         IP$     Outlays        IP%          IP$   Outlays         IP%         IP$
 School Breakfast Program, FNS               2,823        24.06%        679      2,959       23.27%         689    2,959         22.52%       666
 Women, Infants and Children, FNS            7,704          0.97%       75       7,467         0.77%        58     7,467         0.57%        43
 Child and Adult Care Food Program, FNS       896           0.92%        8       908           0.87%         8     908           0.82%         7
 Milk Income Loss Contract Program, FSA       225           0.66%        1       100           0.66%        0.6    100           0.66%        0.6
 Loan Deficiency Payments, FSA                183           0.44%        1        24           0.44%        0.1     24           0.44%        0.1
 Direct and Counter-Cyclical Payments,
 FSA                                         6,223          0.40%       25       5,712         0.39%        22     5,712         0.39%        22
 Conservation Reserve Program, FSA           1,973          0.70%       14       1,958         0.69%        14     1,958         0.69%        14
 Miscellaneous Disaster Programs, FSA        1,284          0.88%       11       1,205         0.87%        10     1,205         0.87%        10
 Noninsured Assistance Program, FSA           122           5.90%        7       124           2.50%         3     124           2.50%         3
 Wildland Fire Suppression Management,
 FS                                          2,300          0.02%       0.5      2,400         0.02%        0.5    2,500         0.02%        0.5
 Rental Assistance Program, RD                999           1.35%       13       1,030         1.31%        13     1,079         1.28%        14
 Federal Crop Insurance Corporation
 Program Fund, RMA                           5,425          4.50%       244      6,000         4.40%        264    6,000         4.30%        258
 Farm Security and Rural Investment, NRCS
                                             2,172          0.15%        3       2,688         0.10%         3     2,688         0.10%         3


The chart below includes recovery of improper payments from USDA’s high risk programs. The recoveries
represent overpayment amounts identified by agency post-payment reviews and annual IPIA statistical sampling.
The prior years column includes recoveries from FY 2004 through FY 2009. As IPERA requirements are
implemented, recoveries identified from additional programs will be included in future years.

                                            FY 2010 Recovery of Improper Payments ($ in Million)
                                                                                                                  Cumulative        Cumulative
                                                                                                                   (Current &        (Current &
                                                     FY 2010         FY 2010     Prior Years      Prior Years     Prior Years)      Prior Years)
                                                    Amounts          Amounts      Amounts          Amounts          Amounts           Amounts
                Agency Source                       Identified      Recovered     Identified      Recovered         Identified      Recovered
 USDA (High Risk Programs)                             NA            310.332           NA              491.070        NA                 801.402
                                                       NA            310.332           NA              491.070        NA                 801.402
                                                       NA            310.332           NA              491.070        NA                 801.402


Note #1: Information has not been adjusted for interaction between the different sources of certification error and
counting/claiming error. Improper payment rates (School Year 2008/09) times SBP outlays (FY 2009).
Note #2: WIC and CACFP tests components of their total program. WIC currently tests and reports on the
vendor error component of the payment process. The WIC certification error component information should be
available in 2011. CACFP currently tests and reports on the FDCH tiering decision component of the payment
process. FNS continues to evaluate the measurement processes for the CACFP meal claim component. It has not
set a date for measurement and reporting.




                                                Other Accompanying Information
                                                             202
Note #3: The FY 2010 estimated improper payment dollar amounts for MAL, DCP, CRP, MDP, and NAP may
reflect variances from the relationship between the improper payment percentage and the outlays amount. These
variances result from the complex, multi-stage statistical sampling methodology developed by the contract
statistician in calculating the independent projections of the dollars/percentages in error. The variances are a
complex ratio estimate weighted with respect to the payments within their applicable county stratification. They
reflect the variability within the payment data and occur with a 90-percent confidence level. The MAL, DCP,
CRP, MDP, NAP, MILC, and LDP universe of payments for the FY 2010 was September 2008 through August
2009. The measurement period was adjusted to meet the report timeframe.
Note #4: RMA uses a three year running average to calculate the improper payment error rate. This is the fifth
year RMA has used this process to measure the improper payment error rate.
Note #5: FSA did not measure MILC and LDP for the FY 2009 IPIA review and reporting cycle since sampling
was not cost effective due to the very low outlay amounts ($2 million for MILC and $6 million for LDP). FSA
measured MILC and LDP for the FY 2010 IPIA review cycle.
Note #6: The SNAP FY 2010 improper payments error rate and estimated amount of improper payments for
payments made in FY 2009 reflect the American Recovery and Reinvestment Act of 2009 requirement to exclude
small errors of $50 and less. Future performance may be affected by the expiration of this provision. USDA and
OMB continue to evaluate SNAP improper payment targets and the targets may be adjusted in consideration of
increased need resulting in further growth in the program which has been unprecedented in the last year; State
budget constraints; and other related factors.



         V. Discussion of your Agency’s Recovery Auditing effort, if applicable, including any
       contract types excluded from review and the justification for doing so; actions taken to
        recoup improper payments, and the business changes and internal controls instituted
                                  and/or strengthened to prevent
                                          further occurrences.
                                  In addition, complete the table below.


USDA’s task order for FY 2010 recovery auditing contractor services was unexpectedly cancelled. Alternatively,
the FY 2010 columns in the following chart reflect the agency identified and recovered amounts through post-
payment reviews, contract close-outs, or notification by vendors. USDA is in the process of establishing a
replacement contract for recovery auditing services that will align its recovery program with the requirements of
the recent Improper Payments Elimination and Recovery Act of 2010 and the Presidential Memorandum titled
“Finding and Recapturing Improper Payments.”




                                      Other Accompanying Information
                                                   203
                                    FY 2010 Results for Recovery Auditing of Contracts ($ in Million)
                                                                                                            Cumulative
                 Amount        Actual        FY 2010                                                         (Current &     Cumulative
                Subject to    Amount        Amounts                         Prior Years                     Prior Years)     (Current &
                Review for   Reviewed       Identified      FY 2010          Amounts         Prior Years      Amounts       Prior Years)
   Agency        FY 2010        and            for          Amounts        Identified for     Amounts      Identified for     Amounts
  Component     Reporting    Reported       Recovery       Recovered         Recovery        Recovered        Recovery      Recovered
 Forest
                 480.800      0.709           0.709           0.585            0.684            0.684         1.393             1.269
 Service
 Natural
 Resources
                   NA          NA             0.000           0.000            0.026            0.026          0.026            0.026
 Conservation
 Service
 Agricultural
 Research          NA         0.051           0.051           0.000            0.059            0.059          0.110            0.059
 Service
 Animal and
 Plant Health
                 160.200     157.822          0.000           0.000            0.395            0.395          0.395            0.395
 Inspection
 Service*
 Farm Service
                   NA          NA             0.000           0.000            0.047            0.047          0.047            0.047
 Agency
 Food Safety
 and
                   NA          NA            0.000           0.000             0.000            0.000          0.000            0.000
 Inspection
 Service
 Rural
                   NA         0.004          0.000           0.004             0.000            0.000          0.000            0.004
 Development
 Agricultural
 Marketing        2.200        NA             0.000           0.000            0.002            0.002          0.002            0.002
 Service
 All Others         NA          NA             N/A             N/A              N/A             N/A             N/A             N/A
 USDA Total        NA          NA             0.760           0.589            1.213            1.213           1.973            1.802




           VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that
            agency managers (including the agency head) are held accountable for reducing and recovering
                                                 improper payments.


FSA
The following are steps taken to ensure agency managers are held accountable for reducing and recovering
improper payments:
• FSA has a performance management program designed to improve individual and organizational effectiveness
  in accomplishing its mission and goals. This program provides for improper payments to be included in the
  State Executive Directors Performance Plan, element 5 titled “Program Management”;
• National and State Office (STO) managers are held accountable for ensuring that program policies and
  procedures are provided to the STO and COF employees accurately and on a timely basis. National office


                                            Other Accompanying Information
                                                         204
     managers are also held accountable, as reflected in the performance based rating measures, for overall program
     administration at the National level. FSA employees’ performance elements are directly related to FSA’s
     Strategic Plan;
•    COF employees, including the County Executive Director, are responsible for making payments to producers
     and following all administrative steps in doing so. Employees will be evaluated on program delivery
     compliance with regulations, policies, and procedures through their performance plans;
•    The Deputy Administrator of Field Operations will facilitate meetings with the program areas to discuss any
     additional action necessary for senior management to address accountability;
•    Employees at all levels of the agency will be held accountable for efficient and accurate delivery of all FSA
     programs; and
•    FSA’s Strategic Plan for 2005-2011 established a performance measure to help ensure payments are accurate
     and complete. The performance measure, “Maintain or Increase the Percentage of Proper Payments,” is
     identified in FSA’s crosscutting management objective, “Strategically Managing Human Capital.”
FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific goals applicable to
programs at high risk for erroneous payments. The goal for the SNAP, WIC, and CACFP is to reduce the error
rates by continued management improvements. The goal of the NSLP and SBP is to improve the accuracy of
school administration processes that certify children for school meals. The agency goals and priorities are
incorporated into each manager’s performance plan.
FS
The FS Albuquerque Service Center management team is held accountable by performance metrics that include
IPIA compliance. Additionally, the agency chief financial officer will provide disbursement performance
information to the agency head as part of the performance appraisals for senior leadership.
RD
RD State Offices with improper payment errors develop a corrective action plan. The plan includes procedures to
train field staff, borrowers and property manager in appropriate required documentation and follow-up with
tenants and income-verifiers.
RMA
RMA revised its strategic plan to provide results to enhance accountability. It also has established procedures to
ensure RMA management takes future corrective actions to address program vulnerabilities. Additionally, every
employee’s performance plan agreement has contained a position-corresponding strategic objective element since
FY 2005.
NRCS
NRCS incorporated IPIA goals and objectives in the performance standards for all senior executive service
positions. These also have been included in the regional assistant chiefs and State conservationist performance
plans.




                                        Other Accompanying Information
                                                     205
         VII A. Describe whether the agency has the information systems and other infrastructure it needs to
                          reduce improper payments to the levels the agency has targeted.
            VII B. If the agency does not have such systems and infrastructure, describe the resources the
                     agency requested in its FY 2009 budget submission to Congress to obtain the
                                  necessary information systems and infrastructure.

While USDA is creating information systems and infrastructure to reduce improper payments, especially for
programs susceptible to significant risk, efforts in some programs are constrained by limited resources. The
Department has worked closely with OMB to develop action plans that focus available resources on the most
critical needs with regard to improper payment measurement and risk reduction.



        VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in
           reducing improper payments and actions taken by the agency to mitigate the barriers’ effects.



FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281, provides that “[E]ach decision of a
State, county, or area committee or an employee of such a committee, made in good faith in the absence of
misrepresentation, false statement, fraud, or willful misconduct shall be final not later than 90 calendar days after
the date of filing of the application for benefits, [and] ...no action may be taken...to recover amounts found to
have been disbursed as a result of the decision in error unless the participant had reason to believe that the
decision was erroneous.” This statute commonly is referred to the “Finality Rule.”
FNS
Recent child nutrition reauthorization legislation, while it included some changes requested by the
Administration to improve accountability, limited USDA’s ability to act in this area because of concerns about
potential barriers to participation. In many instances, the mandated goal of providing easy access to benefits must
be balanced against the goal of reducing improper and erroneous payments. In addition, program administration
is highly decentralized, involving a myriad of governmental and non-governmental organizations. There are
approximately 100,000 school meal locations at which benefits are provided. Many of these benefit providers
simply do not have the capacity to develop robust accountability processes. For these reasons, any approach to
reducing school meals improper payments must:
• Improve accuracy without compromising access for low-income families. A process that keeps eligible children from
    participating would undermine the program;
• Not unduly increase burden on schools. Many schools consider the program burdensome now. Adding burden
    could discourage schools from participating.
• Be cost-effective. Improving accuracy is potentially resource-intensive. Policymakers must not create a process
    that increases net program costs; and




                                       Other Accompanying Information
                                                    206
• Answer the needs of other users of program data, which often use certification data to distribute millions of dollars
     in other kinds of benefits to schools. As these needs contribute to the problem, a solution may also require new
     commitments from those users.
RD
The RD program does not have the statutory authority, similar to the Department of Housing and Urban
Development, to gain access to data from the Department of Health and Human Services, Internal Revenue
Service, Social Security Administration, and the Department of Labor to be shared with field offices and
management agents.
NRCS
Verification of eligibility will be an ongoing challenge for NRCS. It would be advantageous for NRCS to
determine adjusted gross income eligibility on current and future Farm Security and Rural Investment Act
programs (Farm Bill) participants by coordinating with the Internal Revenue Service (IRS). For long-term
contracts, the IRS requirement for participants to maintain tax records expires prior to the expiration of the Farm
Bill contracts, limiting the ability to independently verify eligibility.


        IX. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
                                    challenges as a result of IPIA implementation.


USDA has no additional comments.




                                        Other Accompanying Information
                                                     207
Appendix C—Inspector General Act Amendments of 1988: Management’s Report on Audit
Follow-Up
Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up
BACKGROUND
The Office of Inspector General (OIG) audits USDA’s programs, systems, and operations. OIG then
recommends improvements to management based on its findings. U.S. Department of Agriculture (USDA)
management may agree or disagree with the audit’s findings or recommendations. An agreement is reached
during the management-decision process. If management agrees with a recommendation, a written plan for
corrective action with a target completion date is developed. The plan is then submitted to OIG for concurrence.
If both OIG and management agree that the proposed corrective action will correct the weakness, management
decision is achieved for that recommendation.
Audit follow-up ensures that prompt and responsive action is taken. USDA’s Office of the Chief Financial
Officer (OCFO) oversees audit follow-up for the Department. An audit remains open until all corrective actions
for each recommendation are completed. As agencies complete planned corrective actions and submit closure
documentation, OCFO reviews it for sufficiency and determines if final action is completed.
FY 2010 Results
Exhibit 1:     Decrease in Total Open Audit Inventory                                               USDA agencies closed 59 audits in Fiscal Year
                                                                                                    (FY) 2010. OIG and USDA agencies reached
                                                                                                    management decision on 29 audits during the
                                                                                                    year. One audit is in appeal status. As shown in
                                                                                                    Exhibit 1, the Department reduced its
                                                                                                    inventory of open audits in FY 2010 by 22
                                                                                                    percent from 135 to 105.
                                                                                                    Audit Follow-Up Process
                                                                                                    The Inspector General Act Amendments of
                                                                                                    1988 require an annual report to Congress
                                                                                                    providing the status of resolved audits that
Note: The FY 2009 ending balance was revised from 127 to 135 to include 8 audits that were
                                                                                                    remain open. Reports on resolved audits must
transmitted from the Office of Inspector General after the reporting period. These adjustments      include the elements listed in the
are also reflected in the beginning balances for audits with disallowed costs and funds to be put   accompanying bullets:
to better use shown in Exhibit 3 and Exhibit 5.


•     Beginning and ending balances for the number of audit reports and dollar value of disallowed costs and funds
      to be put to better use (see definitions below);
•     The number of new management decisions reached;
•     The disposition of audits with final action (see definition below);
•     Resolved audits that remain open 1 year or more past the management decision date require an additional
      reporting element; and
•     The date issued, dollar value, and an explanation of why final action has not been taken.




                                                           Other Accompanying Information
                                                                        208
Exhibit 2:      Audit Follow-Up Definitions

        Term                                                                              Definition
 Disallowed Cost        An incurred cost questioned by OIG that management has agreed should not be chargeable to the Government.
 Final Action           To complete all actions that management has agreed will address the audit findings and recommendations.
 Funds To Be Put        An OIG recommendation that funds could be used more efficiently if management completes the recommendation, including:
 to Better Use          • Reductions in outlays or other savings;
                        • De-obligation of funds from programs or operation or withdrawal of subsidy costs on loans, guarantees or bonds; and
                        • Implementing recommended improvements for grants or contracts or unnecessary expenditures noted in pre-award reviews of
                           contract or grant agreements.
 Management             Agreement between management and OIG on corrective action needed to address audit findings and recommendations.
 Decision


Beginning and Ending Inventory for Audits with Disallowed Costs and Funds to Be Put to Better Use1
 Exhibit 3:      Inventory of Audits with Disallowed Costs 5                             Exhibit 4:     Distribution of Adjustments to DC

  Audits with Disallowed Costs (DC)             # of Audits      Amount ($)                               Category                                     Amount ($)
 Beginning of the Period                             42           73,482,218             Legal Decision                                                   935,039
    Plus: New Management Decisions                    4            6,773,158             Write-Offs                                                       124,418
    Total Audits Pending Collection of               46           80,255,376             Change in Management Decision                                  8,774,405
    DC
    Adjustments                                                     30,253,805           Agency Documentation                                          20,358,095
    Revised Subtotal                                                50,001,571           Agency Discovery                                                  61,848
    Less: Final Actions (Recoveries)*                14                747,749           Total                                                        $30,253,805
 Audits with DC Requiring Final Action                32          $49,253,822
 at the End of the Period


                             Exhibit 5: Inventory of Audits with Funds To Be Put to Better Use1

                                Audits with Funds to be Put to Better Use                  # of
                                                (FTBU)                                    Audits                  Amount ($)
                             Beginning of the Period                                        15              $505,269,671
                                   Plus: New Management Decisions                            5                 43,588,709
                                   Total Audits Pending                                     20                548,858,380
                                   Less: Final Actions                                       4                  6,389,749
                             Audits with FTBU Requiring Final Action at the                 16              $542,468,631
                             End of the Period
                             Disposition of FTBU:
                             FTBU Implemented                                                                   6,389,749
                             FTBU Not Implemented                                                                         0
                             Total FTBU Amounts for Final Action Audits                                        $6,389,749


Of the 59 audits that achieved final action during the fiscal year, 14 contained Disallowed Costs (DC). The
number of DC audits remaining in the inventory at the end of the fiscal year is 32 with a monetary value of
$49,253,822.



5
  Exhibit 3 and Exhibit 5 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain both DC and FTBU amounts. For these reasons,
the number of audits shown as the ending balances in Exhibit 3 and Exhibit 5 does not equal the total resolved audit inventory balance in Exhibit 1.


                                                           Other Accompanying Information
                                                                        209
For audits with disallowed costs that achieved final action in FY 2010, OIG and management agreed to collect
$31,001,554. Adjustments were made totaling $30,253,805 (98 percent of the total) because of: 1) legal decisions;
2) write-offs; 3) USDA agencies’ ability to provide sufficient documentation to substantiate disallowed costs; and
4) agency discovery. Management recovered the remaining $747,749.
Final action occurred on four audits that involved Funds to Be Put to Better Use (FTBU) amounts. The number
of FTBU audits remaining in the inventory to date is 16 with a monetary value of $542,468,631.
Exhibit 6: Decrease in the Number of Audits Open One or More Years Past the Management Decision Date

                                                                     The numbers of audits open 1 or more years without final action
     Audits one Year or More Past
   (Management Decision Date) MDD                  # of Audits       in FY 2010 decreased from 98 to 60 audits, a 39-percent
Beginning of the period                                 98
                                                                     decrease. During the year, an additional 23 audits turned 1 year
                                                                     past Management Decision Date (MDD) for a balance of 83
      Less: FY 2009 audits closed                       37
                                                                     audits. USDA agencies continue to pursue compensating controls
       Audit in appeal                                   1
                                                                     that address many of the underlying issues identified in these
Subtotal FY 2009 Audits one year or more                60
past MD                                                              older audits.
      Plus: Audits that turned one year                 23           Agencies have completed all planned corrective actions on 20
      during FY 2010                                                 audits that are pending collection of associated disallowed costs.
                                                                     Audits without final action 1 year or more past the MDD and
End of the Period (audit in appeal not                  83           behind schedule are listed individually in the table that follows.
listed in Exhibit below)                                             They are categorized by the reason final action has not occurred.
                                                                     More detailed information on audits on schedule and audits
under collection is available from OCFO.
Exhibit 7:   Distribution of Audits Open 1 Year or More Past the MDD

                              Audits On Schedule                          Audits Behind Schedule                        Audits Under Collection
         Agency       No.           DC ($)        FTBU ($)          No.        DC ($)            FTBU ($)         No.        DC ($)         FTBU ($)
         Totals           2     $204,174                0           60      $30,988,245     $497,670,263          20      $11,295,720      $1,209,659



Management’s Report on Audit Follow-Up
Exhibit 8:   Audits Open 1 Year or More Past the MDD and Behind Schedule

                                          Revised                                                                                    Monetary Amount
                           Date          Completion
      Audits              Issued           Date                                    Audit Title                                 DC$                FTBU$
 (34) Pending issuance of policy/guidance and legislation
 02601-1-CH               9/30/05            10/30/10        Agricultural Research Service Adequacy of Controls to               -                  -
                                                             Prevent the Improper Transfer of Sensitive Technology
 03099-198-KC             8/22/08            2/15/11         Farm Service Agency Inspection of Temporary Domestic                -                  -
                                                             Storage Sites for Foreign Food Assistance
 03601-11-AT              11/17/05           3/31/11         Farm Service Agency Minority Participation in Farm                  -                  -
                                                             Service Agency’s Programs
 03601-17-CH              9/29/08            3/31/11         Farm Service Agency Controls Over Guaranteed Farm                   -                  -
                                                             Loan Interest Rates and Interest Assistance
 04099-339-AT             3/23/05            12/31/10        Rural Development, Rural Housing Service Subsidy                    -                  -
                                                             Payment Accuracy in Multi-Family Housing Program




                                                        Other Accompanying Information
                                                                     210
                          Revised                                                                           Monetary Amount
               Date      Completion
    Audits    Issued       Date                                Audit Title                            DC$              FTBU$
04601-17-CH    7/2/09     2/28/11       Rural Development, Rural Housing Service Controls Over          -                 -
                                        Lender Activities in the Single Family Housing
                                        Guaranteed Loan Program
05601-4-KC     3/4/09     9/30/11       Risk Management Agency Use of the National Agriculture          -            $70,000,000
                                        Statistics Service County Average Yields for the Group
                                        Risk Protection Plans of Insurance
08001-1-AT    4/19/07     10/30/10      Forest Service (FS) Implementation of the Capital               -                 -
                                        Improvement Program
08601-2-HY    12/22/06    12/31/10      FS Follow up on Recommendations Made on the                     -                 -
                                        Maintenance of Forest Service Infrastructure
08601-30-SF   3/31/03     12/31/10      FS Review of Security Over                                      -                 -
                                        Explosives/Munitions/Magazines Located Within the
                                        National Forest System
08601-44-SF   12/7/06     12/31/10      FS Large Fire Suppression Cost                                  -                 -
08601-45-SF    8/8/06     12/31/10      FS Follow-up Review of FS Security Over                         -                 -
                                        Explosives/Munitions Magazines Located within the
                                        National Forest System
08601-52-SF   8/22/08     12/31/10      FS Renewable Energy Program                                     -                 -
09601-4-TE    9/30/05     3/30/11       Rural Development, Rural Utilities Service Broadband       $25,614,279       $308,063,204
                                        Grant and Loan Programs
09601-8-TE    3/31/09     3/30/11       Rural Development, Rural Utilities Service Broadband            -                 -
                                        Grant and Loan Guartanteed Program
10401-2-FM    11/13/08    9/30/13       Natural Resources Conservation Service Financial                -                 -
                                        Statements for FY 2008
24501-1-FM    11/24/04    10/31/10      Food Safety and Inspection Service Application Controls         -                 -
                                        Performance Based Inspection Service System
24601-1-CH    6/21/00     3/31/11       Food Safety and Inspection Service Laboratory Testing of        -                 -
                                        Meat and Poultry Products
24601-2-KC    9/30/03     10/31/10      Food Safety and Inspection Service Oversight of                 -                 -
                                        Production Process and Recall at ConAgra Plant
24601-5-AT    6/24/05     10/30/10      Food Safety and Inspection Service Hazard Analysis and          -                 -
                                        Critical Control Point Implementation at Very Small
                                        Plants.
24601-7-KC    11/28/08    10/31/10      Food Safety and Inspection Service Evaluation of FSIS           -                 -
                                        Management Controls over Pre-Slaughter Activities
27099-49-TE   3/10/08     11/30/11      Disaster Food Stamp Program for Hurricanes Katrina and          -                 -
                                        Rita, Louisiana, Mississippi and Texas
27601-3-CH    3/22/96     12/31/10      Food and Nutrition Service Food Stamp Program                   -                 -
                                        Disqualified Recipient System
33601-3-CH    2/20/03     6/30/12       Animal and Plant Health Inspection Service Safeguards to        -                 -
                                        Prevent Entry of Prohibited Pests and Diseases into the
                                        United States
33601-7-CH    8/14/07     6/30/12       Animal and Plant Health Inspection Service Review of            -                 -
                                        Customs and Border Protection Inspection Activities
34099-2-AT    9/14/01     9/30/12       Rural Development Rural Business-Cooperative Service       $4,052,351             -
                                        Business and Industry Loan Program, OMNIVEST
                                        Resources, Inc. – Fort Gaines, Georgia
34601-4-AT    1/10/03     7/31/12       Rural Development, Rural Business-Cooperative Service           -                 -
                                        Lender Servicing of Business and Industry Guaranteed
                                        Loans in Georgia



                                      Other Accompanying Information
                                                   211
                                   Revised                                                                           Monetary Amount
                      Date        Completion
     Audits          Issued         Date                                 Audit Title                           DC$              FTBU$
34601-15-TE          9/30/03        12/31/10      Rural Development, Rural Business-Cooperative Service          -                 -
                                                  National Report on the Business and Industry Loan
                                                  Program
50401-65-FM          11/14/08       9/30/11       Office of the Chief Financial Officer USDA Consolidated        -                 -
                                                  Financial Statements FY 2007 and FY 2006
50601-8-TE           1/28/05        9/30/12       Animal and Plant Health Inspection Service Controls Over       -                 -
                                                  Issuance of Genetically Engineered Organism Release
                                                  Permits
50601-10-AT           3/8/04        5/30/11       Agricultural Research Service Follow-up Report on the          -                 -
                                                  Security of Biological Agents at U.S. Department of
                                                  Agriculture Laboratories
50601-14-TE          2/20/09        10/30/10      Research Education and Economics USDA’s Role in the            -                 -
                                                  Export of Genetically Engineered Agricultural
                                                  Commodities
50601-17-TE          12/12/08       10/30/10      Research Education and Economics Control over                  -                 -
                                                  Importation of Transgenic Plant and Animals
50801-12-AT           9/9/02        10/30/10      Departmental Management Management of Hazardous                -             $1,813,809
                                                  Materials Management Funds
(9) Pending completion of IT system security weaknesses, systems development, implementation, or enhancement
04601-14-CH          3/20/07        10/31/10      Rural Development, Rural Housing Service Improper              -                 -
                                                  Payments - Monitoring the Progress of Corrective Action
                                                  for High-Risk Programs in Rural Housing Service
04801-6-KC           12/18/00       10/31/10      Rural Development, Rural Housing Service Rural Rental      $1,029,999         $9,000
                                                  Housing Program Insurance Expenses, Phase I
05600-1-TE           9/28/89        10/30/10      Risk Management Agency Crop Year 1988 Insurance                -                 -
                                                  Contracts with Claims
06401-17-FM          11/5/04        12/30/12      Commodity Credit Corporation’s Financial Statements for        -                 -
                                                  Fiscal Years 2004 and 2003
24601-3-CH           9/30/04        10/31/10      Food Safety and Inspection Service Review of the Food          -                 -
                                                  Safety Information Systems
24601-7-HY           9/28/06        10/31/10      Food Safety and Inspection Service Issues Impacting the        -                 -
                                                  Development of Risk-Based Inspection at Meat and
                                                  Poultry Processing Establishments
24601-8-CH           8/23/07        10/31/10      Food Safety and Inspection Service Egg Products                -                 -
                                                  Processing Inspection
24601-8-HY           8/24/08        10/31/10      Food Safety and Inspection Service Followup Review of          -                 -
                                                  Food Safety and Inspection Service’s Controls Over
                                                  Imported Meat and Poultry Products
33601-1-HY           2/14/05        10/31/10      Food Safety and Inspection Service Oversight of the            -                 -
                                                  Importation of Beef Products from Canada
(5) Pending results of internal monitoring or program review
04099-212-TE         8/25/09        12/31/10      Rural Development, Rural Housing Service Multi – Family        -                 -
                                                  Housing Loans in Texas
05099-109-KC         1/27/05        12/31/10      Risk Management Agency Renegotiation of the Standard           -                 -
                                                  Reinsurance Agreement
08401-9-FM           11/13/08       10/30/10      Forest Service Audit of Fiscal Year 2009 Financial             -                 -
                                                  Statements
27601-32-CH          9/28/04        6/30/11       Food and Nutrition Service Compliance with Improper            -                 -
                                                  Payments Reporting Requirements




                                               Other Accompanying Information
                                                            212
                                     Revised                                                                            Monetary Amount
                       Date         Completion
     Audits           Issued          Date                                Audit Title                             DC$              FTBU$
85401-15-FM           11/7/08         11/30/10     Rural Development's Financial Statements for Fiscal              -                 -
                                                   Years 2008 and 2007
(2) Conclusion of external action
08601-51-SF           8/5/08           1/31/11     Forest Service Controls over Documenting and Reporting           -            $116,827,492
                                                   Its Hurricane Relief Expenditures to FEMA
50601-6-TE            3/4/04          12/30/10     Agricultural Research Service Controls Over Plant Variety        -                 -
                                                   Protection and Germplasm Storage
(3) Pending results of request for change in management decision
04801-3-KC            3/31/99         10/30/10     Rural Development, Rural Housing Service Rural Rental        $146,690           $85,516
                                                   Housing Program Bosley Management, Incorporated –
                                                   Sheridan, Wyoming
08401-8-FM           11/15/07          11/1/10     Forest Service Financial Statements for FY 2007 and              -                 -
                                                   2006
11099-44-FM         12/14/06        10/30/10       Departmental Management Purchase Card Management                 -                 -
                                                   System Controls Need Strengthening
(1) Pending Office of General Counsel (OGC) or OIG advice
04601-15-CH           3/30/07      12/31/10      Rural Development, Rural Housing Service Controls over             -             $388,842
                                                 Single Family Housing Funds Provided for Hurricane
                                                 Relief Efforts
(6) Pending administrative action
06401-15-FM          12/26/02         12/30/12     Commodity Credit Corporation’s Financial Statements for          -                 -
                                                   FY 2002
06401-20-FM           11/9/05         12/30/12     Commodity Credit Corporation’s Financial Statements for          -                 -
                                                   FY 2005 and 2004
07016-1-AT            3/15/06         10/30/10     Foreign Agricultural Service Private Voluntary               $144,923              -
                                                   Organization Grant Fund Accountability
07601-2-HY            7/22/08         10/30/10     Foreign Agricultural Service Export Credit Guarantee             -                 -
                                                   Program
13001-3-TE            8/16/04         11/30/10     Cooperative State Research, Education, and Extension            $3             $482,400
                                                   Service Implementation of Agricultural Research,
                                                   Extension and Education Reform Act of 1998
50099-11-HY           3/31/05         10/30/10     Research Education and Economics Implementation of               -                 -
                                                   Federal Research Misconduct Policy in the U.S.
                                                   Department of Agriculture
Total Number Audits (60)                           Total                                                       $30,988,245      $497,670,263




                                                 Other Accompanying Information
                                                              213
Appendix D—Acronyms

    A
    ACRE – Average Crop Revenue Election                                 ARRA – American Reinvestment and Recovery Act
    AGRM – Arkansas Global Rice Model                                    AWEP – Agricultural Water Enhancement Program
    APEC – Access, Participation, Eligibility, and Certification Study

    B
    B&I – Business and Industry Guaranteed Loan Program                  BSE – Bovine Spongiform Encephalopathy
    BMI – Body Mass Index

    C
    CACFP – Child and Adult Care Food Program                            CPAP – Community Programs Application Processing
    CBWI – Chesapeake Bay Watershed                                      CPI – Counterpart International
    CCAP – Child Care Assessment Project                                 CRE – Coordinated Review Effort
    CDC – United States Centers for Disease Control                      CRP – Conservation Reserve Program
    CEAP – Conservation Effects Assessment Project                       CStP – Conservation Security Program
    CF – Community Facilities                                            CSU – Colorado State University
    CNMP – Comprehensive Nutrient Management Plan                        CTA – Conservation Technical Assistance Program
    CNPP – Center for Nutrition Policy and Promotion                     CWPP – Community Wildlife Protection Program
    CNR – Child Nutrition and WIC Reauthorization Act of 2004

    D
    DC – Disallowed Costs                                                DNA – Deoxyribonucleic Acid
    DCP – Direct and Counter-cyclical Program                            DOI – United States Department of the Interior
    DDA – Doha Development Agenda

    E
    EAB – Emerald Ash Borer                                              EO – Executive Order
    EBT – Electronic Benefits Transfer                                   EQIP – Environmental Quality Incentives Program
    EFNEP – The Expanded Food and Nutrition Education Program            EU – European Union
    EGVM – European grapevine moth                                       ExCEED – Extension Community Economic and Entrepreneurial
    EIAO – Enforcement, Investigations, and Analysis Officers            Development Program

    F
    FAFH – Food Away From Home                                           FSRI – Farm Security and Rural Investment Act
    FCIC – Federal Crop Insurance Corporation                            FSWG – Food Safety Working Group
    FDCH – Family Day Care Homes                                         FTBU – Funds to Be Put to Better Use
    FLP – Farm Loan Program                                              FTF – Feed the Future
    FPA – Fire Program Analysis                                          FWP – Farmable Wetlands Program
    FRCC – Fire Regime Condition Class                                   FWS – U.S. Fish and Wildlife Service
    FRIS – Farm and Ranch Irrigation Survey                              FY – Fiscal Year
    FRPP – The Farm and Ranch Protection Program

    G
    GAO – United States Government Accountability Office                 GLS – Guaranteed Loan System
    GCFI – Gross Cash Farm Income                                        GM – Genetically Modified
    GE – Genetically Engineered                                          GPRA – Government Performance and Results Act of 1993



                                                Other Accompanying Information
                                                             214
H
HACCP – Hazard Analysis and Critical Control Points           HSI – Habitat Suitability Indices
HEI – Healthy Eating Index

I
IPERA – Improper Payments Elimination and Recovery Act        IPM – Integrated Pest Management
IPIA – Improper Payments Information Act                      IVT – Intensified Verification Testing

L
LDP – Loan Deficiency Payments                                Lm – Listeria monocytogenes
LEA – Local Education Agency

M
MDD – Management Decision Date                                MILC – Milk Income Loss Contract Program
MDP – Miscellaneous Disaster Program                          MRL – Maximum Residue Limits
MFIS – Multi-Family Information System

N
NAHLN – National Animal Health Laboratory Network             NORS – National Outbreak Reporting System
NAP – Noninsured Assistance Program                           NPDN – National Plant Diagnostic Network
NDB – National Data Bank                                      NPGS – National Plant Germplasm System
NEPA – National Environmental Policy Act                      NSLP – National School Lunch Program

O
OCFO – The Office of the Chief Financial Officer              OMB – The United States Office of Management and Budget

P
P&S – Packers and Stockyards                                  PCR – Polymerase Chain Reaction
PAR – Performance and Accountability Report                   PFGE – Pulse-field Gel Electrophoresis

Q
QC – Quality Control

R
RAP – Rental Assistance Program                               RULSS – Rural Utilities Loan Servicing System
RORA – Regional Office Review of Applications                 RUS – Rural Utilities Service
RTE – Ready-to-Eat

S
SARE – Sustainable Agricultural Research and Education        SPS – Sanitary/Phytosanitary
SBP – School Breakfast Program                                SRA – Standard Reinsurance Agreement
SIP – Salmonella Initiative Program                           STO – State Office
SNAP – Supplemental Nutrition Assistance Program              SY – School Year

T
TANF – Temporary Assistance for Needy Families                TEFAP – The Emergency Food Assistance Program
TBT – Technical Barrier to Trade                              TPP – Trans-Pacific Partnership

U
USDA – The United States Department of Agriculture            USTR – Office of the U.S. Trade Representative




                                          Other Accompanying Information
                                                       215
V
n/a

W
WEP – Water and Environmental Programs                            WRP – Wetlands Reserve Program
WEPS – Wind Erosion Prediction System                             WTO – World Trade Organization
WFSP – Wildland Fire Suppression Management                       WUI – Wildland Urban Interface
WIC – Special Supplemental Nutrition Program for Women, Infants
and Children




                                        Other Accompanying Information
                                                     216
Other Accompanying Information
             217
